App. 1
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
-----------------------------------------------------------------------

No. 18-3084
-----------------------------------------------------------------------

In re Nuverra Environmental Solutions, Inc.,
a/k/a Heckmann Corporation
a/k/a Rough Rider Escrow, Inc., et al.,
Debtor
David Hargreaves,
Appellant.
-----------------------------------------------------------------------

On Appeal from the United States District Court
for the District of Delaware
(D.C. No. 1:17-cv-01024)
District Judge: Hon. Richard G. Andrews
-----------------------------------------------------------------------

Argued
November 17, 2020
Before: JORDAN, KRAUSE, and RESTREPO,
Circuit Judges
(Filed: January 6, 2021)
-----------------------------------------------------------------------

James H. Millar
Clay J. Pierce [ARGUED]
Faegre Drinker Biddle & Reath
1177 Avenue of the Americas

App. 2
41st Floor
New York, NY 10036
Counsel for Appellant
Jamie L. Chapman
Kenneth J. Enos
Pauline K. Morgan
Young Conaway Stargatt & Taylor
1000 North King Street
Wilmington, DE 19801
Sara Coelho
Fredric Sosnick [ARGUED]
Shearman & Sterling
599 Lexington Avenue
New York, NY 10022
Counsel for Appellees
-----------------------------------------------------------------------

OPINION*
-----------------------------------------------------------------------

JORDAN, Circuit Judge.
David Hargreaves objected to the reorganization
plan for Nuverra Environmental Solutions, Inc. and
its affiliated reorganized debtors (collectively, the
“Reorganized Debtors” or, prior to the effective date of
their plan of reorganization, the “Debtors”), arguing
that there was unfair discrimination between classes
of creditors, but the District Court rejected his arguments when he appealed to that Court. He now
appeals to us. We conclude that the District Court
* This disposition is not an opinion of the full court and,
pursuant to I.O.P. 5.7, does not constitute binding precedent.

App. 3
correctly determined that Hargreaves’s appeal is
equitably moot. The relief he seeks, a personal payout,
is disallowed by the Bankruptcy Code, and any other
form of relief would require unwinding the confirmed
plan.
I.

BACKGROUND

This dispute arises out of the Debtors’ reorganization plan (the “Plan”) under Chapter 11 of the
Bankruptcy Code. They petitioned for Chapter 11
relief on May 1, 2017 and proposed a prepackaged plan
of reorganization. Following amendments, the Plan
was filed on June 23, 2017. Certain secured creditors
supported the Plan (the “Supporting Creditors”),
holding 86% of the $356 million secured 2021 notes
(the “2021 Secured Notes”), an $80 million term loan
facility, and a $12.5 million post-petition debtor-inpossession (“DIP”) credit facility. The Debtors’ enterprise value at confirmation was approximately $302.5
million, while the total secured indebtedness was
approximately $500 million. As ultimately negotiated,
the Plan involved holders of the 2021 Secured Notes
receiving equity, recovering up to approximately
54.5% on their secured claims, and losing $190 million
in deficiency claims related to their notes. It also
converted the Supporting Creditors’ prepetition term
loans and DIP credit facility into discounted equity.
On a more detailed level, the Plan consisted of
three parts, with classes A1-12 associated with a joint
plan for a subset of the Debtors, the “Nuverra Group

App. 4
Debtors,” and classes B1-10 and C1-10 associated with
individualized plans for two debtors, Appalachian
Water Services, LLC and Badlands Power Fuels, LLC
(DE).1 Hargreaves is a member of Class A6, which
includes holders of unsecured 2018 Notes issued by
Nuverra Group Debtors in the amount of $40,436,000.
Hargreaves holds $450,000 of such notes. The Plan
provided A6 creditors with securities and cash equal
to six percent of the face value of their notes. Nearly
80% of voting Class A6 noteholders voted in favor of
confirmation, but, by value of ownership stakes, 61% of
Class A6 voted against confirmation.
In contrast to the treatment of Class A6, Class A7,
which includes “certain trade and other creditors,
whose debts arise out of the debtor’s day to day
operations, [ ] receive[d] payment in full.” (JA0085.)
The parties characterize this payment to Class A7 as a
“gift” to be paid by secured creditors. It is considered a
gift because, as the Bankruptcy Court explained, the
unsecured creditors “sit behind over $500 million
dollars of secured debt in the company that has an
uncontroverted value of approximately $300 million
dollars[,]” but, “[a]s part of the negotiated plan, certain
trade and other creditors . . . receiv[e] value that
would, otherwise, inure to the benefit of the secured
creditors who will own the debtors’ post emergence.”
(JA0085.) The Bankruptcy Court approved of this
“payment in full” because “the debtors clearly explain
1

The “Nuverra Group Debtors” consist of 12 entities, which
include all Debtors except Appalachian Water Services, LLC and
Badlands Power Fuels, LLC (DE).

App. 5
that separate classification is necessary to maintain
ongoing business relationships that the debtors need
to ensure the continuance of operations.” (JA0087.)
Hargreaves filed an objection to the Plan on the
grounds that “it engages in improper classification of
claims and unfair discrimination among claims of
equal rank” (JA1345), and he asked that the Plan not
be confirmed. The Bankruptcy Court held a hearing
to consider confirmation, at which point there was
discussion of Class A7 receiving payment in full. The
Bankruptcy Court confirmed the Plan over Hargreaves’s objection, holding that, “despite the disparate
treatment between [C]lass A6 and other unsecured
creditors, there is no unfair discrimination here
where the gift by secured creditors to other unsecured
creditors constitutes no unfair discrimination as
[C]lass A6 is indisputably out of the money and not,
otherwise, entitled to any distribution under the
Bankruptcy Code’s priority scheme and provided
further that the proposed classification and treatment
of other unsecured creditors fosters a reorganization
of these debtors.” (JA0089-90.) The Bankruptcy Court
further explained that the classification of the A7
claims was reasonable because those claims “aris[e]
out of day-to-day operations of the companies.”
(JA0087.)
Several important things then happened in rapid
succession: On July 25, 2017, the same day the Bankruptcy Court confirmed the Plan, Hargreaves filed
his notice of appeal to the District Court; one day later,
on July 26, 2017, Hargreaves filed an emergency

App. 6
motion for a stay of the Confirmation Order; on August
3, 2017, the District Court denied the stay request; and
on August 7, 2017, the Debtors implemented the Plan.
Some two months later, on October 16, 2017, the Reorganized Debtors filed a motion to dismiss Hargreaves’s appeal for equitable mootness, arguing that
the Plan was substantially consummated and could
not practically be unwound. The District Court heard
oral argument on May 14, 2018 and, ruling the appeal
equitably moot, dismissed it on August 21, 2018.
Hargreaves had conceded before the District
Court, as he does before us, that the Plan has been
substantially consummated, as that concept is defined in 11 U.S.C. § 1101(2).2 That meant the Plan
could not be practically unwound, or, in other words,
“the prudential factors weigh in favor of dismissal.”3
(JA0022 (citing In re One2One Commc’ns, LLC, 805
F.3d 428, 436 (3d Cir. 2015)).) Given that the Plan could
2

“ ‘[S]ubstantial consummation’ means – (A) transfer of all
or substantially all of the property proposed by the plan to be
transferred; (B) assumption by the debtor or by the successor to
the debtor under the plan of the business or of the management
of all or substantially all of the property dealt with by the plan;
and (C) commencement of distribution under the plan.” 11 U.S.C.
§ 1101(2).
3
“[P]rudential considerations [ ] address concerns unique to
bankruptcy proceedings. These concerns relate to the adverse
effects of the unraveling of a confirmed plan that could result from
allowing the appeal to proceed. The equitable mootness doctrine
recognizes that if a successful appeal would be fatal to a plan,
prudence may require the appeal be dismissed because granting
relief to the appellant would lead to a perverse outcome.” In re
Philadelphia Newspapers, LLC, 690 F.3d 161, 168 (3d Cir. 2012)
(internal citations and quotation marks omitted).

App. 7
not be unwound, the District Court turned to a
consideration of whether Hargreaves’s only proposed
relief – full individual recovery – could be granted
while leaving the plan in place. The Court decided that
relief could not be granted because it “would result in
disparate treatment of [his] claim as compared with
all other bondholder claims in Class A6 – precisely
the issue that predicates the appeal[.]” (JA0021-22.) It
rejected the argument that Hargreaves repeats to us,
that there is no disparate treatment because his fellow
A6 creditors “ha[d] an equal opportunity to recover on
their claims” (JA0022 (quoting D.I. 36 at 15, n.5)), if
they had chosen to “object to the Plan and appeal the
Confirmation Order” (Opening Br. at 52) as he did.
Hargreaves has timely appealed to us.
DISCUSSION4

II.

Hargreaves contends that the Plan unfairly discriminates against the class of creditors into which he
falls and that his requested relief does not render the
appeal equitably moot. He believes that he should
receive an individual $450,000 payout, equal to a 100%
recovery on his Class A6 claim, to remedy the allegedly
unfair discrimination of the Plan against the entirety
4

We have jurisdiction over this appeal under 28 U.S.C.
§§ 158(d) and 1291. We exercise plenary review of the District
Court’s conclusions of law, including its interpretation of the
Bankruptcy Code. See In re Goody’s Family Clothing Inc., 610
F.3d 812, 816 (3d Cir. 2010). “We review the Court’s equitable
mootness determination for abuse of discretion.” In re Tribune
Media Co., 799 F.3d 272, 278 (3d Cir. 2015) (“Tribune I”).

App. 8
of Class A6. The Reorganized Debtors respond that
such relief would be contrary to the Code, and that any
relief Hargreaves could seek is practically impossible,
leaving his appeal equitably moot. The Reorganized
Debtors have it right. The District Court appropriately,
and within its discretion, rejected Hargreaves’s arguments.5
We have described equitable mootness as “a narrow doctrine[, distinct from constitutional mootness,]
by which an appellate court deems it prudent for
practical reasons to forbear deciding an appeal when
to grant the relief requested will undermine the finality and reliability of consummated plans of reorganization.” In re Tribune Media Co., 799 F.3d 272, 277
(3d Cir. 2015) (“Tribune I”). There is a “strong presumption that appeals from confirmation orders of
reorganization plans . . . need to be decided[,]” id. at
278, and “a court may fashion whatever relief is
practicable instead of declining review simply because
full relief is not available” In re Blast Energy Servs.,
Inc., 593 F.3d 418, 425 (5th Cir. 2010). We have
described the analytical steps under the doctrine as
asking: “(1) whether a confirmed plan has been
substantially consummated; and (2) if so, whether
5

The District Court also rejected Hargreaves’s appeal as
equitably moot because, as a practical matter, “it is unclear which
party the Court may order to fund such a recovery[,]” as the
payment to A7 was a gift from the secured creditors. (JA0059.)
Hargreaves claims that the original gifted distributions were
funded by the collective, so his relief could come from the Reorganized Debtor. We do not reach that issue because an individualized payout is not permitted in any event.

App. 9
granting the relief requested in the appeal will (a)
fatally scramble the plan and/or (b) significantly harm
third parties who have justifiably relied on plan
confirmation.” Tribune I, 799 F.3d at 278 (citing In
re SemCrude, L.P., 728 F.3d 314, 321 (3d Cir. 2013)).
The third-party analysis is particularly focused on
equity investors, but can also include, to a lesser extent, lenders, customers, suppliers, and other creditors.
See SemCrude, 728 F.3d at 325; In re Philadelphia
Newspapers, LLC, 690 F.3d 161, 171 (3d Cir. 2012); In
re Cont’l Airlines, 91 F.3d 553, 562 (3d Cir. 1996). “The
theme is that the third parties with interests protected
by equitable mootness generally rely on the emergence
of a reorganized entity from court supervision.” Tribune I, 799 F.3d at 280.
Here, the contending parties frankly state, and we
agree, that the Plan has been substantially consummated under part one of the equitable mootness test.
There also appears to be agreement under part two
that the only relief that might not fatally scramble the
Plan would be an individual payout of a relatively
small sum, like the $450,000 that Hargreaves seeks.
The question thus becomes whether such relief is permitted by the Bankruptcy Code, and the short answer
is it is not.
As the Reorganized Debtors rightly note, awarding such relief would violate the Code’s restriction on
preferring certain individuals over others in the same
class. Under 11 U.S.C. § 1123(a)(4), a reorganization
plan must “provide the same treatment for each claim
or interest of a particular class, unless the holder of a

App. 10
particular claim or interest agrees to a less favorable
treatment[.]” Awarding the relief Hargreaves wants
would also contravene the purpose of the unfair
discrimination provision, 11 U.S.C. § 1129(b)(1), which
“applies only to classes of creditors[, ]not the individual
creditors that comprise them[.]” In re Tribune Co., 972
F.3d 228, 242 (3d Cir. 2020) (“Tribune II”); see also In
re W.R. Grace & Co., 729 F.3d 311, 327 (3d Cir. 2013)
(“[E]quality of distribution among creditors is a central
policy of the Bankruptcy Code that is furthered by
several different Code provisions.” (internal quotation
marks and citations omitted)).
Hargreaves’s first response to the problems with
his proposed relief is to dwell on an irrelevancy. He
emphasizes how small the sum he wants is, relative
to the Reorganized Debtors’ value, saying that “[f ]ull
payment of his claim would represent approximately
0.45% of the Debtors’ estimated $173 million enterprise value.” (Opening Br. at 49-50.) And he relies
on cases in which we have held that awarding of a
small percentage of a company’s value would not
fatally scramble a plan. See In re SemCrude, L.P., 728
F.3d at 324; In re Phila. Newspapers, LLC, 690 F.3d at
170-71; In re Cont’l Airlines, 203 F.3d 203, 210 (3d Cir.
2000). Along the same lines, he argues that no third
party would be injured because he is asking for so
little. But his arguments miss the mark: they do not
address the problem of one creditor receiving more
than the other creditors in the same class. The size of
his request is simply beside the point; it ignores that

App. 11
such an individual payout to one member of a class is
not permitted by the Code.
Hargreaves tries to get around that problem by
saying his receiving more than other A6 creditors
would not violate the principle that like creditors must
be treated alike because the other A6 creditors “had an
equal opportunity to object to the Plan and appeal the
Confirmation Order” but chose not to.6 (Opening Br. at
52 (citing In re Dana Corp., 412 B.R. 53, 62 (S.D.N.Y.
2008); In re W.R. Grace & Co., 729 F.3d at 327 (citing
In re Joint E. & S. Dist. Asbestos Litig., 982 F.2d 721,
749 (2d Cir. 1992), modified on reh’g, 993 F.2d 7 (2d Cir.
1993))).) That “equal opportunity” argument is unavailing, since § 1129(b)(1) (restricting unfair discrimination against classes of creditors) and § 1123(a)(4)
(requiring equal treatment within classes of creditors)
of the Code effectively prohibit payouts to a creditor
who seeks an individual benefit in derogation of the
treatment accorded other class members. We recently
6

He relies on In re SemCrude, L.P., where we allowed the
appellant objectors to pursue relief on appeal while others who
had not initially objected could not pursue the same relief. See 728
F.3d at 324. Our SemCrude decision, however, has no bearing on
this case because SemCrude involved claims of certain “statutory
lien rights” in property, which claims, if successful, might have
resulted in the applicants being effectively assigned to a different
class. Id. at 318. They could not, however, become entitled to a
higher return than other creditors in the same class. Such a result
would not comply with Section 1123 of the Code. See In re W.R.
Grace & Co., 729 F.3d at 327 (describing Section 1123 equal
opportunity as not requiring “precise equality,” and providing the
example of asbestos health claimants being “paid whatever
amounts the jury awarded, until funds were no longer available”
(citations omitted)).

App. 12
noted this very principle when we said “that unfair
discrimination applies only to classes of creditors (not
the individual creditors that comprise them), and then
only to classes that dissent. Thus, a disapproving
creditor within a class that approves a plan cannot
claim unfair discrimination, and the standard does
not ‘apply directly with respect to other classes unless
they too have dissented.’ ” Tribune II, 972 F.3d at 242
(emphasis added) (citation omitted); see also In re
Genesis Health Ventures, Inc., 280 B.R. 339, 346 (D. Del.
2002). That statement makes clear that the sole relief
an objecting party can pursue when alleging unfair
discrimination is relief for the class of creditors unfairly discriminated against, consistent with 11 U.S.C.
§ 1123(a)(4).
To be clear, Hargreaves’s class did not vote to
accept the Plan (and thus it may be deemed to have
dissented, though it fell just short of the required votes
for approval), so Hargreaves was free to object to the
Plan on unfair discrimination grounds. What he could
not properly do is propose that the appropriate remedy is to pay only him and no one else in his class.
He never asked for individualized relief before the
Bankruptcy Court. Nor could he have at the confirmation hearing, because § 1123(a)(4) bars individualized treatment. If we agreed with Hargreaves, we
would effectively be encouraging litigants to take one

App. 13
position in bankruptcy court and an inconsistent
position later on appeal.7

7

In his Reply, Hargreaves appears to suggest that the
Bankruptcy Code’s restrictions, including Section 1123(a)(4), only
govern the confirmation process, not our fashioning of relief after
the fact. [Reply Br. at 4-6.] That argument is unsupported and
unpersuasive. Our concurring-in-the-judgment colleague contends
that we are “assum[ing] that Hargreaves’s request for individualized relief conflicts with the Bankruptcy Code, leaving the only
relief available class-wide relief that may, indeed, scramble the
plan.” (Concur. op. at 2.) But we are not assuming anything; we
are recognizing a fundamental problem with the position that
Hargreaves has advanced. Our job is to decide cases and controversies in which we can offer a measure of lawful relief. See In
re Pub. Serv. Co. of New Hampshire, 963 F.2d 469, 471 (1st Cir.
1992) (“Mootness in bankruptcy appellate proceedings, as elsewhere, is premised on jurisdictional and equitable considerations stemming from the impracticability of fashioning fair and
effective judicial relief. Jurisdictional concerns may arise from the
constitutional limitations imposed on the exercise of Article III
judicial power in circumstances where no effective remedy can be
provided[.]” (internal citations omitted)); see also Bank Rhode
Island v. Pawtuxet Valley Prescription & Surgical Ctr., Inc., 386
B.R. 1, 2 (D.R.I. 2008) (noting the “narrow exception for claims
that are ‘capable of repetition [by the parties in-suit] yet evading
review.’ ” (quoting Horizon Bank & Trust Co. v. Massachusetts,
391 F.3d 48, 54 (1st Cir. 2004))). Here we cannot offer any such
relief, and that concludes the matter.
Our colleague’s further concern that we are “making our
authority to address bankruptcy questions contingent on whether
a lower court issues a stay” is likewise one that we do not share.
(Concur. op. at 3 n.1.) Rulings of the bankruptcy court are subject
to immediate review in district court. See Fed. R. Bankr. P. 8007
(authorizing stay requests to the district court assuming such
relief was first requested of the bankruptcy court or a request to
the bankruptcy court would be impractical); In re Nuverra Envtl.
Sols., Inc., No. 17-10949, 2017 WL 3326453, at *4 (D. Del. Aug. 3,
2017) (denying Hargreaves’s motion for a stay of the confirmation

App. 14
III. CONCLUSION
As the only way to give Hargreaves the money he
wants is to give all A6 creditors a 100% refund on their
$40.4 million in unsecured 2018 notes, which would
fatally scramble the Plan and significantly harm third
parties, his claim must fail.8 His appeal is equitably
moot, and the District Court properly exercised its
discretion to deny it on that basis.

order pending appeal). And while we have not spoken directly to
the issue, if a district court’s decision on a stay motion would have
the practical effect of ending a case, our precedents indicate that
an immediate appeal could be brought to us. See, e.g., In re Revel
AC, Inc., 802 F.3d 558, 567 (3d Cir. 2015) (“finality must be
viewed more pragmatically in bankruptcy appeals under § 158(d)
than in other contexts” (quoting In re Trans World Airlines, Inc.,
18 F.3d 208, 215 (3d Cir. 1994))); United States v. Nicolet, Inc.,
857 F.2d 202, 205 (3d Cir. 1988) (“We have found a pragmatic and
less technical approach to finality to be more appropriate in
bankruptcy proceedings[.]”); In re Comer, 716 F.2d 168, 171 (3d
Cir. 1983) (holding a district court’s lifting of a stay was a final
decision because “effective review of the order lifting the stay
cannot await final disposition of the case in the bankruptcy
court”). That route to review is a fair and appropriate one, given
the manifold interests in play in complex bankruptcy cases like
this.
8
Hargreaves estimates that the Reorganized Debtors’ enterprise value is $173 million. This means that Class A6’s $40.4
million in 2018 Notes would withdraw 23.3% of the Reorganized
Debtors’ value.

App. 15
KRAUSE, Circuit Judge, concurring.
I have previously warned that our equitable mootness doctrine is “legally ungrounded and practically
unadministrable,” and I have urged my colleagues to
“reconsider whether it should exist at all.” In re
One2One Commc’ns, LLC, 805 F.3d 428, 438 (3d Cir.
2015) (Krause, J., concurring). Although I continue to
question the doctrine’s wisdom, I write today not to
reiterate my longstanding concerns, but to call attention to the consequences of our ill-advised expansion
of the doctrine, as exemplified in this case. Even in
decisions embracing equitable mootness, we have been
careful to describe it as a “narrow” doctrine that is
more akin to “a scalpel . . . than an axe.” In re Tribune
Media Co., 799 F.3d 272, 277-78 (3d Cir. 2015). But in
practice, as today, it is wielded with anything but
surgical precision.
What undergirds our equitable mootness jurisprudence is the premise that granting post-confirmation
relief sometimes threatens to “fatally scramble [a reorganization] plan” or “significantly harm the interests
of third parties who have justifiably relied on plan
confirmation.” Id. at 278. In this case, however,
Hargreaves requests a form of relief – individualized
payment – that implicates neither of those concerns.
In other words, if the District Court were to award
Hargreaves the compensation he seeks, that would not
endanger the reorganized debtors’ solvency or unwind
other aspects of the Plan. That should end our equitable mootness inquiry and require us, in the normal
course, to analyze the merits of Hargreaves’s claims.

App. 16
Too often, however, we and other courts have
allowed the doctrine itself to short-circuit the merits
analysis, and this case is illustrative. In declaring this
case moot, the Majority assumes that Hargreaves’s
request for individualized relief conflicts with the
Bankruptcy Code, leaving the only relief available
class-wide relief that may, indeed, scramble the plan.
See 11 U.S.C. § 1123(a)(4). Central to that assumption,
however, is the first of many merits questions that we
gloss over in the name of “equitable mootness.” After
all, the availability of individualized relief for unfair
discrimination is not a mootness issue; it’s a merits
determination that depends on our construction of the
Code. And it’s not at all clear that the Code precludes
individualized relief in this situation.
The Majority is correct that the Code mandates
“the same treatment for each claim or interest of a
particular class,” id., but it imposes that requirement
only when “the holder of a particular claim or interest”
will not “agree[ ] to a less favorable treatment,” id. And
by declining to object to the Plan, the rest of Hargreaves’s class arguably did “agree[ ]” to receive less
than him. Id; cf. Agree, Merriam-Webster Online, https://
www.merriam-webster.com/dictionary/agree (“[T]o consent to.”). Hargreaves also has a colorable argument
that, by failing to appeal, the rest of the class waived
the unfair discrimination claim, while he preserved
it. So rather than leapfrogging these issues, I would
exercise our jurisdiction and afford them the careful
consideration they deserve. See Tribune, 799 F.3d at
278 (instructing courts to “fashion whatever relief is

App. 17
practicable instead of declining review simply because
full relief is not available”).
By instead vaulting ahead and assuming the
answer to the question of individualized relief, the
Majority precludes the development of bankruptcy
law not only as to the remedies available under
§ 1123(a)(4), but also as to other merits questions we
would then need to reach. For example, Hargreaves’s
appeal implicates a series of open issues around the
nature of unfair discrimination under § 1129(b)(1):
Does the Supreme Court’s decision in Czyzewski v.
Jevic Holding Corp., 137 S. Ct. 973 (2017), foreclose
preferential treatment of a sub-class through horizontal gifting? Is the unfair discrimination test focused on
a plan’s results or the process that produced those
results? And what are the limits on a plan’s ability
to divide creditors into classes? If unfair discrimination claims – like the one at issue here – must be
brought as a class, and if awarding class-wide relief
generally requires us to scramble a plan, the invocation of equitable mootness may prevent us from ever
weighing in on these questions.1

1

To be clear, these questions might reach us if a bankruptcy
court stays implementation of a plan pending appeal. But, as I
have previously explained, making our authority to address
bankruptcy questions contingent on whether a lower court issues
a stay raises serious constitutional and practical concerns. See
One2One Commc’ns, 805 F.3d at 445 (cataloging the dangers of
allowing lower courts to “insulate their decisions from review”).
And, although today’s opinion states that a bankruptcy court’s
decision declining a stay is appealable to a district court, and then
“subject to immediate appeal to us,” our authority to review stay

App. 18
With yet another case, this problematic doctrine
has lured us into abdicating our jurisdiction when we
should be exercising it, and “stunt[ing] the development” of our bankruptcy jurisprudence when it’s our
duty to promote it. One2One Commc’ns, 805 F.3d at
447. Because I would confine equitable mootness to the
narrow role envisioned by our precedents, reach the
merits questioned outlined above, and ultimately resolve this appeal in favor of the reorganized debtors, I
respectfully dissent.

denials is more tenuous than the Majority admits. See Maj. Op.
at 12 n.7 (citing In re Revel AC, Inc., 802 F.3d 558, 566 (3d Cir.
2015)). Indeed, far from confirming that “we have jurisdiction to
review a stay denial where the underlying appeal could become
equitably moot,” the case relied on by the Majority expressly left
that question “for another day.” In re Revel AC, 802 F.3d at 567.

App. 19
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-3084
In re: Nuverra Environmental Solutions, Inc.,
a/k/a Heckmann Corporation
a/k/a Rough Rider Escrow, Inc., et al.,
Debtor
David Hargreaves,
Appellant
(D. Del. No. 1-17-cv-01024)
Present: JORDAN, KRAUSE, and RESTREPO, Circuit
Judges
ORDER
(Filed Feb. 2, 2021)
The opinion issued on January 6, 2021 is hereby
amended as follows. On page 3 of the concurring
opinion, the final sentence is amended to read: “Because I would confine equitable mootness to the narrow role envisioned by our precedents, reach the merits
questions outlined above, and ultimately resolve this
appeal in favor of the reorganized debtors, I concur
only in the judgment.”
By the Court,
s/ Cheryl Ann Krause
Circuit Judge
Dated:
SLC/cc:

February 2, 2021
Counsel of Record

App. 20
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
IN RE:
: Chapter 11
NUVERRA ENVIRONMENTAL : Case No. 17-10949-KJC
SOLUTIONS, INC., et al.,
: (Jointly Administered)
:
Debtors.
:
: Civ. No. 17-1024-RGA
DAVID HARGREAVES,
:
Appellant,
:
v.
:
NUVERRA ENVIRONMENTAL :
:
SOLUTIONS, INC., et al.,
:
Appellees.
:
MEMORANDUM
Steven K. Kortanek, Esq., Drinker Biddle & Reath
LLP, Wilmington, DE; James H. Millar, Esq. (argued),
Clay J. Pierce, Esq., and Stacy A. Lutkus, Esq., Drinker
Biddle & Reath LLP, New York, NY, attorneys for Appellant David Hargreaves.
Pauline K. Morgan, Esq., Kenneth J. Enos, Esq., and
Jaime Luton Chapman, Esq., Young Conaway Stargatt
& Taylor, LLP, Wilmington, DE; Frederic Sosnick, Esq.
(argued), and Sara Coelho, Esq., Shearman & Sterling
LLP, New York, NY, attorneys for Appellees, Reorganized Debtors.
August 21, 2018

App. 21
/s/ Richard G. Andrews
ANDREWS, UNITED STATES DISTRICT JUDGE:
Presently before the Court is the appeal (D.I. 1) of
David Hargreaves with respect to the Bankruptcy
Court’s Order Confirming the Amended Prepackaged
Plans of Reorganization of Nuverra Environmental Solutions, Inc. and its Affiliated Debtors, dated July 25,
2017 (B.D.I. 366)1 (“Confirmation Order”). The merits
of the appeal are fully briefed. Also before the Court is
the Reorganized Debtors’ motion to dismiss the appeal
(D.I. 31) (“Motion to Dismiss”) on the basis of equitable
mootness. For the reasons set forth below, the appeal
meets the criteria for equitable mootness, and the
Court rules in the alternative that the Confirmation
Order is affirmed.
I.

BACKGROUND

The appeal arises from Debtors’ plan of reorganization, pursuant to which secured creditors, who would
not receive 100% recovery on their secured claims,
made a gift to general unsecured creditors, who would
otherwise receive no distribution under the Bankruptcy Code’s priority scheme, in order to enable the
1

The docket of the Chapter 11 cases, captioned In re Nuverra
Environmental Solutions, Inc., No. 17-10949 (KJC) (Bankr. D.
Del.), is cited herein as “B.D.I. ___.” The transcript of the confirmation hearing, at B.D.I. 362, is cited herein as “7/21/17 Hr’g Tr.
at ___,” and the transcript of the Bankruptcy Court’s oral decision, at B.D.I. 363, is cited herein as “7/24/17 Hr’g Tr. at ___.” The
Appendix of Appellant David Hargreaves (D.I. 33-35) is cited
herein as “A ___.”

App. 22
Debtors to reorganize. Even though unsecured creditors would receive no distribution absent the gift, Appellant has appealed the Confirmation Order based on
the fact that the plan placed general unsecured claims
of the same priority into separate classes and provided
disparate treatment.
The relevant facts are uncontested. In the months
leading up to the bankruptcy filing, Debtors struggled
with liquidity and negotiated with certain creditors toward a prepackaged plan of reorganization. On April
28, 2017, Debtors commenced a prepetition solicitation
of votes on the negotiated plan. (See B.D.I. 14). On May
1, 2017, Debtors commenced their chapter 11 cases
(“Petition Date”), at which time Debtors had approximately $500 million in secured debt and an uncontroverted value of approximately $302.5 million. (See
B.D.I. 14 at Art. VIII). On the Petition Date, Debtors
filed an initial plan of reorganization, which was
amended on June 21, 2017 (B.D.I. 366) (“Plan”).
According to Reorganized Debtors, to ensure that
the Debtors’ businesses remain viable and positioned
for growth, the Plan eliminated approximately $500
million of funded debt through the conversion to equity
of certain 12.5%/10% senior secured second lien notes
due 2021 (the “2021 Notes”), the Debtors’ 9.875% unsecured senior notes due 2018 (“2018 Notes”), a term loan
facility provided for under the term loan agreement
dated April 15, 2016 (the “Term Loan Facility”), and a
$12.5 million senior secured, super-priority debtor in
possession term credit facility (the “DIP Term Loan

App. 23
Facility”). Significant concessions by senior creditors2
funded gifted distributions to holders of out-of-themoney general unsecured claims under the Plan.
The Reorganized Debtors argue that the Plan
treated unsecured creditors in distinct ways based
upon their respective legal rights, their importance to
the ongoing operation and the profitability of the Debtors’ businesses, and the practical limitations impeding
the Debtors’ ability to provide such creditors with a recovery. (See D.I. 37 at 8; 7/21/17 Hr’g Tr. 60:1-62:5).
Creditors holding claims derived from the purchase of
2018 Notes, which were classified in Class A6, received
a combination of stock and cash by virtue of the gifted
distributions from senior creditors, with an aggregate
recovery to holders in Class A6 valued at approximately 4-6%. (See 7/21/17 Hr’g Tr. at 30:23-25). In contrast, trade and certain other creditors related to the
Debtors’ business and operations (“Trade and Business-Related Claims”), classified in Class A7, B7, and

2

Specifically, holders of 2021 Notes and lenders under the
Term Loan Facility and DIP Term Loan Facility voluntarily
agreed to accept a lower recovery on their secured claims than
they were entitled to receive. The DIP Term Loan Facility and
Term Loan Facility converted to equity at a discount, receiving
distributions of equity worth less than the face value of the debt
converted. (See 7/21/17 Hr’g Tr. 7:21-8:13). The 2021 Notes also
converted into equity, receiving recoveries of less than 54.5% of
their claims, and voluntarily agreeing to forgo any Plan distributions on account of approximately $190 million in unsecured deficiency claims relating to the 2021 Notes, claims that otherwise
would have ranked equally with all other unsecured claims. (See
B.D.I. 338 at ¶ 37).

App. 24
C7,3 were reinstated under the Plan, and, therefore,
holders of such claims were entitled to receive a 100%
recovery by virtue of the gifted distributions. (See
B.D.I. 14 at 12).
Class A6 voted to reject the Plan.4 Because the
Plan was nonconsensual, Debtors had the burden of
“show[ing] that the plan meets the additional requirements of § 1129(b), including the requirements that
the plan does not unfairly discriminate against dissenting classes and the treatment of the dissenting
classes is fair and equitable.” In re Exide Techs., 303
B.R. 48, 58 (Bankr. D. Del. 2003). These requirements
were addressed in the Debtors’ confirmation brief and
declaration in support. (See B.D.I. 302, 338).
Appellant, who held approximately $450,000 of
the 2018 Notes that had been classified in Class A6,
objected to confirmation of the Plan (B.D.I. 290) on the
grounds that (i) Appellant would receive a distribution of less value than certain of the Debtors’ other
3

Included among the Trade and Business-Related Claims
were certain contingent litigation claims related to the Debtors’
business operations, including tort and personal injury suits that
the Debtors believed would be covered under insurance as well as
litigation claims to which the Debtors had counterclaims. (See
7/21/17 Hr’g Tr. at 59:14-17; 57:23-58:9).
4
Despite having approximately 80% in number of holders
vote to accept the plan, the plan failed to gain the support of 50%
in dollar amount. (See B.D.I. 154, A746 (voting declaration)). Under § 1126(c) of the Bankruptcy Code, “[a] class of claims has accepted a plan if such plan has been accepted by creditors that hold
. . . at least two-thirds in amount and more than one-half in number of the allowed claims of such class held by creditors . . . that
have accepted or rejected such plan.” 11 U.S.C. § 1126(c).

App. 25
unsecured creditors who also held unsecured claims
(i.e., Trade and Business-Related Claims); and (ii) the
classification scheme contemplated in the Plan was improper. Appellant was the sole objector to confirmation
of the Plan. (7/24/17 Hr’g Tr. at 3:24-4:3). At the confirmation hearing on July 21, 2017, Appellant made arguments and examined and presented witnesses. (See
7/21/17 Hr’g Tr.). Appellant offered no evidence to controvert assertions with respect to the existing debt and
value of Debtors’ businesses. (See id.) Following the evidentiary hearing and argument on July 21, 2017, the
Bankruptcy Court took the matter under advisement
and made a bench ruling via telephonic hearing on
July 24, 2017, overruling Appellant’s objection and
confirming the Plan. (See 7/24/17 Hr’g Tr.).
The Bankruptcy Court made the specific finding
that “[u]nsecured creditors, including among others,
trade creditors and holders of 2018 [N]otes are out of
the money because they sit behind over $500 million
dollars of secured debt in the company that has an
uncontroverted value of approximately $300 million
dollars.” (7/24/17 Hr’g Tr. at 4:4-10). Addressing Appellant’s classification objection, the Bankruptcy Court
determined that separate classification of trade creditors and noteholders was reasonable on the basis
that trade creditors were critical to the success of the
reorganized debtors. (See id. at 5:5-6:24). Addressing
Appellant’s unfair discrimination objection, the Bankruptcy Court determined that, while the disparate
treatment of Class A6 gave rise to a rebuttable presumption of unfair discrimination (id. at 9:12-14), that

App. 26
presumption was rebutted because Class A6 is “indisputably out of the money and not, otherwise, entitled
to any distribution under the bankruptcy code’s priority scheme and provided further that the proposed
classification and treatment of the unsecured creditors
fosters a reorganization of these debtors.” (Id. at 8:249:3). The Bankruptcy Court determined that its decision was consistent with leading cases governing the
issue of gifting (9:14-12:12) and rejected Appellant’s argument that the gift was from estate property, violated
the absolute priority rule, and thus the Plan was not
“fair and equitable.” (See id.) The Bankruptcy Court
overruled the objection, confirmed the Plan (id. at
13:24-14:5), and further held that any request for a
stay of the Confirmation Order beyond the 10-day period included therein “would serve no purpose” as a
stay was not warranted. (See id. at 14:19-15:3).
Appellant filed a timely notice of appeal on July
25, 2017. (D.I. 1). Contemporaneously, Appellant filed
an emergency motion for stay of the Confirmation Order pending appeal (D.I. 3) (“Stay Motion”) and a related motion for expedited consideration (D.I. 4). On
August 3, 2017, the Court denied the Stay Motion on
the basis that Appellant was unlikely to succeed on the
merits of the appeal and had failed to establish irreparable harm absent a stay. (D.I. 20). On October 16,
2017, Debtors filed the Motion to Dismiss. (D.I. 31). The
parties have fully briefed the Motion to Dismiss (D.I.
31, 32, 36, 40) and the merits of the appeal (D.I. 29, 37,
41). On May 14, 2018, the Court held oral argument on

App. 27
both the Motion to Dismiss and the merits of the appeal. (D.I. 44).
II.

CONTENTIONS

Appellant raises the following issues on appeal:
(i) whether the Bankruptcy Court erred by concluding
that the Plan did not discriminate unfairly in finding
that the “gift” under the Plan made by secured creditors to unsecured creditors providing varying levels of
claim recovery did not constitute unfair discrimination under § 1129(b)(1) of the Bankruptcy Code; and
(ii) whether the Bankruptcy Court erred by concluding
that the Plan properly classified 2018 Note claims separately from other general unsecured claims. (See D.I.
22 at ¶ 1-3).5
With respect to equitable mootness, Reorganized
Debtors argue that the Plan has been substantially
consummated. Reorganized Debtors assert that, if I
agree with Appellant that the Plan unfairly discriminated against and/or improperly classified Class A6
claims, correcting those errors would require a wholesale reversal of the Plan, restoration of the Reorganized Debtors’ estates to the status quo ante prior to
the Effective Date, and disgorgement of the gifted
5

Appellant identified the following additional issue on appeal but failed to address it in merits briefing: “whether the Bankruptcy Court erred by concluding that the Plan was fair and
equitable even though it allows the Debtors to retain equity interests in their subsidiaries despite all unsecured creditors not
being paid in full.” (Compare D.I. 22 & 29). Accordingly, I do not
consider this issue.

App. 28
distributions, which is not possible as a practical matter and which would necessarily harm third parties
who reasonably relied on plan confirmation. (See D.I.
31 at 3).
According to Appellant, this argument fails, as
“[t]he Debtors can easily pay [him] the full amount of
his claim if his appeal is successful” as such “additional
recovery by [Appellant] does not present a risk of fatally scrambling the Plan; nor does it present a risk of
significant harm to third parties.” (See D.I. 36 at 1, 12).
Appellant urges the Court to use its remedial powers
to fashion the relief he proposes: an order directing Reorganized Debtors to pay 100% of Appellant’s claim,
plus several months’ interest, so he may “receive the
same treatment of holders of general unsecured creditors in Class A7.” (See id. at 12-13).
With respect to the merits, Appellant argues that
the Bankruptcy Court erred in concluding that the
Plan did not improperly classify Class A6 Claims separately from other general unsecured claims. Appellant argues the separate classification was motivated
“solely for the discriminatory purpose of not having to
pay holders of the 2018 Notes Claims in full.” (See D.I.
29 at 14; 31-35). Appellant argues that even if the
Plan’s separate classification of general unsecured
claims was proper, the Plan unfairly discriminates in
its treatment of 2018 Note claims, and that the Bankruptcy Court erred in its application of the Markell
test (discussed below). (See id. at 15-18). Appellant argues that the Bankruptcy Court failed to properly consider whether Debtors had rebutted the presumption

App. 29
of unfair discrimination and relied instead merely on
gifting. (See id. at 16-18). Appellant argues that such a
gift cannot rebut the presumption of unfair discrimination under the Markell test, and that the entire concept of gifting has been flatly rejected by the Third
Circuit. (See id. at 28-29).
Conversely, Reorganized Debtors argue that Appellant relies on cases that prohibit the use of gifts in
contravention of the absolute priority rule, which is not
at issue in this appeal. (See D.I. 37 at 14). “That body
of law prohibits the gifting of a distribution from a
senior class of creditors in a manner that skips over
an intermediary junior class of dissenting creditors
– “vertical gifting” – because it violates the strict requirements of the absolute priority rule.” (Id.) The
distribution in this case concerns unequal gifts by a
secured creditor to two classes of junior creditors – horizontal gifting – which is not foreclosed under Third
Circuit law. (See id. at 25). According to Reorganized
Debtors, courts in this circuit have held that such a
horizontal gift is not unfair discrimination against the
class that does not receive the larger gift when (i) the
creditor that does not receive the larger gift is not entitled to a distribution under a plan, and (ii) no class
junior to the creditor receives a distribution under
the plan. (See id. at 12-13). Debtors argue that confirmation of the Plan is consistent with controlling
caselaw on the issue as well as the legislative history
of § 1129(b), which makes clear that unfair discrimination is not an absolute rule, but is instead evaluated case by case from the dissenting “class’s own

App. 30
perspective.” (See id. at 12 (citing H.R. Rep. No. 595,
1st Sess. 417 (1977)). Finally, the Reorganized Debtors
contend that the Bankruptcy Court correctly concluded that the Plan’s classification complied with legal standards in this circuit, which permit separate
classification of trade and bondholder claims based
on their legal attributes. Reorganized Debtors argue
the uncontroverted record supports the Bankruptcy
Court’s finding that separate classification of Trade
and Business-Related Claims serves the rational purpose of fostering the Debtors’ reorganization. (See id.
at 35-43).
III. JURISDICTION
The Court has jurisdiction to hear an appeal from
a final judgment of the Bankruptcy Court pursuant to
28 U.S.C. § 158(a)(1). In reviewing the bankruptcy
court’s determinations, this Court “review[s] the bankruptcy court’s legal determinations de novo, its factual
findings for clear error and its exercise of discretion for
abuse thereof.” See In re Trans World Airlines, Inc., 145
F.3d 124, 130 (3d Cir. 1998) (noting that both the Third
Circuit and the district court “exercise the same standard of review”) (internal quotations and citations omitted).

App. 31
IV. DISCUSSION
A. The Appeal Meets the Criteria for Equitable Mootness
“ ‘Equitable mootness’ is a narrow doctrine by
which an appellate court deems it prudent for practical
reasons to forbear deciding an appeal when to grant
the relief requested will undermine the finality and reliability of consummated plans of reorganization.”
Tribune, 799 F.3d at 277. A court assesses equitable
mootness through the application of “prudential” considerations that address “concerns unique to bankruptcy proceedings.” In re Philadelphia Newspapers,
LLC, 690 F.3d 161, 168 (3d Cir. 2012). The Third Circuit’s recent decisions have synthesized the test for
equitable mootness as “proceed[ing] in two analytical
steps: (1) whether a confirmed plan has been substantially consummated; and (2) if so, whether granting the
relief requested in the appeal will (a) fatally scramble
the plan and/or (b) significantly harm third parties
who have justifiably relied on plan confirmation.” In re
Tribune Media Co., 799 F.3d 272, 278 (3d Cir. 2015)
(quoting In re SemCrude, 728 F.3d 314, 321 (3d Cir.
2013)). Reorganized Debtors, as the proponents of an
equitable mootness dismissal, “bear[ ] the burden of
overcoming the strong presumption that appeals from
confirmation orders of reorganization plans – even
those not only approved by confirmation but implemented thereafter (called ‘substantial consummation’
or simply ‘consummation’) – need to be decided.” Id. at
278.

App. 32
1. Whether the Plan Has Been Substantially Consummated
The Bankruptcy Code defines “substantial consummation” to mean:
(A) transfer of all or substantially all of the
property proposed by the plan to be transferred;
(B) assumption by the debtor or by the successor to the debtor under the plan of the
business or of the management of all or
substantially all of the property dealt
with by the plan; and
(C) commencement of distribution under the
plan.
11 U.S.C. § 1101(2). Appellant concedes that the Plan
has been substantially consummated. (See D.I. 36 at 12
(conceding that “the Plan has been substantially consummated”); see also D.I. 44 at 17:20-18:2). The record
supports this conclusion.6
6

The Reorganized Debtors filed a declaration of their Chief
Restructuring Officer (“CRO”) Robert Albergotti (D.I. 32) (“Albergotti Decl.”), in which he attests, inter alia, that, beginning on the
Effective Date, Reorganized Debtors entered into certain financing exit facilities and security agreements in order to repay obligations under the Debtors’ pre-Effective Date asset based lending
facility and debtor-in possession lending facility; make certain required payments under the Plan; pay costs and expenses incurred
in connection with the Plan; and for working capital, transaction
expenses, and other general corporate expenses. (See Albergotti
Decl. at ¶¶ 6-9). Additionally, on the Effective Date, (i) Reorganized
Debtors issued approximately 12 million shares of reorganized
Nuverra common stock (that is freely tradable on a national stock

App. 33
If it is established that substantial consummation
has occurred, the next step for a court considering equitable mootness is to “look to whether granting relief
will require undoing the plan as opposed to modifying
it in a manner that does not cause its collapse.” SemCrude, 728 F.3d at 321. A court “should also consider
the extent that a successful appeal, by altering the
plan or otherwise, will harm third parties who have
acted reasonably in reliance on the finality of plan confirmation.” Id.
2. Granting Appellant Higher Individual Recovery than Class A6
Appellant apparently does not seek revocation of
the Plan and the imposition of a new chapter 11 plan
in its place. (D.I. 44 at 17:19-18:2). Although Appellant’s confirmation objection sought denial of Plan confirmation only, Appellant argues “that does not mean
that the only relief available after the substantial consummation of the Plan is a complete unwinding of the
Plan and a return to bankruptcy for the Debtors.”7 (D.I.
market) and 118,137 warrants to purchase shares, with an exercise term expiring 5 years from the Effective Date, or, in certain
instances, as specified in the Plan; and (ii) all shares of the Debtors pre-Effective Date common stock and outstanding equity interests in the Debtors were cancelled and discharged. (See id. at
¶ 10). Additionally, cash distributions were made under the Plan
and all prepetition debt was either repaid or cancelled. (See id. at
¶ 11).
7
Reorganized Debtors argue that Appellant never sought
full payment of his claim below, and only sought denial of plan
confirmation, and cannot be heard to make such a request now:

App. 34
36 at 13). Rather than apply equitable mootness and
dismiss his appeal, however, Appellant contends that
the Court should exercise its remedial powers and
fashion relief in a way that would not upset the Plan –
i.e., “by ordering payment of his claim in full” so Appellant may “receive the same treatment as the holders of
general unsecured creditors in Class A7.” (See id. at 1213).
The Third Circuit instructs that the “starting
point is the relief an appellant specifically asks for.”
Tribune, 799 F.3d at 278 (citations omitted). The only
specific relief Appellant proposes is “full recovery”
which is a much higher individual recovery than other
holders of claims in Class A6. (See D.I. 44 at 23:22-24:9)
Thus, in considering available relief to cure unfair discrimination, the Court’s “starting point” is an order directing Reorganized Debtors to “provide [Appellant]
with the same treatment as general unsecured creditors – payment of 100 cents on the dollar plus interest”
– as compared with the 4-6% recovery provided to
Appellant takes a 180-degree turn from the substantive position that he raises in the Appeal by suggesting
that a claim of unfair discrimination could be satisfied
by discriminating in favor of him relative to other holders of claims in his class. Appellant now identifies the
sole remedy he seeks on appeal as the payment in full
of his claims, and only his claims . . . By re-casting the
issue in that manner, Appellant has abandoned his
contention that the Plan’s distribution scheme could be
changed to address his unfair discrimination and classification arguments, effectively conceding that doing
so would fatally scramble the Plan.
(See D.I. 40 at 1-2).

App. 35
other members of Class A6. (Id.) According to Appellant, “because no bondholder other than Mr. Hargreaves filed a timely objection to the Plan, there is no
danger that paying Mr. Hargreaves would require additional payments to any other bondholder.” (See id.)
That such relief would result in disparate treatment of
Appellant’s claim as compared with all other bondholder claims in Class A6 – precisely the issue that
predicates the appeal – is of little concern to Appellant
and of much concern to the Court. Appellant offers no
support for his position that a remedy exists that allows him to receive, on appeal, treatment better than
other creditors in the same class. (See D.I. 44 at 20:2321:1).
However, it is not Appellant’s burden to show that
his success on appeal will not require undoing the plan;
rather, it is the burden of the Reorganized Debtors, as
the moving party, to demonstrate that the prudential
factors weigh in favor of dismissal. In re One2One
Commc’ns, LLC, 805 F.3d 428, 436 (3d Cir. 2015). Reorganized Debtors argue that the higher individual relief
proposed by Appellant would necessarily upset the
Plan. As Reorganized Debtors argue, there is no mechanism under the Bankruptcy Code by which Appellant’s claim can be paid in full outside of the confirmed
Plan without paying in full the other members of Class
A6. (See D.I. 31 at 16-17). Having placed the 2018 Noteholders in the same class, Reorganized Debtors argue,
it would violate § 1123(a)(4) of the Bankruptcy Court
to provide Appellant alone with a full recovery. Section
1123(a)(4) requires that “a plan shall . . . provide the

App. 36
same treatment for each claim or interest of a particular class, unless the holder of a particular claim or
interest agrees to a less favorable treatment. . . .” 11
U.S.C. § 1123(a)(4). This section prohibits preferential treatment of a single bondholder who holds the
exact same claims based upon the exact same instrument as other bondholders. Appellant’s argument that
§ 1123(a)(4) of the Bankruptcy Code does not prohibit
disparate treatment, so long as creditors “ha[d] an
equal opportunity to recover on their claims” is unpersuasive and not supported by the cases cited. (See D.I.
36 at 15, n.5).
The Court agrees with the conclusion reached in
In re Genesis Health Ventures, Inc., 280 B.R. 339 (D.
Del. 2002) (“Genesis II”). There, appellant was a bondholder who appealed plan confirmation on the basis
that his small percentage recovery, in the form of new
common shares and warrants, was the result of the
debtors’ incorrect application of valuation methodologies which understated the enterprise value of the reorganized entity and the securities issued to senior
secured lenders under the plan. See id. at 342. Debtors
moved to dismiss the appeal as equitably moot, and the
Court granted the dismissal, finding, inter alia:
[T]he Plan in this case was consented to by all
of the creditors except for Class G5 bondholders like Appellant. Class G5 creditors have allowed claims in the amount of $387 million.
Appellant is a creditor holding $20 million of
Genesis bonds. Under the Bankruptcy Code,
creditors of the same class are to be treated

App. 37
in the same manner unless they consent to
receive less favorable treatment. 11 U.S.C.
§ 1123(a)(3)-(4); 11 U.S.C. § 1129(b)(1) (prohibiting unfair discrimination among creditors when plan is confirmed over objection of
non-consenting creditors). The relief Appellant proposes, i.e., the issuance of additional
shares to him, would be unfair to the other
creditors in Appellant’s own class, and thus,
prohibited under the Bankruptcy Code.
Id. at 346. Moreover, even assuming the Court could
grant the higher individual recovery to Appellant without violating the Bankruptcy Code, it is unclear which
party the Court may order to fund such a recovery. Appellant clearly seeks payment from the Reorganized
Debtors’ business. (See D.I. 44 at 23:18-21). However,
the gifted distributions were funded by the collective,
agreed concessions of various senior lenders, and the
Court cannot order those creditors to supplement a gift
made voluntarily. The only way to accomplish this
would include a regifting by the former holders of 2021
Notes, which would require their vote in chapter 11.
Appellant argues that a higher individual recovery may be granted, but the cases cited by Appellant
do not support such relief. Appellant argues, “The
Third Circuit has repeatedly found that payments of
small percentage amounts of a reorganized debtors’ enterprise value would not fatally scramble a plan.” (See
D.I. 36 at 13-14). Appellant argues that in Philadelphia Newspapers, the court found that appellants’
claim would not unravel plan as it accounted for only
1.7% of amount buyer paid to acquire debtors’ assets.

App. 38
See In re Philadelphia Newspapers, LLC, 690 F.3d 161,
170-71 (3d Cir. 2012). In that case, appellant sought
payment of administrative expense claims, which, if ultimately allowed in a successful appeal, would be paid
from an account established under the plan for the
payment of such claims and the payment would represent only a small percentage of the money coming into
the estate by virtue of the asset sale consummated under the plan. See id. at 167. As that appeal concerned
the allowance of administrative expenses, however,
success on appeal would not entitle appellant to a
greater recovery than other holders of administrative
expense claims.
Appellant also cites Zenith, where the court similarly noted that appellant sought “the disgorgement of
$76,500 in professional fees, a tiny sum in the context
of the reorganization of a company valued at $300 million.” See United States Tr. v. Official Comm. of Equity
Sec. Holders (In re Zenith Elecs. Corp.), 329 F.3d 338,
346 (3d Cir. 2003). In Zenith, the United States Trustee
appealed the award, and sought the disgorgement of
$76,500 in professional fees awarded to counsel to an
unofficial committee. The District Court dismissed the
Trustee’s appeal as equitably moot, and the Third Circuit reversed, observing that “far from causing the reorganization plan to unravel, the Trustee’s appeal, if
successful, would return money to the estate.” Id. at
346. As Reorganized Debtors correctly observe, the appeals in both Philadelphia Newspapers and Zenith each
concerned whether appellant’s claim should have been
allowed. Here, there is no dispute over the allowance

App. 39
of Appellant’s claim – all of the claims of holders of
2018 Notes, including Appellant’s, were allowed, but
received limited recoveries under the Plan. These cases
do not support a higher individual recovery by Appellant than other members of Class A6.
At oral argument, Tribune was cited as Appellant’s
“best case” in support of his request for full recovery.
(See D.I. 44 at 20:4-18). The Tribune court declined
to dismiss one of two appeals as equitably moot and
suggested that disgorgement to satisfy appellanttrustee’s claim was an available remedy. See Tribune,
799 F.3d at 283. The court observed that there was no
chance the plan modification would unravel the plan,
as the dispute concerned class entitlement to a $30
million recovery in the context of a $7.5 billion reorganization. See id. However, the appeal in that case
concerned an intercreditor dispute over whether one of
two classes of creditors was entitled to funds under the
relevant contract.8 Tribune was not a case where one
member of a class sought relief on appeal in the form
of a higher individual recovery than the recovery provided to other members of the same class, as here. If
successful on appeal, the relief sought in Tribune
would have gone to the entire class: “disgorgement
could be ordered against those Class 1F holders who
8

“[T]he Trustees contend that they are beneficiaries of a subordination agreement that guarantees that they will receive any
recovery that goes to the holders of the PHONES and EGI Notes
ahead of a class of trade and other creditors (Class 1F) . . . The
merits question presented by the Trustees’ appeal is straightforward: does the Plan unfairly allocate Class 1E’s recovery to 1F?”
Tribune, 799 F.3d at 282-83.

App. 40
have received more than their fair share, and the Litigation Trust’s waterfall can be restructured to make
sure that [Class] 1E gets its recovery to the exclusion
of Class 1F.” Id. at 282-83.
These decisions do not support the higher individual relief Appellant requests. While the cases support
the notion that granting relief on a successful appeal
is unlikely to unravel the plan where the relief would
represent only a small percentage of the overall reorganization, those cases say nothing about a case like
this one, where granting appellant relief that is a small
percentage of the overall reorganization would violate
§ 1123(a)(4) of the Bankruptcy Code.
Finally, Appellant cites SemCrude in support of
his argument that he is entitled to higher individual
recovery than the rest of Class A6 because he alone objected to the plan and appealed. (See D.I. 36 at 16; D.I.
44 at 16:22-17:8). In SemCrude, appellants argued that
the plan improperly discharged their claims arising
from statutory liens and property rights and sought an
opportunity to assert those claims in an adversary proceeding. See SemCrude, 728 F.3d at 320. The court
found no reason to believe that granting relief would
cause the plan to collapse. See id. at 324. “Even if Appellants are successful on their claims, . . . the amounts
involved will not require a sufficient redistribution of
assets to destabilize the financial basis of the settlement.” Id. Although SemCrude did draw a distinction
between granting individual relief to appellant (versus parties who failed to appeal), that distinction is
inapposite under these facts. As Reorganized Debtors

App. 41
correctly argue, any creditor may elect to consent to a
release of its claims, which is effectively what the Third
Circuit concluded the nonappealing creditors did in
SemCrude.9 There is no analogue in the Bankruptcy
Code for an individual creditor to withhold consent to
a distribution in order to get a higher distribution under a plan than other creditors in the same class.
3. Other Practicable Relief
The Third Circuit instructs that “even when a
court applies the doctrine of equitable mootness, it
does so with a scalpel rather than an axe. To that end,
a court may fashion whatever relief is practicable instead of declining review simply because full relief is
not available.” Tribune, 799 F.3d at 278 (internal citations and quotations omitted). Assuming Appellant is
successful on appeal, however, it is unclear what other
practicable relief I may grant at this point. To meet
their burden, the Reorganized Debtors assert that
there is no practicable relief that can be granted with
respect to the unfair discrimination and improper
9

As the SemCrude court observed: “We also fail to see any
indication that allowing Appellants to proceed with their claims
would result in a deluge of other Producers filing their own adversary proceedings. Unlike with Appellants, we are unaware of any
evidence in the record showing that other Producers objected to
the discharge of their claims or asserted the right to an adversary
proceeding. In return for the distributions they received under the
plan, other Producers were required to dismiss with prejudice any
adversary proceedings they had filed. Absent their objecting at
the time of plan confirmation to this dismissal requirement (as
well as to the discharge of their claims), they cannot now attempt
to restart those actions.” SemCrude, 728 F.3d at 324.

App. 42
classification arguments at issue in this appeal that
would not collapse the Plan and harm third parties
who justifiably relied on plan confirmation. (See D.I. 31
at 12-18; D.I. 32).
Debtors argue that to address the unfair discrimination issue, the only possible remedy would be to provide equal recoveries to all unsecured creditors. (See
D.I. 31 at 13). Reorganized Debtors argue that they do
not have $40 million in cash that would be required to
pay claims of former holders of the 2018 Notes in full.
(See id.) Even if sufficient cash were available, there
would be no practical way to distribute it, according
to Reorganized Debtors, as the 2018 Notes were cancelled under the Plan, and the indenture trustee for
the 2018 Notes discharged of its duties and obligations
under the governing indenture. (See id. at 14). As Reorganized Debtors lack sufficient cash to pay bondholders in full, the only other relief would be to
recover funds and balance recoveries among general
unsecured creditors. In Tribune, the Third Circuit
noted that “if funds can be recovered from third parties without a plan coming apart, it weighs heavily
against barring an appeal as equitably moot, both in
our Court and other circuits.” Tribune, 799 F.3d at 279.
Reorganized Debtors argue that this is not such a case.
According to Reorganized Debtors, ordering disgorgement and recovery of the gifted distributions, and redistributing those distributions evenly among Classes
A6 and A7, “would involve a massive, and likely impossible, disgorgement exercise:”

App. 43
Although it is possible to conceive of a disgorgement scenario to recover all Gifted
Distributions that had been provided to all
unsecured creditors in order to redistribute
them among former holders of Class A6
Claims and General Unsecured Claims, such
a recovery effort would be virtually (if not actually) impossible to accomplish. The exercise
would involve seeking the disgorgement of
Reorganized Nuverra Common Stock, which
is freely trading on NYSE American. Courts
in this Circuit have recognized that there is
no practical way to retrieve distributions from
public security holders . . . It is for that reason
that the Third Circuit has “most frequently
found that a plan could not be retracted when
the reorganized debtor issued [publicly]
traded debt or securities.”
(D.I. 31 at 14 (quoting One2One, 805 F.3d at 436)). Additionally, Reorganized Debtors assert that a disgorgement of payments from customers and vendors who
have continued doing business with the Reorganized
Debtors “would irreparably damage [those] relationships . . . and disrupt ongoing operations, jeopardizing
stakeholder recoveries:”
The Reorganized Debtors operate in a variety
of remote areas where the vendor base is limited, and many are small businesses. [F]ailing
to pay vendors in some of these locations
would have led those vendors to refuse to do
business with the Reorganized Debtors, creating significant operational problems in areas
where those vendors are not replaceable. [A]

App. 44
disgorgement exercise that involves the clawback of payments to vendors and suppliers
would in turn lead to the loss of credit, vendors, and suppliers, which would cause significant harm to all stakeholders, especially
senior creditors who own the Reorganized
Debtors’ equity and depend on the success of
the Reorganized Debtors’ businesses to achieve
a recovery in these cases.
(See D.I. 32 at 8, ¶ 14 (affidavit of CRO)). Thus, disgorgement would require the claw back, not only of
cash payments made to hundreds of individual creditors, but also the claw back of stock that is trading on
the national stock exchange, and which now may be
held by third parties who purchased those securities in
the ordinary course. (See id). This case is therefore unlike the Tribune case in which the Third Circuit suggested disgorgement as a possible remedy. Tribune,
799 F.3d at 282. There, the court notably observed that
the money at issue “has gone to a readily identifiable
set of creditors against whom disgorgement can be ordered.” Id. Unlike Tribune, the disgorgement required
in this case to grant equal recovery to Class A6 will
require undoing the Plan and necessarily result in
harm to third parties.
With respect to the second issue on appeal, as the
Bankruptcy Court observed, Appellant “objects to the
debtors’ classification scheme for the same reason [as
his unfair discrimination objection] arguing that classification of unsecured claims in more than one class is
improper and calls for disparate treatment.” (7/24/17

App. 45
Hr’g Tr. at 5:1-4). To address the improper classification issue, Reorganized Debtors argue that the
only possible remedy would require “having the Reorganized Debtors go back into chapter 11 in order to
develop an amended plan that classifies all unsecured
claims in the same class and provides all creditors in
the single class with the same treatment.” (See D.I. 31
at 16-17). Reorganized Debtors argue that, having repaid the DIP Loans on the Effective Date, they no
longer have access to liquidity to fund a second trip
through chapter 11, which makes a forced liquidation
through chapter 7 a likely outcome. (See id. at 4). “If
the Reorganized Debtors were forced to re-enter bankruptcy to revise their plan, I believe liquidation is a
likely possibility, given that the Reorganized Debtors
lack financing for a second Chapter 11 case, and had
an extremely difficult time obtaining financing for the
case they just emerged from.” (D.I. 32 at 8, ¶ 15 (affidavit of CRO)). As with the remedy of providing equal
recovery to general unsecured creditors, reclassifying
the claims to balance distributions and to achieve the
same result would “require undoing the plan as opposed to modifying it in a manner that does not cause
its collapse,” and would result in harm to third parties
who have justifiably relied on the Plan. SemCrude, 728
F.3d at 321.
The Bankruptcy Court recognized the overall
harm to the Debtors and other third parties that may
result on appeal: “the consequences of an adverse
ruling on appeal of a reversal of this confirmation order on appeal, frankly, the risks lie with the other

App. 46
constituents in this case, not with [Appellant] . . . ”
(7/24/17 Hr’g Tr. at 14:24-15:3). The Court is unable
grant Appellant higher individual recovery than other
members of his class within the confines of the Bankruptcy Code. Because correcting unfair discrimination
and improper classification issues would require undoing the Plan and would necessarily harm third parties,
and because it is unclear what other practicable relief
the Court may grant, the appeal meets the criteria for
equitable mootness.
B. The Confirmation Order Is Affirmed
Although I find the appeal meets the criteria for
equitable mootness, the Court can “readily resolve the
merits of [the] appeal against the appealing party,” so
I hold, in the alternative, that the Confirmation Order
is affirmed. See Tribune, 799 F.3d at 278.
Under § 1129(b)(1) of the Bankruptcy Code, a plan
may be “crammed down” on a dissenting impaired
class only if it “does not discriminate unfairly” and is
“fair and equitable” with respect to the non-accepting
impaired class. See 11 U.S.C. § 1129(b)(1); see also In re
Armstrong World Indus., Inc., 320 B.R. 523 (D. Del.
2005) (“Armstrong I”), aff ’d, 432 F.3d 507 (3d Cir. 2005)
(“Armstrong II”). “[T]he pertinent inquiry is not
whether the plan discriminates but whether the proposed discrimination is ‘unfair.’ ” In re Tribune Co., 472
B.R. 223, 242 (Bankr. D. Del. 2012) (quoting In re Armstrong World Indus., Inc., 348 B.R. 111, 121 (D. Del.
2006) (“Armstrong III”)). The main issue on appeal is

App. 47
whether the Plan “discriminates unfairly” in a manner
that would prevent the Plan from being confirmed in
accordance with § 1129(b)(1).
The concept of unfair discrimination is not defined in the Bankruptcy Code. See Armstrong III, 348
B.R. at 121. Courts typically examine the facts and
circumstances of the particular case to determine
whether unfair discrimination exists.10 Various tests
have emerged in the caselaw, with the hallmarks being
“whether there is a reasonable basis for the discrimination, and whether the debtor can confirm and consummate a plan without the proposed discrimination.”
Id. at 121 (internal quotation omitted). The Third Circuit has not yet discussed the standard that should apply when assessing unfair discrimination, but courts
within this jurisdiction have applied the test set forth
by Bruce A. Markell, A New Perspective on Unfair Discrimination in Chapter 11, 72 Am. Bankr. L.J. 227, 249
(1998). Under the Markell test, a rebuttable presumption of unfair discrimination arises when there is:
(1) a dissenting class; (2) another class of the
same priority; and (3) a difference in the plan’s
treatment of the two classes that results in either (a) a materially lower percentage recovery for the dissenting class (measured in terms
10

See In re 203 N. LaSalle St. Ltd. P’ship, 190 B.R. 567, 585
(Bankr. N.D. Ill. 1995) (noting “the lack of any clear standard for
determining the fairness of a discrimination in the treatment of
classes under a Chapter 11 plan,” and that “the limits of fairness
in this context have not been established”), aff ’d, 195 B.R. 692
(N.D. Ill. 1996), aff ’d, 126 F.3d 955 (7th Cir. 1997), rev’d on other
grounds, 526 U.S. 434 (1999).

App. 48
of the net present value of all payments), or
(b) regardless of percentage recovery, an allocation under the plan of materially greater
risk to the dissenting class in connection with
its proposed distribution.
See, e.g., Tribune, 472 B.R. at 241 (adopting and applying Markell test); In re Genesis Health Ventures, Inc.,
266 B.R. 591, 612 (Bankr. D. Del. 2001) (“Genesis I”)
(applying Markell test). As Reorganized Debtors correctly point out, in applying the Markell test, “the
analysis for determining whether the discriminatory
treatment is unfair should be viewed by its effect on
the dissenting class.” Tribune, 472 B.R. at 244. This is
consistent with the legislative history of § 1129(b)(1),
which makes clear that “[t]he criterion of unfair discrimination is not derived from the fair and equitable
rule or from the best interest of creditors test. Rather
it preserves just treatment of a dissenting class from
the class’s own perspective.” H.R. Rep. No. 595, 1st
Sess. 417 (1977).
1. The Bankruptcy Court Correctly Determined that the Plan Did Not Unfairly Discriminate
Appellant argues that the Bankruptcy Court improperly applied the Markell test and blindly relied on
the gifting doctrine in determining that the presumption of unfair discrimination was rebutted in this case.
(See D.I. 29 at 15-18). I note that the Markell test did
not address a situation in which the classes in which
disparate treatment was occurring both were receiving

App. 49
their recoveries solely on account of a gift from a senior
class.11 Indeed, Markell says nothing about gifting.
Notwithstanding this distinction, the Court finds no
error in the Bankruptcy Court’s application of the
Markell test. Its application is consistent with the decisions of other courts in this circuit which have examined gifted distributions.
Looking to percentage recovery between Classes
A6 and A7, the Bankruptcy Court determined that the
Plan’s treatment “gives rise to a rebuttable presumption of unfair discrimination that the [D]ebtors must
overcome.” (7/24/17 Hr’g Tr. at 9:12-14). The Bankruptcy Court found the presumption rebutted. Specifically, the Bankruptcy Court found that the gift here
“constitute[d] no unfair discrimination” (id. at 8:23-24)
because “class A6 was indisputably out of the money
and not, otherwise, entitled to any distribution under
the Bankruptcy Code’s priority scheme and provided
further that the proposed classification and treatment
of other unsecured creditors fosters a reorganization of
these debtors.” (Id. at 8:24-9:9). As noted above, in applying the Markell test, and identifying unfair discrimination, the analysis for determining whether the
discriminatory treatment is unfair should be viewed by
its effect on the dissenting class. See H.R. Rep. No. 595,
1st Sess. 417 (1977). For example, in Tribune, the
11

Reorganized Debtors argue that the Markell test was intended to fill in the blanks on how a court should assess disparate
treatment of claims outside of a scenario where distributions are
based solely on gifts. (See D.I. 44 at 38:20-25). The Court expresses no opinion on this argument.

App. 50
bankruptcy court applied the Markell test to a plan
that involved classes that benefitted from differing
treatment, receiving an increase in their recovery of
between 47.8% and 53% on a dollar basis, which was
caused by the forced sharing of a “Disputed Allocation.”
See Tribune, 472 B.R. at 244. The Bankruptcy Court
held that, in applying the Markell test, “the analysis
for determining whether the discriminatory treatment
is unfair should be viewed by its effect on the dissenting class.” Id. In reaching its conclusion that there was
no unfair discrimination, the Tribune court only focused on the amount that the reallocation decreased
the recovery to the dissenting class, and did not consider the large increase in recoveries to the other similarly-situated classes. See id. at 244.12
Similarly, here, distributions to holders of Trade
and Business-Related Claims have no impact on the
distributions to holders of unsecured claims in Class
A6. The record is clear that unsecured creditors are entitled to nothing under the Bankruptcy Code’s priority
scheme, and an increased distribution to unsecured
creditors holding Trade and Business-Related Claims
does not diminish the distribution to holders of claims
in Class A6. If holders of Trade and Business-Related
Claims did not receive this increased recovery, the
12

See also LaSalle, 126 F.3d at 969 (factually predating
Markell, and finding, in part, that, “the disparity between [the
trade claims and the nonrecourse deficiency claims], with the
trade creditors receiving 100 percent and Bank America receiving
sixteen percent, is not unfair [because] Bank America does better
than it would have under chapter 7, and the trade creditors do no
worse.”)

App. 51
surplus distribution would revert to secured creditors,
not holders of claims in Class A6. As Appellant and his
class were not entitled to a distribution in the first
place, providing a greater distribution to a different
class of unsecured creditors does not alter the distribution to which Appellant is entitled.
Appellant argues that the Bankruptcy Court erred
by failing to address whether the two bases for rebuttal specifically mentioned by Markell were satisfied.
Rebuttal of the presumption is discussed briefly by
Markell:
The unfair discrimination in these situations
is only presumptive. The plan proponent may
overcome the presumption based on different
percentage recoveries by showing that a lower
recovery for the dissenting class is consistent
with the results that would obtain outside of
bankruptcy, or that a greater recovery for the
other class is offset by contributions from that
class to the reorganization. The presumption
of unfairness based on differing risks may be
overcome by a showing that the risks are allocated in a manner consistent with the prebankruptcy expectations of the parties.
Markell, 72 Am. Bankr. L.J. at 228.
In either case – disparity of recovery or disparity of risk – the plan proponent can rebut
the presumption of unfairness by proving that
the difference in treatment is attributable to
differences in the prepetition status of the
creditors. In the case of a difference in the present value of the recovery, the presumption

App. 52
may also be overcome by a demonstration that
contributions will be made by the assenting
classes to the reorganization, and that these
contributions are commensurate with the different treatment. In such cases, while discrimination exists, it is not unfair.
Id. at 250. Appellant argues that if the Bankruptcy
Court had considered Markell’s bases for rebuttal, neither prong would have been met here, as (i) all unsecured creditors would be entitled to exactly the same
percentage recovery outside of the Plan, and (ii) there
is no proof that the holders of [Trade and Business-Related Claims] will infuse any new value into the reorganization.”) (See D.I. 29 at 17).
While Appellant argues these are the “only” bases
for rebutting the presumption of unfair discrimination
(see id. at 16), neither Markell nor any of the cases
cited by Appellant suggest any limitations on the casespecific facts and circumstances which might rebut
the presumption of unfair discrimination. As Reorganized Debtors correctly argue, “the Markell test is
not the only basis for rebutting a presumption of unfair
discrimination, and the Bankruptcy Court was not required to evaluate these bases for rebuttal. . . .” (See
D.I. 37 at 23). As noted above, Markell did not address
a situation where, as here, the classes in which disparate treatment was occurring both were receiving their
recoveries solely on account of a gift from a senior class.
A reading of Markell does not support the limitations
on the Bankruptcy Court’s analysis that Appellant asserts, nor would such limitations be consistent with the

App. 53
Bankruptcy Court’s broad discretion to consider casespecific facts in the context of plan confirmation.13
In Genesis I, a case with virtually identical facts,
the court found the presumption of unfair discrimination was rebutted in the horizontal gifting context. See
Genesis I, 266 B.R. at 612. As in this case, the plan in
Genesis I provided a gift to certain, but not ad, classes
of unsecured creditors out of the recoveries of secured
creditors. See id. at 600-01. In that case, the unsecured
creditors holding punitive damage litigation claims
classified in classes G7 and M7 were to receive no recovery, while the other classes of general unsecured
creditors (classes G4 and M4) received the gift. Id.
Holders of claims in classes G7 and M7 objected, arguing, among other things, that the plan unfairly discriminated against them in light of the recovery to
unsecured creditors in classes G4 and M4. In assessing
unfair discrimination, the court in Genesis I applied
the Markell test and concluded that, while the disparate treatment gave rise to the presumption of unfair
discrimination, the presumption was rebutted:
[T]he recovery by Classes G4 and M4 of a dividend in the form of New Common Stock and
Warrants is based on the agreement of the
Senior Lenders to allocate a portion of the
value they would have otherwise received to
Classes G4 and G5. The disparate treatment
13

“[I]t remains clear that Congress intended to afford bankruptcy judges broad discretion to decide the propriety of plans in
light of the facts of each case.” In re Jersey City Med. Ctr., 817
F.2d 1055, 1060-61 (3d Cir. 1987).

App. 54
. . . is a permissible allocation by the secured
creditors of a portion of the distribution to
which they would otherwise be entitled, rather than unfair discrimination against Classes G7 and M7 by the proponents of the plan.
Id. at 612. Thus, Genesis I found that the presumption
of unfair discrimination was rebutted where the distribution was based on the agreement of senior lenders to
allocate a portion of the value to which they would
have otherwise been entitled under the Bankruptcy
Code. See id. Although gifting is not a basis for rebuttal
specifically mentioned by Markell, the Genesis I court
found this permissible allocation sufficient to rebut the
presumption of unfair discrimination. The Bankruptcy
Court’s ruling here is consistent with Genesis I.14
14

Reorganized Debtors further argue that, despite not being
required to evaluate Markell’s specific bases for rebuttal, the
Bankruptcy Court’s ruling does address them, including “factual
findings that support rebuttal of any presumption of unfair discrimination under the Markell framework.” (See D.I. 37 at 23).
Reorganized Debtors argue that Markell’s first basis for rebuttal
– that a lower recovery for the dissenting class is consistent with
the results that would obtain outside of bankruptcy – is present
here, as there was no value in the Debtors’ businesses to make
any payment to unsecured creditors. The Bankruptcy Court found
as much when it concluded that unsecured creditors “sit behind
over $500 million dollars of secured debt in the company that has
an uncontroverted value of approximately $300 million dollars.”
(7/24/17 Hr’g Tr. at 4:4-8). Appellant does not challenge the Bankruptcy Court’s factual determination regarding the Appellant’s
entitlements to proceeds of the Debtors’ estates, nor does he offer
any explanation of how, from the perspective of the 2018 Notes,
recoveries could be any better outside of bankruptcy. Reorganized
Debtors argue that Markell’s second basis for rebuttal – that a
greater recovery for the other class is offset by contributions from

App. 55
As unfair discrimination is not defined in the
Bankruptcy Code, courts must examine the facts and
circumstances of the particular case to determine
whether unfair discrimination exists. The Third Circuit has yet to mandate application of the Markell test
in determining whether a plan discriminates unfairly,
and Markell’s useful analysis is not exhaustive of the
facts and circumstances that may rebut a presumption
of unfair discrimination. Under the facts of this case,
the holders of Class A6 were not harmed by the disparate recovery provided to Trade and Business-Related
Claims, and ad unsecured creditors did significantly
better than they would have outside of chapter 11 or
under a plan of liquidation. To the extent the Bankruptcy Court did not specifically address the Markell
bases for rebuttal in its bench ruling, Appellant cites
no case law in support of such a limited, formulaic application. The Bankruptcy Court’s analysis is consistent with the Markell analysis undertaken in
Genesis I. I find no error in the Bankruptcy Court’s conclusion that the Plan did not unfairly discriminate,
which is based on uncontroverted, case-specific facts
and consistent with applicable case law and legislative
history concerning unfair discrimination.

that class to the reorganization – is also present here. The Bankruptcy Court made findings indicating that the ongoing business
relationships provided by business creditors created value which
justified the Plan’s classification and treatment of unsecured
creditors. (Id. at 6:6-24).

App. 56
2. The Third Circuit Has Not Foreclosed Horizontal Gifting, and the
Vertical Gifting Cases Cited by Appellant Are Inapposite
In determining that the Plan did not unfairly discriminate, the Bankruptcy Court relied on Genesis I, a
case with virtually identical facts, which examined
whether a horizontal gift – like the one at issue in this
case – unfairly discriminated against other classes.
(7/24/17 Hr’g Tr. at 10:12-12:12). As noted above, in
Genesis I, senior creditors who were not being paid in
full shared a portion of their distributions with junior
classes (Classes G4 and M4) but not with creditors
holding punitive damages claims (Classes G7 and M7).
See Genesis I, 266 B.R. at 612. There, the Bankruptcy
Court held that “the disparate treatment between
Classes G4 and G7 and Classes M4 and M7 is a permissible allocation by the secured creditors of a portion
of the distribution to which they would otherwise be
entitled, rather than unfair discrimination against
[dissenting classes] by the proponents of the plan.” Id.
Here, the Bankruptcy Court found “this situation [i.e.,
the Plan] to be consistent with the gift contained in the
plan proposed in Genesis, which the Armstrong court
viewed favorably.” (7/24/17 Hr’g Tr. at 10:16-19).
Appellant argues that the Bankruptcy Court’s approval of the Plan was erroneous, as “multiple appellate courts have held that a plan may not use gifting to
circumvent § 1129(b)’s express provisions” in rulings
following Genesis I, including the Armstrong decisions
in this circuit. (See D.I. 29 at 22-30). Reorganized

App. 57
Debtors distinguish “vertical gifting” from “horizontal
gifting.” They argue that any “[n]egative treatment of
gifting in the caselaw applies [only] to vertical gifting,
which violates the absolute priority rule, a different
provision of the Bankruptcy Code implicating different
concerns.” (D.I. 37 at 25-28). “The absolute priority
rule, as codified, ensures that ‘the holder of any claim
or interest that is junior to the claims of [an impaired
dissenting] class will not receive or retain under the
plan on account of such junior claim or interest any
property.’ ” Armstrong II, 432 F.3d at 513 (quoting 11
U.S.C. § 1129(b)(2)(B)(ii)). Reorganized Debtors argue
that the absolute priority rule is not implicated here,
as “there is no higher priority dissenting creditor being
deprived of a gift (i.e., no class skipping) because equity, which is the class junior to Class A6, received no
distribution under the Plan.” (D.I. 37 at 25). Contrary
to Appellant’s contention that gifting has been “flatly
rejected” in this circuit, Reorganized Debtors argue
that the Third Circuit in Armstrong II purposefully
carved out Genesis I’s horizontal gift ruling from its decision prohibiting vertical gifting in violation of the absolute priority rule. (See id.)
The Court agrees with Reorganized Debtors that
Armstrong II did not “flatly reject” the concept of gifting. Armstrong II considered whether vertical gifting
violated the “fair and equitable” requirement for cramdown, which invokes the absolute priority rule of 11
U.S.C. § 1129(b)(2)(B)(ii). The Third Circuit concluded
– based upon its consideration of the absolute priority
rule, not any consideration of whether there was

App. 58
“unfair discrimination” – that the distribution of warrants to equity holders, which skipped over an objecting class of unsecured creditors, violated the absolute
priority rule. See Armstrong II, 432 F.3d at 513. “Under
the statute, a plan is fair and equitable with respect to
an impaired, dissenting class of unsecured claims if
(1) it pays the class’s claims in full, or if (2) it does not
allow holders of any junior claims or interests to receive or retain any property under the plan ‘on account
of ’ such claims or interests.” Id. at 512 (citing 11 U.S.C.
§ 1129(b)(2)(B)(i)-(ii)). The Third Circuit concluded
that the plain language of the statute makes clear that
a plan cannot give property to junior claimants over
the objection of a more senior class that is impaired,
and noted that “section 1129 was at least designed to
address ‘give-up’ situations where a senior class gave
property to a class junior to the dissenting class.” Id. at
513.
Unlike that case, the gift at issue here does not involve vertical class skipping as it does not provide a
distribution to a class junior to the dissenting Class A6.
As the Bankruptcy Court noted,15 Armstrong I also distinguished Genesis I on the facts as involving a distribution of property subject to the senior creditor’s liens
that was “carved out” voluntarily for junior claimants.
See Armstrong I, 320 B.R. at 539. The Third Circuit
15

The Bankruptcy Court noted in its bench ruling that Armstrong had distinguished the very similar “arrangement in Genesis [I] as an ordinary carve-out of the senior creditor’s lien for the
junior claimant’s benefit” but did not reject it. (See 7/27/17 Hr’g
Tr. at 11:8-12:9).

App. 59
adopted this reading of that case in Armstrong II, characterizing the Genesis I decision as having allowed a
secured creditor to “(1) give up their proceeds under
the reorganization plan to holders of unsecured and
subordinated claims, without including the holders of
punitive damages in the arrangement, and (2) allocate
part of their value under the plan to the debtor’s officers and directors as an employment incentive package.” Armstrong II, 432 F.3d at 513-14; see also In re
World Health Alternatives, Inc., 344 B.R. 291, 298-99
(Bankr. D. Del. 2006) (discussing Armstrong II and
Genesis I and concluding that Armstrong II distinguished, but did not disapprove of, Genesis I, and that
secured creditors may give up a portion of their lien for
the benefit of junior creditors without violating the
Bankruptcy Code). Armstrong I reviewed relevant case
law, including Genesis I, In re MCorp. Financial, Inc.,
160 B.R. 941 (S.D. Tex. 1993), and In re SPM Mfg.
Corp., 984 F.2d 1305 (1st Cir. 1993), and rejected a
blanket rule that all gifting is permissible. Armstrong
I, 320 B.R. at 539-40. The Third Circuit agreed:
We adopt the District Court’s reading of [the
MCorp-Genesis I line of ] cases, and agree that
they do not stand for the unconditional proposition that creditors are generally free to do
whatever they wish with the bankruptcy proceeds they receive. Creditors must also be
guided by the statutory prohibitions of the absolute priority rule, as codified in 11 U.S.C.
§ 1129(b)(2)(B).

App. 60
Armstrong II, 432 F.3d at 514. Reorganized Debtors do
not advance a blanket rule that all gifting is permissible. Reorganized Debtors’ position is merely that
“courts in this circuit have held that such a horizontal
gift is not unfair discrimination against the class that
does not receive the larger gift when (i) the creditor
that does not receive the larger gift is not entitled to a
distribution under a plan, and (ii) no class junior to the
creditor receives a distribution under the plan.” (D.I.
37 at 12-13). The horizontal gifting in Genesis I does
not violate the absolute priority rule and remains good
law.
Appellant cites several cases in support of his argument, but because they are vertical gifting cases,
they do not change the outcome here. Appellant cites
In re ICL Holding Co., Inc., 802 F.3d 547 (3d Cir. 2015),
but that case addressed priority skipping payments in
violation of the absolute priority rule and did not address issues of unfair discrimination. (See D.I. 29 at
24). Appellant also relies on the DBSD case from the
Second Circuit. See Dish Network Corp. v. DBSD N.
Am., Inc. (In re DBSD), 634 F.3d 79, 86-87 (2d Cir.
2011). That case also involved a class-skipping gift to a
class junior to the dissenting creditor in violation of the
absolute priority rule. The Second Circuit held that the
gifting of shares and warrants by second lien secured
creditors to the debtor’s sole shareholder was impermissible where the company’s general unsecured creditors did not receive full satisfaction of their claims. See
id. at 87. In short, these decisions focus on vertical
class skipping in violation of the absolute priority rule

App. 61
and do not support Appellant’s argument that the
gifted distributions in this case are impermissible.
Appellant cites just one case addressing horizontal gifting, In re Sentry Operating Co. of Texas, 264 B.R.
850 (Bankr. S.D. Tex. 2001), which as Reorganized
Debtors correctly argue, is nonbinding and factually
distinguishable. There, the plan sought to pay trade
claims in full, while providing only a de minimis distribution to other general unsecured creditors. See id. at
851. In finding unfair discrimination, the Sentry court
also emphasized that the secured lender was controlled by a competitor of the debtors, and that a large
portion of the trade claims to be paid were to parties
with “whom [the secured lender’s] parent does substantial business.” Id. at 856. Although the Sentry
court concluded that there was a presumption of unfair
discrimination, and stated that a secured creditor
should not be permitted to “decide which creditors get
paid and how much those creditors get paid” (id. at
865), the presence of a possible conflict of interest was
evident. The Sentry court noted that the class of trade
claims to be paid included creditors who “appear to be
paid for reasons other than preservation of value.” Id.
at 864.

App. 62
3. The Bankruptcy Court Did Not Err
in Finding a Rational Basis for
Separate Classification of Class A6
Claims
Section 1122(a) of the Bankruptcy Code provides
that, except as otherwise provided in § 1122(b) of the
Bankruptcy Code, “a plan may place a claim or an interest in a particular class only if such claim or interest
is substantially similar to the other claims or interests
of such class.” 11 U.S.C. § 1122(a). “Section 1122 of the
Code provides that claims that are not ‘substantially
similar’ may not be placed in the same class; it does
not expressly prohibit placing ‘substantially similar’
claims in separate classes.” In re Coram Healthcare
Corp., 315 B.R. 321, 348 (Bankr. D. Del. 2004). Courts
have held that there is significant flexibility in classifying claims and interests into different classes as long
as a rational legal or factual basis for separate classification exists and all claims or interests within a particular class are substantially similar. See, e.g., Jersey
City, 817 F.2d at 1060-61 (approving classification of
general unsecured creditors into separate classes of
doctors’ indemnification claims, medical malpractice
claims, employee benefit claims, and trade claims).
“[I]n analyzing whether claims within a given class are
substantially similar, the focus of the classification
should be on the legal character of the claim as it relates to the assets of the debtor.” In re W.R. Grace &
Co., 475 B.R. 34, 109-10 (D. Del. 2012), aff ’d, 729 F.3d
332 (3d Cir. 2013) (internal citations and quotation
marks omitted). The “primary analysis centers upon

App. 63
the legal attributes of the claims and not upon the status or circumstances of the claimant. Emphasis is not
upon the holder so much as it is upon that which is
held.” In re FF Holdings Corp., 1998 U.S. Dist. LEXIS
10741, *13 (D. Del. Feb. 17, 1998) (quoting In re Northeast Dairy Cooperative Fed., Inc., 73 B.R. 239, 250
(Bankr. N.D.N.Y. 1987)). In determining whether the
separate classification of substantially similar claims
is permissible. “[i]t is a well-recognized principle that
the classification of claims or interests must be ‘reasonable’ and cannot be grouped together for arbitrary or
fraudulent purposes.” W.R. Grace, 475 B.R. at 110.
Addressing Appellant’s argument that the Plan
improperly classified his claims separately from other
general unsecured claims, the Bankruptcy Court noted
that the proper analysis “focused on how the legal
character of the claim relates to the assets of the debtor
and whether the claims exhibit a similar effect on the
bankruptcy estate.” (7/24/17 Hr’g Tr. at 5:23-25). Based
on the character and effect of the claims, the Bankruptcy Court found the Plan’s separate classification of
those claims to be reasonable and based on a “justifiable rationale:”
[T]he debtors are entitled to flexibility in
classifying claims [and] interests into different classes so long as a rational[ ], legal, or factual basis for separate classifications exists
and all claims or interest[s] within a particular class are substantially similar.
On[e] such justifiable rationale for separately classifying certain trade creditors from

App. 64
others is the debtors’ intention of a continuing
business relationship with such trade creditors as here. In its submissions, the debtors
clearly explain that separate classification is
necessary to maintain ongoing business relationships that [t]he debtors need to ensure the
continuance of operations.
In Coram, the Bankruptcy Court determined that separate classification of unsecured noteholders and trade creditors was
reasonable because each group represented a
voting interest that was sufficiently distinct
from one another to merit a separate voice in
the reorganization.
Here, I similarly find that the plan reasonably classifies the 2018 noteholders separately from the other unsecured claims
including intercompany claims, other general
unsecured claims, and [what] I’ll refer to as
litigation claims including tort and disputed
contract claims, all related to activities arising out of day-to-day operations of the companies.
(Id. at 6:1-24).
Appellant argues on appeal that “[t]he purported
justification for separate classification [of those substantially similar claims] – that is, note claims on the
one hand versus claims ‘arising out of day-to-day operations,’ on the other – does not pass muster under the
law.” (D.I. 29 at 31-32). Appellant argues that litigation
claims being paid in full include liabilities arising out
of “negative outcomes,” including “lawsuits involving

App. 65
employment, commercial, and environmental issues,
other claims for injuries and damages, and various
shareholder and class action litigation, among other
matters.” (See D.I. 29 at 34 (citing 7/21/17 Hr’g Tr. 40:142:6)). “Other than saying that those claims arose from
‘day-to-day operations,’ the Bankruptcy Court failed to
identify any business reason for paying those litigation
claims in full, while simultaneously paying holders of
the 2018 Notes Claims received less than 10 cents on
the dollar.” (Id.) According to Appellant, “It is difficult
to fathom what possible business reason could exist.”
(Id). Conversely, Reorganized Debtors argue that the
Bankruptcy Court correctly found that fostering the
Debtors’ reorganization formed a rational basis for
separate classification of the Trade and Business-Related Claims. (See D.I. 37 at 14-15). “Creditors holding
Trade and Business-Related Claims were paid in full
in recognition of the impossibility of partially impairing them during an expedited case, the relatively small
amount that this body of creditors represents, and
their importance to the smooth operation and success
of the Debtors’ business.” (Id. at 36-37).
Numerous cases permit separate classification of
trade claims from noteholder claims on the grounds
that such claims have different legal attributes. In Coram, the chapter 11 plan separately classified trade
creditors from other unsecured claims, including noteholder claims, and the noteholders argued that such
separate classification of substantially similar claims
was improper. See Coram, 315 B.R. at 348-49. The court
found that the legal attributes of the noteholder claims

App. 66
were different from the trade claims because the noteholder claims “arose from the purchase of notes, not the
provision of services to the [d]ebtors” like the trade
claims. See id. at 349. Accordingly, the court concluded
that the claims were not substantially similar and that
separate classification was proper. Id. at 351 (“[W]e are
convinced that the Noteholders do represent a voting
interest that is sufficiently distinct from the trade
creditors to merit a separate voice in this reorganization case.”). As in Coram, the Plan here permissibly
classified claims arising from the purchase of the 2018
Notes separately from claims arising from the Debtors’
operations and businesses, Classes A7, B7, and C7.
Claims in Class A6 (2018 Note Claims) are legally distinct in nature from claims in the other classes of general unsecured claims. Creditors in Class A6 derive
their claims from the 2018 Note indenture, a single
debt instrument governing the 2018 Notes. In contrast,
the holders of claims in Classes A7, B7 and C7, containing Trade and Business-Related Claims, all have
claims that arose in connection with the Debtors’
business operations, not indentures or similar financial instruments, including certain contingent litigation claims related to the Debtors’ operations and
businesses.
Reorganized Debtors further cite decisions by
“[n]umerous courts [that] have held that separate
classification and treatment of trade claims is acceptable if the separate classification is justified because they are essential to a reorganized debtor’s

App. 67
ongoing business.”16 Appellant disputes this argument,
arguing that the separate classification was motivated
“solely for the discriminatory purpose of not having to
pay holders of the 2018 Notes Claims in full.” (D.I. 29
at 14). However, Appellant’s only argument in support
of discriminatory purpose is circular: essentially, that
the separate classification otherwise “makes no sense.”
(See id. at 33). “The origin of a given unsecured claim
has nothing to do with whether a business reason exists for providing that claim with better treatment going forward.” (Id.). Appellant’s argument regarding
discriminatory purpose is unavailing. The Bankruptcy Court’s decision rested on its finding that the
separate classification of trade creditors from noteholders fosters the reorganization. This finding is
supported by the record, including Debtors’ CRO’s
16

See, e.g., Coram, 315 B.R. at 349 (approving separate classification of trade creditors from other unsecured claims, including noteholder claims); Jersey City Med. Ctr., 817 F.2d at 1061
(upholding separate classification of trade creditors as reasonable
because of the differences between physician claims, medical malpractice claims, employee benefit claims, and trade creditor
claims); FF Holdings, 1998 U.S. Dist. LEXIS 10741, at *16 (finding that separate classification of trade claims is permitted “if the
separate classification is justified by a ‘reasonable purpose,’ legitimate basis, or necessary business objective.”); In re Adelphia
Commc’ns Corp., 368 B.R. 140, 247 (Bankr. S.D.N.Y. 2007) (finding it was within the debtor’s discretion to separately classify the
trade claims from other unsecured claims because the trade
claims reserves would be shielded from the risk of certain of the
unliquidated claims in the other unsecured claims class); In re
Richard Buick, Inc., 126 B.R. 840, 852 (Bankr. E.D. Pa. 1991) (upholding full payment of trade claims but only 5% recovery for
other unsecured claims because full payment of the trade claims
was necessary to the future success of the debtor’s business).

App. 68
confirmation hearing testimony that the separate classification and treatment of the Trade and BusinessRelated Claims was necessary (i) to “preserve what
little trade credit the company did have remaining,”
(ii) because the businesses are typically operated in
smaller towns with limited vendors, and (iii) because
not paying any particular vendor would likely tarnish
the reputation of the Debtors and harm relationships
with other current or future potential vendors. (7/21/17
Hr’g Tr. 60:24-62:5; see also B.D.I. 338 at ¶ 37). Nothing
in the record indicates that Appellant’s claims were
placed in Class A6 for arbitrary or fraudulent purposes, which is also belied by the Class A6 vote.17 The
Court finds no error in the Bankruptcy Court’s determination that a rational basis for separate classification exists and that the classification was reasonable.
V.

CONCLUSION

The Plan has been substantially consummated,
and there is no practical relief that could be granted to
Appellant that would not violate express provisions of
the Bankruptcy Code, fatally scramble the Plan, and
significantly harm third parties who have justifiably
relied on plan confirmation. Therefore, the appeal
meets the criteria for equitable mootness. Alternatively, the Bankruptcy Court’s ruling is consistent with

17

The record reflects that, of the holders of Class A6 claims
who voted on the Plan, approximately 80% in number voted to
accept the Plan. (See B.D.I. 154, A746 (voting declaration)).

App. 69
existing precedent, and the Confirmation Order is affirmed.
A separate order will be entered.

App. 70
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
IN RE:
:
NUVERRA ENVIRONMENTAL :
SOLUTIONS, INC., et al.,
:
:
Debtors.
:
:
DAVID HARGREAVES,
:
:
Appellant,
:
v.
:
NUVERRA ENVIRONMENTAL :
:
SOLUTIONS, INC., et al.,
:
Appellees.
:

Chapter 11
Case No.
17-10949-KJC
(Jointly Administered)
Civ. No.
17-1024-RGA

ORDER
For the reasons set forth in the accompanying
Memorandum, this 21 day of August, 2018, IT IS
HEREBY ORDERED that:
1.

The Motion to Dismiss (D.I. 31) is GRANTED.

2.

Alternatively, the Confirmation Order (B.D.I.
366) is AFFIRMED.

3.

The Clerk is directed to CLOSE Civ. No. 171024-RGA.
/s/ Richard G. Andrews
United States District Judge

App. 71
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF DELAWARE
IN RE:
:
NUVERRA ENVIRONMENTAL :
SOLUTIONS, INC., et al.,
:
:
Debtors.
:
:
DAVID HARGREAVES,
:
:
Appellant,
:
v.
:
NUVERRA ENVIRONMENTAL :
:
SOLUTIONS, INC., et al.,
:
Appellees.
:

Chapter 11
Case No.
17-10949-KJC
(Jointly Administered)
Civ. No.
17-1024-RGA

MEMORANDUM ORDER
(Filed Aug. 3, 2017)
Before the Court is Appellant’s Emergency Motion
for Stay of Order Confirming the Amended Prepackaged Plans of Reorganization of Nuverra Environmental Solutions, Inc. and its Affiliated Debtors Pending
Appeal (D.I. 3) and related Motion to Expedite (D.I. 4),
seeking a stay pending appeal of a July 25, 2017 order
by the Bankruptcy Court (D.I. 1-1) (“Confirmation Order”), Debtors and the Official Committee of Unsecured Creditors have each filed briefs in opposition.
(D.I. 18, 19). For the reasons set forth below, the Motion
for Stay is denied.

App. 72
1. Background. The following facts appear to
be undisputed. The Confirmation Order approved a
plan of reorganization pursuant to which the Debtors’
secured creditors will not receive 100% recovery on
their secured claims. Unsecured creditors are “out of
the money” with respect to any recovery in this case
because their claims sit behind over $500 million of secured claims in a company that has an uncontroverted
value of $300 million. (B.D.I. 363 at 4:4-8).1 To enable
the business to reorganize, secured creditors made a
“gift” under the plan to general unsecured creditors
who would otherwise receive no distribution under the
Bankruptcy Code’s priority scheme.
2. Despite the fact that unsecured creditors
would receive no distribution absent the gift, Appellant
has appealed the Confirmation Order based on the fact
that the plan places general unsecured claims of the
same priority into two separate classes and provides
disparate treatment. Class A6, comprised of holders
of 9.875% unsecured senior notes due 2018 (“2018
Notes”), will receive an approximate 4%-6% recovery
on account of their claims by virtue of the gift. Class
A7, on the other hand, comprised of trade and other
creditors whose claims arise from the Debtors’ day to
day operations, will receive a 100% recovery by virtue
of the gift. Appellant is a holder of approximately
$450,000 of the 2018 Notes, or 1% of the claims in Class

1

The docket of the Chapter 11 cases, captioned In re Nuverra
Environmental Solutions, Inc., No. 17-10949 (KJC) (Bankr. D.
Del.), is cited herein as “B.D.I. ___.”

App. 73
A6. Class A6 voted to reject the plan,2 while Class A7
voted to accept it. Because the plan is nonconsensual,
Debtors had the burden of “show[ing] that the plan
meets the additional requirements of § 1129(b), including the requirements that the plan does not unfairly
discriminate against dissenting classes and the treatment of the dissenting classes is fair and equitable.” In
re Exide Techs., 303 B.R. 48, 58 (Bankr. D. Del. 2003).
These requirements were addressed in the Debtors’
confirmation brief and declaration in support. (B.D.I.
302, 338).
3. Appellant was the sole objector at the hearing
on plan confirmation and argued, inter alia, that the
plan: improperly classified his claim separately from
other general unsecured claims (see B.D.I. 290 at 6-7);
unfairly discriminated against Class A6 (see id. at 711); and violated the requirement that a nonconsensual plan be fair and equitable (see id at 11-12). Following argument on July 21, 2017 (B.D.I. 362), the
Bankruptcy Court took the matter under advisement
and made a bench ruling via telephonic hearing on
July 24, 2017, overruling the objection and confirming
the plan (B.D.I. 363). The Bankruptcy Court determined that separate classification of trade creditors
2

Despite having approximately 80% in number of holders
vote to accept the plan, the plan failed to gain the support of 50%
in dollar amount. Under section 1126(c) of the Bankruptcy Code,
“[a] class of claims has accepted a plan if such plan has been accepted by creditors that . . . hold at least two-thirds in amount
and more than one-half in number of the allowed claims of such
class held by creditors . . . that have accepted or rejected such
plan.” 11 U.S.C. § 1126(c).

App. 74
and noteholders was reasonable on the basis that trade
creditors were critical to the success of the reorganized
debtors. (B.D.I. 363 at 5:5-6:24). Judge Carey applied
the Markell test3 and determined that, while the disparate treatment of the two classes raised a presumption of unfair discrimination, that presumption was
rebutted because class A6 is “indisputably out of the
money and not, otherwise, entitled to any distribution
under the bankruptcy code’s priority scheme and provided further that the proposed classification and
treatment of the unsecured creditors fosters a reorganization of these debtors.” (Id. at 8:25-9:3). The Bankruptcy Court also rejected Appellant’s argument that
the gift was from estate property, violated the absolute
priority rule, and thus the plan was not “fair and equitable.” (Id. at 10:8-12:12). The Bankruptcy Court ultimately determined that its decision was consistent
with leading cases and approved the plan. Appellant
filed a timely notice of appeal on July 25, 2017. (D.I. 1).

3

Under the Markel] test (named for a professor, not for a
case), a rebuttable presumption of unfair discrimination arises:
when there is (1) a dissenting class; (2) another class
of the same priority; and (3) a difference in the plan’s
treatment of the two classes that results in either (a) a
materially lower percentage recovery for the dissenting
class (measured in terms of the net present value of all
payments), or (b) regardless of percentage recovery, an
allocation under the plan of materially greater risk to
the dissenting class in connection with its proposed distribution.
In re Tribune Co., 472 B.R. 223, 241-42 (Bankr. D. Del. 2012)
(adopting Markell test).

App. 75
4. Jurisdiction. Appeals from the Bankruptcy
Court to this Court are governed by 28 U.S.C. § 158.
District courts have mandatory jurisdiction to hear
appeals “from final judgments, orders, and decrees.”
28 U.S.C. § 158(a)(1).
5. Discussion. “The granting of a motion for
stay pending appeal is discretionary with the court.”
See In re Trans World Airlines, Inc., 2001 WL 1820325,
at *2-3 (Banks. D. Del. Mar. 27, 2001). Appellant bears
the burden of proving that a stay of the Confirmation
Order is warranted based on the following criteria:
(1) whether the movant has made “a strong showing”
that it is likely to succeed on the merits; (2) whether
the movant will be irreparably injured absent a stay;
(3) whether a stay will substantially injure other interested parties; and (4) where the public interest lies.
Republic of Phil. v. Westinghouse Electric Corp., 949
F.2d 653, 658 (3d Cir. 1991). The most critical factors,
according to the Supreme Court, are the first two:
whether the stay movant has demonstrated (1) “a
strong showing” of the likelihood of success, and (2)
that it will suffer irreparable harm – the latter referring to harm that cannot be prevented or fully rectified
by a successful appeal. In re Revel AC, Inc., 802 F.3d
558, 568 (3d Cir. 2015) (citing Nken v. Holder, 556
U.S. 418, 434 (2009) (internal citations omitted). The
Court’s analysis should proceed as follows:
Did the applicant make a sufficient showing
that (a) it can win on the merits (significantly
better than negligible but not greater than
50%) and (b) will suffer irreparable harm

App. 76
absent a stay? If it has, we balance the relative harms considering all four factors using a
sliding scale approach. However, if the movant does not make the requisite showings on
either of these first two factors, the inquiry
into the balance of harms and the public interest is unnecessary, and the stay should be
denied without further analysis.
Revel AC, 802 F.3d at 571 (emphasis in text) (internal
quotations and citations omitted).
6. Likelihood of success on the merits. As to
the first factor, Appellant has not met his burden of
making “a strong showing” that he is likely to succeed
on the merits. According to the Motion for Stay, Appellant’s argument on appeal is that, having determined
under the Markel] test that the disparate treatment of
Classes A6 and A7 gave rise to a presumption of unfair
discrimination, the Bankruptcy Court erred in finding
that the presumption was rebutted and the gift “constitute[d] no unfair discrimination” because “class A6
was indisputably out of the money and not, otherwise,
entitled to any distribution under the Bankruptcy
Code’s priority scheme and provided further that the
proposed classification and treatment of other unsecured
creditors fosters a reorganization of these debtors.”
(D.I. 3 at 6). Appellant argues that the Bankruptcy
Court’s reliance on the gifting doctrine was error because “[g]ifting is simply wrong as a matter of law.” (Id.
at 7). In support, Appellant argues that, in Armstrong
World Industries, Inc., 432 F.3d 502 (3d Cir. 2005), the
Third Circuit held that “vertical class skipping” – the

App. 77
gifting of a distribution from a senior class of creditors
in a manner that skips over an intermediary junior
class, such that it violates the absolute priority rule –
“is not allowed if the gift is property of the estate.” (Id.)
“By the same token,” Appellant argues, horizontal
class skipping – preferring one class of creditors over
another class of creditors with claims of the same priority, as here – should be impermissible also: “gifting
in violation of the requirement that a class not be unfairly discriminated against should not be allowed if
the ‘gift’ is property of the estate.” (Id.) Appellant is unlikely to succeed on the merits of this argument for several reasons.
7. First, although the Bankruptcy Court cited
relevant case law from this district in support its ruling, Appellant fails to address those cases in his Motion
for Stay or explain how the Bankruptcy Court erred in
relying on those cases. In determining that the plan
did not unfairly discriminate, the Bankruptcy Court
relied on In re Genesis Health Ventures, Inc., 266 B.R.
591 (Bankr. D. Del. 2001). (See B.D.I. 363 at 10:1212:12). The bankruptcy court in Genesis confirmed a
similar plan, under which secured lenders made a gift
from their own recovery to certain, but not all, classes
of general unsecured creditors, premised upon the assumption that even if senior lenders received all the
debt and equity distributed under the plan, the senior
lenders’ claims still would not be satisfied in full. See
Genesis, 266 B.R. at 602. Under the plan in that case,
secured creditors did not make a gift to certain classes
of general unsecured creditors (e.g., creditors holding

App. 78
punitive damages claims), and those creditors objected
to plan confirmation on the basis of unfair discrimination. While the disparate treatment gave rise to presumption of unfair discrimination under the Markell
test, the Genesis court ultimately concluded that the
presumption was rebutted:
[T]he recovery by Classes G4 and M4 of a dividend in the form of New Common Stock and
Warrants is based on the agreement of the
Senior Lenders to allocate a portion of the
value they would have otherwise received to
Classes G4 and G5. The disparate treatment
. . . is a permissible allocation by the secured
creditors of a portion of the distribution to
which they would otherwise be entitled, rather than unfair discrimination against Classes G7 and M7 by the proponents of the plan.
Id. at 612. Thus, Genesis held that the presumption of
unfair discrimination is rebutted where the distribution is based on the agreement of senior lenders to allocate a portion of the value to which they would have
otherwise been entitled under the Bankruptcy Code.
The Bankruptcy Court’s ruling here is consistent with
Genesis, and Appellant points to no differences between these cases that requires a different outcome or
would make his success on appeal likely.
8. Appellant’s reliance on the Third Circuit’s
holdings in Armstrong and ICL is misplaced. Under
the proposed plan in Armstrong, an unsecured creditor
class would receive and automatically transfer warrants to purchase common stock (property of the

App. 79
estate) to a class of equity holders, despite the fact that
the plan did not provide full recovery for all unsecured
creditors in classes senior to the equity holders. See
Armstrong, 432 F.3d at 514. The Third Circuit determined that vertical class skipping gifts like these violated the absolute priority rule, which is codified as
part of the “fair and equitable” requirements of section
1129(b). “Under the statute, a plan is fair and equitable
with respect to an impaired, dissenting class of unsecured claims if (1) it pays the class’s claims in full, or
if (2) it does not allow holders of any junior claims or
interests to receive or retain any property under the
plan ‘on account of ’ such claims or interests.” Id. at 512
(citing 11 U.S.C. § 1129(b)(2)(B)(i)-(ii). The Armstrong
court concluded that the plain language of the statute
makes clear that a plan cannot give property to junior
claimants over the objection of a more senior class that
is impaired. Id. at 513. In the context of gifts, the Third
Circuit noted that “section 1129 was at least designed
to address ‘give-up’ situations where a senior class
gave property to a class junior to the dissenting class.”
Id. Unlike Armstrong, the gift at issue here is a voluntary carve out from the senior lender’s liens, and the
plan does not involve vertical class skipping as it does
not provide a distribution to a class junior to the dissenting class – Class A6.
9. Appellant further cites the Third Circuit’s ruling in ICL – a case decided in the context of a settlement agreement in connection with an asset sale, not
a plan of reorganization – for the rule that gifts are
permissible only if they are not made from estate

App. 80
property. In re ICL Holding Co., Inc., 802 F.3d 547 (3d
Cir. 2015). While Appellant appears to argue that the
gift in this case was made from estate property and
was thus impermissible (see D.J. 3 at 7), Appellant provides no support for his argument. As noted above, a
similar gift from senior lenders to certain, but not all,
classes of general unsecured creditors was approved in
Genesis. As the Bankruptcy Court noted in its ruling,
Armstrong distinguished the very similar “arrangement in Genesis as an ordinary carve-out of the senior
creditor’s lien for the junior claimant’s benefit” but did
not reject it. (See B.D.I. 363 at 11:8-12:9).4 The Bankruptcy Court’s ruling is consistent with these cases,
and Appellant offers no reason why he is likely to succeed on appeal in establishing that the gift in this case
was from estate property or otherwise offends the absolute priority rule.
4

In Armstrong, this Court distinguished Genesis on the facts
as involving a distribution of property subject to the senior creditor’s liens that was “carved out” voluntarily for junior claimants.
See In re Armstrong World Indus., 320 B.R. 523, 539 (D. Del.
2005). The Third Circuit adopted this reading of that case, characterizing the Genesis decision as having allowed a secured creditor to “(1) give up their proceeds under the reorganization plan
to holders of unsecured and subordinated claims, without including the holders of punitive damages in the arrangement, and (2)
allocate part of their value under the plan to the debtor’s officers
and directors as an employment incentive package.” See id. at
513-14. See also In re World Health Alternatives, Inc., 344 B.R.
291, 298-99 (Bankr. D. Del. 2006) (discussing Armstrong and Genesis and concluding “[s]uch a carve out does not offend the absolute priority rule or the Bankruptcy Code’s distribution scheme
because the property belongs to the secured creditor – not the estate”).

App. 81
10. Finally, Appellant relies on Sentry, a case
outside this circuit, in which the Bankruptcy Court for
the Southern District of Texas held that a secured
creditor should never be permitted to “decide which
creditors get paid and how much those creditors get
paid.” In re Sentry Operating Co. of Texas, Inc., 264 B.R.
850, 865 (Bankr. S.D. Tex. 2001). Because Appellant
has failed to address case law in this district to the contrary, his reliance on a case outside this circuit does not
establish a likelihood of success on appeal.
11. Irreparable harm. Appellant has failed to
establish that he would suffer irreparable harm in the
absence of a stay. To do so, Appellant must establish a
resulting injury “that cannot be redressed by a legal or
equitable remedy.” Instant Air Freight Co. v. C.F. Air
Freight, Inc., 882 F.2d 797, 801 (3d Cir. 1989). Appellant
merely argues that if no stay is granted, and the plan
is consummated, he may be barred from arguing the
merits of his appeal based on equitable mootness. (See
D.I. 3 at 3, 8). The possibility that an appeal may become moot does not alone constitute irreparable harm
for purposes of obtaining a stay.5 If the plan goes effective, Appellant will be entitled to the same distribution
5

This alleged harm would be purely economic, and, as such,
it also would not satisfy the requirement See e.g., Regal Ware, Inc.
v. Global Home Prods., LLC, 2006 WL 2381918, at *1 (D. Del.
Aug. 17, 2006) (“[T]he fact that [the movant’s] appeal could be
rendered moot . . . does not in and of itself constitute irreparable
harm.”); In re Tribune Co., 477 B.R. 465, 477 n.12 (Bankr. D. Del.
2012) (“[t]he possibility of equitable mootness, while a factor here
for irreparable harm, is not dispositive of the ultimate question of
whether to grant a stay pending appeal.”)

App. 82
as other Class Ab creditors, and Appellant does not argue that he ultimately is entitled to the full payment
of his claim.6 Debtors argue the company’s valuation is
uncontroverted, and it is undisputed that unsecured
creditors are entitled to no distribution under the
Bankruptcy Code. (See D.I. 19 at 15). Thus, it appears
that even if Appellant succeeded on appeal, unsecured
creditors would receive no value under a new proposed
plan or in a liquidation. (See id.) The court agrees with
Debtors that “because there is no value that Appellant
is entitled to seek or likely to obtain in this appeal, Appellant cannot establish that he will suffer irreparable
harm.” (Id.)
12. Having evaluated Appellant’s likelihood of
success on the merits and irreparable harm absent a
stay, and having determined that Appellant has failed
to carry his burden as to either element, the Court is
satisfied no further analysis is required. See Revel AC,
802 F.3d at 571.
13. Conclusion. The Bankruptcy Court’s ruling
is consistent with existing precedent, and Appellant
has failed to establish that he will suffer irreparable
harm in absence of a stay.
NOW, THEREFORE, it is HEREBY ORDERED
that the Motion for Stay (D.I. 3) and Motion to Expedite (D.I. 4) are DENIED.
6

See Revel AC, 802 F.3d at 572 (“[A] purely economic injury,
compensable in money, cannot satisfy the irreparable injury requirement” unless “the potential economic loss is so great as to
threaten the existence of the movant’s business.”)

App. 83
Entered this

3

day of August, 2017.
/s/ Richard G. Andrews
United States District Judge

App. 84
IN THE UNITED STATES BANKRUPTCY COURT
DISTRICT OF DELAWARE
----------------------------------- x
In re:
: Chapter 11
Nuverra Environmental : Case No. 17-10949 (KJC)
:
Solutions, Inc., et al.,1
: (Jointly Administered)
: RE: Docket Nos. 11,
Debtors
:
14, 90, 226, 301,
x
and 337[, 364]
----------------------------------FINDINGS OF FACT, CONCLUSIONS OF LAW
AND ORDER APPROVING (I) THE ADEQUACY
OF THE DISCLOSURE STATEMENT;
(II) PREPETITION SOLICITATION
PROCEDURES; AND (III) CONFIRMATION
OF THE PREPACKAGED PLAN
(Filed Jul. 25, 2017)
Recitals
A. On April 28, 2017 (the “Launch Date”),
Nuverra Environmental Solutions, Inc. (“Nuverra”)
1

The Debtors in these cases (including the last four digits of
their respective taxpayer identification numbers) are: Nuverra
Environmental Solutions, Inc. (7117), Appalachian Water Services, LLC (0729), Badlands Leasing, LLC (2638), Badlands
Power Fuels, LLC (DE) (8703), Badlands Power Fuels, LLC (ND)
(1810), Heckmann Water Resources Corporation (1194), Heckmann Water Resources (CVR), Inc. (1795), Heckmann Woods
Cross, LLC (9761), HEK Water Solutions, LLC (8233), Ideal Oilfield Disposal, LLC (5796), Landtech Enterprises, L.L.C. (9022),
NES Water Solutions, LLC (3421), Nuverra Total Solutions, LLC
(6218), and 1960 Well Services, LLC (5084). The Debtors’ corporate headquarters is located at 14624 N. Scottsdale Rd., Suite
300, Scottsdale, Arizona 85254.

App. 85
and its affiliated debtors and debtors in possession in
the above-captioned cases (collectively, the “Debtors”)
commenced a prepetition solicitation (the “Solicitation”) of votes to accept or reject the Debtors’ Prepackaged Plans of Reorganization Under Chapter 11
of the Bankruptcy Code. Specifically, on the Launch
Date, the Debtors caused Prime Clerk LLC (the
“Solicitation Agent”) to commence service of (1) the
Solicitation and Disclosure Statement, dated April 28,
2017 (as supplemented, the “Disclosure Statement”)
and all exhibits thereto, including, among others, the
Prepackaged Plans of Reorganization under Chapter
11 of the Bankruptcy Code, dated April 28, 2017 (the
“Original Plan”);2 (ii) ballots (the “Ballots”) to
Holders of Claims in Voting Classes (as defined below);
and (iii) a pre-addressed, postage paid return envelope
(collectively, the “Solicitation Materials”) on the
Depository Service List, the Term Loan Lender Service
List, the Bond Nominees Service List, the Nominees
and Depository Service List, and the Supplemental
Bond Nominees Service List, all as more fully described on Exhibits F through Exhibit J to the Affidavit
of Service of Solicitation Materials (the “Solicitation
Service Affidavit”) [Docket No. 67].
B. The Ballots, and a postage paid return envelope, were distributed to each person or entity (or
to its applicable nominee) that was a beneficial holder
2

As used herein, the term “Plan” shall mean the Original
Plan and the Amended Plan (as defined below), as applicable. All
capitalized terms not otherwise defined herein shall have the
meanings ascribed to them in the Plan.

App. 86
of record (a “Holder”) as of April 28, 2017 (the “Voting
Record Date”) of Claims against (i) the Nuverra
Group Debtors related to, arising out of, or in connection with, (a) the term loan credit agreement (the
“Term Loan Facility Claims”) (Class A4), (b) the
12.5%/10.0% Notes due 2021 the “2021 Note Claims”)
(Class A5), or (c) the 9.875% Notes due 2018 (the
“2018 Note Claims”) (Class A6); (ii) the AWS Debtor
related to, arising out of, or in connection with (a) Term
Loan Facility Claims (Class B4), or (b) 2021 Note
Claims (Class B5); or (iii) the Badlands (DE) Debtor
related to (a) the Term Loan Facility Claims (Class C4)
or (b) 2021 Note Claims (Class C5) (Classes A4, A5,
A6, B4, B5, C4 and C5 being the “Voting Classes”).
The Debtors established May 26, 2017 at 5:00 p.m.,
prevailing Eastern time, as the deadline by which
Holders of Claims entitled to vote to accept or reject
the Plan were required to have returned their completed Ballots to the Solicitation Agent (the “Voting
Deadline”).
C. The Debtors did not solicit votes to accept or
reject the Original Plan from holders of Claims or
Equity Interests classified in Classes A1-A3, A7-A12,
B1-133, B6-B10, C1-C3 and C6-C10 (collectively, the
“Non-Voting Classes”), each of which was deemed
under the Original Plan either to have accepted or
rejected the Plan pursuant to sections 1126(f ) or (g) of
title 11 of the United States Code, 11 U.S.C. §§ 1011532 (the “Bankruptcy Code”).

App. 87
D. On May 1, 2017 (the “Petition Date”), the
Debtors filed voluntary petitions for relief under
chapter 11 of the Bankruptcy Code.
E. On May 2, 2017, this Court entered its Order
(I) Scheduling Combined Hearing on (A) Adequacy
of Disclosure Statement and (B) Confirmation of
Prepackaged Plan; (II) Fixing Deadline to Object to
Disclosure Statement and Prepackaged Plan; (III) Approving Prepetition Solicitation Procedures and Form
and Manner of Notice of Commencement, Combined
Hearing, and Objection Deadline; (IV) Conditionally
(A) Directing the United States Trustee Not to Convene Section 341 Meeting of Creditors and (B) Waiving Requirement of Filing Statements of Financial
Affairs and Schedules of Assets and Liabilities; and
(V) Granting Related Relief [Docket No. 59] (the
“Scheduling Order”). In the Scheduling Order, the
Court established (i) June 12, 2017 at 4:00 p.m. as
the deadline by which objections to the Disclosure
Statement or Plan (as defined below) were to be
filed (the “Objection Deadline”) and (ii) June 21,
2017 at 10:00 a.m. as the time and date for the
hearing to consider approval of the Disclosure Statement, the Solicitation and the solicitation procedures
described in the Scheduling Motion (the “Solicitation Procedures”), and confirmation of the Plan
(the “Combined Hearing”). In accordance with the
Scheduling Order, the Debtors were required to
serve and publish a notice (the “Notice”) of, among
other things, (i) the Combined Hearing, (ii) the

App. 88
Objection Deadline, and (iii) the Solicitation Procedures.
F. The Original Plan, filed on the Petition Date,
was the result of rigorous negotiations with, and ultimately, an agreement resulting in significant
concessions from, the Supporting Noteholders, which
was memorialized in the Restructuring Support
Agreement, dated April 9, 2017 (together with all
exhibits, attachments, and amendments thereto, the
“Restructuring Support Agreement”). Pursuant to
the Restructuring Support Agreement, the Debtors’
major creditors—the Supporting Noteholders—agreed
to support the Plan and the restructuring contemplated thereunder.
G. As evidenced by Affidavits of Service and a
Certification of Publication filed in these Cases
(collectively, the “Combined Hearing Notice Affidavits”),3 in accordance with the terms of the
Scheduling Order, the Debtors (i) served the Notice
upon all of the Debtors’ known creditors (or nominees
therefor), indenture trustees, equity interest holders,
the Office of the United States Trustee (the “U.S.
3

The Combined Hearing Notice Affidavits include: (i) Affidavit
of Service of Nicholas Duncan Regarding Order (I) Scheduling
Combined Hearing on (A) Adequacy of Disclosure Statement and
(B) Confirmation of Prepackaged Plan; (II) Fixing Deadline to
Object to Disclosure Statement and Prepackaged Plan, May 11,
2017 Pocket No. 811; (ii) Affidavit of Service of Christine Porter
Regarding Notice of Commencement of cases Under Chapter 11
of the Bankruptcy Code, May 17, 2017 [Docket No. 87]; and
Certification of Publication in USA Today of the Notice of
Commencement, June 13, 2017 [Docket No. 206].

App. 89
Trustee”), all parties requesting notice under Rule
2002 of the Federal Rules of Bankruptcy Procedure
(the “Bankruptcy Rules”), and certain other parties in interest, including counterparties to executory
contracts and unexpired leases as required by the
Scheduling Order and (ii) caused notice of the Combined Hearing and Objection Deadline to be published in the national edition of USA Today on June 7,
2017.
H. On May 19, 2017, the Debtors filed the Plan
Supplement to the Debtors’ Prepackaged Plans of
Reorganization under Chapter 11 of the Bankruptcy
Code [Docket No. 90] containing the following documents: (i) the list of the known members of the
Reorganized Nuverra Board and the nature and
compensation for any director who is an “insider”
under the Bankruptcy Code, (ii) the Schedule of Rejected Contracts, (iii) the employment agreement for
Mark D. Johnsrud, (iv) the Exit Financing Term Sheet,
(v) the Registration Rights Agreement, (vi) the Reorganized Nuverra Constituent Documents,4 (vii) a
term sheet setting forth the material terms and
conditions of the Management Incentive Plan,
(viii) the Rights Offering Procedures, (ix) the Schedule
of Preserved Claims and Causes of Action, and
(x) all exhibits, attachments, supplements, annexes,
schedules, and ancillary documents related to each of
the foregoing. On July 6, 2017, the Debtors filed the
4

The term “Reorganized Nuverra Constituent Documents” means, collectively, the Reorganized Nuverra By-Laws
and the Reorganized Nuverra Certificate of Incorporation.

App. 90
Supplements and Amendment to Plan Supplement
[Docket No. 301), which included: (i) a revised list of
known members of the Reorganized Nuverra Board
and the nature and compensation for any director
who is an “insider” under the Bankruptcy Code,
(ii) the employment agreement for Joseph M. Crabb,
(iii) revised Rights Offering Procedures, (iv) the Warrant Agreement, which governs the warrants to be
issued pursuant to the Plan (the “Unsecured Claim
Warrants”), (v) a commitment letter for exit financing,
(vi) the PSA (as defined below), (vii) an amended
Schedule of Rejected Contracts, and (viii) a schedule
of a contract to be rejected upon the Effective Date
if a motion to assume is not granted. On July 18,
2017, the Debtors filed the Further Supplement and
Amendment to the Plan Supplement [Docket No. 337],
which included: (i) an amended Schedule of Rejected
Contracts, (ii) a revised employment agreement for
Joseph M. Crabb, and (iii) commitment and fee letters
for exit financing (the plan supplement at Docket No.
90 as supplemented and amended by Docket Nos. 301
and 337, the “Plan Supplement”).
I. On May 19, 2017, the U.S. Trustee filed a notice
of appointment [Docket No. 88] of the Official Committee of Unsecured Creditors (the “Committee”). On
June 2, 2017, the U.S. Trustee appointed an additional
member to the Committee following the resignation
of one of the original members [Docket No. 136]. The
additional member subsequently resigned from the
Committee [Docket No. 313].

App. 91
J. In the Declaration of Christina Pullo of Prime
Clerk LLC Regarding Solicitation of Votes and Tabulation of Ballots Cast on the Debtors’ Prepackaged
Plans of Reorganization under Chapter 11 of the Bankruptcy Code, dated June 3, 2017 (the “Voting Affidavit”), the Solicitation Agent certified the results of
the Solicitation and confirmed that the Solicitation
was carried out in accordance with the Solicitation
Procedures [Docket No. 154].
K. On June 1, 2017, the Committee filed the
Motion of the Official Committee of Unsecured Creditors for Reconsideration of Order (I) Scheduling
Combined Hearing On (A) Adequacy of Disclosure
Statement and (B) Confirmation of Prepackaged Plan;
(II) Fixing Deadline to Object to Disclosure Statement
and Prepackaged Plan; (III) Approving Prepetition
Solicitation Procedures and Form and Manner of
Notice of Commencement, Combined Hearing, and
Objection Deadline; (IV) Conditionally (A) Directing
the United States Trustee Not to Convene Section 341
Meeting of Creditors and (B) Waiving Requirement of
Filing Statements of Financial Affairs and Schedules
of Assets and Liabilities; and (V) Granting Related
Relief [Docket No. 127] (the “Committee Reconsideration Motion”), which, among other things,
sought reconsideration of the Scheduling Order and an
adjournment of the Confirmation Hearing for 75 days.
Subsequent to the filing of the Committee Reconsideration Motion, at the Debtors’ request, the Court
rescheduled the Combined Hearing to July 11, 2017,
at 10:00 a.m., and the Court adjourned the Objection

App. 92
Deadline to June 30, 2017 (the “Objection Deadline”).
L. After a series of negotiations among the
Debtors, the Supporting Noteholders, the Committee, and their respective professionals, an agreement
was reached, which was embodied in a plan support
agreement (the “PSA”), dated June 22, 2017, that
settled any potential Committee objections to the
Original Plan. Among other things, the PSA provides for certain amendments to the Plan that were
embodied in the Amended Plan that was filed by
the Debtors on June 23, 2017 [Docket No. 226] (the
“Amended Plan,” and together with the Original
Plan, the “Plan”), and served, along with a blackline
of the Amended Plan reflecting the amendments, upon
the Debtors’ core and Bankruptcy Rule 2002 list.
Pursuant to the PSA, the Committee agreed to support and aid in the confirmation of the Plan.
M. On June 30, 2017, subsequent to the Objection Deadline, the Unsecured Bondholder’s Objection to Confirmation of the Debtors’ Amended
Prepackaged Plans of Reorganization [Docket No. 290]
was filed on the docket in the Chapter 11 Cases
(as defined below).
N. On July 6, 2017, the Debtors filed the Debtors’
Memorandum of Law in Support of an Order Approving (I) the Adequacy of the Disclosure Statement;
(II) Prepetition Solicitation Procedures; and (III) Confirmation of the Prepackaged Plan [Docket No. 302]
(the “Confirmation Memorandum”).

App. 93
O. On July 18, 2017, the Debtors filed (i) the
proposed confirmation order and (ii) the Declaration of
Robert D. Albergotti in Support of the Memorandum of
Law in Support of an Order Approving (I) the Adequacy
of the Disclosure Statement; (II) Prepetition Solicitation Procedures; and (III) Confirmation of the Prepackaged Plan (the “Confirmation Declaration,”
together with the Confirmation Memorandum and
the proposed confirmation order, the “Confirmation
Submissions”).
P. At the Combined Hearing, this Court considered the Confirmation Submissions and heard
the arguments of counsel supporting confirmation of
the Plan and approval of the Solicitation Materials,
including the Disclosure Statement and the Solicitation Procedures.
WHEREFORE, this Court, having reviewed the
Solicitation Materials, the Plan, the Solicitation
Procedures, the Voting Affidavit and the Confirmation Submissions; having held the Combined Hearing to consider the approval of the adequacy of the
information contained in the Disclosure Statement,
the Solicitation Procedures, and confirmation of the
Plan; having considered all evidence submitted or
presented at the Combined Hearing; having found
that the legal and factual bases set forth in the
Confirmation Submissions and the Voting Affidavit
and presented at the Combined Hearing establish just
cause for the relief granted herein; and having
considered any and all objections to the Plan and
its confirmation, the Disclosure Statement, and the

App. 94
Solicitation Procedures, and all such objections being
consensually resolved or withdrawn, or overruled on
the merits; and after due deliberation thereon and
good cause appearing therefor, this Court hereby
makes and issues the following Findings of Fact and
Conclusions of Law:
Findings of Fact and Conclusions of Law
IT IS HEREBY FOUND AND DETERMINED
THAT:
1. Findings and Conclusions. The findings and
conclusions set forth herein, in the recitals, and in the
record of the Combined Hearing constitute the Court’s
findings of fact and conclusions of law pursuant to Rule
52 of the Federal Rules of Civil Procedure, as made
applicable herein by Bankruptcy Rules 7052 and 9014.
To the extent any of the following findings of fact
constitute conclusions of law, or vice versa, they are
adopted as such.
2. Jurisdiction; Venue; Core Proceeding (28
U.S.C. §§ 157, 1334(a), 1408 and 1409). This Court has
jurisdiction over the Chapter 11 Cases pursuant to 28
U.S.C. §§ 157 and 1334 and the Amended Standing
Order of Reference from the United States District
Court for the District of Delaware dated February 29,
2012. Confirmation of the Plan is a core proceeding under 28 U.S.C. § 157(b)(2) and this Court has
jurisdiction to approve the Disclosure Statement and
the Solicitation Procedures and to determine whether
the Plan complies with the applicable provisions of the
Bankruptcy Code and should be confirmed. Venue is

App. 95
proper before this Court pursuant to 28 U.S.C. §§ 1408
and 1409. Venue in the District of Delaware was proper
as of the Petition Date and continues to be proper.
3. Chapter 11 Petitions and Joint Administration of Cases. On May 1, 2017 (the “Petition Date”),
each Debtor commenced a voluntary case under
chapter 11 of the Bankruptcy Code (the “Chapter 11
Cases”). The Debtors are authorized to continue to
operate their businesses and manage their properties
as debtors in possession pursuant to sections 1107(a)
and 1108 of the Bankruptcy Code. In accordance with
the Order Granting the Motion for Joint Administration [Docket No. 50], the Chapter 11 Cases have been
consolidated for procedural purposes only and are
being jointly administered pursuant to Bankruptcy
Rule 1015(b).
4. Judicial Notice. This Court takes judicial
notice of all orders entered, and all evidence and
arguments made, proffered or adduced at, the hearings
held before this Court during the pendency of the
Chapter 11 Cases.
5. Objections Overruled. All parties have had a
full and fair opportunity to be heard on all issues
raised by objections to confirmation of the Plan. All
unresolved objections, statements, informal objections, and reservations of rights, if any, related to the
Solicitation Procedures, the Disclosure Statement, or
the confirmation of the Plan, are OVERRULED on the
merits.

App. 96
6. Adequacy of the Solicitation Procedures and
Adequacy of the Information Contained in the Disclosure Statement (11 U.S.C. §§ 1125, 1126(b)). Sections 1125(g) and 1126(b) of the Bankruptcy Code
apply to the solicitation of acceptances and rejections of the Plan prior to the commencement of the
Chapter 11 Cases. The Disclosure Statement contains
“adequate information” as such term is defined in
section 1125 of the Bankruptcy Code, thereby satisfying sections 1125 and 1126(b) of the Bankruptcy
Code. Votes for acceptance and rejection of the Plan
were solicited in good faith and the Solicitation
complied with sections 1125 and 1126 of the Bankruptcy Code, Bankruptcy Rules 3017 and 3018, the
Disclosure Statement, all other applicable provisions
of the Bankruptcy Code and all other applicable rules,
laws and regulations. In soliciting votes, the Debtors
properly relied on the exemption from the registration requirements pursuant to section 3(a)(9) of the
Securities Act of 1933 (as amended, and including
the rules and regulations promulgated thereunder,
the “Securities Act”). Accordingly, the Debtors, the
Reorganized Debtors, the Committee, the Supporting Noteholders and any and all affiliates, members,
managers, shareholders, partners, employees, attorneys and advisors of the foregoing are entitled to
the protection of section 1125(e) of the Bankruptcy
Code.
7. Transmittal and Mailing of Materials, Notice.
As evidenced by the Combined Hearing Notice Affidavits, the Voting Affidavit, and the other affidavits

App. 97
of service, mailing, and publication filed with this
Court prior to the Combined Hearing (collectively, the
“Notice Affidavits”),5 the transmittal and service of
the Plan, the Disclosure Statement, the Ballots, and
notice of the Combined Hearing were adequate and
sufficient under the circumstances, and all parties
have been given due, proper, timely, and adequate
notice, and an opportunity to appear and be heard
with respect thereto. The Notice informed creditors
and other parties in interest that the Combined
Hearing could be adjourned, and informed them of
how to access an electronic website with up to date
information regarding the scheduling of the Combined
Hearing. Creditors also had the ability to request
that they be placed on the list of parties regarding
notice pursuant to Bankruptcy Rule 2002. Accordingly, due and proper notice has been given with
respect to the Combined Hearing and the deadlines
and procedures for filing objections to the Disclosure
Statement and confirmation of the Plan in accordance
with the Scheduling Order, the Bankruptcy Code, the
Bankruptcy Rules, and the Local Rules (the “Local
Rules”).
8. Plan Modification. As set forth in the Affidavit
of Service of Nicholas Duncan, dated June 28, 2017
[Docket No. 2801, on June 23, 2017, notice of the
Amended Plan and a redline of the Amended Plan to
the Original Plan were served on the Debtors’ 2002
5

The Notice Affidavits, other than the Combined Hearing
Notice Affidavits, are located at Docket Nos. 67, 97, 113, 114, 185,
199, 229, 233.

App. 98
Service List. Adequate and sufficient notice of the
modifications to the Original Plan has been given, no
other further notice, or re-solicitation of votes on the
Plan, including the amendments set forth in the
Amended Plan, is required, and such modifications are
approved in full. The votes cast to accept the Original
Plan are deemed to have been cast with respect to the
Amended Plan, as so modified.
9. Burden of Proof. The Debtors, as proponents
of the Plan, have met their burden of proving the
elements of sections 1129(a) and (b) of the Bankruptcy
Code by a preponderance of the evidence.
10. Plan Compliance with the Applicable Provisions of the Bankruptcy. Code (11 U.S.C. § 1129(a)(1)).
As set forth below, the Plan complies with the applicable provisions of the Bankruptcy Code, thereby
satisfying section 1129(a)(1) of the Bankruptcy Code:
(a) Proper Classification of Claims and Equity
Interests (11 U.S.C. §§ 1122 and 1123(a)(1)). The
Plan designates 32 Classes of Claims and Equity
Interests, aside from Claims that need not be
classified, including Claims against any Debtor
for costs and expenses of administration under
section 503(b)(1) or 507(b) of the Bankruptcy Code,
including for (i) the actual and necessary costs
and expenses incurred after the Petition Date of
preserving the Estates and operating the businesses of the Debtors, (ii) compensation for services and reimbursement of expenses under
section 330(a) or 331 of the Bankruptcy Code,
including Professional fees and expenses, (iii) any
indebtedness or obligations incurred or assumed

App. 99
by the Debtors during the Chapter 11 Cases,
(iv) all fees and charges assessed against the
Estates under 28 U.S.C. §§ 1911-1930 (collectively,
“Administrative Claims”) and (v) all Claims
against any Debtor of the kind specified in section
507(a)(8) of the Bankruptcy Code (“Priority Tax
Claims”). The Claims or Equity Interests placed
in each Class are substantially similar to other
Claims or Equity Interests, as the case may be, in
such Class. Valid business, factual and legal
reasons exist for separately classifying the various
Classes of Claims and Equity Interests created
under the Plan, and such Classes do not unfairly
discriminate between or among holders of Claims
or Equity Interests. The classification is reasonable and necessary to implement the Plan and is
proper under the Bankruptcy Code. Thus, the
Plan satisfies sections 1122 and 1123(a)(1) of the
Bankruptcy Code.
(b) Specification of Unimpaired Classes
(11 U.S.C. § 1123(a)(2)). The Plan specifies that
Classes A1-A3, A7, A9, A12, B1-B3, B7, B8, B10,
C1-C3, C7, C8 and C10 are Unimpaired within
the meaning of section 1124 of the Bankruptcy
Code, thereby satisfying section 1123(a)(2) of
the Bankruptcy Code.
(c) Specification of Treatment of Impaired
Classes (11 U.S.C. § 1123(a)(3)). The Plan designates each of Classes A4-A6, A8, A10, A11, B4-B6,
B9, C4-C6 and C9 as Impaired within the meaning of section 1124 of the Bankruptcy Code and
specifies the treatment of Claims and Equity Interests in those Classes, thereby satisfying section
1123(a)(3) of the Bankruptcy Code.

App. 100
(d) No Discrimination (11 U.S.C. § 1123(a)(4)).
The Plan provides for the same treatment by the
Debtors for each Claim or Equity Interest in a
particular Class, unless a holder of a particular
Claim or Interest has agreed to less favorable
treatment, which satisfies section 1123(a)(4) of the
Bankruptcy Code.
(e) Implementation of Plan (11 U.S.C.
§ 1123(a)(5)). The Plan and the Plan Supplement
provide adequate and proper means for implementation of the Plan, thereby satisfying
section 1123(a)(5) of the Bankruptcy Code, including, without limitation, (i) the continued corporate existence of the Reorganized Debtors,
(ii) all action set forth in Article IV of the Plan,
(iii) the funding of the Plan, (iv) the cancellation
of certain securities and agreements, (v) the
cancellation of certain existing security interests,
(vi) the composition of the board of directors and
officers of Reorganized Nuverra to the extent
such information is available, (vii) the adoption
of the Management Incentive Plan, (viii) the authorization, issuance, and delivery of Reorganized
Nuverra Common Stock (which the Reorganized
Debtors shall use best efforts to have listed on
a nationally recognized exchange as soon as
practicable subject to meeting applicable listing requirements following the Effective Date),
(ix) the implementation of the Rights Offering,
(x) the entry into the Registration Rights Agreement, (xi) the entry into the Warrant Agreement,
and (xii) taking of all necessary and appropriate
actions by the Debtors or Reorganized Debtors, as
applicable, to effectuate the transactions under
and in connection with the Plan.

App. 101
(f ) Charter Provisions (11 U.S.C. § 1123(a)(6)).
In accordance with section 1123(a)(6) of the Bankruptcy Code, the amended and restated certificate of incorporation and by-laws of Reorganized
Nuverra contain provisions prohibiting the issuance of non-voting equity securities, and provide
for the appropriate distribution of voting power
among all classes of equity securities authorized
for issuance under the Plan [Docket No. 90—Ex. G
¶ 3], thereby satisfying section 1123(a)(6) of the
Bankruptcy Code.
(g) Selection of Officers and Directors (11
U.S.C. § 1123(a)(7)). Section 4.13 of the Plan provides that on the Effective Date, the Reorganized
Nuverra Board shall consist of five members, four
of which are to be appointed by the two largest
creditors in the Chapter 11 Cases (including the
two identified in the Plan Supplement) and the
Debtors’ chief executive officer. Any subsequent
Reorganized Nuverra Board shall be elected,
classified, and composed in a manner consistent
with the Reorganized Nuverra Constituent Documents and applicable non-bankruptcy law. The
provisions of the Plan for the selection of directors
and officers are consistent with the interests of
creditors, the new equity security holders and public policy. The Debtors have identified the directors
and officers of each Reorganized Debtor in the
Plan Supplement to the extent such information
is available. Consequently, the requirements of
section 1123(a)(7) of the Bankruptcy Code have
been met.
(h) Impairment/Unimpairment (11 U.S.C.
§ 1123(b)(1)). In accordance with section 1123(b)(1)

App. 102
of the Bankruptcy Code, Article III of the Plan
impairs or leaves unimpaired, as the case may be,
each Class of Claims and Equity Interests.
(i) Assumption and Rejection of Executory
Contracts and Unexpired Leases (11 U.S.C.
§ 1123(b)(2)). Article V of the Plan addresses the
assumption and rejection of executory contracts
and unexpired leases, and meets the requirements
of section 365(b) of the Bankruptcy Code. In
accordance with Section 5.2 of the Plan, the
Debtors have filed and served the notice of proposed Cure Claims with respect to the executory
contracts and unexpired leases to be assumed by
the Debtors pursuant to the Plan (the “Cure
Claim Notice”) [Docket No. 276] to applicable
parties to executory contracts or unexpired leases
to be assumed, as set forth in the Affidavit/
Declaration of Mailing of Christine Porter Regarding, Notice of Filing of List of Executory
Contracts and Unexpired Leases Potentially Being
Assumed under the Debtors’ Prepackaged Plans
of Reorganization [Docket No. 288]. There have
been no objections to the Debtors’ assumption
of executory contracts and unexpired leases
contained in the Cure Claim Notice.
(j) Settlement and Preservation of Claims
and Causes of Action (11 U.S.C. § 1123(b)(3)). The
Plan is consistent with Bankruptcy Code section
1123(b)(3). In consideration of the distributions,
settlements, and other benefits provided under the
Plan, the provisions of the Plan constitute a goodfaith compromise of all Claims, Equity Interests,
and controversies relating to the contractual,
legal. and subordination rights that a holder of a

App. 103
Claim or Equity Interest may have with respect to
any Allowed Claim or Equity Interest, or any
distribution to be made on account of such Allowed
Claim or Equity Interest. The compromise and
settlement of such Claims and Equity Interests
embodied in the Plan is in the best interest of the
Debtors, the Estates, and all holders of Claims and
Equity Interests, and are fair, equitable, and
reasonable. Section 9.8 of the Plan provides that
the Reorganized Debtors will retain and have the
exclusive right to enforce, after the Effective Date,
any claims, rights and Causes of Action that the
Debtors or the Estates may hold against any
Entity, except for those that have been expressly
released under the Plan. The provisions regarding the preservation of Causes of Action in the
Plan are appropriate, fair, equitable, and reasonable, and are in the best interest of the Debtors,
the Estates, and holders of Claims and Equity
Interests.
(k) Modification of Rights (11 U.S.C.
§ 1123(b)(5)). In accordance with section 1123(b)(5)
of the Bankruptcy Code, Article III of the Plan
modifies or leaves unaffected, as the case may be.
the rights of certain holders of Claims and Equity
Interests.
(l) Additional Plan Provisions (11 U.S.C.
1123(b)(6)). In accordance with section 1123(b)(6)
of the Bankruptcy Code, the Plan includes additional appropriate provisions that are not inconsistent with applicable provisions of the
Bankruptcy Code.

App. 104
(m) Cure of Defaults (11 U.S.C. § 1123(d).
In accordance with section 1123(d) of the Bankruptcy Code, Article V of the Plan provides for
the satisfaction of Cure Claims associated with
executory contracts or unexpired leases to be
assumed pursuant to the Plan in accordance with
Bankruptcy Code section 365(b). As described
above, the Debtors timely filed and served their
Cure Claim Notice, and received no timely
objections to the proposed Cure Claims.
11. Debtors’ Compliance with the Applicable
Provisions of the Bankruptcy Code (11 U.S.C.
§ 1129(a)(2)). The Debtors and their agents have
complied in good faith with the applicable provisions
of the Bankruptcy Code, thereby satisfying section
1129(a)(2) of the Bankruptcy Code. Specifically: (i) the
Debtors are eligible to be debtors under section 109 of
the Bankruptcy Code and are proper proponents of the
Plan under section 1121(a) of the Bankruptcy Code;
(ii) the Debtors have complied with the applicable
provisions of the Bankruptcy Code, except as otherwise
provided or permitted by orders of this Court; and
(iii) the. Debtors have complied with the applicable
provisions of the Bankruptcy Code, including sections
1125 and 1126(b), the Bankruptcy Rules and applicable non-bankruptcy rules and regulations and the
Scheduling Order in transmitting the Solicitation
Materials and in soliciting and tabulating votes to
accept or reject the Plan. The Debtors complied with
applicable provisions of the Bankruptcy Code in
transmitting Combined Hearing notices and otherwise
satisfied 1129(a)(2) of the Bankruptcy Code.

App. 105
12. Plan Proposed in Good Faith (11 U.S.C.
§ 1129(a)(3)). The Debtors have proposed the Plan in
good faith and not by any means forbidden by law,
thereby satisfying section 1129(a)(3) of the Bankruptcy Code. The Plan is the culmination of significant
arm’s-length negotiations with a group composed of
certain unaffiliated Holders of Impaired Claims (the
“Supporting Noteholders”), the Committee, and
other key constituents and is proposed with the honest
purposes of substantially reducing the Debtors’ debt
obligations and expeditiously making the distributions
provided for in the Plan.
13. Payments for Services or Costs and Expenses
(11 U.S.C. §1129(a)(4)). Except as otherwise provided
or permitted by the Plan, or orders of this Court, any
payment made or to be made by the Debtors for
services or for costs and expenses in or in connection
with the Chapter II Cases, or in connection with the
Plan and incident to the Chapter 11 Cases, has been
approved by, or is subject to the approval of, this Court
as reasonable, thereby satisfying section 1129(a)(4) of
the Bankruptcy Code.
14. Directors, Officers and Insiders (11 U.S.C.
§ 1129(a)(5)). The Debtors have complied with section 1129(a)(5) of the Bankruptcy Code. The identity
and affiliations of the persons proposed to serve as
the initial directors and officers of the Reorganized
Debtors after confirmation of the Plan have been fully
disclosed to the extent such information is available,
and the appointment to, or the continuation in, such
offices of such persons is consistent with the interests

App. 106
of the Debtors’ creditors and equity security holders
and with public policy. The identity of any insider that
will be employed or retained by the Reorganized
Debtors and the nature of such insider’s compensation
also have been fully disclosed.
15. No Rate Changes (11 U.S.C. § 1129(a)(6)).
The Plan does not provide for any change in rates
subject to governmental regulation. Thus, section
1129(a)(6) of the Bankruptcy Code is not applicable in
the Chapter 11 Cases.
16. Best Interests of Creditors Test (11 U.S.C.
§ 1129(a)(7)). The Plan satisfies section 1129(a)(7)
of the Bankruptcy Code. The liquidation analysis
contained in Article IX of the Disclosure Statement
and other evidence proffered or adduced at the
Combined Hearing: (i) are persuasive and credible;
(ii) have not been controverted by other evidence or
challenged; and (iii) establish that each holder of a
Claim or Equity Interest in an Impaired Class either
has accepted the Plan or will receive or retain under
the Plan, on account of such Claim or Equity Interest,
property of a value, as of the Effective Date of the Plan,
that is not less than the amount that it would receive
if the Debtors were liquidated under chapter 7 of the
Bankruptcy Code.
17. Acceptance or Rejection by Certain Classes
(11 U.S.C. § 1129(a)(8)). Holders of Claims in the
Voting Classes were the only holders of Claims entitled to vote to accept or reject the Plan pursuant
to the provisions of the Bankruptcy Code. Holders of

App. 107
Claims in Classes A4, B4, C4, A5, B5 and C5 have
accepted the Plan pursuant to section 1126(c) of the
Bankruptcy Code. Holders of Claims in Classes A1-A3,
A7, A9, A12, B1-B3, B7, B8, B10, C1-C3, C7, C8 and
C10 are deemed to have accepted the Plan pursuant
to section 1126(f ) of the Bankruptcy Code. Holders
of Claims in Classes A8, A10, A11, B6, B9, C6 and C9
are conclusively deemed to have rejected the Plan
(collectively, the “Deemed Rejecting Classes”). Notwithstanding that Holders of Claims in Classes A8,
B6, and C6 receive distributions under the Amended
Plan pursuant to the settlement embodied in the PSA,
Classes A8, B6, and C6 are deemed to reject the Plan
and are not entitled to vote thereon. Holders of Claims
in Class Ad have voted to reject the Plan. The Plan,
therefore, does not satisfy section 1129(a)(8) of the
Bankruptcy Code. Notwithstanding the lack of compliance with section 1129(b)(8) of the Bankruptcy Code
with respect to the rejecting Class and Deemed Rejecting Classes, the Plan is confirmable because, as set
forth below, it satisfies section 1129(b)(1) of the Bankruptcy Code with respect to such Classes. As set forth
in the Voting Affidavit, the percentages of Holders of
Claims in Classes entitled to vote on the Plan that
voted to accept or reject the Plan are as follows:

App. 108
Plan
Amount Amount Number Number
Class of Accepting Rejecting Accepting Rejecting
Impaired Plan (% of Plan (% Plan (% Plan (%
Creditors Amount of Amount of Number of Number
Voted)
Voted)
Voted)
Voted)
CLASS A4 $79,975,
$0.00
5
0
245.53
(0.00%) (100.00%) (0.00%)
(100.00%)
CLASS A5 $337,431, $372,778
64
11
372
(.11%)
(85.33%) (14.67%)
(99.89%)
CLASS A6
$3,153, 4,985,000
171
45
000
(61.26%) (79.17%)
(20.83%)
(38.74%)
CLASS B4 $79,975,
5
0
$0.00
245.53
(100.00%) (0.00%)
(0.00%)
(100.00%)
CLASS B5
$335,
$402,183
43
12
214,052
(.12%)
(78.18%) (21.82%)
(99.88%)
CLASS C4 $79,975,
5
0
$0.00
245.53
(100.00%) (0.00%)
(0.00%)
(100.00%)
CLASS C5
$335,
$458,814
44
12
210,783
(.14%)
(78.57%) (21.43%)
(99.86%)
18. Treatment of Priority Claims (11 U.S.C.
§ 1129(a)(9)). Article II of the Plan provides for the
treatment of Administrative Claims, Priority Tax
Claims and other claims afforded specific treatment
under section 1129(a)(9) of the Bankruptcy Code that
satisfies the requirements of section 1129(a)(9) of the
Bankruptcy Code.

App. 109
19. Acceptance of At Least One Impaired Class
(11 U.S.C. § 1129(a)(10)). As set forth in the Voting
Affidavit, Holders of Claims in Classes A4, AS, B4, B5,
C4 and C5, each of which are Impaired under the Plan,
have voted to accept the Plan in requisite numbers and
amounts without including any acceptance of the Plan
by any insider. Thus, the Plan satisfies section
1129(a)(10) of the Bankruptcy Code.
20. Feasibility (11 U.S.C. § 1129(a)(11)). The Plan
is feasible within the meaning of section 1129(a)(11)
of the Bankruptcy Code. The evidence submitted regarding feasibility (i) was reasonable, persuasive,
accurate and credible; (ii) has not been controverted by
other evidence; (iii) utilizes reasonable and appropriate methodologies and assumptions; (iv) establishes
that the Reorganized Debtors will have sufficient
funds available to meet obligations under the Plan;
and (v) establishes that confirmation of the Plan is not
likely to be followed by a liquidation or need for a
further financial reorganization of the Reorganized
Debtors. Accordingly, the Debtors have established a
reasonable assurance of the Plan’s prospect for success. Furthermore, the financing and other transactions contemplated under the Plan will enable the
Debtors to continue their current operations and will
eliminate a substantial portion of their long-term
debt. By easing the burden of servicing their existing
debt, the Debtors will be better positioned to increase
profits, service debt obligations and create value for
equity holders. The Plan is feasible, and, therefore,
satisfies section 1129(a)(11) of the Bankruptcy Code.

App. 110
21. Payment of Certain Fees (11 U.S.C.
§ 1129(a)(12)). The Plan satisfies section 1129(a)(12) of
the Bankruptcy Code. Section 2.7 of the Plan provides
for payment of all fees payable by the Debtors under
28 U.S.C. § 1930.
22. Continuation of Retiree Benefits (11 U.S.C.
1129(a)(13)). To the extent section 1129(a)(13) of the
Bankruptcy Code applies to the Debtors, as set forth in
Section 5.5 of the Plan, the Reorganized Debtors shall
pay all retiree benefits of the Debtors (within the
meaning of Bankruptcy Code section 1114) at the
level established in accordance with Bankruptcy Code
section 1114, for the duration of the period for which
the Debtors are obligated to provide such benefits.
Therefore the Debtors have complied with section
1129(a)(13) of the Bankruptcy Code.
23. Confirmation of Plan Over Nonacceptance
of Impaired Classes (11 U.S.C. § 1129(b)). As described
above, the Plan satisfies all of the applicable requirements of section 1129(a) of the Bankruptcy Code
other than section 1129(a)(8). Pursuant to section
1129(b)(1) of the Bankruptcy Code, the Plan may
be confirmed notwithstanding the fact that not all
Impaired Classes have voted to accept the Plan.
Requisite numbers and amounts of Holders of Claims
in Classes A4, A5, B4, B5, C4 and C5, have voted to
accept the Plan. Of the Classes entitled to vote, only
Class A6, containing unsecured 2018 Note Claims,
voted to reject the Plan. Classes A8, A10, A11, B6, B9,
C6 and C9 are Classes of unsecured Claims that
are deemed to reject. No holders of Claims or Equity

App. 111
Interests junior to the holders of the unsecured Claims
in the Classes rejecting or deemed to reject will receive
or retain any property under the Plan. Accordingly,
the requirements of section 1129(b)(2)(B)(ii) of the
Bankruptcy Code are satisfied with respect to the
rejecting Classes of unsecured creditors (i.e., Classes
A6, A8, A10, B6, B9, C6 and C9) and the Plan is fair
and equitable with respect to such Classes and does
not unfairly discriminate against such Classes. Class
A11 contains equity interests in Nuverra. With respect
to Class A11, no holders of Equity Interests junior to
the holders of the Equity Interests in Class A11 will
receive or retain any property under the Plan. Accordingly, the requirements of sections 1129(b)(2)(C)(ii) of
the Bankruptcy Code is satisfied with respect to the
rejecting Classes of Equity Interest holders (i.e., Class
A11), the Plan is fair and equitable with respect to
such Class and the Plan does not unfairly discriminate
against such Class. Accordingly, the Plan satisfies the
requirements of section 1129(b) of the Bankruptcy
Code with respect to all rejecting or Deemed Rejecting
Classes and shall be confirmed notwithstanding the
requirements of section 1129(a)(8) of the Bankruptcy
Code.
24. Confirmation of Only One Plan (11 U.S.C.
§ 1129(c)). The Plan is the only plan of reorganization for each Debtor considered by this Court for
confirmation, in accordance with section 1129(c) of
the Bankruptcy Code.
25. Principal Purpose (11 U.S.C. § 1129(d)). The
principal purpose of the Plan is neither the avoidance

App. 112
of taxes nor the avoidance of section 5 of the Securities
Act, and no governmental unit has objected to the
confirmation of the Plan on any such grounds. The
Plan, therefore, satisfies the requirements of section
1129(d) of the Bankruptcy Code.
26. Good Faith Solicitation (11 U.S.C. § 1125(c)).
Based upon the record before this Court, the Debtors,
the Debtors’ other non-Debtor Affiliates; the Reorganized Debtors, the Supporting Noteholders, the
Committee, the Standby Exit Facility Lenders, the
ABL Agent, the ABL Lenders, the Term Loan Agent,
the Term Loan Lenders, the DIP Agents, the DIP
Lenders, the 2018 Note Indenture Trustee, the 2021
Note Indenture Trustee, and any and all predecessors,
successors, assigns, subsidiaries, present and former
Affiliates, managed accounts and funds, current and
former officers and directors, principals, shareholders,
members, partners, managers, employees, subcontractors, agents, advisory board members, financial
advisors, attorneys, accountants, investment bankers,
consultants, representatives, management companies,
fund advisors, and other professionals (including any
professionals retained by such entities), and all of the
foregoing entities’ respective heirs, executors, estates,
servants, and nominees of the foregoing (collectively,
and in each case, excluding the Excluded Parties,6 the
6

As defined in the Plan, the term “Excluded Parties”
means, collectively, any Holder of a Claim against, or Equity
Interests in, Nuverra or any Affiliate or subsidiary (other than,
as Holders of Equity Interests, Nuverra and any direct or indirect subsidiary thereof), or current or former officer, director,
principal, member, employee, agent, or advisory board member

App. 113
“Released Parties”) participated in the formation of,
and the solicitation of votes on the Plan and activities related thereto, in each case, in good faith and
in compliance with the applicable provisions of the
Bankruptcy Code, Bankruptcy Rules, Local Rules and
any applicable non-bankruptcy rules or regulations. In
addition, the Released Parties participated in good
faith and in compliance with applicable provisions of
the Bankruptcy Code, Local Rules and applicable nonbankruptcy law in the offer, issuance, sale, or purchase
of a security, offered or sold under the Plan. The Released Parties, therefore, are entitled to the protections
afforded by section 1125(e) of the Bankruptcy Code
and, to the extent applicable, the exculpatory and
injunctive provisions set forth in Article IX of the Plan.
27. Satisfaction of Confirmation Requirements.
Based on the foregoing, the Plan satisfies the requirements for confirmation set forth in section 1129
of the Bankruptcy Code. Upon confirmation and the
occurrence of the Effective Date, the Plan shall be
binding upon all holders of Claims and Equity

thereof, that (a) seeks any relief materially adverse to the
restructuring transactions contemplated by the Plan or objects
to or opposes any material relief sought by (including any request for relief by any other party that is joined by any of the
foregoing) the Debtors, which request, objection or opposition is
not withdrawn by June 27, 2017, (b) is entitled to vote on any Plan
and does not vote to accept a Plan for which it is entitled to vote
or opts out of any third-party releases sought in connection with
any Plan, or (c) objects to any Plan or supports an objection to any
Plan, which objection or support thereof is not withdrawn by June
27, 2017.

App. 114
Interests, including holders of Claims that voted to
reject the Plan and the Deemed Rejecting Classes.
28. Bankruptcy Rule 3016. The Plan is dated,
and identifies the entities submitting it, thereby
satisfying Bankruptcy Rule 3016(a). The filing of the
Disclosure Statement and the Confirmation Declaration with the Clerk of this Court satisfies Bankruptcy
Rule 3016(b).
29. Bankruptcy Rule 3017. The Debtors have
given proper and sufficient notice of the hearing to
approve the adequacy of information contained in
the Disclosure Statement and the Solicitation Procedures as required by the Scheduling Order and
have thereby satisfied Bankruptcy Rule 3017(a). The
Debtors also have given proper and sufficient notice
of the Combined Hearing as required by Bankruptcy
Rule 3017(d), as modified by the Scheduling Order.
The Solicitation Procedures, pursuant to which the
Solicitation Materials were provided to the Holders of
Impaired Claims, were adequate, thereby satisfying
Bankruptcy Rule 3017(e).
30. Bankruptcy Rule 3018. The solicitation of
votes to accept or reject the Plan solely from the
Holders of impaired Claims satisfies Bankruptcy Rule
3018(a). The Plan was transmitted to all parties in
interest entitled to vote thereon, sufficient time was
prescribed for such entities to accept or reject the Plan,
and the Solicitation Procedures complied with sections 1125 and 1126 of the Bankruptcy Code, thereby
satisfying Bankruptcy Rule 3018(b).

App. 115
31. Rule 9019(a) Settlement. Except as otherwise provided in the Plan and this Confirmation Order,
the Plan, by implementing the Restructuring Support
Agreement and the PSA, is a settlement between and
among the Debtors and their creditors and equity
holders of all claims against the Debtors, pending or
threatened, or that were or could have been
commenced against the Debtors prior to the date of
entry of this Confirmation Order (other than the
Reorganized Debtors’ ability to prosecute objections to
Claims and other retained Causes of Action to the
extent preserved under the Han). Such settlement, as
reflected in the relative distributions and recoveries or
other benefits provided to holders of Claims under the
Plan, benefits the Debtors’ estates and creditors and is
fair and reasonable.
32. Rights Offering. The Plan contemplates the
consummation of the Rights Offering in order to raise
$105 million in funding for the Debtors, which will be
used to fund the Debtors’ business operations. The
Rights Offering Procedures were attached to the
Plan Supplement as Exhibit E. The Rights Offering
was negotiated at arms’-length and in good faith,
including in connection with the offer, issuance and
sale of Reorganized Nuverra Common Stock pursuant
thereto. The Debtors and the Reorganized Debtors’
compliance with provisions of the Rights Offering Procedures, performance of their obligations thereunder
and the consummation of the transactions contemplated thereby, will not result in any violation of
applicable law. Reorganized Nuverra Common Stock

App. 116
issued pursuant to the Rights Offering will be exempt
from registration under the Securities Act pursuant to
section 1145 of the Bankruptcy Code.
33. Exit Financing. In conjunction with the
Effective Date, the Reorganized Debtors (i) expect
to utilize (a) a first lien, senior secured credit facility
to be provided by the Supporting Noteholders in
accordance with the terms and conditions set forth in
the Plan Supplement (the “Backstop Exit Facility”)
or by another party or parties in lieu of the Backstop
Exit Facility and (b) an additional working capital
facility (the “Working Capital Facility”) with a
third-party lender or lenders, including from a single
lender or lenders that also could provide financing in
lieu of the Backstop Exit Facility (the credit facilities
(and any facilities in lieu thereof ) described in (a) and
(b) together with any other credit facility that the
Debtors in their discretion, with the consent of the
Supporting Noteholders, may agree to enter into on
or before the Effective Date, the “Exit Facility”),
(ii) will convert up to $12.5 million of senior secured,
super-priority debtor-in-possession term credit facility
(the “DIP Term Loan Facility”) into shares of Reorganized Nuverra Common Stock as set forth in the
Plan, and (iii) will pay in full the $31.5 million senior
secured, super-priority debtor-in-possession revolving
facility (the “DIP Revolving Facility” and together
with the DIP Term Loan Facility, the “DIP Facilities”)
with proceeds from the Exit Facility. The Exit Facility
is an essential element of the Plan, is necessary for
confirmation and consummation of the Plan and is

App. 117
critical to the overall feasibility of the Plan. Entry into
the Exit Facility is in the best interest of the Debtors,
their estates and all holders of Claims or Interests. The
Debtors have exercised reasonable business judgment
in determining to enter into the Exit Facility. The
terms and conditions of the Exit Facility are, or will be,
fair and reasonable, were, or will be, negotiated in good
faith and at arm’s length, and any credit extended
to the Reorganized Debtors by the lenders pursuant
to the Exit Facility shall be deemed to have been
extended, made, assumed and assigned or issued in
good faith. The Debtors and Reorganized Debtors are
authorized without further approval of the Court to
execute and deliver all agreements, guarantees, instruments, mortgages, control agreements, certificates,
and other documents relating to the Exit Facility and
to perform their obligations thereunder, including,
without limitation, the payment or reimbursement of
any fees, expenses, losses, damages or indemnities.
On the Effective Date, all of the Liens and security
interests to be created under the Exit Facility shall be
deemed approved. In furtherance of the foregoing,
the Reorganized Debtors are authorized to make all
filings and recordings, and to obtain all governmental
approvals and consents necessary to establish and
perfect such Liens and security interests under the
provisions of state, provincial, federal or other law
(whether domestic or foreign) that would be applicable
in the absence of this Confirmation Order, and will
thereafter cooperate to make all other filings and
recordings that otherwise would be necessary under
applicable law to give notice of such Liens and security

App. 118
interests to third parties. The Plan, together with
the commitment for the Exit Facility, was negotiated
between the Debtors and the counterparties thereto in
good faith and at arm’s-length. The terms of the Plan,
including the Debtors’ conversion of the DIP Term
Loan Facility into shares of Reorganized Nuverra
Common Stock, the Debtors’ entry into the Exit
Facility and the payment of fees and expenses in
connection therewith, and the payment in full of the
DIP Revolving Facility, are fair and reasonable, reflect
the Debtors’ exercise of prudent business judgment
consistent with their fiduciary duties and are supported by reasonably equivalent value and fair consideration. The terms of the Plan, including the Exit
Facility, are in the best interest of the Reorganized
Debtors, the Debtors, and their estates, creditors and
other parties in interest.
34. Releases, Exculpations and Injunctions. Pursuant to section 1123(b)(3) of the Bankruptcy Code
and Bankruptcy Rule 9019(a), the settlements, compromises, releases, discharges, exculpations and injunctions set forth in the Plan and implemented by
this Confirmation Order are fair, equitable, reasonable
and in the best interests of the Debtors, the Reorganized Debtors and their Estates, creditors and
equity holders. The releases of non-Debtors under the
Plan are fair to holders of Claims and are necessary
to the proposed reorganization, thereby satisfying the
requirements of in re Continental Airlines, Inc., 203
F.3d 203, 214 (3d Cir. 2000), In re Indianapolis Downs,
LLC, 486 B.R. 286, 305 (Bankr. D. Del. 2013), and In re

App. 119
Zenith Electronics Corp., 241 B.R. 92, 110-11 (Bankr.
D. Del. 1999). The record of the Combined Hearing and
the Chapter 11 Cases is sufficient to support the
releases, exculpations and injunctions provided for in
Article IX of the Plan
35. Retention of Jurisdiction. Pursuant to sections 105(a) and 1142 of the Bankruptcy Code, and
notwithstanding the entry of this Confirmation Order
or the occurrence of the Effective Date, this Court,
except as otherwise provided in the Plan or herein,
shall retain jurisdiction over all matters arising out of,
and related to, the Chapter 11 Cases and the Plan to
the fullest extent permitted by law, including, but not
limited to, the matters set forth in Article X of the Plan.
36. Waiver of Stay. Under the circumstances, it
is appropriate that the 14-day stay imposed by the
Bankruptcy Rules 3020(e) and 7062(a) be waived.
Decrees
WHEREFORE, IT IS HEREBY ORDERED, ADJUDGED, DECREED AND DETERMINED THAT:
37. Findings of Fact and Conclusions of Law. The
above-referenced recitals, findings of fact and conclusions of law are hereby incorporated by reference as
though fully set forth herein and constitute findings of
fact and conclusions of law pursuant to Bankruptcy
Rule 7052, made applicable herein by Bankruptcy
Rule 9014. To the Extent that any finding of fact is

App. 120
determined to be a conclusion of law, it is deemed so,
and vice versa.
38. Disclosure Statement. For the reasons set
forth herein, the Disclosure Statement (i) contains
sufficient information of a kind generally consistent
with the disclosure requirements of applicable nonbankruptcy laws, rules and regulations, including the
Securities Act; (ii) contains “adequate information” (as
such term is defined in Bankruptcy Code section
1125(a)(1) and used in Bankruptcy Code section
1126(b)(2)) with respect to the Debtors, the Plan and
the transactions contemplated therein; and (iii) is
approved in all respects. Accordingly, the Disclosure
Statement hereby is approved.
39. Solicitation. The solicitation of Votes on the
Plan complied with Bankruptcy Code sections 1125
and 1126, Bankruptcy Rules 3017 and 3018, all other
provisions of the Bankruptcy Code, and all other applicable rules, laws, and regulations, and was appropriate and satisfactory, and is approved in all
respects.
40. Ballots. The Ballots utilized in the Solicitation, substantially in the forms filed on the docket in
the Chapter 11 Cases [Docket No. 306], are approved
in all respects.
41. Rights Offering and Rights Offering Procedures. The Rights Offering Procedures are approved
and the Debtors and the Reorganized Debtors’ compliance with provisions of the Rights Offering Procedures, performance of their obligations thereunder

App. 121
and the consummation of the transactions contemplated thereby, will not result in any violation of
applicable law. Accordingly, this order constitutes a
“Rights Offering Order,” approving the Rights Offering
and Rights Offering Procedures, as such term is
defined, and used, in the Plan. Reorganized Nuverra
Common Stock issued pursuant to the Rights Offering
will be exempt from registration under the Securities
Act pursuant to section 1145 of the Bankruptcy Code.
42. Plan Classification Controlling. The classification of Claims and Equity interests for purposes
of the distributions to be made under the Plan shall
be governed solely by the terms of the Plan. The
classifications and amounts of Claims, if any, set forth
on the Ballots returned by the Holders of Impaired
Note Claims in connection with voting on the Plan:
(i) were set forth on the Ballots solely for purposes
of voting to accept or reject the Plan; (ii) do not
necessarily represent, and in no event shalt be deemed
to modify or otherwise affect, the actual amount or
classification of such Claims under the Plan for
distribution purposes; and (iii) shall not be binding
on the Debtors or the Reorganized Debtors, except
with respect to voting on the Plan.
43. Notice of the Combined Hearing. Notice of
the Combined Hearing complied with the terms of
the Scheduling Order, was appropriate and satisfactory, was in compliance with the Bankruptcy Code,
the Bankruptcy Rules, and the Local Rules, and is
approved in all respects.

App. 122
44. Confirmation. The Plan, as supplemented by
the Plan Supplement (which is incorporated by
reference into, and forms an integrated part of, the
Plan), is confirmed under section 1129 of the Bankruptcy Code.
45. Objections to the Plan and Confirmation.
Any objections or responses to confirmation of the Plan
and any reservation of rights contained therein that
have not been withdrawn, waived or settled prior to
the entry of this Confirmation Order are hereby
OVERRULED on the merits and in the entirety, and
all withdrawn objections or responses are hereby
deemed withdrawn with prejudice.
46. Modifications to Plan. Modifications made to
the Plan following the solicitation of votes thereon
satisfied the requirements of Bankruptcy Code section
1127 and Bankruptcy Rule 3019, and no further
solicitation is required.
47. Deemed Acceptance of the Plan as Modified.
In accordance with Bankruptcy Code section 1127 and
Bankruptcy Rule 3019, all holders of Claims who voted
to accept the Plan or who are conclusively presumed to
have accepted the Plan are deemed to have accepted
the Plan as modified in the Amended Plan. No holder
of a Claim shall be permitted to change its vote as a
consequence of such modifications.
48. Plan Supplement and other Essential Documents and Agreements. The form of documents comprising the Plan Supplement, any other agreements.
instruments, certificates or documents related thereto

App. 123
and the transactions contemplated by each of the
foregoing are approved, and, upon execution and
delivery of the agreements and documents relating
thereto by the applicable parties (and the satisfaction
of applicable terms and conditions to their effectiveness), shall be in full force and effect and valid, binding
and enforceable in accordance with the their terms
without the need for any further action, order or
approval of this Court, or other act or action under
applicable law, regulation, order or rule.
49. Disputed Claims. On and after the Confirmation Date, the Reorganized Debtors shall have the sole
authority to litigate, compromise, settle, otherwise
resolve or withdraw objections to all Claims against
the Debtors and to compromise and settle any such
Claims without notice to or approval by the Court or
any other party; provided, however, that consent of the
Supporting Noteholders shall be required for settlement of any Claims with agreed settlement payments
in excess of $100,000.
50. Disallowance of Claims. Except as otherwise specifically provided for in the Plan or this
Confirmation Order or otherwise agreed, Holders of
Claims need not file Proofs of Claim (other than,
without limitation, Proofs of Claim filed on account of
(i) Administrative Claims pursuant to Section 2.1 of
the Plan or (ii) Rejection Damage Claims) and any and
all other Proofs of Claim shall be deemed expunged
from the claims register on the Effective Date without
any further notice to or action, order, or approval of the
Court.

App. 124
51. Administrative Claim Bar Date. Except as
set forth in the Plan, all requests for payment of
Administrative Claims that accrued on or before the
Effective Date (other than Professional Fee Claims,
which are subject to the provisions of Section 2.3 of the
Plan) must be filed and served on the Reorganized
Debtors pursuant to the procedures specified in this
Confirmation Order and the notice of entry of the
Confirmation Order no later than 45 Business Days
after the Effective Date. Holders of Administrative
Claims that are required to, but do not, file and serve
a request for payment of such Administrative Claim by
such date shall be forever barred, estopped, and
enjoined from asserting such Administrative Claim
against the Debtors or Reorganized Debtors or their
property, and such Administrative Claims shall be
deemed discharged as of the Effective Date. Objections
to such requests, if any, must be filed and served on the
Reorganized Debtors and the requesting party no later
than 75 Business Days after the Effective Date or such
later date as the Bankruptcy Court may approve.
52. Professional Compensation and Reimbursement Claims. All final applications for Professional Fee
Claims for services rendered in connection with the
Chapter 11 Cases prior to the Effective Date shall be
filed with the Bankruptcy Court on or before the 35th
Business Day following the Effective Date. Objections
to any Professional Fee Claim must be Filed and
served on the Reorganized Debtors and counsel to the
Reorganized Debtors no later than 60 Business Days
after the Effective Date. On or before the Effective

App. 125
Date, the Debtors or Reorganized Debtors, as the case
may be, shall establish an escrow account for the
payment of Professional Fee Claims (the “Professional Fee Claim Reserve”), which may be maintained in
the account established for the reserve of professional
fees in connection with the DIP Facilities, based upon
the estimate of Professional Fee Claims to be asserted
by professionals holding Professional Fee Claims set
forth in the DIP Budget (as such term is defined in the
DIP Financing Order) or contemplated to be paid with
proceeds of the Exit Facility, provided that, if, after the
payment of all Allowed Professional Fee Claims, there
remains any amounts in the Professional Fee Claim
Reserve, such amounts shall revert to, and become the
sole property of the Debtors; provided, however, that, if
there were to be a shortfall of amounts necessary to
satisfy Allowed Professional Fee Claims from the
Professional Fee Claim Reserve, the Debtors shall
remain obligated to pay such Allowed Professional Fee
Claims and the amount of Allowed Professional Fee
Claims shall not be limited by the amount funded into
the Professional Fee Claim Reserve.
53. Reimbursement of Supporting Noteholders’
Professionals. As set forth in section 5(f ) of the
Restructuring Support Agreement and in sections 2.6
and 5.7 of the Amended Plan, on the Effective Date, the
Debtors shall pay all the reasonable and documented
fees and expenses of the Supporting Noteholders’
Professionals, or, with the consent of the Supporting
Noteholders, as soon as reasonably practicable thereafter. Nothing herein or in the Plan shall require

App. 126
the Supporting Noteholders’ Professionals to file
applications with, or otherwise seek approval of, the
Bankruptcy Court as a condition to the payment of
such fees and expenses.
54. Reimbursement of Exit Facility Lenders’
Professionals. On the Effective Date, or, with the consent of the applicable Exit Facility Lender (as defined
below), as soon as reasonably practicable thereafter,
the Debtors shall pay all the reasonable and documented fees and expenses incurred by professionals
retained by a lender to any Exit Facility (an “Exit
Facility Lender”) that relate to the applicable Exit
Facility, so long as such lender remains a lender of an
Exit Facility. Nothing herein or in the Plan shall
require such Exit Facility Lender’s professionals to file
applications with, or otherwise seek approval of, the
Bankruptcy Court as a condition to the payment of
such fees and expenses.
55. Withholding and Reporting Requirements.
The Debtors and Reorganized Debtors and any other
distributing party shall comply with all applicable tax
withholding and reporting requirements imposed by
any Governmental Unit, and all distributions under
the Plan shall be subject to any such withholding
or reporting requirements, including any distributions
of Reorganized Nuverra Common Stock to current
or former employees of the Debtor. The Reorganized
Debtors shall be entitled to deduct any U.S. federal,
state or local withholding taxes from any Cash payments made with respect to Allowed Claims, as appropriate. As a condition of receiving any distribution

App. 127
under the Plan, the Reorganized Debtors may require
that the Holder of an Allowed Claim entitled to receive
a distribution pursuant to the Plan complete and
return a Form W-8 or W-9, as applicable, or such other
information and certification as may be deemed
necessary for the Reorganized Debtors to comply with
applicable tax reporting and withholding laws. Any
amounts withheld pursuant to this provision shall be
deemed to have been distributed to and received by
the applicable recipient for all purposes of the Plan. In
connection with a distribution under the Plan, the
Reorganized Debtors may take whatever actions are
necessary to comply with applicable U.S. federal,
state, local and non-U.S. tax withholding obligations,
including either withholding from distributions a portion of the Reorganized Nuverra Common Stock and
selling such securities or requiring such Holder of an
Allowed Claim to contribute the necessary Cash to
satisfy the tax withholding obligations. With respect to
any distribution to the Supporting Noteholders, the
Reorganized Debtors may take the actions described in
the preceding sentence only after consultation with
such Supporting Noteholders. Notwithstanding the
foregoing, each Holder of an Allowed Claim that is to
receive a distribution under the Plan shall have the
sole and exclusive responsibility for the satisfaction
and payment of any tax obligations imposed on such
Holder by any Governmental Unit, including income,
withholding, and other tax obligations, on account of
such distribution.

App. 128
56. Management Incentive Plan. Pursuant to
the Plan, up to 12.5% of the Reorganized Nuverra
Common Stock will be reserved for issuance as incentive awards under a Management Incentive Plan,
as described in the Plan, and as set forth in further
detail in the Plan Supplement. Awards issued under
the Management Incentive Plan will be dilutive of all
other Reorganized Nuverra Common Stock issued
pursuant to the Plan.
57. Exemption from Certain Transfer Taxes. To
the extent permitted by applicable law, pursuant to
section 1146(a) of the Bankruptcy Code, no Stamp or
Similar Tax shall result from, or be levied on account
of, (i) the issuance, transfer or exchange of notes, bonds
or equity securities; (ii) the creation of any mortgage,
deed of trust, lien, pledge or other security interest;
(iii) the making or assignment of any lease or sublease;
or (iv) the making or delivery of any deed or other
instrument of transfer, under, in furtherance of, or in
connection with, the Plan, including any merger
agreements, agreements of consolidation, restructuring, disposition, liquidation or dissolution, deeds, bills
of sale, and transfers of tangible property. Unless
the Bankruptcy Court orders otherwise, all sales,
transfers and assignments of owned and leased property approved by the Bankruptcy Court on or before
the Effective Date shall be deemed to have been in
furtherance of, or in connection with, the Plan.
58. Documentation. The Debtors and the Reorganized Debtors, as applicable, are authorized to
execute and deliver (i) all documents, including

App. 129
exhibits, schedules and annexes thereto in connection
with the Exit Facility (collectively, the “Exit Facility
Documents”); (ii) any documents, including exhibits,
schedules and annexes in connection with the Plan
Supplement [Docket Nos. 90, 301]; and (iii) any other
agreements, documents and instruments to be entered
into as of the Effective Date as contemplated by. and
in furtherance of, the Plan (collectively, the “Plan
Documents”), and to take all steps deemed necessary
by the Debtors or the Reorganized Debtors to consummate the transactions contemplated thereby.
59. Binding Effect. Pursuant to section 1141 of
the Bankruptcy Code, effective as of the Confirmation
Date, but subject to the occurrence of the Effective
Date, and except as expressly provided in the Plan or
this Confirmation Order, the provisions of the Plan
(including the exhibits to, and all documents and
agreements executed pursuant to, the Plan) and this
Confirmation Order shall be binding on (i) the Debtors;
(ii) the Reorganized Debtors; (iii) all parties in interest, holders of Claims against and Equity Interests
in the Debtors, whether or not such Claims or Equity
Interests are Impaired under the Plan and whether
or not, if Impaired, such holders of Claims or Equity
Interests accepted the Plan; (iv) each person acquiring
property under the Plan; (v) each counterparty to
an executory contract or unexpired lease of any of
the Debtors; (vi) any Person or Entity making an
appearance in the Chapter 11 Cases or any other
Person in the Chapter 11 Cases; and (vi) the successors
and assigns of all of the above-listed entities.

App. 130
60. Discharge of Debtors. Upon the Effective
Date and in consideration of. the distributions to be
made under the Plan, except as otherwise provided
in the Plan or in the Confirmation Order, the confirmation of the Plan shall discharge the Debtors
and the Reorganized Debtors from any Claim that
arose before the Effective Date, whether or not such
Claim is Allowed and whether or not the Holder of such
Claim has voted on the Plan, and each such Holder (as
well as any trustee or agent on behalf of such Holder)
of a Claim or Equity Interest and any Affiliate of
such Holder shall be deemed forever to have waived,
released, and discharged the Debtors, to the fullest
extent permitted by section 1141 of the Bankruptcy
Code, of and from any and all Claims, interests, rights,
and liabilities that arose prior to the Effective Date.
Except as otherwise provided in the Plan, upon the
Effective Date, all such Holders of Claims and Equity
Interests and their Affiliates forever shall be precluded
and enjoined, pursuant to sections 105, 524, and 1141
of the Bankruptcy Code, from prosecuting or asserting
any such discharged Claim against or cancelled Equity
Interest in any Debtor or any Reorganized Debtor;
provided, however, that, notwithstanding the foregoing, nothing in the Plan is intended to release any
insurer from having to provide coverage under any
policy to which the Debtors or the Reorganized Debtors
and or their current or former officers, directors, employees, representatives or agents are parties or beneficiaries.

App. 131
61. Reservation of Rights in Favor of Governmental Units. Notwithstanding any provision in
the Plan, this Confirmation Order or the related
Plan Documents, nothing discharges or releases the
Debtors, the Reorganized Debtors or any non-debtor
from any Claim, liability or cause of action of the
United States or any State, or impairs the ability
of the United States or any State to pursue any claim,
liability or cause of action against any Debtor, Reorganized Debtor or non-debtor. Contracts, leases,
covenants, operating rights agreements or other interests or agreements with the United States or any
State shall be, subject to any applicable legal or equitable rights or defenses of the Debtors or Reorganized
Debtors under applicable non-bankruptcy law, paid,
treated, determined and administered in the ordinary
course of business as if the Debtor’s bankruptcy cases
were never filed and the Debtor and Reorganized
Debtor shall comply with all applicable non-bankruptcy
law. All Claims, liabilities, or causes of action of
or to the United States or any State shall survive
the bankruptcy case as if the case had not been
commenced and be determined in the ordinary course
of business, including in the manner and by the
administrative or judicial tribunals in which such
rights or claims would have been resolved or adjudicated if the bankruptcy case had not been commenced;
provided, that nothing in the Plan or this Confirmation
Order shall alter any legal or equitable rights or
defenses of the Debtors or the Reorganized Debtors
with respect to any such claim, liability or cause of
action under non-bankruptcy law, or be construed as

App. 132
an admission as to the existence of any fact or the
validity of any Claim with respect to or in connection
with any Claim, liability or cause of action. Without
limiting the foregoing, for the avoidance of doubt:
(i) the United States and any State shall not be
required to file any Claims in the Debtor’s bankruptcy
case in order to be paid on account of any Claim,
liability or cause of action; (ii) nothing shall affect or
impair the exercise of United States’ or any State’s
police and regulatory powers against the Debtors or
the Reorganized Debtors; (iii) nothing shall be interpreted to set cure amounts or to require the government to novate or otherwise consent to the transfer
of any federal or state interests; (iv) nothing shall
affect or impair the United States’ or any State’s rights
to assert setoff and recoupment against the Debtors or
the Reorganized Debtors and such rights are expressly
preserved; and (v) nothing shall constitute an approval
or consent by the United States without compliance
with all applicable legal requirements and approvals
under non-bankruptcy law.
62.

Injunction.

(a) General. All entities who have held, hold
or may hold Claims or Equity Interests (other
than the Claims reinstated or Unimpaired under
the Plan) and all other parties in interest in the
Chapter 11 Cases, along with their respective
current and former employees, agents, officers,
directors, principals and affiliates, permanently
are enjoined, from and after the Effective Date,
from (i) commencing or continuing in any manner
any action or other proceeding of any kind against

App. 133
the Debtors or the Reorganized Debtors; (ii) enforcing, attaching, collecting or recovering by any
manner or means of any judgment, award, decree
or order against the Debtors or Reorganized
Debtors; (iii) creating, perfecting, or enforcing
any encumbrance of any kind against the Debtors
or Reorganized Debtors; or (iv) asserting any
right of setoff, subrogation or recoupment of
any kind against any obligation due the Debtors
or Reorganized Debtors or against the property
or interests in property of the Debtors or Reorganized Debtors, on account of such Claims or
Equity Interests; provided, however, that nothing
contained herein shall preclude such entities from
exercising their rights pursuant to and consistent
with the terms hereof and the contracts, instruments, releases, indentures and other agreements
and documents delivered or assumed under or in
connection with the Plan.
(b) Injunction Against Interference with the
Plan. Upon entry of the Confirmation Order, al]
holders of Claims and Equity Interests and their
respective current and former employees, agents,
officers, directors, principals and affiliates shall
be enjoined from taking any actions to interfere
with the implementation or consummation of
the Plan; provided, that the foregoing shall not
enjoin any party to the Restructuring Support
Agreement from exercising any of its rights or
remedies under the Restructuring Support Agreement in accordance with the terms thereof.
63. Release of Liens. Except as otherwise provided in the Plan or in any contract, instrument,
release or other agreement or document created

App. 134
pursuant to the Plan or this Confirmation Order, on
the Effective Date and concurrently with the applicable distributions made pursuant to the Plan, all
mortgages, deeds of trust, Liens, pledges or other
security interests against any property of the Estates
shall be fully released, settled, discharged and compromised, and all rights, titles and interests of any
holder of such mortgages, deeds of trust, Liens, pledges
or other security interests against any property of the
Estates shall revert to the Reorganized Debtors and
their successors and assigns. To the extent that any
Secured Claim has been satisfied or discharged in full
pursuant to the Plan, and such holder or agent for such
holder of a Secured Claim has filed or recorded publicly
any Liens or security interests to secure such holder’s
Secured Claim, as soon as practicable on or after the
Effective Date such holder (or the agent for such
holder) shall take any and all steps requested by the
Reorganized Debtors that are necessary to cancel or
extinguish such Liens or security interests. The
Reorganized Debtors shall be authorized to file any
necessary or desirable documents to evidence such
release in the name of the party secured by such preEffective Date mortgages, deeds of trust, Liens,
pledges or other security interests.
64. Preservation of All Causes of Action Not
Expressly Settled or Released. Except as otherwise
provided in the Plan or in any contract, instrument,
release, indenture or other agreement entered into in
connection with the Plan, in accordance with section 1123(b) of the Bankruptcy Code, the Reorganized

App. 135
Debtors shall retain (and have the exclusive right to
enforce after the Effective Date) any claims, rights and
Causes of Action that the Debtors or the Estates may
hold against any Entity, including, without limitation,
all claims relating to transactions under section 549
of the Bankruptcy Code, all transfers recoverable
under section 550 of the Bankruptcy Code, all Causes
of Action identified in the Schedule of Preserved
Claims and Causes of Action attached to the Plan
Supplement, all Causes of Action against any Entity
on account of indebtedness, and any other Causes of
Action in favor of the Reorganized Debtors or their
Estates. The Reorganized Debtors shall be permitted
to pursue such retained claims, rights or Causes of
Action, as appropriate, in accordance with the best
interests of the Reorganized Debtors.
65. Cancellation of Notes, Instruments, Debentures, Common Stock and Stock Options. On the
Effective Date, except to the extent provided elsewhere
in the Plan or in this Confirmation Order, each of
(i) the ABL Facility, (ii) the Term Loan Facility, (iii) the
2021 Notes, (iv) the 2018 Notes, (v) the indentures
governing the 2021 Notes and 2018 Notes, (vi) Equity
Interests in the Debtors, (vii) the warrants issued
in connection with the Out-of-Court Restructuring,
(viii) any other notes, bonds, indentures, certificates or
other instruments or documents evidencing or creating
any Claims or Equity Interests and (ix) and all other
items listed in Section 4.5 of the Plan, shall be cancelled and deemed terminated and shall represent only
the right to receive the distributions, if any, to which

App. 136
the holders thereof are entitled under the Plan;
provided, however, that the indentures governing
the 2021 Notes and 2018 Notes. and the Term Loan
Credit Agreement shall continue solely to the extent
necessary to (i) allow Holders of Claims under such
agreements to receive applicable Plan distributions;
(ii) allow the Reorganized Debtors, the 2021 Note
Indenture Trustee, the 2018 Note Indenture Trustee,
and the Term Loan Agent to make applicable distributions pursuant to the Plan on account of the 2021
Note Claims, the 2018 Note Claims, and the Term Loan
Facility Claims, as applicable, and deduct therefrom
such reasonable compensation, fees, and expenses
(a) due to the 2021 Note Indenture Trustee, the 2018
Note Indenture Trustee, or the Term Loan Agent under
the 2021 Note Indenture, the 2018 Note Indenture, or
the Term Loan Credit Agreement, as applicable, or
(b) incurred by the 2021 Note Indenture Trustee, the
2018 Note Indenture Trustee, or the Term Loan Agent
in making such distributions pursuant to the Plan; and
(iii) allow the 2021 Note Indenture Trustee, the 2018
Note Indenture Trustee, and the Term Loan Agent
to (a) be compensated and reimbursed for fees and
expenses, in Cash, in accordance with the 2021 Note
Indenture, the 2018 Note Indenture, or the Term Loan
Credit Agreement, as applicable, (b) maintain and
exercise their respective charging liens against applicable Plan distributions, (c) appear and be heard
in the Chapter 11 Cases or in any proceeding in the
Bankruptcy Court or any other court, (d) enforce any
obligation owed to them under the Plan, and (e) enforce
their rights, claims, and interests vis-à-vis any parties

App. 137
other than the Released Parties. Except as provided
pursuant to the Plan, each of the 2021 Note Indenture
Trustee, the 2018 Note Indenture Trustee, and the
Term Loan Agent and their respective agents, successors, and assigns shall be fully discharged of all of
their duties and obligations associated with the 2021
Note Indenture, the 2018 Note Indenture, or the Term
Loan Credit Agreement.
66. Continued Corporate Existence and Vesting
of Assets in Reorganized Debtors. Each of the Debtors,
as Reorganized Debtors, shall continue to exist on
and after the Effective Date as a separate legal entity
with all of the powers available to such legal entity
under applicable law and pursuant to the applicable
Reorganized Debtors Constituent Documents, without prejudice to any right to alter or terminate such
existence (whether by merger or otherwise) in accordance with applicable law. On and after the occurrence
of the Effective Date, the Reorganized Debtors shall
be authorized to operate their respective businesses,
and to use, acquire or dispose of Assets without
supervision or approval by the Bankruptcy Court and
free from any restrictions of the Bankruptcy Code or
the Bankruptcy Rules. Except as otherwise provided in
this Confirmation Order, the Plan or any Plan Document, on or after the Effective Date, all property of the
estates of the Debtors, and any property acquired by
the Debtors or the—Reorganized Debtors under the
Plan, shall vest in the Reorganized Debtors, free and
clear of all Claims, Liens, charges or other encumbrances and interests.

App. 138
67. Subordination. Except as otherwise expressly provided in the Plan, this Confirmation Order
or a separate order of this Court, the classification
and manner of satisfying all Claims and Equity Interests under the Plan takes into consideration all
subordination rights, whether arising by contract or
under general principles of equitable subordination,
section 510 of the Bankruptcy Code, or otherwise. All
subordination rights that a holder of a Claim or Equity
Interest may have with respect to any distribution
to be made under the Plan shall be discharged
and terminated and all actions related to the enforcement of such subordination rights shall be enjoined
permanently. Accordingly, distributions under the Plan
to holders of Allowed Claims will not be subject to
payment of a beneficiary of such terminated subordination rights, or to levy, garnishment, attachment or
other legal process by a beneficiary of such terminated
subordination rights.
68.

Releases.

(a) Releases by the Debtors. Upon the
Effective Date, except for the rights that remain in
effect from and after the Effective Date to enforce
the Plan and the Plan Documents, the Debtors, the
Reorganized Debtors and the Estates, in each case
on behalf of themselves and their respective
successors, assigns, and representatives and any
and all other entities who may purport to assert
any cause of action derivatively, by or through
the foregoing entities, for good and valuable
consideration, the adequacy of which is hereby confirmed, including, without limitation, the

App. 139
efforts of the Released Parties to facilitate the
reorganization of the Debtors and the implementation of the Plan and the transactions
contemplated therein and thereby, shall forever
release, waive and discharge, to the maximum
extent permitted by law, all claims, obligations,
suits, judgments, damages, demands, debts, rights,
causes of action, losses, remedies, and liabilities
whatsoever, including any derivative claims, asserted or assertable on behalf of the Debtors, the
Reorganized Debtors, or the Estates, whether
liquidated or unliquidated, fixed or contingent,
matured or unmatured, known or unknown, foreseen or unforeseen, then existing or thereafter
arising, in law, equity or otherwise against the
Released Parties that are based in whole or in part
on any act, omission, transaction, event or other
occurrence taking place on or before the Effective
Date, and in any way relating to (i) the Debtors
and any Affiliates or subsidiaries of the Debtors,
(ii) the Reorganized Debtors, (iii) the Estates,
(iv) the purchase, sale, or rescission of the purchase or sale of any security of the Debtors or
the Reorganized Debtors, (v) the subject matter
of, or the transactions or events giving rise to, any
Claim or Equity Interest that is treated in the
Plan, (vi) the Chapter 11 Cases, (vii) the Plan,
including the solicitation of votes on the Plan,
(viii) the Solicitation and Disclosure Statement,
(ix) the restructuring of any Claim or Equity Interest before or during the Chapter 11 Cases,
including the Out-of-Court Restructuring, (x) the
Rights Offering, (xi) the Restructuring Support
Agreement, (xii) the Exit Facility Credit Agreement, and (xiii) the negotiation, formulation or

App. 140
preparation of the foregoing agreements and
transactions described in Article IX of the Plan
(the foregoing, the “Debtor Released Claims”);
provided, however, that (i) no Released Party shall
be released hereunder from any Debtor Released
Claim as a result of any act, omission, transaction,
event or other occurrence by a Released Party that
has been or is hereafter found by any court or
tribunal by final order to constitute gross negligence, fraud, or willful misconduct and (ii) the
foregoing release shall not apply to or release any
express contractual or financial obligations owed
to the Debtors or the Reorganized Debtors or any
right or obligation arising under or that is part of
the Plan or any agreement entered into pursuant
to, in connection with or contemplated by, the
Plan.
(b) Releases by Holders of Claims. To the
fullest extent permitted by applicable law, upon
the Effective Date, for good and valuable consideration, the adequacy of which is hereby
confirmed, including, without limitation, the efforts of the Released Parties to facilitate the
expeditious reorganization of the Debtors and the
implementation of the Plan and the transactions,
contracts and instruments contemplated therein
and thereby, each holder of a Claim in a Voting
Class who (i) does not opt out of the release
provisions in the Plan on their Ballot or (ii) votes
to accept the Plan (the “Releasing Parties”),
agrees to the release provisions in the Plan and
shall forever release, waive and discharge, to the
maximum extent permitted by law, all claims,
obligations, suits, judgments, damages, demands,
debts, rights, causes of action and liabilities

App. 141
whatsoever, including any derivative claims, asserted or assertable on behalf of the Debtors, the
Reorganized Debtors, or the Estates, whether
liquidated or unliquidated, fixed or contingent,
matured or unmatured, known or unknown, foreseen or unforeseen, then existing or thereafter
arising, in law, equity or otherwise against the
Released Parties that are based in whole or in part
on any act, omission, transaction, event or other
occurrence taking place on or before the Effective
Date and in any way relating to or arising from, in
whole or in part, (i) the Debtors and any Affiliates
or subsidiaries of the Debtors; (ii) the Reorganized
Debtors; (iii) the Estates; (iv) the purchase, sale, or
rescission of the purchase or sale of any security of
the Debtors or the Reorganized Debtors; (v) the
subject matter of, or the transactions or events
giving rise to, any Claim or Equity Interest
that is treated in the Plan; (vi) the contractual
arrangements between the Debtors and any
Released Party; (vii) the Chapter 11 Cases;
(viii) the Plan, including the solicitation of votes
on the Plan; (ix) the Solicitation and Disclosure
Statement; (x) the Rights Offering; (xi) the Exit
Facility Credit Agreement; (xii) the restructuring
of any Claim or Equity Interest before or during the Chapter II Cases, including the Out-ofCourt Restructuring; and (xiii) the negotiation,
formulation or preparation of the foregoing agreements and transactions described in Article IX
of the Plan (the foregoing, the “Releasing Party
Released Claims”); provided, however, that
(i) no Released Party shall be released hereunder
from any Releasing Party Released Claim as a
result of any act, omission, transaction, event or

App. 142
other occurrence by a Released Party that has
been or is hereafter found by any court or tribunal
by final order to constitute gross negligence,
fraud, or willful misconduct; (ii) the foregoing
release shall not apply to or release any express
contractual or financial obligations or any right
or obligation arising under or that is part of the
Plan or any agreement entered into pursuant to,
in connection with or contemplated by, the Plan;
and (iii) the foregoing release shall not apply to or
release any Surviving Obligations under the ABL
Credit Agreement or DIP Revolving Facility.
69. Exculpation. To the fullest extent permitted
by applicable law, except with respect to any acts or
omissions expressly set forth in and preserved by the
Plan, the Plan Supplement, or definitive documents,
no Exculpated Party shall have or incur, and each
Exculpated Party is hereby released and exculpated
from, any Claim, Equity Interest, obligation, suit,
judgment, damage, demand, debt, right, cause of
action, loss, remedy, or liability for any claim in
connection with or arising out of the administration
of the Chapter 11 Cases; the formulation, negotiation,
preparation, dissemination, or termination of the
DIP Facilities, the Reorganized Debtors Constituent
Documents, the Management Incentive Plan, the New
Employment Agreements, the Exit Facility Credit
Agreement, the Rights Offering, Rights Offering Procedures, the Registration Rights Agreement, the Solicitation and Disclosure Statement, the Restructuring
Support Agreement, PSA, the Warrant Agreement, the
Plan Supplement, and the Plan (including the Plan

App. 143
Documents), or the solicitation of votes for, or confirmation of, the Plan; any contract, instrument,
release or other agreement or documents (including
providing any legal opinion requested by any entity
regarding any transaction, contract, instrument, document or other agreement contemplated by the Plan
or the reliance by any Exculpated Party on the Plan
or the Confirmation Order in lieu of such legal opinion)
created or entered into in connection with the Disclosure Statement or the Plan; the filing of the Chapter
11 Cases; the funding of the Plan; the occurrence of
the Effective Date; the administration of the Plan or
the property to be distributed under the Plan; the
issuance of securities under or in connection with the
Plan; or the transactions in furtherance of any of
the foregoing; except for gross negligence, fraud, or
willful misconduct as determined by a Final Order,
but in all respects such entities shall be entitled to
reasonably rely upon the advice of counsel with respect
to their duties and responsibilities pursuant to the
Plan. The Exculpated Parties and each of their respective affiliates, agents, directors, officers, employees,
advisors, and attorneys have acted in compliance with
the applicable provisions of the Bankruptcy Code with
regard to the solicitation and distribution of securities
pursuant to the Plan and, therefore, are not, and on
account of such distributions shall not be, liable at
any time for the violation of any applicable law, rule,
or regulation governing the solicitation of acceptances or rejections of the Plan or such distributions
made pursuant to the Plan, including the issuance of
securities thereunder. This exculpation shall be in

App. 144
addition to, and not in limitation of, all other releases,
indemnities, exculpations, and any other applicable
law or rules protecting such Exculpated Parties from
liability.
70. Unimpaired Claims. Notwithstanding anything to the contrary in the Plan or Plan Documents or
in this Confirmation Order, until a Claim in Class A1A3, A7, A9, A12, B1-B3, B7, B8, B10, C1-C3, C7, C8 or
C10 of the Plan that arises prior to the Effective Date
has been (i) paid in full in accordance with applicable
law, or on terms agreed to between the holder of such
Claim and the Debtor or Reorganized Debtor, or in
accordance with the terms and conditions of the
particular transaction giving rise to such Claim or
(ii) is otherwise satisfied or disposed of as determined
by a court of competent jurisdiction, (a) the provisions
of Plan Sections 9.2 (Discharge of Claims), 9.3
(Releases) or 9.5 (Injunction) shall not apply or take
effect with respect to such Claim and (b) such Claim
shall not be deemed settled, satisfied, resolved, released, discharged, or enjoined by any provision of the
Plan or the Plan Documents. Holders of Claims in
Classes A1-A3, A7, A9, A12, B1-133, B7, B8, B10,
C1-C3, C7, C8 or C10 of the Plan shall not be required
to file a Proof of Claim with the Bankruptcy Court.
Holders of Claims falling under Classes A1-A3, A7,
A9, A12, B1-B3, B7, B8, B10, C1-C3, C7, C8 or C10
shall retain all their rights under applicable nonbankruptcy law to pursue their Class A1-A3, A7, A9,
A12, B1-B3, B7, B8, B10, C1-C3, C7, C8 or C10 Claims
against the Debtors or Reorganized Debtors in any
forum with jurisdiction over the parties. The Debtors

App. 145
and Reorganized Debtors shall retain all defenses,
counterclaims, rights to setoff, and rights to recoupment as to Claims classified in Classes A1-A3,
A7, A9, A12, B1-133, B7, B8, B10, C1-C3, C7, C8 or
C10 of the Plan. If the Debtors or the Reorganized
Debtors dispute any Claim falling under Classes
A1-A3, A7, A9, A12, B1-B3, B7, B8, B10, C1-C3, C7,
C8 or C10 of the Plan, and do not object to such Claims
in the Bankruptcy Court, such dispute shall be determined, resolved or adjudicated in the manner as if
the Chapter 11 Cases had not been commenced.
71. Continuation of Automatic Stay. Except as
otherwise expressly provided in the Plan, this Confirmation Order or a separate Order of this Court, all
injunctions or stays provided for in the Chapter 11
Cases under sections 105 or 362 of the Bankruptcy
Code, or otherwise, and in existence on the Confirmation Date, shall remain in full force and effect
through and including the Effective Date.
72. Assumed Contracts and Leases. Immediately prior to the Effective Date, all executory contracts and unexpired leases of the Debtors and any
other agreement that otherwise may have required the
consent of the counterparty to its assumption that
(i) are not rejected by the Debtors prior to the Effective Date (including by designating such contract or
unexpired lease for rejection in the Plan Supplement),
(ii) are not subject to a motion seeking assumption
or rejection as of the Effective Date or (iii) were
not identified in the Plan Supplement as executory
contracts or unexpired leases for which the Debtors

App. 146
expressly reserved the right to seek to reject, shall be
deemed to have been assumed by the Debtors as of the
Effective Date pursuant to sections 365 and 1123 of the
Bankruptcy Code without further notice or order of
this Court and the non-debtor counterparties who have
not objected to the assumption of their executory
contracts or unexpired leases are deemed to have consented thereto. Each executory contract and unexpired
lease assumed pursuant to Article V of the Plan shall
revest in, and be fully enforceable by, the respective
Reorganized Debtor in accordance with the terms
thereof, except as otherwise modified by the provisions
of the Plan, or by any order of this Court. The Reorganized Debtors, except as otherwise agreed by
the parties or ordered by this Court, will, pursuant to
the Plan, cure any and all undisputed defaults under
any executory contract or unexpired lease assumed
pursuant to the Plan.
73. Adequate Assurance of Future Performance.
Except as otherwise provided in this Confirmation
Order, the only adequate assurance of future performance of any executory contract or unexpired lease
that is assumed in connection with the Plan shall be
the promise of the applicable Reorganized Debtor to
perform all obligations under any executory contract
or unexpired lease under the Plan.
74. Cure Claims. Any counterparty to an executory contract or unexpired lease that failed to
object timely to the proposed assumption or Cure
Claim amount shall be deemed to have consented to
such assumption or Cure Claim amount. In the event

App. 147
of a dispute regarding (i) the amount of any payments to cure such a default or (ii) any other matter
pertaining to assumption, the payment of Cure Claims
required by Bankruptcy Code section 365(b)(1) shall
be made no later than 10 Business Days following
the entry of a Final Order or orders resolving the
dispute and approving the assumption. If the Debtors
are unable to resolve an objection to a proposed assumption or Cure Claim amount in a manner that
is satisfactory to the Debtors and the Supporting
Noteholders, the Debtors (with the consent of the
Supporting Noteholders), or the Reorganized Debtors,
as applicable, expressly reserve the right to reject the
executory contract or unexpired lease on or before 10
Business Days following the entry of a Final Order
regarding the proposed assumption and Cure Claim
amount.
75. Rejection of Executory Contracts and Unexpired Leases. This Order shall constitute the Court’s
approval of the rejection of all the executory contracts
and unexpired leases identified on the Schedule of
Rejected Contracts included in the Plan Supplement or
otherwise identified as rejected in the Plan or this
Order. This Order shall constitute an order of the
Court under sections 365 and 1123(b) of the Bankruptcy Code approving such contract and lease rejections. Except as otherwise provided herein or on
the Schedule of Rejected Contracts, the rejection of
executory contracts and unexpired leases rejected by
the Debtors pursuant to this Order shall be effective
as of the Effective Date. In the event that a rejection of

App. 148
an executory contract or unexpired lease by any of
the Debtors pursuant to the Plan results in damages
to the other party or parties to such contract or lease,
any Claims resulting therewith shall be governed by
the procedures set forth in Article V of the Plan.
Allowed Claims arising from the rejection of executory
contracts or unexpired leases (i) against the Nuverra
Group Debtors are treated in Class A8—Nuverra
Group Rejection Damage and Other Debt Claims,
(ii) against the AWS Debtor are treated in Class B6—
AWS Debtor Unsecured Debt Claims, and (iii) against
the Badlands (DE) Debtor are treated in Class C6—
Badlands (DE) Debtor Unsecured Debt Claims.
76. Bar Date for Rejection Damage Claims.
Claims based on the rejection of executory contracts
or unexpired leases (“Rejection Damage Claims”)
must be filed and served on the Reorganized Debtors
so as to be actually received by the Debtor or Reorganized Debtor no later than 30 days after the date
of entry of the Confirmation Order (the “Rejection
Bar Date”). Holders of Rejection Damage Claims
that are required to, but do not, file and serve a request
for payment of such Rejection Damage Claim by
the Rejection Bar Date shall be disallowed automatically, forever barred, estopped, and enjoined from
asserting such Rejection Damage Claim against the
Debtors or Reorganized Debtors or their property, and
such Rejection Damage Claim shall be deemed discharged as of the expiration of the Rejection Bar Date
without the need for any action by the Debtors or
Reorganized Debtors or further notice or action, order,

App. 149
or approval of the Court. The Debtors and Reorganized
Debtors reserve the exclusive right to object to any
Rejection Damage Claims.
77. Insurance Policies. All insurance policies
and insurance policy-related agreements pursuant to
which any Debtor has any obligations in effect as of
this Confirmation Order shall be deemed and treated
as executory contracts pursuant to the Plan and shall
be assumed by the respective Debtors and Reorganized
Debtors and shall continue in full force and effect
thereafter in accordance with their respective terms.
All other insurance policies and insurance policyrelated agreements shall vest in the Reorganized
Debtors.
78.

Surety Bonds.

(a) Each of the Debtors’ surety bonds shall
be deemed assumed effective as of the Effective
Date and each Reorganized Debtor party thereto shall pay any and all premium and other
obligations due (including, but not limited to, any
outstanding claims against the bonds) or that
may become due on or after the Effective Date;
provided that, in lieu of the assumption of a surety
bond, a surety provider may elect to issue a
name-change rider to any such surety bond or to
issue new surety bonds naming the applicable
Reorganized Debtor as permittee/principal on the
same terms as are provided in the existing surety
bond.
(b) Each Reorganized Debtor shall be
deemed to have assumed as of the Effective Date,

App. 150
and shall continue to perform under, any of its
indemnity agreements in place with such surety
provider immediately prior to the Petition Date
(the “Indemnity Agreements”), subject to the
terms and conditions thereof; provided that, in
lieu of the assumption of an Indemnity Agreement, a Reorganized Debtor may enter into a new
indemnity agreement, which agreement shall be
on the same terms and conditions as the existing
Indemnity Agreement with such surety provider
except as otherwise agreed by the Reorganized
Debtors in their sole discretion. Notwithstanding
any other provision of the Plan, all letters of credit,
proceeds from drawn letters of credit, if any, or
other collateral issued to the surety providers as
security for a Debtor’s and Reorganized Debtor’s
obligations under an existing or new surety bond
or Indemnity Agreement shall remain in place to
secure against any “loss” or “default” (as defined in
the applicable Indemnity Agreement) incurred by
the respective surety provider in accordance with
the applicable assumed indemnity Agreement,
and the surety provider’s respective rights to
draw on such letters of credit pursuant to the
applicable Indemnity Agreement shall remain unaffected. For the avoidance of doubt: (i) the obligations of the Debtors under the surety bonds
are contractual and financial obligations and are
being assumed and, as applicable, entered into,
pursuant to and in connection with the Plan; and
(ii) the obligations of any non-Debtor indemnitors
under the surety bonds are not being released or
discharged under the Plan.

App. 151
79. Authorization to Take Acts Necessary to
Implement Plan. Each of the Debtors and the Reorganized Debtors hereby is authorized and empowered to take such actions and to perform such
acts as may be necessary, desirable or appropriate
to comply with or implement the Plan, the Rights
Offering, the Exit Facility Credit Agreement, the
Registration Rights Agreement, the Warrant Agreement, the Reorganized Debtors Constituent Documents, the Restructuring Support Agreement, the
PSA, and any other Plan documents, including the
election or appointment, as the case may be, of directors and officers of the Reorganized Debtors as contemplated in the Plan, and all documents, instruments
and agreements related thereto and all annexes,
exhibits, and schedules appended thereto, and the
obligations thereunder shall constitute legal, valid,
binding and authorized obligations of each of the
respective parties thereto, enforceable in accordance
with their terms without the need for any stockholder
or board of directors’ approval. Each of the Debtors and
the Reorganized Debtors hereby is authorized and
empowered to take such actions, to perform all acts,
to make, execute and deliver all instruments and
documents, to make payments, and to pay all fees and
expenses as set forth in the documents relating to
the Plan and the Exit Facility, including without
limitation, the Registration Rights Agreement, the
Rights Offering, the Reorganized Debtors Constituent
Documents and that may be required or necessary
for its performance thereunder without the need for
any stockholder or board of directors’ approval. On the

App. 152
Effective Date, the appropriate officers of the Reorganized Debtors and members of the boards of
directors of the Reorganized Debtors are authorized
and empowered to issue, execute and deliver the
agreements, documents, securities and instruments
contemplated by the Plan and the Exit Facility in the
name of and on behalf of the Reorganized Debtors.
Each of the Debtors, the Reorganized Debtors and
the officers and directors thereof are authorized to
take any such actions without further corporate action
or action of the directors or stockholders of the Debtors
or the Reorganized Debtors. On the Effective Date,
or as soon thereafter as is practicable, Reorganized
Nuverra shall file its amended certificates of incorporation with the Secretary of State of the state in
which Reorganized Nuverra is (or will be) organized,
in accordance with the applicable general business law
of each such jurisdiction.
80. Exit Facility. On the Effective Date, the
Debtors and/or Reorganized Debtors are authorized,
but not directed, to (i) enter into an Exit Facility
(including the Backstop Exit Facility, the Working
Capital Facility, or any one or more facilities entered
into in lieu of the Backstop Exit Facility and/or the
Working Capital Facility), (ii) borrow under the Exit
Facility, (iii) enter into the other Exit Facility Documents, including any notes, guarantees, collateral
agreements, mortgages, or other documents or agreements delivered, executed or entered in connection
therewith, (iv) to grant liens and security interests to
the applicable agents under the Exit Facility, or any

App. 153
successor agents thereunder (collectively, the “Exit
Facility Agent”) in substantially all of the Reorganized Debtors’ assets, and such documents, Liens and
security interests are approved and ratified, and
(v) make such other modifications or amendments
to the Exit Facility Documents as the Debtors, with
the consent of the Supporting Noteholders, and/or
Reorganized Debtors and Exit Facility Agent may
deem necessary or desirable in connection with the
closing of the Exit Facility and the implementation
thereof. Any other Exit Facility Documents signed by
the Debtors shall be binding and enforceable against
the Debtors and the Reorganized Debtors and their
assets upon and after the Effective Date. All fees, costs
and expenses to be paid or reimbursed by the Debtors
and/or the Reorganized Debtors in connection with the
Exit Facility are ratified and approved. As of the
Effective Date, (i) the security interests and liens
granted to the Exit Facility Agent pursuant to the Exit
Facility shall constitute legal, valid and duly perfected
Liens against the Reorganized Debtors’ assets with the
priority provided for in the Exit Facility Documents
and (ii) neither the obligations created under the Exit
Facility Documents nor the liens granted in favor
of the Exit Facility Agent under the Exit Facility
Documents shall constitute preferential transfers or
fraudulent conveyances under the Bankruptcy Code or
any applicable non-bankruptcy law and shall not
otherwise be subject to avoidance. Notwithstanding
any provision in the Plan or this Confirmation Order
to the contrary, from and after the Effective Date, the
choice of law and jurisdiction provisions contained in

App. 154
the Exit Facility Documents shall be applied to the
Exit Facility and any disputes relating thereto.
81. On the Effective Date, all of the Liens and
security interests to be granted in accordance with the
Exit Facility Documents (a) shall be legal, binding, and
enforceable Liens on, and security interests in, the
collateral granted thereunder in accordance with the
terms of the Exit Facility Documents, (b) shall be
deemed automatically attached and perfected on the
Effective Date of the Plan, subject only to such Liens
and security interests as may be permitted under
the Exit Facility Documents, (c) shall not be subject
to avoidance, recharacterization, or subordination
(including equitable subordination) for any purposes
whatsoever and shall not constitute preferential
transfers, fraudulent conveyances, or other voidable
transfers under the Bankruptcy Code or any applicable non-bankruptcy law, and (d) the Reorganized
Debtors granting such Liens and security interests are
authorized to make all filings and recordings, and to
obtain all governmental approvals and consents
necessary to establish, attach, and perfect such Liens
and security interests under the provisions of the
applicable state, provincial, federal, or other law
(whether domestic or foreign) that would be applicable
in the absence of the Plan and the Confirmation
Order (it being understood that perfection shall occur
automatically by virtue of the entry of the Confirmation Order, and any such filings, recordings,
approvals, and consents shall not be required), and
will thereafter cooperate to make all other filings and

App. 155
recordings that otherwise would be necessary under
applicable law or desirable to give notice of such Liens
and security interests to third parties.
82. On the Effective Date, all of the guarantees
to be made or granted by any of the Reorganized
Debtors in accordance with the Exit Facility Documents (a) shall be legal, binding, and enforceable
guarantees by each such Reorganized Debtor in accordance with the terms of the Exit Facility Documents, and (b) shall not be subject to avoidance,
recharacterization, or subordination (including equitable subordination) for any purposes whatsoever and
shall not constitute preferential transfers, fraudulent
conveyances, or other voidable transfers under the
Bankruptcy Code or any applicable non-bankruptcy
law.
83. On the Effective Date, and subject to the
terms and conditions of the Exit Facility Documents,
all of the mortgages and deeds of trust granted
thereunder, if any, shall be in full force and effect and
(a) shall be legal, binding, and enforceable Liens
on, and security interests in, the collateral granted
thereunder in accordance with the terms of the Exit
Facility Documents, and (b) shall be deemed automatically attached and perfected on the Effective Date
of the Plan, subject only to such Liens and security
interests as may be permitted under the Exit Facility
Documents.
84. Exemption from Securities Laws; Issuance of
Securities. The Debtors and Reorganized Debtors are

App. 156
authorized to issue the securities necessary to effectuate the Plan and any distributions thereunder,
including the issuance of Rights, which were issued in
connection with the Rights Offering, the Unsecured
Claim Warrants and the Reorganized Nuverra Common Stock, pursuant to and in accordance with section 1145 of the Bankruptcy Code. Section 1145(a)(1)
of the Bankruptcy Code exempts the offer and sale
of securities under a plan of reorganization from
registration under section 5 of the Securities Act and
state securities laws if three principal requirements
are satisfied: (i) the securities are offered and sold
under a plan of reorganization and are securities of the
debtor, of an Affiliate participating in a joint plan with
the debtor, or of a successor to the debtor under the
plan; (ii) the recipients of the securities must hold a
claim against, or an interest in, the debtor or such
Affiliate; and (iii) the securities are issued entirely in
exchange for the recipient’s claims against or interests
in the debtor, or are issued “principally” in such
exchange and “partly” in exchange for cash or property.
In addition, section 1145(a)(2) exempts from the
registration under section 5 of the Securities Act and
state securities laws, the offer of a security through
any warrant, option, right to subscribe, or conversion
privilege that was sold in the manner specified in
section 1145(a)(1). The distribution of the Reorganized
Nuverra Common Stock, Unsecured Claim Warrants
and the Rights, if any, under the Plan satisfy the
requirements of sections 1145 of the Bankruptcy Code
and are, therefore, exempt from registration under the
Securities Act and state securities laws.

App. 157
85. Execution By Third Parties. Each and every
federal, state and local governmental agency or department is hereby authorized to accept, and lessors
and holders of liens are directed to execute, any and all
documents and instruments necessary and appropriate to consummate the transactions contemplated
by the Plan including, without limitation, documents
and instruments for recording in county and state
offices where the Reorganized Debtors’ certificates of
incorporation or any other Plan Document may need
to be filed in order to effectuate the Plan.
86. Preparation, Delivery and Execution of Additional Documents by Third Parties. Each holder of a
Claim receiving a distribution pursuant to the Plan
and all other parties in interest shall, from time to
time, take any reasonable actions as may be necessary
or advisable to effectuate the provisions and intent of
the Plan.
87. Governmental Approvals Not Required. Subject to paragraph 61 of this Confirmation Order, this
Confirmation Order shall constitute all approvals and
consents required, if any, by the laws, rules or regulations of any state or any other governmental
authority with respect to the implementation or
consummation of the Plan and any documents, instruments or agreements, and any amendments or
modifications thereto, and any other acts referred to
in or contemplated by the Plan, the Disclosure Statement and any documents, instruments or agreements,
and any amendments or modifications thereto.

App. 158
88. Notice of Entry of Confirmation Order. On or
before the 10th day following the date of entry of this
Confirmation Order, the Debtors shall serve notice of
entry of this Confirmation Order pursuant to Rules
2002(f )(7), 2002(k) and 3020(c) of the Bankruptcy
Rules on the Office of the United States Trustee and
other parties in interest, including, without limitation,
creditors, equity holders, and any party subject to the
injunction provisions in Article IX of the Plan, by
causing a notice of entry of this Confirmation Order to
be delivered to such parties by first class mail, postage
prepaid, or by electronic delivery, if so consented by
receiving parties.
89. Dissolution of the Committee of Unsecured
Creditors. Effective as of the Effective Date, the
Committee appointed in the Chapter 11 Cases is
hereby dissolved and its members are deemed released
of any duties, responsibilities and obligations in
connection with the Chapter 11 Cases or the Plan and
its implementation, and the retention or employment
of their attorneys, financial advisors, and other agents
shall terminate. Notwithstanding the foregoing, the
retained professionals for the Committee shall continue to have standing and the right to be heard with
respect to (i) filing and prosecuting applications for
compensation pursuant to the Orders authorizing the
retention of such professionals [Docket Nos. 239, 238,
237], (ii) any applications for compensation filed by any
other professionals retained in the Chapter 11 Cases,
(iii) the enforcement of the Plan; and (iv) any appeals
with respect to the foregoing.

App. 159
90. References to Plan Provisions. The failure
specifically to include or reference any particular
provision of the Plan in this Confirmation Order shall
not diminish or impair the effectiveness of such
provision, it being the intent of this Court that the Plan
be confirmed in its entirety.
91. Confirmation Order Controlling. If there is
any conflict between the Plan and this Confirmation
Order, the terms of this Confirmation Order shall
control.
92. Reversal. If any or all of the provisions of this
Confirmation Order are hereafter reversed, modified,
vacated or stayed by subsequent order of this Court
or any other court of competent jurisdiction, such
reversal, modification or vacatur shall not affect the
validity or enforceability of any acts, or obligations,
indebtedness, liability, priority or Lien incurred or
undertaken by the Debtors and the Reorganized
Debtors under or in connection with the Plan prior to
the Debtors’ or the Reorganized Debtors’ (as applicable) receipt of written notice of any such order.
Notwithstanding any such reversal, modification or
vacatur of this Confirmation Order, any such act or
obligation incurred or undertaken pursuant to, and in
reliance on, this Confirmation Order prior to the
Debtors or Reorganized Debtors, as applicable, receipt
of written notice of such reversal, modification or
vacatur shall be governed in all respects by the
provisions of this Confirmation Order and the Plan
and all Plan Documents or any amendments or
modifications thereto in effect prior to the date the

App. 160
Debtors or Reorganized Debtors, as applicable, received such actual written notice.
93. Post-Confirmation Modifications. Subject to
the limitations set forth in the Plan, and subject to
the terms of the Restructuring Support Agreement,
after entry of this Confirmation Order, the Debtors
may, upon order of the Court, amend or modify the
Plan, in accordance with Bankruptcy Code section
1127(b). Notwithstanding the foregoing, the Debtors
are authorized to make appropriate technical adjustments, remedy any defect or omission, or reconcile any
inconsistencies in the Plan, the documents included in
the Plan Supplement, any and all exhibits to the Plan,
and this Confirmation Order.
94. Applicable Non-Bankruptcy Law. Pursuant
to sections 1123(a) and 1142(a) of the Bankruptcy
Code, the provisions of this Confirmation Order, the
Plan and the Plan Documents or any amendments
or modifications thereto shall apply and be enforceable notwithstanding any otherwise applicable nonbankruptcy law.
95. Effectiveness of Order. Notwithstanding
Bankruptcy Rules 3020(e) and 6004(h), or any other
provision of the Bankruptcy Code or the Bankruptcy
Rules, this Confirmation Order shall be effective at
12:01 a.m. (prevailing Eastern Time) on August 4,
2017; provided, however, that the Debtors shall be
authorized, pursuant to paragraphs 33, 80, and 81
hereof, and subject to consent of the Supporting
Noteholders, to pay fees and reimburse expenses in

App. 161
connection with the Exit Facility and enter into
commitment agreements associated therewith, immediately upon entry of this Confirmation Order. This
Confirmation Order is and shall be deemed to be a
separate order with respect to each of the Debtors for
all purposes. This Confirmation Order is intended to be
a final order and the period in which an appeal must
be filed shall commence upon entry hereof.
96. Substantial Consummation. Substantial consummation of the Plan under section 1101(2) of the
Bankruptcy Code shall be deemed to occur on the
Effective Date.
97. The Record. The record of the Combined
Hearing is closed.
Dated: Wilmington, Delaware
July 25, 2017
/s/

Kevin J. Carey
KEVIN J. CAREY
UNITED STATES
BANKRUPTCY JUDGE

App. 162
UNITED STATES BANKRUPTCY COURT
DISTRICT OF DELAWARE
IN RE:

• Chapter 11
NUVERRA NEVIRONMENTAL • Case No.
• 17-10949 (KJC)
SOLUTIONS, INC.,
•
Debtor.
• Courtroom No. 5
• 824 N. Market St
• Wilmington, Delaware
• 19801
• July 24, 2017
• 10:00 A.M.
• • • • • • • • • • • • • •
TRANSCRIPT OF HEARING
BEFORE HONORABLE KEVIN J. CAREY
UNITED STATES BANKRUPTCY JUDGE
TELEPHONIC APPEARANCES:
On Listen Only.
Audio Operator:

AL LUGANO

Transcription Service: Reliable
1007 N. Orange Street
Wilmington, Delaware 19801
Telephone: (302) 654-8080
E-Mail: gmatthews@reliable-co.com
Proceedings recorded by electronic sound recording:
transcript produced by transcription service.

App. 163
[2] INDEX
Page
TELEPHONIC HEARING
RULING:

3

[3] (Telephonic Hearing commence at 10:00 a.m.)
THE COURT: Good morning, this is Judge
Carey. We are on the record in the Nuverra Environmental Solutions, related Chapter 11 proceedings.
I set this time aside on Friday for the purposes of
ruling on the objection in connection with the combined disclosure and confirmation hearing that was
held Friday, July 21st. I’m prepared now to give that
ruling.
The parties have resolved all the objections, but
one. The only remaining contested matter involves the
objection by Mr. Hargraves, who is an unsecured bondholder, to confirmation of the amended prepackaged
plans of reorganization.
There is no objection, as the debtor pointed out, at
the confirmation hearing to the adequacy of disclosure
or plan solicitation to the enterprise valuation of the
debtors, satisfaction of the best interest test, or feasibility of the proposed plan, which has received, but for
one objection, one objecting class, A6, overwhelming
creditor support.
The plan is supported by the official committee
of unsecured creditors appointed in these cases and

App. 164
received acceptance from six of the seven classes that
were entitled to vote.
Mr. David Hargraves, now the sole objector to confirmation of the plan, is a holder of approximately [4]
$450,000 of what’s referred to the 2018 notes, a member of class A6 under the proposed plan and a former
member of the committee on which he served ever so
briefly.
Unsecured creditors, including among others,
trade creditors and holders of 2018 notes are out of
the money because they sit behind over $500 million
dollars of secured debt in the company that has an uncontroverted value of approximately $300 million dollars. It is undisputed that class A6 is out of the money
and would not, otherwise, be entitled to any distribution.
As part of the negotiated plan, certain trade and
other creditors, whose debts arise out of the debtor’s
day to day operations, will receive payment in full, receiving value that would, otherwise, inure to the benefit of the secured creditors who will own the debtors’
post emergence.
For the plan to be confirmed, the debtors must
demonstrate by a preponderance of the evidence that
the plan satisfies the standard set forth in 1129 of the
Bankruptcy Code.
The primary allegation raised by Mr. Hargraves,
who does not accept the global settlement among the
debtors and secured creditors and the committee, he

App. 165
says the plan is not confirmable because as a holder of
2018 secured notes and member of class A6, he’s receiving a distribution of less value than certain of the
debtors other unsecured creditors [5] who also hold unsecured claims. He objects to the debtors’ classification
scheme for the same reason arguing that classification
of unsecured claims in more than one class is improper
and calls for disparate treatment.
Section 1122(a) of the Bankruptcy Code provides
that except as otherwise provided in Section 1122(b) of
the code, a plan may place a claim or interest in a particular class only if such claim or interest is substantially similar to the other claims or interest of such
class.
In my ruling in Tribune, I made note that 1122(a)
is mandatory in one respect. Only substantially similar claims may be classified together; yet, Section
1122(a) is permissive in this respect. It does not provide that all similar claims must be placed in the same
class.
Although plan proponents have discretion to classify claims, the third circuit has recognized that the
code does not allow plan proponent complete freedom
to place substantially similar claims in separate classes; instead a classification scheme must be reasonable. In addition, courts in this circuit have interpreted
substantially similar as a reflection of the legal attributes of the claim, not who holds them.
This analysis focuses on how the legal character
of the claim relates to the assets of the debtor and

App. 166
whether the claims exhibit a similar effect on the
bankruptcy estate. [6] Therefore, the debtors are entitled to flexibility in classifying claims in interest into
different classes as long as a rationale, legal, or factual
basis for separate classification exists and all claims or
interest within a particular class are substantially
similar.
Once such justifiable rationale for separately classifying certain trade creditors from others is the debtors’ intention of a continuing business relationship
with such trade creditors as here. In its submissions,
the debtors clearly explain that separate classification
is necessary to maintain ongoing business relationships that he debtors need to ensure the continuance
of operations.
In Coram, the Delaware Bankruptcy Court determined that separate classification of unsecured noteholders and trade creditors was reasonable because
each group represented a voting interest that was sufficiently distinct from one another to merit a separate
voice in the reorganization.
Here, I similarly find that the plan reasonably
classifies the 2018 noteholders separately from the
other unsecured claims including intercompany claims,
other general unsecured claims, and I’ll refer to as litigation claims including tort and disputed contract
claims, all related to activities arising out of day-to-day
operations of the companies.
Mr. Hargraves maintains that even if the 2018
note [7] claims can be classified separately from the

App. 167
general unsecured claims, the amended plan proposes
to treat the various classes of general unsecured creditors drastically differently.
Section 1129(b)(1) of the Bankruptcy Code provides that to confirm a plan that has not been accepted
by all impaired classes, the plan proponent must show
that the plan does not discriminate unfairly and is fair
and equitable with respect to the non-accepting impaired class.
Generally speaking, this standard ensures that
an accepting class will receive relative value equal to
the value given to all other similarly situated classes.
Thus, a plan proponent may not segregate to similar
claims or groups of claims into separate classes and
provide disparate treatment for those classes.
The plan here proposes that as part of the global
settlement with the committee and the debtors’ secured creditors, certain classes of unsecured claim
holders receive distributions of reorganized Nuverra
equity interest and warrants to purchase additional
equity under certain conditions.
The debtors maintain that if the unimpaired unsecured creditors are required to share in those distributions, the debtors will not be able to satisfy their
obligations under the plan support agreement. As
such, the [8] debtors submit that treating holders of
2018 notes differently from other holders of unsecured
claims should be permitted.

App. 168
In Tribune, I adopted and applied the Markell test
for the basis of determining whether unfair discrimination exists in considering the distributions a plan
proposes. Under the Markell test, the rebuttable presumption of unfair discrimination arises when there is,
1)

a dissenting class;

2)

another class of the same priority and;

3) a difference in the plan’s treatment of the two
classes those results in either:
a) a material lower percentage recovery for
the dissenting class measured in terms of the net present value of all payments or;
b) regardless of a percentage recover, an allocation under the plan of materially greater risk to
the dissenting class in connection with its proposed
distribution.
I conclude that despite the disparate treatment
between class A6 and other unsecured creditors,
there is no unfair discrimination here where the gift
by secured creditors to other unsecured creditors
constitutes no unfair discrimination as class A6 is indisputably out of the money and not, otherwise, entitled to any distribution under the [9] Bankruptcy
Code’s priority scheme and provided further that the
proposed classification and treatment of other unsecured creditors fosters a reorganization of these debtors.

App. 169
Mr. Hargraves argues that under the Markell test
the debtors’ proposed plan is unconfirmable because
the 2018 notes claims class has voted to reject the plan;
that the classes of 2018 notes intercompany claims and
general unsecured creditors have the same priority
and the plan proposes to pay the general unsecured
creditors and the intercompany claims in full, but proposes to pay the 2018 notes claims pennies on the dollar.
I agree with Mr. Hargraves that the proposed plan
gives rise to a rebuttal presumption of unfair discrimination that the debtors must overcome. The third circuit has allowed for the confirmation of plan that
enables secured creditors to gift distributions to unsecured creditors as the plan proposes to do here.
A number of courts have confirmed such plans
finding that such sharing arrangements do not violate
the prohibition against unfair discrimination or the
absolute priority rule.
Carve-out and give plans have been criticized as
violating the absolute priority rule, the fair and equitable requirement, and the unfair discrimination prohibition of 1129(b).
[10] Court have been more permissive outside of
the confines of a plan to prevent carve-outs and gifts
from senior to junior classes and have approved sharing arrangements in the context of sale motions or
compromises of controversy, although courts do continue to disagree on the propriety of sharing arrangements when intervening creditors are prejudiced.

App. 170
Mr. Hargraves makes the argument that the gifts
to plan proposes to distribute to certain classes of unsecured creditors is property of the estate and should,
therefore, not be allowed.
In support of this argument, he analogized the
facts before me to the facts in the third circuit’s decision in Armstrong arguing that the proposed distributions are property of the estate. However, my decision
to confirm this plan is consistent with the holding in
Armstrong. In fact, I find this situation to be consistent
with the gift contained in the plan proposed in Genesis,
which the Armstrong court viewed favorably.
In Armstrong World Industries, the plan at issue provided that an unsecured creditor class would
receive and automatically transfer warrants to the
holder of equity interest in the event that its co-equal
class rejects the reorganization plan. That case of
third circuit concluded that the absolute priority rule
applied and was violated by [11] such a distribution
scheme.
The court analyzed the holding in the prior case of
Genesis which allowed a secured creditor to give up a
portion of what would otherwise have been its proceeds
under the reorganization plan to holders of unsecured
and subordinated claims without including holders of
putative damage claims in the arrangement.
The court in Armstrong distinguished the arrangement in Genesis as an ordinary carve-out of the senior
creditor’s lien for the junior claimant’s benefit. In Genesis, the debtors classified putative damage claims in

App. 171
the separate class from other general unsecured
claims. The senior lenders agreed to share the distribution that they would have, otherwise, been entitled
to only with certain classes and chose to omit putative
damage claimants from the agreement.
In that case, the court found that the classified and
treatment of putative damage claims do not constitute
equitable subordination and are not an improper classification, because the distribution to general unsecured creditors was attributable to the agreement by
the senior lenders to give up a portion of value they
would otherwise receive to unsecured creditors.
The court in Armstrong did not reject the court’s
ruling in Genesis. In fact, it distinguished the situation
[12] in Genesis, which is like the situation I have in
this case before me today, saying also distinguishable
on the facts is In Re Genesis Health Ventures where a
distribution to management on account of its equity interest was carved out voluntarily from the senior
lender’s liens.
The Bankruptcy Court recognized that to the extent that the distribution to the junior class involved
debtors’ property subject to the senior lender’s liens,
the principals underpinning the absolute priority rule
were not offended.
As such, I find my conclusion to be consistent with
the leading cases governing the issues of gifting in this
circuit and will allow the gift as the plan proposes.

App. 172
The debtors make note that in these cases the equity interest of the Nuverra debtors’ subsidiaries are
the collateral of the prepetition secured creditors, accordingly, even if Nuverra would have liquidated its
subsidiaries to confirm the plan, that value would
have gone to the secured creditors not to Mr. Hargraves.
Mr. Hargraves’ argument that absolute priority is
violated by reinstatement of what are terms surviving
equity interest of the Nuverra group debtors, the AWS
debtor, and the Badlands’ debtor, classes A12, B10 and
C10, is unfounded. The reinstatement of surviving equity interest in the debtors’ subsidiaries is a commonly
used technical device for preserving the debtors’ corporate structure.
[13] Because the plan fully transfers the equity interest of the parent company in the corporate structure to creditors, the plan provisions preserving the
subsidiary level equity structures have no economic
substance and do not enable any junior creditor or interest holder to retain or recover any value under the
plan.
The plans retention of intercompany equity interest allows the debtors to maintain their organizational
structure without the unnecessary cost that would be
incurred if the debtors had to cancel the equity interest
and reconstitute the structure.
In its submissions, the debtors further explain
that the separate classification allows for them to provide recoveries to all creditors that they would not

App. 173
otherwise be able to provide. I find that gift that the
secured creditors have opted to provide to certain classes does not render the plan unconfirmable.
Mr. Hargraves argues in part that the Supreme
Court’s decision in Jevic is also a basis for objection.
Jevic here is not implicated. There the situation involved a so-called structured dismissal. Here, in contrast, the Chapter 11 plan received overwhelming
creditor support and allows the reorganization of an
ongoing business.
So based upon the record before me and upon careful consideration of the proposed plan, Mr. Hargraves’
[14] objection, debtors’ memorandum of law in support
of confirmation, and after considering the testimony
and arguments presented at the hearing, I will overrule Mr. Hargraves’ objection and confirm the plan proposed by the debtor.
The debtor has requested a waiver of the 14-day
stay of the confirmation order provided by Bankruptcy
Rule 3020(e). At last Friday’s hearing, Mr. Hargraves
opposed waiver of the stay indicating his intention to
appeal an adverse ruling by this court, the debtor
points out that any delay in implementation of the
plan would occasion administrative and professional
cost including loss of a $5 million dollar concession
from its lenders.
To balance and accommodate the interest of each,
I will stay this order effective for 10 days until August
3rd, 2017. So I ask the parties to confer and present a

App. 174
revised confirmation order that includes my decision
about the 14-day stay waiver request.
Mr. Hargraves’ counsel at the confirmation hearing then suggests that he may appeal an adverse ruling and wanted the stay – said he would be seeking a
stay. And if that were the case, I would say it would
serve no purpose to file a motion requesting a stay of
the order in this court.
Frankly, the consequences of an adverse ruling on
appeal of a reversal of this confirmation order on appeal, [15] frankly, the risks lie with the other constituents in this case, not with Mr. Hargraves, so I don’t
think a stay would be warranted.
But if there is an appeal filed and if a motion is
filed with the district court that will be left for the district court to make its own decision.
That concludes my ruling. Let me ask, do the parties have any questions?
(No verbal response)
THE COURT: I hear no response. Everyone
pretty much on the phone on listen only.
I will expect submission then of a revised proposed
order under certification at the earliest possible moment. And if for any reason the parties do not believe
they can get that to me today, please contact chambers
and let me know.

App. 175
With that, this hearing is concluded and court will
stand in recess.
(Proceedings conclude at 10:21 a.m.)

[16] CERTIFICATE
I certify that the foregoing is a correct transcript
from the electronic sound recording of the proceedings
in the above-entitled matter.
/s/ Mary Zajaczkowski
Mary Zajaczkowski, CET**D-531

July 24, 2017

App. 176
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-3084
-----------------------------------------------------------------------

In re: Nuverra Environmental Solutions, Inc.,
a/k/a Heckmann Corporation
a/k/a Rough Rider Escrow, Inc., et al.,
Debtor
David Hargreaves,
Appellant
-----------------------------------------------------------------------

On Appeal from the United States District Court
for the District of Delaware
(D.C. No. 1:17-cv-01024)
District Judge: Hon. Richard G. Andrews
-----------------------------------------------------------------------

SUR PETITION FOR REHEARING
-----------------------------------------------------------------------

(Filed Feb. 4, 2021)
Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN, HARDIMAN, GREENAWAY, JR.,
SHWARTZ, KRAUSE, RESTREPO, BIBAS, PORTER,
MATEY, and PHlPPS, Circuit Judges
The petition for rehearing filed by appellant in
the above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the

App. 177
circuit in regular active service, and no judge who concurred in the decision having asked for rehearing, and
a majority of the judges of the circuit in regular service
not having voted for rehearing, the petition for rehearing by the panel and the Court en banc, is DENIED.
BY THE COURT
s/ Kent A. Jordan
Circuit Judge
DATED: February 4, 2021
SLC/cc: Counsel of Record

App. 178
IMPORTANT: THE SOLICITATION MATERIALS
ACCOMPANYING THIS PLAN OF REORGANIZATION HAVE NOT BEEN APPROVED BY THE BANKRUPTCY COURT AS CONTAINING “ADEQUATE
INFORMATION” WITHIN THE MEANING OF 11
U.S.C. § 1125(a). THE DEBTORS EXPECT TO SEEK
AN ORDER OR ORDERS OF THE BANKRUPTCY
COURT, AMONG OTHER THINGS: (1) APPROVING THE SOLICITATION OF VOTES AS HAVING
BEEN IN COMPLIANCE WITH 11 U.S.C. § 1126(b);
AND (2) CONFIRMING THE PLAN OF REORGANIZATION PURSUANT TO 11 U.S.C. § 1129.
IN THE UNITED STATES BANKRUPTCY COURT
FOR THE DISTRICT OF DELAWARE
------------------------------------- x
: Chapter 11
In re:
:
Nuverra Environmental : Case No. 17–10949 (KJC)
Solutions, Inc., et al.,1 :
(Jointly Administered)
:
Debtors.
------------------------------------- x
1

The Debtors in these cases (including the last four digits of
their respective taxpayer identification numbers) are: Nuverra Environmental Solutions, Inc. (7117), Appalachian Water Services,
LLC (0729), Badlands Leasing, LLC (2638), Badlands Power Fuels,
LLC (DE) (8703), Badlands Power Fuels, LLC (ND) (1810), Heckmann Water Resources Corporation (1194), Heckmann Water Resources (CVR), Inc. (1795), Heckmann Woods Cross, LLC (9761),
HEK Water Solutions, LLC (8233), Ideal Oilfield Disposal, LLC
(5796), Landtech Enterprises, L.L.C. (9022), NES Water Solutions,
LLC (3421), Nuverra Total Solutions, LLC (6218), and 1960 Well
Services, LLC (5084). The Debtors’ corporate headquarters is located
at 14624 N. Scottsdale Rd., Suite 300, Scottsdale, Arizona 85254.

App. 179
DEBTORS’ AMENDED PREPACKAGED
PLANS OF REORGANIZATION UNDER
CHAPTER 11 OF THE BANKRUPTCY CODE
(Filed Jun. 23, 2017)
Douglas P. Bartner, Esq.
Fredric Sosnick, Esq.
Sara Coelho, Esq.
Stephen M. Blank, Esq.
SHEARMAN &
STERLING LLP
599 Lexington Avenue
New York, New York 10022
(212) 848-4000

Pauline K. Morgan, Esq.
(No. 3650)
Kenneth J. Enos, Esq.
(No. 4544)
Jaime Luton Chapman, Esq.
(No. 4936)
YOUNG CONAWAY
STARGATT &
TAYLOR, LLP
Rodney Square
1000 North King Street
Wilmington, Delaware 19801
(302) 571-6600
Attorneys for Debtors and
Debtors in Possession

TABLE OF CONTENTS
Page
ARTICLE I.
DEFINED TERMS, RULES OF
INTERPRETATION AND
COMPUTATION OF TIME
Section 1.1

Defined Terms ......................................2

Section 1.2

Rules of Interpretation and Computation of Time .................................21

Section 1.3

Reference to Monetary Figures .........21

App. 180
Section 1.4

Consent Rights of the Supporting Noteholders..................................21
ARTICLE II.
UNCLASSIFIED CLAIMS

Section 2.1

Administrative Claims ......................22

Section 2.2

Priority Tax Claims ...........................22

Section 2.3

Professional Fee Claims ....................23

Section 2.4

DIP Revolving Facility Claims ..........23

Section 2.5

DIP Term Loan Facility Claims ........23

Section 2.6

Payment of Fees and Expenses .........24

Section 2.7

U.S. Trustee Statutory Fees ..............24
ARTICLE III.

CLASSIFICATION AND TREATMENT
OF CLAIMS AND EQUITY INTERESTS
Section 3.1

Classification .....................................24

Section 3.2

Class Identification............................25

Section 3.3

Treatment and Voting Rights of
Claims and Equity Interests .............27

Section 3.4

Elimination of Vacant Classes ..........42

Section 3.5

Voting; Presumptions; Solicitation .....................................................43

Section 3.6

Cram Down ........................................43

Section 3.7

No Waiver...........................................43

App. 181
ARTICLE IV.
MEANS FOR IMPLEMENTATION OF THE PLAN
Section 4.1

Compromise of Controversies ...........43

Section 4.2

Sources of Cash for Plan Distribution .................................................44

Section 4.3

Continued Corporate Existence ........44

Section 4.4

Corporate Action ................................44

Section 4.5

Cancellation of Existing Securities and Agreements ..........................45

Section 4.6

Release of Liens .................................46

Section 4.7

Cancellation of Certain Existing
Security Interests ..............................46

Section 4.8

Vesting of Assets ................................47

Section 4.9

Issuance of Reorganized Nuverra
Common Stock ...................................47

Section 4.10

Section 1145 Exemption from Registration..............................................47

Section 4.11

SEC Reporting Requirements and
Listing of Reorganized Nuverra
Common Stock ...................................47

Section 4.12

Reorganized Debtors Constituent Documents ...................................48

Section 4.13

Directors and Officers of the Reorganized Debtors ..............................48

Section 4.14

Rights Offering ..................................48

Section 4.15

Exit Facility Credit Agreement .........49

Section 4.16

Management Incentive Plan .............50

App. 182
Section 4.17

Registration Rights Agreement ........50

Section 4.18

Separability .......................................50

Section 4.19

Effectuating Documents; Further
Transactions ......................................50
ARTICLE V.

TREATMENT OF EXECUTORY
CONTRACTS AND UNEXPIRED LEASES
Section 5.1

Assumption of Executory Contracts and Unexpired Leases ............52

Section 5.2

Cure of Defaults for Executory
Contracts and Unexpired Leases
Assumed .............................................52

Section 5.3

Claims Based on Rejection of Executory Contracts or Unexpired
Leases.................................................53

Section 5.4

Indemnification of Directors, Officers and Employees .........................54

Section 5.5

Employee Benefit Programs ..............54

Section 5.6

Insurance Policies ..............................55

Section 5.7

Reimbursement Agreements Concerning Professional Fee Claims .......55

Section 5.8

Reservation of Rights ........................55
ARTICLE VI.

PROVISIONS GOVERNING DISTRIBUTIONS
Section 6.1

Date of Distributions .........................56

Section 6.2

Distribution Record Date ..................56

App. 183
Section 6.3

Disbursing Agent ...............................56

Section 6.4

Delivery of Distributions and Undeliverable or Unclaimed Distributions ...............................................57

Section 6.5

Surrender of Cancelled Instruments or Securities ............................58

Section 6.6

Fractional Distributions ....................58

Section 6.7

Manner of Payment under Plan ........58

Section 6.8

No Distribution in Excess of
Amount of Allowed Claim .................58

Section 6.9

Claims Paid or Payable by Third
Parties ................................................58

Section 6.10

Post-petition Interest ........................59

Section 6.11

No Proofs of Claim Required .............59

Section 6.12

Setoffs and Recoupments ..................59

Section 6.13

Withholding and Reporting Requirements .........................................60

Section 6.14

Hart-Scott-Rodino Compliance .........60

Section 6.15

Special Provision Regarding Unimpaired Claims ................................60
ARTICLE VII.

PROCEDURES FOR
RESOLVING DISPUTED CLAIMS
Section 7.1

Disputed Claims Process ...................61

Section 7.2

Estimation of Claims .........................61

Section 7.3

Payments and Distributions on
Disputed Claims ................................62

App. 184
ARTICLE VIII.
CONDITIONS PRECEDENT
TO THE EFFECTIVE DATE
Section 8.1

Conditions Precedent to the Effective Date ........................................62

Section 8.2

Waiver of Conditions .........................64

Section 8.3

Effect of Failure of Condition ............64

Section 8.4

Reservation of Rights ........................65

Section 8.5

Substantial Consummation of
Plan ....................................................65
ARTICLE IX.

EFFECT OF PLAN CONFIRMATION
Section 9.1

Binding Effect ....................................66

Section 9.2

Discharge of Claims ...........................66

Section 9.3

Releases .............................................66

Section 9.4

Exculpation and Limitation of
Liability ..............................................69

Section 9.5

Injunction ...........................................70

Section 9.6

Term of Bankruptcy Injunction
or Stays ..............................................71

Section 9.7

Ipso Facto and Similar Provisions Ineffective .................................71

Section 9.8

Preservation of Rights of Action .......71

App. 185
ARTICLE X.
RETENTION OF JURISDICTION
ARTICLE XI.
MISCELLANEOUS PROVISIONS
Section 11.1

Immediate Binding Effect .................74

Section 11.2

Payment of Statutory Fees ................74

Section 11.3

Amendments ......................................74

Section 11.4

Revocation or Withdrawal of
Plan ....................................................75

Section 11.5

Governing Law ..................................75

Section 11.6

Successors and Assigns .....................75

Section 11.7

Severability ........................................75

Section 11.8

Controlling Document .......................76

Section 11.9

Filing of Additional Documents ........76

Section 11.10 Service of Documents ........................76
Section 11.11 Section 1125(e) of the Bankruptcy Code ........................................77
Section 11.12 Exemption from Certain Transfer Taxes .............................................77
Section 11.13 Tax Reporting and Compliance .........77
Section 11.14 Schedules and Exhibits .....................78
Section 11.15 Entire Agreement ..............................78
Section 11.16 Allocation of Payments ......................78

App. 186
DEBTORS’ PREPACKAGED PLANS OF
REORGANIZATION UNDER CHAPTER 11
OF THE BANKRUPTCY CODE
The Debtors (as defined herein) propose this joint
prepackaged plan of reorganization (the “Plan”) for
the resolution of the outstanding claims against, and
interests in, the Debtors pursuant to the Bankruptcy
Code. The Plan comprises the Nuverra Group Plan, the
AWS Plan and the Badlands (DE) Plan (as all defined
herein).
Each of Nuverra Environmental Solutions, Inc.,
Badlands Leasing, LLC, Badlands Power Fuels, LLC
(ND), Heckmann Water Resources Corporation, Heckmann Water Resources (CVR), Inc., Heckmann Woods
Cross, LLC, HEK Water Solutions, LLC, Ideal Oilfield
Disposal, LLC, Landtech Enterprises, L.L.C., NES Water Solutions, LLC, Nuverra Total Solutions, LLC, and
1960 Well Services, LLC (each a “Nuverra Group
Debtor” and collectively the “Nuverra Group Debtors” propose the joint Nuverra Group Plan under
chapter 11 of the Bankruptcy Code. Only Holders, as of
the Record Date, of (i) Class A4 – Supporting Noteholder Term Loan Claims against the Nuverra Group
Debtors, (ii) Class A5 – 2021 Note Claims against the
Nuverra Group Debtors and (iii) Class A6 – 2018 Note
Claims against the Nuverra Group Debtors are entitled to vote on the Nuverra Group Plan.
Appalachian Water Services, LLC (the “AWS
Debtor”) proposes the AWS Plan under chapter 11 of
the Bankruptcy Code and Badlands Power Fuels, LLC

App. 187
(DE) (the “Badlands (DE) Debtor,” together with the
AWS Debtor and the Nuverra Group Debtors, the
“Debtors”) proposes the Badlands (DE) Plan under
chapter 11 of the Bankruptcy Code. Only Holders, as of
the Record Date, of (i) Class B4 – Supporting Noteholder Term Loans Claims against the AWS Debtor
and (ii) Class B5 – 2021 Note Claims against the AWS
Debtor are entitled to vote on the AWS Plan. Only
Holders, as of the Record Date, of (i) Class C4 – Supporting Noteholder Term Loans Claims against the
Badlands (DE) Debtor and (ii) Class C5 – 2021 Note
Claims against the Badlands (DE) Debtor are entitled
to vote on the Badlands (DE) Plan.
The Chapter 11 Cases have been consolidated for
procedural purposes only and the Debtors will request
that they be jointly administered pursuant to an order of the Bankruptcy Court. The Plan constitutes a
separate plan of reorganization for each of the Debtors and notwithstanding anything herein, the Plan
may be confirmed and consummated as to each of the
Debtors separate from, and independent of, confirmation and consummation of the Plan as to any other
Debtor.
Prior to voting to accept or reject the Nuverra
Group Plan, AWS Plan and Badlands (DE) Plan, such
Holders eligible to vote to accept or reject the, as
applicable, Nuverra Group Plan, AWS Plan and
Badlands (DE) Plan, are encouraged to read the
Plan, the accompanying Solicitation and Disclosure
Statement, and their respective exhibits and schedules, in their entirety. No materials other than the

App. 188
Plan, the Solicitation and Disclosure Statement, and
their respective exhibits and schedules have been authorized by the Debtors for use in soliciting acceptances
or rejections of the Plan.
[2] ARTICLE I.
DEFINED TERMS, RULES OF
INTERPRETATION AND
COMPUTATION OF TIME
Section 1.1

Defined Terms.

The following terms shall have the respective
meanings specified below when used in capitalized
form in the Plan:
“2018 Notes” means the 9.875% unsecured senior
notes due 2018 issued under the 2018 Note Indenture.
“2018 Note Claims” means any and all Claims
against any Debtor related to, arising out of, arising
under, or arising in connection with, the 2018 Notes
and the 2018 Note Indenture.
“2018 Note Indenture” means the indenture,
dated as of April 10, 2012 between the Heckmann Corporation (as predecessor to Nuverra), the 2018 Note Indenture Trustee, and the other Debtor guarantors
party thereto, together with all other agreements entered into and documents delivered in connection
therewith (in each case, as amended, modified or supplemented from time to time).

App. 189
“2018 Note Indenture Trustee” means Wilmington Trust, National Association (as successor to Wilmington Savings Fund Society, FSB), as indenture
trustee under the 2018 Note Indenture, or any successor indenture trustee thereunder.
“2018 Noteholder Rights” means the rights of
Holders of 2018 Note Claims against the Nuverra
Group Debtors to subscribe for and purchase $30 million of the Rights Offering Shares at the Rights Exercise Price, under the terms and conditions of the Rights
Offering in accordance with the Rights Offering Procedures.
“2021 Notes” means the 12.5%/10% senior secured second lien notes due 2021 issued under the
2021 Note Indenture.
“2021 Note Claims” means any and all Claims
against any Debtor related to, arising out of, arising
under, or arising in connection with, the 2021 Notes
and the 2021 Note Indenture.
“2021 Note Indenture” means the indenture,
dated as of April 15, 2016 between Nuverra, the 2021
Note Indenture Trustee, and the other Debtor guarantors party thereto, together with all other agreements
entered into and documents delivered in connection
therewith (in each case, as amended, modified or supplemented from time to time).
“2021 Note Indenture Trustee” means Wilmington Savings Fund Society, FSB, as trustee under the

App. 190
2021 Note Indenture, or any successor indenture trustee thereunder.
“2021 Noteholder Rights” means the rights of
Holders of 2021 Note Claims to subscribe for and purchase $75 million of the Rights Offering Shares at the
Rights Exercise Price, under the terms and conditions
of the Rights Offering in accordance with the Rights
Offering Procedures.
[3] “ABL Agent’ means Wells Fargo Bank, National Association, as administrative agent for the ABL
Lenders under the ABL Credit Agreement Documents,
or any successor agent.
“ABL Credit Agreement’ means the Amended
and Restated Credit Agreement, dated as of February
3, 2014, by and among Nuverra, the ABL Agent, and
the ABL Lenders, as amended, modified or supplemented from time to time.
“ABL Credit Agreement Documents” means the
ABL Credit Agreement together with all documentation executed in connection therewith (in each case, as
amended, modified or supplemented from time to
time).
“ABL Credit Facility Claims” means any and all
Claims against any Debtor related to, arising out of,
arising under, or arising in connection with, the ABL
Facility and the ABL Credit Agreement Documents.
“ABL Facility” means the revolving loan and letter credit facility provided for under the ABL Credit
Agreement.

App. 191
“ABL Lenders” means the lender parties to the
ABL Credit Agreement Documents.
“Administrative Claims” means any and all
Claims for administrative costs or expenses of the kind
specified in Bankruptcy Code section 503(b) and entitled to priority under Bankruptcy Code section 507, including, but not limited to: (a) the actual and necessary
costs and expenses incurred after the Petition Date
and through the Effective Date of preserving the Estates and operating the businesses of the Debtors, (b)
compensation of Professionals for legal, financial advisory, accounting, and other services and reimbursement of expenses allowed pursuant to Bankruptcy
Code sections 328, 330(a), 331, or 363 or otherwise for
the period commencing on the Petition Date and
through the Effective Date, and (c) Bankruptcy Fees.
“Affiliate” shall have the meaning set forth in section 101(2) of the Bankruptcy Code and shall include
non-Debtor entities.
“Allowed” means with respect to any Claim or Equity Interest (or a portion thereof ), a Claim or Equity
Interest arising before the Effective Date against any
Debtor (a) listed by such Debtor in its books and records as liquidated in an amount and not disputed or
contingent, (b) proof of which is timely Filed, provided
that such filing is required by order of the Bankruptcy
Court or pursuant to the Plan, (c) that is compromised,
settled or otherwise resolved pursuant to the authority
of the Debtors or Reorganized Debtors, as applicable,
in a Final Order or (d) expressly allowed in a specified

App. 192
amount pursuant to this Plan, the Confirmation Order
or a Final Order; provided, however, that with respect
to any Claim or Equity Interest described in clauses (a)
or (b) above, such Claim or Equity Interest will be an
allowed Claim or Equity Interest only if (i) no objection
to the allowance thereof has been interposed or Filed
within any applicable period of time fixed by this Plan,
the Bankruptcy Code, the Bankruptcy Rules, the
Bankruptcy Court or applicable law or (ii) such an objection is so interposed and such objection has been
withdrawn or settled to provide for allowance of the
Claim or Equity Interest, the Claim or Equity Interest
shall have been allowed by a Final Order (but only if
such allowance was not solely for the purpose of voting
to accept or reject this Plan) and such Claim or Equity
Interest is [4] not otherwise subject to continuing dispute by any of the Debtors or the Reorganized Debtors
in accordance with the Plan or applicable law; provided, further, that, except as otherwise specified in
this Plan, to the extent an Allowed Claim or Equity Interest is Disputed, the determination of whether such
Claim or Equity Interest shall be Allowed and or the
amount of any such Claim or Equity Interest may be
determined, resolved or adjudicated, as the case may
be, in the manner in which such Claim would have
been determined, resolved or adjudicated if the Chapter 11 Cases had not been commenced; provided, further, that the Reorganized Debtors, in their discretion,
may bring an objection or other motion before the
Bankruptcy Court with respect to a Disputed Claim for
resolution; provided, further that notwithstanding the
foregoing, the Reorganized Debtors shall retain all

App. 193
claims and defenses with respect to Allowed Claims
that are Reinstated or otherwise Unimpaired by this
Plan. Except as otherwise specified in this Plan or a
Final Order, the amount of an Allowed Claim or Allowed Equity Interest of any Impaired Claim under
this Plan shall not include interest on such Claim or
Equity Interest after the Petition Date.
“Assets” means, with respect to any Debtor, all of
such Debtor’s right, title and interest of any nature in
property of any kind, wherever located, as specified in
section 541 of the Bankruptcy Code.
“Assumed Ideal Oilfield Claims” means Claims
related to, arising out of, arising under, or arising in
connection with, the Ideal Oilfield Documents that are
assumed pursuant to Section 365 of the Bankruptcy
Code or otherwise reinstated or paid by the Badlands
(DE) Debtor pursuant to an order of the Bankruptcy
Court, which may be the Confirmation Order.
“Assumed Shallenberger/Skywater Claims”
means Claims related to, arising out of, arising under,
or arising in connection with the Shallenberger/Skywater Documents that are assumed pursuant to Section 365 of the Bankruptcy Code or otherwise
reinstated or paid by the AWS Debtor pursuant to an
order of the Bankruptcy Court, which may be the Confirmation Order.
“AWS 2018 Note Guaranty Claims” means any
and all Claims against the AWS Debtor related to, arising out of, arising under, or arising in connection with,
the 2018 Notes and 2018 Note Indenture.

App. 194
“AWS 2021 Note Guaranty Claims” means any
and all Claims against the AWS Debtor related to, arising out of, arising under, or arising in connection with,
the 2021 Notes and 2021 Note Indenture.
“AWS Debtor” has the meaning set forth in the
introductory paragraph to the Plan.
“AWS Debtor General Unsecured Claims” means
the Assumed Shallenberger/Skywater Claims and any
and all unsecured Claims against the AWS Debtors
that are not DIP Claims, Administrative Claims, Professional Fee Claims, Priority Tax Claims, Other Priority Claims, Other Secured Claims, ABL Credit Facility
Claims, Term Loan Facility Claims, AWS 2021 Note
Guaranty Claims, AWS Debtor Unsecured Debt Claims,
Subordinated Claims or Intercompany Claims.
[5] “AWS Debtor Unsecured Debt Claims”
means any and all (i) AWS 2018 Note Guaranty Claims
and (ii) the Shallenberger/Skywater Other Loss Claims.
“AWS Lease” means the Lease Agreement dated
June 9, 2015, among Shallenberger Construction, Inc.,
Skywater Development, LLC and the AWS Debtor.
“AWS Plan” means the prepackaged plan of reorganization under chapter 11 of the Bankruptcy Code
for the AWS Debtor, all exhibits and schedules to the
AWS Plan, including the Plan Supplement, which is incorporated into the AWS Plan by reference, as it may
be amended, supplemented or modified from time to
time in accordance with the terms hereof, and in

App. 195
accordance with the terms of the Bankruptcy Code and
the Bankruptcy Rules.
“AWS Promissory Note” means the approximately $4.0 million promissory note pertaining to the
acquisition of the remaining interest in Debtor Appalachian Water Services, LLC.
“Badlands (DE) 2018 Note Guaranty Claims”
means any and all Claims against the Badlands (DE)
Debtor related to, arising out of, arising under, or arising in connection with, the 2018 Notes and 2018 Note
Indenture.
“Badlands (DE) 2021 Note Guaranty Claims”
means any and all Claims against the Badlands (DE)
Debtor related to, arising out of, arising under, or arising in connection with, the 2021 Notes and 2021 Note
Indenture.
“Badlands (DE) Debtor” has the meaning set
forth in the introductory paragraph to the Plan.
“Badlands (DE) General Unsecured Claims”
means the Assumed Ideal Oilfield Claims and any
and all unsecured Claims against the Badlands (DE)
Debtor that are not DIP Claims, Administrative
Claims, Professional Fee Claims, Priority Tax Claims,
Other Priority Claims, Other Secured Claims, ABL
Credit Facility Claims, Term Loan Facility Claims,
Badlands (DE) 2021 Note Guaranty Claims, Badlands
(DE) Unsecured Debt Claims, Subordinated Claims or
Intercompany Claims.

App. 196
“Badlands (DE) Plan” means the prepackaged
plan of reorganization under chapter 11 of the Bankruptcy Code for the Badlands (DE) Debtor, all exhibits
and schedules to the Badlands (DE) Plan, including the Plan Supplement, which is incorporated into
the Badlands (DE) Plan by reference, as it may be
amended, supplemented or modified from time to time
in accordance with the terms hereof, and in accordance
with the terms of the Bankruptcy Code and the Bankruptcy Rules.
“Badlands (DE) Unsecured Debt Claims”
means any and all (i) Badlands (DE) 2018 Note Guaranty Claims, and (ii) Ideal Oilfield Other Loss Claims.
“Bankruptcy Code” means title 11 of the United
States Code, 11 U.S.C. §§ 101 et seq., as in effect on the
Petition Date, together with any amendments made
thereto subsequent to the Petition Date, to the extent
that any such amendments are applicable to the Chapter 11 Cases.
[6] “Bankruptcy Court” means the United States
Bankruptcy Court for the District of Delaware, or such
other court having jurisdiction over the Chapter 11
Cases or any proceeding within, or appeal of an order
entered in, the Chapter 11 Cases.
“Bankruptcy Fees” means any and all fees or
charges assessed against the Debtors’ estates under
section 1930 of title 28 of the United States Code.
“Bankruptcy Rules” means the Federal Rules of
Bankruptcy Procedure, promulgated under section

App. 197
2075 of title 28 of the United States Code, the Official
Bankruptcy Forms or the local rules of the Bankruptcy
Court, together with any amendments made thereto
subsequent to the Petition Date, to the extent that any
such amendments are applicable to the Chapter 11
Cases.
“Business Day” means any day, other than a Saturday, Sunday or a “legal holiday” (as such term is defined in Bankruptcy Rule 9006(a)).
“Cash” means legal tender of the United States of
America.
“Causes of Action” means any and all actions,
causes of action, suits, debts, dues, sums of money, accounts, reckonings, rights to legal remedies, rights to
equitable remedies, rights to payment and claims,
bonds, bills, specialties, covenants, contracts, controversies, agreements, promises, variances and trespasses of, or belonging to, the Estates, whether known
or unknown, reduced to judgment, not reduced to judgment, liquidated, unliquidated, fixed, contingent, matured, unmatured, disputed, undisputed, secured or
unsecured and whether asserted or assertable directly
or indirectly or derivatively, in law, equity or otherwise.
“Chapter 11 Cases” means, collectively, (i) when
used with reference to a particular Debtor, the case
pending for that Debtor under chapter 11 of the
Bankruptcy Code in the Bankruptcy Court, and (b)
when used with reference to all Debtors, the jointlyadministered cases pending for the Debtors in the
Bankruptcy Court.

App. 198
“Claim” means a claim as defined in section
101(5) of the Bankruptcy Code against any Debtor,
whether or not asserted.
“Class” means a category of Holders of Claims or
Equity Interests classified by the Plan pursuant to section 1122(a)(1) of the Bankruptcy Code, as set forth in
Article III hereof.
“Class A6 Ratio” means the ratio (expressed as a
percentage) of the amount of Allowed Claims in Class
A6 bears to the aggregate amount (without duplication) of all Allowed Claims in Classes A6, A8, B6, and
C6. For the avoidance of doubt, for purposes of determining the Class A6 Ratio, the AWS 2018 Note Guaranty Claims, Badlands (DE) 2018 Note Guaranty
Claims, and all other Allowed Claims in Classes A6,
A8, B6, and C6 arising from a guarantee by a Debtor
of the obligations of another Debtor shall be excluded
from such calculation.
“Class A6 Reorganized Nuverra Common
Stock” means Reorganized Nuverra Common Stock in
an amount of Unsecured Claim Reorganized Nuverra
Common Stock multiplied by the Class A6 Ratio.
[7] “Class A6 Unsecured Claim Warrants”
means Unsecured Claim Warrants in an amount equal
to the aggregate Unsecured Claim Warrants multiplied by Class A6 Ratio.
“Class A8 Ratio” means the ratio (expressed as
a percentage) of the amount of Allowed Claims in
Class A8 bears to the aggregate amount (without

App. 199
duplication) of all Allowed Claims in Classes A6, A8,
B6, and C6. For the avoidance of doubt, for purposes of
determining the Class A8 Ratio, the AWS 2018 Note
Guaranty Claims, Badlands (DE) 2018 Note Guaranty
Claims, and all other Allowed Claims in Classes A6,
A8, B6, and C6 arising from a guarantee by a Debtor
of the obligations of another Debtor shall be excluded
from such calculation.
“Class A8 Reorganized Nuverra Common
Stock” means Reorganized Nuverra Common Stock in
an amount of Unsecured Claim Reorganized Nuverra
Common Stock multiplied by the Class A8 Ratio.
“Class A8 Unsecured Claim Warrants” means
Unsecured Claim Warrants in an amount equal to the
aggregate Unsecured Claim Warrants multiplied by
Class A8 Ratio.
“Class B6 Ratio” means the ratio (expressed as a
percentage) of the amount of Allowed Claims in Class
B6 bears to the aggregate amount (without duplication) of all Allowed Claims in Classes A6, A8, B6, and
C6. For the avoidance of doubt, for purposes of determining the Class B6 Ratio, the AWS 2018 Note Guaranty Claims, Badlands (DE) 2018 Note Guaranty
Claims, and all other Allowed Claims in Classes A6,
A8, B6, and C6 arising from a guarantee by a Debtor
of the obligations of another Debtor shall be excluded
from such calculation.
“Class B6 Reorganized Nuverra Common
Stock” means Reorganized Nuverra Common Stock

App. 200
in an amount of Unsecured Claim Reorganized Nuverra Common Stock multiplied by the Class B6 Ratio.
“Class B6 Unsecured Claim Warrants” means
Unsecured Claim Warrants in an amount equal to the
aggregate Unsecured Claim Warrants multiplied by
Class B6 Ratio.
“Class C6 Ratio” means the ratio (expressed as a
percentage) of the amount of Allowed Claims in Class
C6 bears to the aggregate amount (without duplication) of all Allowed Claims in Classes A6, A8, B6, and
C6. For the avoidance of doubt, for purposes of determining the Class C6 Ratio, the AWS 2018 Note Guaranty Claims, Badlands (DE) 2018 Note Guaranty
Claims, and all other Allowed Claims in Classes A6,
A8, B6, and C6 arising from a guarantee by a Debtor
of the obligations of another Debtor shall be excluded
from such calculation.
“Class C6 Reorganized Nuverra Common
Stock” means Reorganized Nuverra Common Stock in
an amount of Unsecured Claim Reorganized Nuverra
Common Stock multiplied by the Class C6 Ratio.
“Class C6 Unsecured Claim Warrants” means
Unsecured Claim Warrants in an amount equal to the
aggregate Unsecured Claim Warrants multiplied by
Class C6 Ratio.
“Committee” means the Official Committee of
Unsecured Creditors appointed in the Chapter 11
Cases.

App. 201
[8] “Confirmation Date” means the date upon
which the Confirmation Order is entered on the docket
maintained by the Bankruptcy Court pursuant to
Bankruptcy Rule 5003.
“Confirmation Hearing” means the hearing to
be held by the Bankruptcy Court to consider confirmation of the Plan under section 1129 of the Bankruptcy
Code.
“Confirmation Order” means the order of the
Bankruptcy Court confirming the Plan pursuant to
section 1129 of the Bankruptcy Code.
“Covered Persons” means any and all directors,
officers and other employees of the Debtors, as of the
Petition Date, other than such directors, officers and
other employees who are expelled or terminated for
cause between the Petition Date and the Effective
Date.
“Cure Claim” means a Claim based upon any and
all amounts payable to a counterparty of an executory
contract or unexpired lease at the time such contract
or lease is assumed by such Debtor pursuant to Bankruptcy Code section 365(b).
“Debtor” has the meaning set forth in the introductory paragraph of the Plan. As used herein, the
term “Debtor” shall refer to the Nuverra Group Debtors when referencing the Nuverra Group Debtors Plan,
shall refer to the AWS Debtor when referencing the
AWS Plan, and shall refer to the Badlands (DE) Debtor
when referencing the Badlands (DE) Plan.

App. 202
“Debtor Released Claims” has the meaning set
forth in Section 9.3(a) hereof.
“DIP Agents” means the DIP Revolving Agent
and the DIP Term Loan Agent.
“DIP Claims” means the DIP Revolving Facility
Claims and DIP Term Loan Facility Claims.
“DIP Facilities” means the DIP Revolving Facility and the DIP Term Loan Facility, each as approved
by the Bankruptcy Court pursuant to the DIP Financing Order, including any amendments, supplements,
and modifications thereto.
“DIP Financing Order” means the orders to be
entered by the Bankruptcy Court in these Chapter 11
Cases approving the DIP Facilities.
“DIP Lenders” means the DIP Term Loan Lenders and the DIP Revolving Lenders.
“DIP Revolving Agent” means Wells Fargo Bank,
National Association, as administrative and syndication agent under the DIP Revolving Facility, or any
successor administrative agents thereunder.
“DIP Revolving Facility” means that certain super-priority, senior secured $31,500,000 debtor-in-possession revolving credit facility, by and among
Nuverra, as borrower, each of the Debtors as guarantors, the DIP Revolving Agent, and the DIP Revolving
Lenders, approved in the DIP Financing Order.
[9] “DIP Revolving Facility Claims” means any
and all Claims against any Debtor related to, arising

App. 203
out of, arising under, or arising in connection with, the
DIP Revolving Facility.
“DIP Revolving Lenders” means the lenders
party to the DIP Revolving Facility.
“DIP Term Loan Agent” means Wilmington Savings Fund Society, FSB, as administrative and syndication agent under the DIP Term Loan Facility, or any
successor administrative agents thereunder.
“DIP Term Loan Facility” means that certain
super-priority, senior secured $12,500,000 debtor-inpossession term loan facility, by and among Nuverra,
as borrower, each of the Debtors as guarantors, the DIP
Term Loan Agent, and the DIP Term Loan Lenders, approved in the DIP Financing Order.
“DIP Term Loan Facility Claims” means any
and all Claims against any Debtor related to, arising
out of, arising under, or arising in connection with, the
DIP Term Loan Facility.
“DIP Term Loan Lenders” means one or more of
the lenders party to the DIP Term Loan Facility.
“Disallowed” means, with respect to any Claim or
Equity Interest, such Claim or Equity Interest or portion thereof that has been disallowed or expunged by a
Final Order.
“Disbursing Agent” means the Debtors or the
Reorganized Debtors, or any Person designated by the
Debtors or the Reorganized Debtors, in the capacity as
disbursing agent under the Plan.

App. 204
“Disputed” means, with respect to any Claim,
such Claim or portion thereof as to which any Debtor
has interposed an objection or request for estimation
in accordance with the Bankruptcy Code and the
Bankruptcy Rules or that otherwise is disputed by any
Debtor at any time, including after the Effective Date,
through notice to the Holder of the Claim or otherwise
in accordance with applicable law, which objection has
not been withdrawn by the Debtor or determined by a
Final Order.
“Distribution Record Date” means the Confirmation Date; provided, however, that no Distribution
Record Date shall apply to publicly held securities if
distributions to such securities will be effectuated
through DTC.
“DTC” means The Depository Trust Company.
“Effective Date” means the date that is the first
Business Day selected by the Debtors, with the consent
of the Supporting Noteholders, on which (a) all conditions to the effectiveness of the Plan set forth in Section 8.1 hereof have been satisfied or waived in
accordance with the terms of the Plan, (b) no stay of
the Confirmation Order is in effect.
“Entity” means an “entity” as defined in section
101(15) of the Bankruptcy Code.
[10] “Estates” means, as to each Debtor, the estate
created for the Debtor pursuant to section 541 of the
Bankruptcy Code upon the commencement of the
Debtor’s Chapter 11 Cases.

App. 205
“Equity Interest” means any and all equity securities (as defined in section 101(16) of the Bankruptcy
Code) of a Debtor, including all shares, common stock,
preferred stock, or other instrument evidencing any
fixed or contingent ownership interest in any Debtor,
including any option, warrant, or other right, contractual or otherwise, to acquire any such interest in a
Debtor, whether or not transferable and whether fully
vested or vesting in the future, that existed immediately before the Effective Date.
“Excess Rights Offering Proceeds” means all
Rights Offering Proceeds in excess of $50,000,000 after
the satisfaction of the DIP Revolving Facility Claims,
the ABL Credit Facility Claims and Allowed Administrative Claims.
“Exchange Act” means the Securities Exchange
Act of 1934, as amended from time to time, and the
rules and regulations promulgated thereunder.
“Excluded Parties” means, collectively, any
Holder of a Claim against, or Equity Interests in, Nuverra or any Affiliate or subsidiary (other than, as
Holders of Equity Interests, Nuverra and any direct or
indirect subsidiary thereof ), or current or former officer, director, principal, member, employee, agent, or
advisory board member thereof, that (a) seeks any relief materially adverse to the restructuring transactions contemplated by the Plan or objects to or opposes
any material relief sought by (including any request
for relief by any other party that is joined by any of the
foregoing) the Debtors, which request, objection or

App. 206
opposition is not withdrawn by June 27, 2017, (b) is entitled to vote on any Plan and does not vote to accept a
Plan for which it is entitled to vote or opts out of any
third-party releases sought in connection with any
Plan, or (c) objects to any Plan or supports an objection
to any Plan, which objection or support thereof is not
withdrawn by June 27, 2017.
“Exculpated Parties” means collectively, and in
each case (a) excluding the Excluded Parties and (b) in
their capacities as such during the Chapter 11 Cases,
each of the Debtors, the Committee, and their respective predecessors, successors, assigns, current and former officers and directors, principals, shareholders,
members, partners, managers, employees, agents, financial advisors, attorneys, accountants, investment
bankers, consultants, representatives, and other professionals (including any professionals retained by
such entities), and all of the foregoing entities’ respective heirs, executors, estates, servants, and nominees,
in each case in their capacity as such.
“Existing Securities Law Claim” means any
and all Claims, regardless of whether such Claim is the
subject of an existing lawsuit: (a) arising from rescission of a purchase or sale of any Securities of any
Debtor or an Affiliate of any Debtor prior to the Effective Date; (b) for damages arising from the purchase or
sale of any such Security prior to the Effective Date; (c)
for violations of the securities laws, misrepresentations, or any similar Claims that occurred or arose
prior to the Effective Date, including, to the extent
related to the foregoing or otherwise subject to

App. 207
subordination under section 510(b) of the Bankruptcy
Code, any attorneys’ fees, other charges, or costs incurred on account of the foregoing Claims; or (d) for
reimbursement, [11] contribution, or indemnification
allowed under section 502 of the Bankruptcy Code on
account of any such Claim.
“Exit Facility” means the first lien, senior secured credit facility to be provided on the Effective
Date by the Exit Facility Lenders (or the Standby Exit
Facility Lenders) in accordance with the terms and
conditions set forth in the Exit Facility Term Sheet,
pursuant to the Exit Facility Credit Agreement, which
provides Cash to fund, together with the Rights Offering Proceeds, distribution requirements under the
Plan, including the repayment in full in Cash of the
DIP Revolving Facility Claims and the ABL Credit Facility Claims.
“Exit Facility Agent” means administrative and
collateral agent under the Exit Facility Credit Agreement Documents, or any successor agent.
“Exit Facility Credit Agreement” means the
senior secured credit agreement in an amount and on
terms satisfactory to the Debtors and the Supporting
Noteholders, to be made available to the Debtors or the
Reorganized Debtors on the Effective Date on terms
and conditions substantially similar to those contained
in the Exit Financing Term Sheet.
“Exit Facility Credit Agreement Documents”
means the Exit Facility Credit Agreement, and all other
related agreements, notes, certificates, documents and

App. 208
instruments, and all exhibits, schedules and annexes
thereto entered into in connection with the Exit Facility Credit Agreement to be executed or delivered in
connection therewith, with terms and conditions and
in form and substance satisfactory to the Debtors and
the Supporting Noteholders (in each case, as amended,
modified or supplemented from time to time).
“Exit Facility Lenders” means the lender or
lenders from time to time under the Exit Facility
Credit Agreement.
“Exit Financing Commitment Fee” means any
fee that is payable to, as applicable, the Exit Facility
Lenders or Standby Exit Facility Lenders in whole or
in part in Cash or Reorganized Nuverra Common
Stock at the election of the Exit Facility Lenders or
Standby Exit Facility Lenders, as applicable, and
which may be incorporated as part of an Exit Financing Term Sheet and Exit Facility Credit Agreement, as
applicable.
“Exit Financing Term Sheet” means, to the extent filed in the Plan Supplement, the term sheet setting forth the material terms and conditions of the Exit
Facility Credit Agreement committed to by an Exit Facility Lender, in form and substance satisfactory to the
Debtors and the Supporting Noteholders.
“File”, “Filed” or “Filing” means file, filed or filing
with the Bankruptcy Court (or agent thereof ) in connection with the Chapter 11 Cases.

App. 209
“Final Order” means, as applicable, an order, ruling or judgment of the Bankruptcy Court or any other
court of competent jurisdiction, as applicable, which
has not been reversed, vacated or stayed and as to
which the time to appeal, petition for certiorari, or
move for reargument or rehearing has expired and as
to which no appeal, petition for certiorari, or other proceedings for reargument or rehearing will then be
pending, or as to which any right to appeal, [12] petition for certiorari, reargue, or rehear will have been
waived in writing in form and substance satisfactory
to the Debtors or, on and after the Effective Date, the
Reorganized Debtors or, in the event that an appeal,
writ of certiorari, or reargument or rehearing thereof
has been sought, such order of the Bankruptcy Court,
or other court of competent jurisdiction (as applicable)
will have been determined by the highest court to
which such order was appealed, or certiorari, reargument or rehearing will have been denied and the time
to take any further appeal, petition for certiorari or
move for reargument or rehearing will have expired;
provided, however, that the possibility that a motion
under Rule 59 or Rule 60 of the Federal Rules of Civil
Procedure, or any analogous rule under the Bankruptcy Rules or applicable state or provincial court
rules of civil procedure, may be filed with respect to
such order will not cause such order not to be a Final
Order.
“Governmental Unit” means a “governmental
unit” as defined in section 101(27) of the Bankruptcy
Code.

App. 210
“Holder” means the beneficial holder of any Claim
or Equity Interest.
“Ideal Oilfield Documents” means that certain
Purchase and Sale Agreement by and among Badlands
Power Fuels, LLC, Ideal Oilfield Disposal, LLC, TDL
Resources, LLC, 9 Z’s LLC and Chax Holdings, LLC
dated as of May 19, 2013 and any related documents
or agreements in connection therewith.
“Ideal Oilfield Other Loss Claims” means
Claims arising under the Ideal Oilfield Documents, including any guarantee claims against the Badlands
(DE) Debtor comprising, related to, arising under or in
connection with the Ideal Oilfield Documents, other
than any Assumed Ideal Oilfield Claims.
“Impaired” means, with respect to a Claim or Equity Interest, such Claim or Equity Interest that is impaired within the meaning of section 1124 of the
Bankruptcy Code.
“Intercompany Claims” means any and all
Claims held by any Debtor against any other Debtor.
“Johnsrud Employment Agreement” means
that certain employment agreement with Mark D.
Johnsrud as Chief Executive Officer, dated April 28,
2017.
“Lien” means a lien as defined in section 101(37)
of the Bankruptcy Code on or against any of the Debtors’ property or the Estates.

App. 211
“Management Incentive Plan” means the management equity incentive compensation plan, the
terms of which shall be included in the Plan Supplement and adopted by the Reorganized Nuverra Board
on the Effective Date, pursuant to which up to 12.5%
of the Reorganized Nuverra Common Stock, on a fully
diluted basis, will be reserved for issuance to the Reorganized Debtors’ management and employees.
“New Employment Agreements” means the employment agreements that the Reorganized Debtors
shall enter into on the Effective Date with certain individuals in the Debtors’ senior management, which
shall be in form and substance satisfactory to the Debtors [13] and the Supporting Noteholders; provided,
that Reorganized Nuverra shall assume the Johnsrud
Employment Agreement on the Effective Date.
“Nuverra” means Nuverra Environmental Solutions, Inc., a Delaware corporation (formerly known as
Heckmann Corporation), a debtor and debtor in possession in the Chapter 11 Cases.
“Nuverra Equity Interests” means any and all
Equity Interests in Nuverra.
“Nuverra Group Debtors” is as defined in the introductory paragraph to the Plan.
“Nuverra Group General Unsecured Claims”
means any and all unsecured Claims against any of
the Nuverra Group Debtors that are not DIP Claims,
Administrative Claims, Professional Fee Claims, Priority Tax Claims, Other Priority Claims, Other

App. 212
Secured Claims, ABL Credit Facility Claims, Term
Loan Facility Claims, 2021 Note Claims, 2018 Note
Claims, Subordinated Claims, Nuverra Group Rejection Damage and Other Debt Claims or Intercompany
Claims.
“Nuverra Group Plan” means the joint prepackaged plan of reorganization under chapter 11 of the
Bankruptcy Code for the Nuverra Group Debtors, all
exhibits and schedules to the Nuverra Group Plan, including the Plan Supplement, which is incorporated
into the Nuverra Group Plan by reference, as they may
be amended, supplemented or modified from time to
time in accordance with the terms hereof, and in accordance with the terms of the Bankruptcy Code and
the Bankruptcy Rules.
“Nuverra Group Rejection Damage and Other
Debt Claims” means all Claims against the Nuverra
Group Debtors comprising, related to, arising under or
in connection with (i) the rejection of any executory
contracts and unexpired leases of the Nuverra Group
Debtors by the Nuverra Group Debtors prior to the Effective Date, (ii) the Shallenberger/Skywater Other
Loss Claims, (iii) the Ideal Oilfield Other Loss Claims,
and (iv) any guarantee claims against the Nuverra
Group Debtors comprising, related to, arising under or
in connection with the foregoing items (i) through (iii).
“Other Priority Claims” means any and all
Claims against any Debtor entitled to priority in right
of payment under section 507(a) of the Bankruptcy

App. 213
Code that are not Administrative Claims or Priority
Tax Claims.
“Other Secured Claims” means any and all Secured Claims against any Debtor that are not DIP
Claims, ABL Credit Facility Claims, Term Loan Facility Claims, or 2021 Note Claims.
“Out-of-Court Restructuring” means all transactions and agreements related to a restructuring of
the Debtors’ indebtedness contemplated by, and taken
in connection with, that certain restructuring support
agreement, dated as of March 11, 2016, by and among
the Debtors and the Holders, as of March 11, 2016, of
more than 80% of the 2018 Notes, as described in any
of the Debtors’ public filings with the Securities and
Exchange Commission since March 2016.
[14] “Payment in Fulf ’ means, with respect to the
ABL Credit Facility Claims or DIP Revolving Facility
Claims, termination of any commitments to make
loans or advances or any other extensions of credit and
indefeasible repayment in full in Cash of all amounts
owing on account of such Claims; provided that (a) in
the case of any such Claims with respect to outstanding letters of credit issued under the ABL Credit
Agreement or DIP Revolving Facility, as applicable, in
lieu of the payment in full in cash, delivery of Letter of
Credit Collateralization (as defined in the ABL Credit
Agreement or DIP Revolving Facility, as applicable)
shall constitute payment in full of such Claims, (b) in
the case of any Claims with respect to Bank Product
Obligations (as defined in the ABL Credit Agreement

App. 214
or DIP Revolving Facility, as applicable), in lieu of the
payment in full in cash, delivery of Bank Product Collateralization (as defined in the ABL Credit Agreement
or DIP Revolving Facility, as applicable) in respect
thereof shall constitute payment in full of such Claims
and (c) in the case of any asserted or threatened (in
writing) claims, demands, actions, suits, proceedings,
investigations, liabilities, fines, costs, penalties, or
damages as of the Effective Date for which ABL Agent,
ABL Lenders, DIP Revolving Agent or DIP Revolving
Lenders may be entitled to indemnification by any
Debtor pursuant to the indemnification provisions in
the ABL Credit Agreement or DIP Revolving Facility
Credit Agreement, as applicable, in lieu of the payment
in full in cash, delivery of cash collateral to ABL Agent
or DIP Revolving Agent, as applicable, in such amount
as ABL Agent or DIP Revolving Agent determines is
reasonably necessary to secure ABL Agent, ABL Lenders, DIP Revolving Agent or DIP Revolving Lenders in
respect of such claims, demands, actions, suits, proceedings, investigations, liabilities, fines, costs, penalties, or damages asserted or threatened (in writing) as
of the Effective Date shall constitute payment in full of
such Obligations. “Paid in Full” shall have a correlative meaning.
“Person” means a “person” as defined in section
101(41) of the Bankruptcy Code.
“Petition Date” means the date on which the
Debtors filed their petitions for relief commencing the
Chapter 11 Cases.

App. 215
“Plan” means this joint prepackaged plan of reorganization under chapter 11 of the Bankruptcy Code,
all exhibits and schedules to the Plan, including the
Plan Supplement, which is incorporated herein by reference, as they may be amended, supplemented or
modified from time to time in accordance with the
terms hereof, and in accordance with the terms of the
Bankruptcy Code and the Bankruptcy Rules, including, for the avoidance of doubt, as the context requires,
one or more of the Nuverra Group Plan, the AWS
Debtor Plan and the Badlands (DE) Debtor Plan or all
of them.
“Plan Document” means any and all of the documents, other than the Plan, to be executed, delivered,
or performed in connection with the occurrence of the
Effective Date, including, without limitation, insofar as
such documents are not incorporated into the Plan
through inclusion in the Plan Supplement, the Exit Facility Credit Agreement Documents and the Management Incentive Plan, subject to any consent rights set
forth in the Restructuring Support Agreement and in
the Plan and as may be modified consistent with the
Restructuring Support Agreement.
“Plan Supplement” means the compilation of
documents and forms of documents, schedules, and exhibits to the Plan to be filed by the Debtors no later
than three (3) Business [15] Days prior to the Confirmation Hearing, as the same may be amended, modified, or supplemented, which shall be in form and
substance satisfactory to the Debtors and the Supporting Noteholders, and including, without limitation, the

App. 216
following: (a) the identity of the known members of
the Reorganized Nuverra Board and the nature and
compensation for any director who is an “insider” under the Bankruptcy Code, (b) the Schedule of Rejected
Contracts, (c) the New Employment Agreements, (d)
the Exit Financing Term Sheet (if any), (e) the Rights
Offering Procedures, (f ) the Registration Rights Agreement, (g) the Reorganized Nuverra Constituent Documents, (h) the Warrant Agreement, and (i) all exhibits,
attachments, supplements, annexes, schedules, and
ancillary documents related to each of the foregoing.
“Plan Value” means the assumed $350 million
enterprise valuation of the Reorganized Debtors on
the Effective Date, at which the Reorganized Nuverra
Common Stock issued in connection with the Rights
Offering, will be sold at.
“Priority Tax Claims” means any and all Claims
against any Debtor of the kind specified in section
507(a)(8) of the Bankruptcy Code.
“Professionals” means (a) any and all professionals employed in the Chapter 11 Cases pursuant
to sections 327, 328, or 1103 of the Bankruptcy Code
or otherwise and (b) any and all professionals or
other entities seeking compensation or reimbursement of expenses in connection with the Chapter 11
Cases pursuant to section 503(b)(4) of the Bankruptcy
Code.
“Professional Fee Claim” means any and all
Claims of a Professional seeking an award by the
Bankruptcy Court of compensation for services

App. 217
rendered or reimbursement of expenses incurred
through and including the Effective Date under sections 330, 331, 503(b)(2), 503(b)(3), 503(b)(4) or 503(b)(5)
of the Bankruptcy Code.
“Proof of Claim” means a proof of Claim, as defined in Bankruptcy Rule 3001, filed against any of the
Debtors in the Chapter 11 Cases.
“Pro Rata Share” means with respect to any distribution on account of any Allowed Claim in any
Class, a distribution equal in amount to the ratio (expressed as a percentage) that the amount of such Allowed Claim bears to the aggregate amount of all
Allowed Claims in such Class.
“Registration Rights Agreement” means that
certain registration rights agreement to be included in
the Plan Supplement and entered into by Reorganized
Nuverra and the Registration Rights Parties on the Effective Date.
“Registration Rights Parties” means Reorganized Nuverra, each Supporting Noteholder (and
any Affiliates thereof that receive Reorganized Nuverra Common Stock under the Plan), and each recipient of Reorganized Nuverra Common Stock that,
together with its Affiliates, receives 10% or more of the
Reorganized Nuverra Common Stock.
“Reinstated” means, with respect to Claims and
Equity Interests, the treatment provided for in section
1124 of the Bankruptcy Code.

App. 218
[16] “Released Parties” means, collectively, and
in each case excluding the Excluded Parties, each of:
(i) the Debtors; (ii) the Debtors’ other non-Debtor Affiliates; (iii) the Supporting Noteholders; (iv) the
Standby Exit Facility Lenders; (v) the ABL Agent; (vi)
the ABL Lenders; (vii) the Term Loan Agent, (viii) the
Term Loan Lenders, (ix) the DIP Agents; (x) the DIP
Lenders; (xi) the 2018 Note Indenture Trustee, (xii) the
2021 Note Indenture Trustee; and (xiii) the Committee; and with respect to each of the foregoing entities,
such entities’ predecessors, successors, assigns, subsidiaries, present and former Affiliates, managed accounts and funds, current and former officers and
directors, principals, shareholders, members, partners,
managers, employees, subcontractors, agents, advisory
board members, financial advisors, attorneys, accountants, investment bankers, consultants, representatives, management companies, fund advisors,
and other professionals (including any professionals
retained by such entities), and all of the foregoing entities’ respective heirs, executors, estates, servants,
and nominees, in each case in their capacity as such.
“Releasing Parties” means, collectively, each
Holder of a Claim who (i) does not opt out of the release
provisions in the Plan on their Ballot or (ii) votes to
accept the Plan.
“Releasing Party Released Claims” has the
meaning set forth in Section 9.3(b).
“Remaining Reorganized Nuverra Common
Stock” means shares of Reorganized Nuverra Common

App. 219
Stock (subject to dilution by the Management Incentive Plan) issued and outstanding on the Effective
Date after giving effect to the distribution of (a) Rights
Offering Shares, if any, subscribed to prior to the Effective Date, (b) Reorganized Nuverra Common Stock distributed to Holders of Supporting Noteholder Term
Loan Claims in accordance with Section 3.3(d) of this
Plan, (c) any Reorganized Nuverra Common Stock distributed in satisfaction of the Exit Financing Commitment Fee and (d) Reorganized Nuverra Common Stock
distributed to Holders of Allowed Nuverra Group General Unsecured Claims in accordance with Section
3.3(g) of this Plan.
“Reorganized AWS Debtor” means the AWS
Debtor and any successor thereto, by merger, consolidation or otherwise, as reorganized, on or after the Effective Date as reorganized as of the Effective Date in
accordance with this Plan.
“Reorganized Badlands (DE) Debtor” means
the Badlands (DE) Debtor and any successor thereto,
by merger, consolidation or otherwise, as reorganized,
on or after the Effective Date as reorganized as of the
Effective Date in accordance with this Plan.
“Reorganized Debtor” means, as applicable, the
Reorganized Nuverra Group Debtors, the Reorganized
AWS Debtor and the Reorganized Badlands (DE) Debtor.
“Reorganized Debtors Constituent Documents”
means, on or after the Effective Date, collectively, the
Reorganized Nuverra Constituent Documents and
(a) the amended and restated by-laws or similar

App. 220
governing document of each Reorganized Debtor other
than Reorganized Nuverra, and (b) the amended and
restated certificate of incorporation or other formation
document of each Reorganized Debtor other than Reorganized Nuverra, each in form and substance satisfactory to the Debtors and the Supporting Noteholders.
[17] “Reorganized Nuverra” means Nuverra
and any successor thereto, by merger, consolidation or
otherwise, as reorganized, on or after the Effective
Date as reorganized as of the Effective Date in accordance with this Plan.
“Reorganized Nuverra Board” means the board
of directors of Reorganized Nuverra.
“Reorganized Nuverra By-Laws” means, on or
after the Effective Date, the amended and restated bylaws of Reorganized Nuverra, a substantially final
form of which, in form and substance satisfactory to
the Debtors and the Supporting Noteholders, shall be
contained in the Plan Supplement.
“Reorganized Nuverra Certificate of Incorporation” means, on or after the Effective Date, the
amended and restated certificate of incorporation of
Reorganized Nuverra, a substantially final form of
which, in form and substance satisfactory to the Debtors and the Supporting Noteholders, shall be contained
in the Plan Supplement.
“Reorganized Nuverra Common Stock” means
the shares of common stock of Reorganized Nuverra

App. 221
authorized under the Reorganized Nuverra Certificate
of Incorporation and issued pursuant to the Plan.
“Reorganized Nuverra Constituent Documents” means, collectively, the Reorganized Nuverra
By-Laws and the Reorganized Nuverra Certificate of
Incorporation, each in form and substance satisfactory
to the Debtors and the Supporting Noteholders.
“Reorganized Nuverra Group Debtor” means
any Nuverra Group Debtor (other than any Debtor
that is dissolved prior to the Effective Date pursuant
to Section 4.3) and any successor thereto, by merger,
consolidation or otherwise, as reorganized, on or after
the Effective Date in accordance with this Plan.
“Restructuring Support Agreement” means the
agreement, dated as of April 9, 2017, entered into by
and among the Debtors and each Supporting Noteholder, as it may be amended, supplemented or modified from time to time in accordance with the terms
thereof.
“Rights” means, collectively, the 2021 Noteholder
Rights and the 2018 Noteholder Rights.
“Rights Exercise Price” means the price at
which shares of Reorganized Nuverra Common Stock
may be purchased by a holder of Rights in the Rights
Offering and in accordance with the Rights Offering
Procedures.
“Rights Offering” means the Rights Offering to
be conducted in accordance with Section 4.14 hereof,
through which (i) the 2018 Noteholder Rights will be

App. 222
offered to Holders of Allowed 2018 Note Claims against
the Nuverra Group Debtors and (ii) the 2021 Noteholder Rights will be offered to Holders of Allowed
2021 Note Claims, which in the aggregate, comprise
Rights to subscribe for and purchase $105 million of
Reorganized Nuverra Common Stock at the Rights Exercise Price in accordance with the Rights Offering
Procedures.
[18] “Rights Offering Order” means the order of
the Bankruptcy Court authorizing the commencement
of the Rights Offering and approving the Rights Offering Procedures.
“Rights Offering Procedures” means, as applicable, the procedures set forth in the Rights Offering
Order for the implementation of the Rights Offering
approved in the Rights Offering Order.
“Rights Offering Proceeds” means the proceeds
of the Rights Offering as of the Effective Date.
“Rights Offering Shares” means shares of Reorganized Nuverra Common Stock issued pursuant to
the Rights Offering.
“Schedule of Rejected Contracts” means the
schedule of executory contracts and unexpired leases
to be rejected by the Debtors pursuant to the Plan and
included in the Plan Supplement, as the same may be
amended, modified, or supplemented from time to time
by the Debtors with the consent of the Supporting
Noteholders.

App. 223
“Secured Claims” means any and all Claims
against any Debtor that are secured by a Lien on, or
security interest in, property of such Debtor, or that
has the benefit of rights of setoff under section 553 of
the Bankruptcy Code, but only to the extent of the
value of the Holder’s interest in such Debtor’s interest
in such property, or to the extent of the amount subject
to setoff, which value shall be determined as provided
in section 506 of the Bankruptcy Code.
“Securities Act” means the Securities Act of 1933,
as amended, and the rules and regulations promulgated thereunder.
“Security” has the meaning ascribed to such term
in section 101(49) of the Bankruptcy Code.
“Shallenberger/Skywater Claims” means the
Claims of any of the Shallenberger/Skywater Parties
under the Shallenberger/Skywater Documents, including any guarantee claims against the AWS Debtor
comprising, related to, arising under or in connection
with the Shallenberger/Skywater Documents.
“Shallenberger/Skywater Documents” means
(i) the AWS Lease, (ii) the AWS Promissory Note, (iii)
the settlement agreement dated June 9, 2015 among
Nuverra, the AWS Debtor, certain other Nuverra
Group Debtors and certain Shallenberger/Skywater
Parties, (iv) the option agreement dated June 9, 2015
among the AWS Debtor and certain Shallenberger/
Skywater Parties and (v) any other documents and
agreements related to the foregoing.

App. 224
“Shallenberger/Skywater Other Loss Claims”
means any Claims related to, arising out of, arising under, or arising in connection with, the Shallenberger/
Skywater Documents that are not Assumed Shallenberger/Skywater Claims.
[19] “Shallenberger/Skywater Parties” means
(i) Shallenberger Construction, Inc, (ii) Skywater Development, LLC, (iii) S&D Holdings, LLC, (iv) Shallenberger Enterprises, Inc., (v) Terrance C. Shallenberger,
Jr. and (vi) any affiliates of the foregoing that are party
to, or have an interest in, any of the Shallenberger/
Skywater Documents.
“Solicitation and Disclosure Statement” means
the solicitation and disclosure statement relating to
the Plan (including any exhibits and schedules thereto)
in form and substance satisfactory to the Debtors and
the Supporting Noteholders, as such solicitation and
disclosure statement may be amended, supplemented,
or modified from time to time.
“Stamp or Similar Tax” means any stamp tax,
recording tax, personal property tax, conveyance fee,
intangibles or similar tax, real estate transfer tax,
sales tax, use tax, transaction privilege tax (including,
without limitation, such taxes on prime contracting
and owner-builder sales), privilege taxes (including,
without limitation, privilege taxes on construction contracting with regard to speculative builders and owner
builders), and other similar taxes imposed or assessed
by any Governmental Unit.

App. 225
“Standby Exit Facility Lenders” means the
Term Lenders.
“Subordinated Claim” means any Existing Securities Law Claims and any Claim that is subject to
(a) subordination under section 510(b) of the Bankruptcy Code or (b) equitable subordination as determined by the Bankruptcy Court in a Final Order,
including, without limitation, any Claim for or arising
from the rescission of a purchase, sale, issuance, or offer of a Security of any Debtor; for damages arising
from the purchase or sale of such a Security; or for reimbursement, indemnification, or contribution allowed
under section 502 of the Bankruptcy Code on account
of such Claims.
“Supporting Noteholders” means the Holders of
2021 Notes and the Term Loan Lenders who have executed the Restructuring Support Agreement, and such
other Holders of 2021 Notes and Term Loan Lenders
that may enter into the Restructuring Support Agreement from time to time.
“Supporting Noteholder Professionals” means,
collectively, Fried, Frank, Harris, Shriver & Jacobson
LLP and Pachulski, Stang, Ziehl & Jones LLP, as legal
advisors to the Supporting Noteholders.
“Supporting Noteholder Term Loan Claims”
means, collectively, (i) the DIP Term Loan Facility
Claims, (ii) the Term Loan Facility Claims, and (iii) the
Term Loan Conversion Fee.

App. 226
“Surviving Equity Interests” means any and all
Equity Interests that are not Nuverra Equity Interests.
“Surviving Obligations” means (i) the obligations of Debtors under the DIP Revolving Facility (including indemnification obligations) that by the terms
of the DIP Revolving Facility survive the termination
of the DIP Revolving Facility, and (ii) to the extent any
Letters of Credit or Bank Product Obligations under
and as defined in the ABL Credit Agreement or DIP
Revolving Facility remain issued and outstanding, the
obligations of the Debtors under the ABL [20] Credit
Agreement or DIP Revolving Facility, as applicable, in
respect of Letters of Credit, Bank Product Obligations
and fees, charges, costs and expenses with respect
thereto.
“Term Loan Agent” means Wilmington Savings
Fund Society, FSB, as administrative agent for the
Term Loan Lenders under the Term Loan Documents
or any successor agent thereof.
“Term Loan Conversion Fee” means the equity
conversion fee in the amount of $3,750,000 earned by
the Supporting Noteholders as consideration for agreeing to support the treatment of the Supporting Noteholder Term Loan Claims pursuant to the Plan.
“Term Loan Credit Agreement” means the Term
Loan Credit Agreement, dated as of April 15, 2016 by
and among Nuverra, the Term Loan Agent (as successor to Wilmington Savings Fund Society, FSB), the

App. 227
Term Loan Lenders and the other parties thereto, as
amended, modified or supplemented from time to time.
“Term Loan Documents” means the Term Loan
Credit Agreement together with all documentation
executed in connection therewith (in each case, as
amended, modified or supplemented from time to
time).
“Term Loan Facility” means the term loan facility provided for under the Term Loan Credit Agreement.
“Term Loan Facility Claims” means any and all
Claims against any Debtor related to, arising out of,
arising under, or arising in connection with, Term Loan
Facility and the Term Loan Documents.
“Term Loan Lenders” means the lender parties
to the Term Loan Documents.
“Unimpaired” means, with respect to any Claim
or Equity Interest, such Claim or Equity Interest that
is not Impaired.
“Unsecured Claim Reorganized Nuverra Common Stock” means an amount of Reorganized Nuverra Common Stock equal to 1.25% of the Remaining
Reorganized Nuverra Common Stock.
“Unsecured Claim Warrants” means warrants,
issued in accordance with this Plan and as more fully
set forth in the Warrant Agreement, to purchase an
amount of Reorganized Nuverra Common Stock
equivalent to 1% of the Remaining Reorganized

App. 228
Nuverra Common Stock at an exercise price set assuming an enterprise value for Reorganized Nuverra
of $507 6 million and with an exercise term expiring
upon the later of (i) five (5) years from the Effective
Date and (ii) any exercise term granted to Mark D.
Johnsrud as Chief Executive Officer of Reorganized
Nuverra; provided, that, in no event shall the term of
such warrants exceed seven (7) years from the Effective Date.
“U.S. Trustee” means the United States Trustee
for the District of Delaware.
[21] “Vehicle Financing Obligations” means
the vehicle financing obligations of the Debtors under
agreements for the leasing, purchase or other financing of vehicles used in the Company’s business, as of
March 30, 2017.
“Voting Deadline” means the deadline to submit
votes to accept or reject the Plan, May 26, 2017, which
may be extended by the Debtors, subject to the terms
of the Restructuring Support Agreement.
“Warrant Agreement” means the agreement
governing the Unsecured Claim Warrants, which shall
contain customary terms and conditions and be in form
and substance reasonably satisfactory to the Debtors,
the Supporting Noteholders and the Committee, the
form of which shall be contained in the Plan Supplement.

App. 229
Section 1.2

Rules of Interpretation and Computation of Time.

(a) For purposes of the Plan: (a) whenever from
the context it is appropriate, each term, whether stated
in the singular or the plural, shall include both the singular and the plural, and pronouns stated in the masculine, feminine or neuter gender shall include the
masculine, feminine and the neuter gender; (b) any reference in the Plan to a contract, instrument, release,
indenture or other agreement or document being in a
particular form or on particular terms and conditions
means that such document substantially shall be in
such form or substantially on such terms and conditions; (c) any reference in the Plan to an existing document or exhibit Filed, or to be Filed, shall mean such
document or exhibit, as it may have been or may be
amended, modified or supplemented; (d) unless otherwise specified, all references in the Plan to Sections,
Articles and Exhibits are references to Sections, Articles and Exhibits of or to the Plan; (e) the words
“herein” and “hereto” refer to the Plan in its entirety
rather than to a particular portion of the Plan; (f ) captions and headings to Articles and Sections are inserted for convenience of reference only and are not
intended to be a part of or to affect the interpretation
of the Plan; (g) the rules of construction set forth in
section 102 of the Bankruptcy Code shall apply; (h) any
term used in capitalized form in the Plan that is not
defined in the Plan but is used in the Bankruptcy Code
or the Bankruptcy Rules shall have the meaning

App. 230
assigned to such term in the Bankruptcy Code or the
Bankruptcy Rules, as the case may be.
(b) In computing any period of time prescribed or
allowed by the Plan, the provisions of Bankruptcy Rule
9006(a) shall apply.
Section 1.3

Reference to Monetary Figures.

All references in this Plan to monetary figures
shall refer to the legal tender of the United States of
America unless otherwise expressly provided.
Section 1.4

Consent Rights of the Supporting
Noteholders.

Notwithstanding anything herein to the contrary,
any and all consent rights of the Supporting Noteholders set forth in the Restructuring Support Agreement
including with respect to the form and substance of
this Plan, the Plan Supplement, any Plan Document,
and any other Definitive Documents (as defined in the
Restructuring Support Agreement), including any
[22] amendments, restatements, supplements, or other
modifications to such documents, and any consents,
waivers, or other deviations under or from any such
documents, shall be incorporated herein by this reference (including to the applicable definitions in Section
1.1 hereof ) and fully enforceable as if stated in full
herein.

App. 231
ARTICLE II.
UNCLASSIFIED CLAIMS
Section 2.1 Administrative Claims.
(a) Each Holder of an Allowed Administrative
Claim, other than DIP Claims, shall receive, in full satisfaction and discharge thereof, Cash equal to the unpaid amount of such Allowed Administrative Claim
(except to the extent that such Holder agrees to less
favorable treatment thereof ) either on, or as soon as
practicable after, the latest of (a) the Effective Date, (b)
the date that is 10 Business Days after the date on
which such Administrative Claim becomes Allowed, (c)
the date on which such Administrative Claim becomes
due and payable pursuant to any agreement between
a Debtor and the Holder, and (d) such other date as
mutually may be agreed to by such Holder and the
Debtors with the consent of the Supporting Noteholders. Notwithstanding the foregoing, any Allowed Administrative Claim based on a liability incurred by a
Debtor in the ordinary course of business during the
Chapter 11 Cases may be paid in the ordinary course
of business in accordance with the terms and conditions of any agreement relating thereto.
(b) Administrative Claim Bar Date. Except with
respect to requests for allowance of compensation and
reimbursement of Professional Fee Claims and as otherwise provided in this Article II, requests for payment
of Administrative Claims, if required, must be Filed
and served on the Reorganized Debtors pursuant to
the procedures specified in the Confirmation Order

App. 232
and the notice of entry of the Confirmation Order no
later than 45 Business Days after the Effective Date.
Holders of Administrative Claims that are required to,
but do not, File and serve a request for payment of such
Administrative Claim by such date shall be forever
barred, estopped, and enjoined from asserting such
Administrative Claim against the Debtors or Reorganized Debtors or their property, and such Administrative Claim shall be deemed discharged as of the
Effective Date. Objections to such requests, if any,
must be Filed and served on the Reorganized Debtors
and the requesting party no later than 75 Business
Days after the Effective Date or such later date as the
Bankruptcy Court may approve. Notwithstanding the
foregoing, no request for payment of an Administrative
Claim shall be required with respect to: (a) any DIP
Claims, or (b) any other Administrative Claims determined to be an Allowed Administrative Claim by Final
Order, including all Administrative Claims expressly
made Allowed Administrative Claims under this Plan.
Section 2.2

Priority Tax Claims.

Each Holder of an Allowed Priority Tax Claim
shall receive, in full satisfaction and discharge thereof,
Cash equal to the unpaid amount of such Allowed Priority Tax Claim (except to the extent that such Holder
agrees to less favorable treatment thereof ) either on,
or as soon as practicable after, the latest of (a) the Effective Date, (b) the date that is 10 Business Days after
[23] the date on which such Priority Tax Claim becomes Allowed, (c) the date on which such Priority Tax

App. 233
Claim becomes due and payable and (d) such other
date as mutually may be agreed to by and among such
Holder and the Debtors with the consent of the Supporting Noteholders, acting reasonably and in good
faith; provided, however, that the Debtors shall be authorized, at their option, with the consent of the Supporting Noteholders, and in lieu of payment in full of
an Allowed Priority Tax Claim, to make deferred Cash
payments on account thereof in the manner and to the
extent permitted under section 1129(a)(9)(C) of the
Bankruptcy Code.
Section 2.3

Professional Fee Claims.

(a) Each Professional requesting compensation
pursuant to sections 330, 331 or 503(b) of the Bankruptcy Code for services rendered in connection with
the Chapter 11 Cases prior to the Effective Date shall
File an application for allowance of final compensation
and reimbursement of expenses in the Chapter 11
Cases no later than 35 Business Days following the Effective Date and any Holder of a Professional Fee
Claim that does not File and serve such application by
such date shall be forever barred from asserting such
Claim against the Debtors, Reorganized Debtors, or
their respective properties, and such Claims shall be
deemed discharged as of the Effective Date. Objections
to any Professional Fee Claim must be Filed and
served on the Reorganized Debtors and counsel to the
Reorganized Debtors no later than 60 Business Days
after the Effective Date (unless otherwise agreed by

App. 234
the party requesting compensation of a Professional
Fee Claim).
(b) Upon the Effective Date, any requirement
that Professionals comply with sections 327 through
331 of the Bankruptcy Code in seeking retention or
compensation for services rendered after such date
shall terminate and any Debtor or Reorganized Debtor,
as the case may be, may pay the charges incurred by
the Debtors or Reorganized Debtors, as the case may
be, on and after the Effective Date for any Professional
Fee Claim, without application to or approval by the
Bankruptcy Court.
Section 2.4

DIP Revolving Facility Claims.

In full and final satisfaction, settlement, release,
and discharge of, and in exchange for, each Allowed
DIP Revolving Facility Claim, each such Allowed DIP
Revolving Facility Claim shall be Paid in Full by the
Debtors on the Effective Date in an amount equal to
the Allowed amount of such DIP Revolving Facility
Claim. DIP Revolving Facility Claims shall be Allowed
Claims pursuant to the terms of the DIP Financing Order and the Plan. Upon the Payment in Full of the
DIP Revolving Facility Claims in accordance with the
terms of this Plan, all Liens granted to secure such obligations shall be terminated and of no further force
and effect (other than any cash collateral retained by
the DIP Revolving Agent pursuant to the definition
Payment in Full).

App. 235
Section 2.5

DIP Term Loan Facility Claims.

In full and final satisfaction, settlement, release,
and discharge of, and in exchange for, each Allowed
DIP Term Loan Facility Claim, each such Allowed DIP
Term Loan Facility Claim shall receive the treatment
set forth in Section 3.3(d). The DIP Term Loan Facility
Claims shall be Allowed in the aggregate amount outstanding under the DIP Term Loan Facility as of the
[24] Effective Date. Upon satisfaction in full of the DIP
Term Loan Facility Claims and Payment in Full of the
DIP Revolving Facility Claims in accordance with the
terms of this Plan, all Liens granted to secure the obligations under the DIP Term Loan Facility shall be terminated and of no further force and effect.
Section 2.6

Payment of Fees and Expenses.

The fees and expenses of the DIP Agents, the DIP
Lenders, the Standby Exit Facility Lenders, Term Loan
Agents, the 2021 Note Indenture Trustee, and their respective professionals, and the Supporting Noteholders’ Professionals shall be paid in connection with this
Plan or any applicable orders entered by the Bankruptcy Court, on the Effective Date, or, with the consent of the DIP Agents, the DIP Lenders, the Standby
Exit Facility Lenders, Term Loan Agents, the 2021
Note Indenture Trustee, and the Supporting Noteholders (as applicable), as soon as reasonably practicable
thereafter. Nothing herein shall require the professionals for the DIP Lenders, the DIP Agents, the Standby
Exit Facility Lenders, Term Loan Agents, the 2021

App. 236
Note Indenture Trustee or the Supporting Noteholders
to file applications with, or otherwise seek approval of,
the Bankruptcy Court as a condition to the payment of
such fees and expenses.
Section 2.7

U.S. Trustee Statutory Fees.

Notwithstanding anything to the contrary contained herein, on the Effective Date, the Debtors shall
pay, in full, in Cash, any and all Bankruptcy Fees due
and owing to the U.S. Trustee at the time of Confirmation Date. On and after the Effective Date, the Reorganized Debtors shall be responsible for filing required
post-confirmation reports and paying quarterly Bankruptcy Fees due to the U.S. Trustee for the Reorganized
Debtors until the entry of a final decree in the Chapter
11 Cases or until the Chapter 11 Cases are converted
or dismissed.
ARTICLE III.
CLASSIFICATION AND TREATMENT
OF CLAIMS AND EQUITY INTERESTS
Section 3.1

Classification.

The categories of Claims and Equity Interests
listed below (other than Administrative Claims and
Priority Tax Claims, which are not required to be classified pursuant to section 1123(a)(1) of the Bankruptcy
Code) classify Claims and Equity Interests for all purposes, including for purposes of voting, confirmation
and distribution pursuant to the Plan and pursuant to

App. 237
sections 1122 and 1123(a)(1) of the Bankruptcy Code.
A Claim or Equity Interest shall be deemed classified
in a particular Class only to the extent that such Claim
or Equity Interest qualifies within the description of
such Class and shall be deemed classified in a different
Class to the extent that any remainder of such Claim
or Equity Interest qualifies within the description of
such different Class. A Claim or Equity Interest is in a
particular Class only to the extent that such Claim or
Equity Interest has not been paid or otherwise settled
prior to the Effective Date. Certain of the Debtors may
not have any Holders of Claims or Equity Interests in
a particular Class or Classes, and such Classes shall
be treated as set forth in Section 3.3. All Nuverra Equity Interests shall be cancelled, extinguished and discharged on the Effective Date, and all Surviving [25]
Equity Interests shall remain outstanding on and after
the Effective Date, subject to the terms hereof.
The classification and the manner of satisfying all
Claims under this Plan take into consideration (a) the
existence of guarantees or alleged guarantees by the
Debtors of obligations of other Debtors or Entities, and
(b) that Debtors may be joint obligors with other Debtors or Entities with respect to the same obligation. The
Holders of Claims will be entitled to only one distribution with respect to any given obligation of the Debtors
under the Plan, including in circumstances where
more than one Debtor is liable for the Claim.

App. 238
Section 3.2

Class Identification

(a) Class Identification for the Nuverra Group
Debtors.
The Nuverra Group Plan constitutes a separate
chapter 11 plan of reorganization for each Nuverra
Group Debtor, each of which shall include the classifications set forth below. The following chart represents
the classification of Claims and Interests for each Nuverra Group Debtor pursuant to the Nuverra Group
Plan.
Class
Class A1

Class A2

Class A3

Class A4

Claims and
Equity
Status
Interests
Other Priority Unimpaired
Claims against
the Nuverra
Group Debtors
Other Secured Unimpaired
Claims against
the Nuverra
Group Debtors
ABL Credit Fa- Unimpaired
cility Claims
against the Nuverra Group
Debtors
Supporting Note- Impaired
holder Term
Loan Claims
against the
Nuverra Group
Debtors

Voting
Rights
No (deemed
to accept)

No (deemed
to accept)

No (deemed
to accept)

Yes

App. 239
Class A5 2021 Note
Impaired
Claims against
the Nuverra
Group Debtors
Class A6 2018 Note
Impaired
Claims against
the Nuverra
Group Debtors
Nuverra Group
Class A7 General Unse- Unimpaired
cured Claims
Class A8 Nuverra Group Impaired
Rejection Damage and Other
Debt Claims
Class A9 Intercompany Unimpaired
Claims against
the Nuverra
Group Debtors
Class A10 Subordinated Impaired
Claims against
the Nuverra
Group Debtors
Nuverra Equity
Class A11
Impaired
Interests
Class A12 Surviving Eq- Unimpaired
uity Interests of
the Nuverra
Group Debtors

Yes

Yes

No (deemed
to accept)
No (deemed
to reject)

No (deemed
to accept)

No (deemed
to reject)

No (deemed
to reject)
No (deemed
to accept)

[26] (b) Class Identification for AWS Debtor.
The AWS Debtor Plan constitutes a separate chapter 11 plan of reorganization for the AWS Debtor. The
following chart represents the classification of Claims

App. 240
and Interests for the AWS Debtor pursuant to the AWS
Debtor Plan.
Class
Class B1

Class B2

Class B3

Class B4

Class B5

Class B6

Class B7
Class B8

Claims and
Equity
Status
Interests
Other Priority Unimpaired
Claims against
the AWS Debtor
Other Secured Unimpaired
Claims against
the AWS Debtor
ABL Credit Fa- Unimpaired
cility Claims
against the
AWS Debtor
Supporting
Impaired
Noteholder
Term Loan
Claims against
the AWS Debtor
2021 Note
Claims against Impaired
the AWS Debtor
AWS Debtor
Unsecured Debt Impaired
Claims
AWS Debtor
General Unse- Unimpaired
cured Claims
Intercompany Unimpaired
Claims against
the AWS Debtor

Voting
Rights
No (deemed
to accept)
No (deemed
to accept)
No (deemed
to accept)

Yes

Yes
No (deemed
to reject)
No (deemed
to accept)
No (deemed
to accept)

App. 241
Class B9 Subordinated Impaired
Claims against
the AWS Debtor
Class B10 Surviving Eq- Unimpaired
uity Interests of
the AWS Debtor

No (deemed
to reject)
No (deemed
to accept)

(c) Class Identification for Badlands (DE) Debtor.
The Badlands (DE) Debtor Plan constitutes a separate chapter 11 plan of reorganization for the Badlands (DE) Debtor. The following chart represents the
classification of Claims and Interests for the Badlands
(DE) Debtor pursuant to the Badlands (DE) Debtor
Plan.
Claims and
Voting
Equity
Status
Rights
Interests
Class C1 Other Priority Unimpaired No (deemed
Claims against
to accept)
the Badlands
(DE) Debtor
Class C2 Other Secured Unimpaired No (deemed
Claims against
to accept)
the Badlands
(DE) Debtor
Class C3 ABL Credit Fa- Unimpaired No (deemed
cility Claims
to accept)
against the
Badlands (DE)
Debtor
Class

App. 242
Claims and
[27] Class
Equity
Status
Interests
Class C4 Supporting
Impaired
Noteholder
Term Loan
Claims against
the Badlands
(DE) Debtor
Class C5 2021 Note
Impaired
Claims against
the Badlands
(DE) Debtor
Class C6 Badlands (DE) Impaired
Debtor Unsecured Debt
Claims
Class C7 Badlands (DE) Unimpaired
Debtor General
Unsecured
Claims
Class C8 Intercompany Unimpaired
Claims against
the Badlands
(DE) Debtor
Class C9 Subordinated Impaired
Claims against
the Badlands
(DE) Debtor
Class C10 Surviving Eq- Unimpaired
uity Interests
of the Badlands
(DE) Debtor

Voting
Rights
Yes

Yes

No (deemed
to reject)

No (deemed
to accept)

No (deemed
to accept)

No (deemed
to reject)

No (deemed
to accept)

App. 243
Section 3.3

Treatment and Voting Rights of
Claims and Equity Interests.

(a) Class A1—Other Priority Claims against the
Nuverra Group Debtors.
(i)

Treatment: The legal, equitable, and contractual rights of the Holders of Allowed
Other Priority Claims against the Nuverra Group Debtors are unaltered by
the Plan. Except to the extent that a
Holder of an Allowed Other Priority
Claim against the Nuverra Group Debtors agrees to less favorable treatment,
each Holder of such an Allowed Claim
shall receive Cash in an amount sufficient to leave unaltered the legal, equitable and contractual rights to which such
Claim entitles such Holder, on, or as soon
as practicable after, the latest of (a) the
Effective Date, (b) the date that is 10
Business Days after the date on which
such Other Priority Claim becomes Allowed, (c) the date on which such Other
Priority Claim otherwise is due and payable, and (d) such other date as mutually
may be agreed to by and among such
Holder and the Nuverra Group Debtors
with the consent of the Supporting Noteholders.

(ii) Impairment and Voting: Allowed Other
Priority Claims against the Nuverra Group
Debtors are Unimpaired. Holders of Allowed Other Priority Claims against the
Nuverra Group Debtors are conclusively

App. 244
presumed to have accepted the Plan pursuant to section 1126(f) of the Bankruptcy
Code, and, therefore, are not entitled to
vote to accept or reject the Plan, and the
votes of such Holders will not be solicited
with respect to such Allowed Other Priority Claims against the Nuverra Group
Debtors.
[28] (b) Class A2—Other Secured Claims against
the Nuverra Group Debtors.
(i)

Treatment: The legal, equitable, and contractual rights of the Holders of Allowed
Other Secured Claims against the Nuverra Group Debtors are unaltered by the
Plan. Except to the extent that a Holder
of an Allowed Other Secured Claim against
the Nuverra Group Debtors agrees to less
favorable treatment, on the later of the
Effective Date and the date that is ten
(10) Business Days after the date such
Other Secured Claim against the Nuverra Group Debtors becomes an Allowed
Claim, or as soon thereafter as is reasonably practicable, each Holder of an Allowed Other Secured Claim against the
Nuverra Group Debtors shall, at the option of the Reorganized Nuverra Group
Debtors, either (a) receive, on account of
such Allowed Claim, Cash in an amount
equal to the Allowed amount of such
Claim, or (b) have such Claim Reinstated.
The failure of the Debtors or any other
party in interest to File an objection, prior

App. 245
to the Effective Date, with respect to any
Other Secured Claim against the Nuverra Group Debtors that is Reinstated
hereunder shall be without prejudice to
the rights of the Reorganized Nuverra
Group Debtor or any other party in interest to contest or otherwise defend against
such Claim in an appropriate forum (including the Bankruptcy Court, if applicable, in accordance with Article X of the
Plan) when and if such Claim is sought to
be enforced.
(ii) Impairment and Voting: Allowed Other
Secured Claims against the Nuverra Group
Debtors are Unimpaired and Holders of
such Claims are conclusively presumed to
have accepted the Plan pursuant to section 1126(f ) of the Bankruptcy Code, and,
therefore, are not entitled to vote to accept or reject the Plan, and the votes of
such Holders will not be solicited with respect to such Allowed Other Secured
Claims against the Nuverra Group Debtors.
(c) Class A3—ABL Credit Facility Claims against
the Nuverra Group Debtors.
(i)

Treatment: The legal, equitable, and contractual rights of the Holders of Allowed
ABL Credit Facility Claims against the
Nuverra Group Debtors are unaltered
by the Plan. Except to the extent that a
Holder of an ABL Credit Agreement

App. 246
Claim against the Nuverra Group Debtors agrees to less favorable treatment,
each Holder of such an Allowed Claim
shall receive, in full and final satisfaction
of its Allowed ABL Credit Agreement
Claim against the Nuverra Group Debtors (except in respect of the Surviving Obligations), Cash on the Effective Date in
an amount sufficient for the Payment in
Full of such Allowed Claim, including all
interest, fees, costs and other charges
that may have accrued on account of such
Claim.
(ii) Impairment and Voting: ABL Credit Facility Claims against the Nuverra Group
Debtors are Unimpaired. Holders of ABL
Credit Facility Claims against the Nuverra Group Debtors are conclusively presumed to have [29] accepted the Plan
pursuant to section 1126(f ) of the Bankruptcy Code, and, therefore, are not entitled to vote to accept or reject the Plan,
and the votes of such Holders will not be
solicited with respect to such Claims.
(iii) Allowance: The ABL Credit Facility Claims
against the Nuverra Group Debtors shall
be deemed Allowed on the Effective Date
in the aggregate principal amount outstanding on the Petition Date (A) plus,
to the extent permitted under the ABL
Credit Agreement Documents and the
DIP Financing Order, (1) any accrued
and unpaid fees, costs and other charges

App. 247
thereon through the Effective Date, (2)
any accrued and unpaid interest thereon
immediately prior to the Petition Date, (3)
any accrued and unpaid interest thereon
payable at the non-default rate from and
after the Petition Date through the Effective Date, and (B) minus, to the extent
permitted under the ABL Credit Agreement Documents and the DIP Financing
Order, any and all amounts paid by the
Debtors to the Holders of ABL Credit Facility Claims during the Chapter 11 Cases
and applied to reduce the ABL Credit Facility Claims.
(d) Class A4—Supporting Noteholder Term Loan
Claims against the Nuverra Group Debtors.
(i)

Treatment: The Supporting Noteholder
Term Loan Claims against the Nuverra
Group Debtors will be treated as follows: (a) $78,750,000 of the Supporting
Noteholder Term Loan Claims, in the aggregate, shall convert into shares of Reorganized Nuverra Common Stock on a
dollar for dollar basis at the Plan Value
(subject to dilution by the Management
Incentive Plan) and (b) the remaining Supporting Noteholder Term Loan Claims, if
any, shall first be paid in Cash from the
Excess Rights Offering Proceeds, and any
remaining balance shall be converted into
Reorganized Nuverra Common Stock on
a dollar for dollar basis at the Plan Value
(subject to dilution by the Management

App. 248
Incentive Plan). On the Effective Date,
the Supporting Noteholder Term Loan
Claims against the Nuverra Group Debtors shall be cancelled and discharged.
(ii) Impairment and Voting: The Supporting
Noteholder Term Loan Claims against
the Nuverra Group Debtors are Impaired
and Holders of Term Loan Facility Claims
are entitled to vote to accept or reject the
Plan.
(iii) Allowance: The Supporting Noteholder
Term Loan Claims against the Nuverra
Group Debtors shall be deemed Allowed
on the Effective Date, in the aggregate
principal amount of (a) the DIP Term
Loan Facility Claims and (b) approximately $80 million of Term Loan Facility
Claims, plus any accrued and unpaid interest thereon payable at the non-default
rate through the Effective Date.
(e) Class A5-2021 Note Claims against the Nuverra Group Debtors.
[30] (i) Treatment: Each Holder of Allowed
2021 Note Claims against the Nuverra
Group Debtors shall receive, in full and
final satisfaction of its Allowed 2021 Note
Claims against the Nuverra Group Debtors, its Pro-Rata Share of (i) 98.75% of
the Remaining Reorganized Nuverra Common Stock and (ii) 2021 Noteholder
Rights, subject to the terms of Section
4.14 hereof. On the Effective Date, all of

App. 249
the 2021 Notes shall be cancelled and discharged.
(ii) Impairment and Voting: 2021 Note Claims
against the Nuverra Group Debtors are
Impaired and Holders of such Allowed
Claims are entitled to vote to accept or reject the Plan.
(iii) Allowance: The 2021 Note Claims against
the Nuverra Group Debtors shall be
deemed Allowed on the Effective Date in
the aggregate principal amount of approximately $356 million, plus any accrued
and unpaid interest thereon payable at
the non-default rate through the Petition
Date.
(f) Class A6—2018 Note Claims against the Nuverra Group Debtors.
(i)

Treatment: Each Holder of Allowed 2018
Note Claims against the Nuverra Group
Debtors shall receive, in full and final satisfaction of its Allowed 2018 Note Claims
against the Nuverra Group Debtors, but
subject to the charging lien of the 2018
Note Indenture Trustee, its Pro-Rata
Share of (i) the Class A6 Reorganized Nuverra Common Stock, (ii) the Class A6
Unsecured Claim Warrants and (iii) 2018
Noteholder Rights, subject to the terms
of Section 4.14 hereof, and (iv) Cash in
the amount of $350,000. On the Effective
Date, all of the 2018 Notes shall be

App. 250
cancelled and discharged as set forth in
Section 4.5 hereof.
(ii) Impairment and Voting: 2018 Note Claims
against the Nuverra Group Debtors are
Impaired and Holders of such Claims are
entitled to vote to accept or reject the
Plan.
(iii) Allowance: The 2018 Note Claims against
the Nuverra Group Debtors shall be
deemed Allowed on the Effective Date in
the aggregate principal amount of approximately $40,436,000, plus any accrued
and unpaid interest thereon payable at
the non-default rate through the Petition
Date.
(g) Class A7—Nuverra Group General Unsecured Claims.
(i)

Treatment: Except to the extent that a
Holder of a Nuverra Group General Unsecured Claim agrees to a less favorable
treatment, in full and final satisfaction of
such Allowed Nuverra Group General
Unsecured Claim, (a) the legal, equitable
and contractual rights to which the Allowed Nuverra Group General Unsecured
Claim entitles the Holder of such Claim
will remain unaltered, or (b) if such Allowed Nuverra Group General Unsecured
Claim is due and payable in Cash on or
before the [31] Effective Date, the Holder
of such Allowed Nuverra Group General
Unsecured Claim shall receive, payment

App. 251
in Cash or otherwise treated in a mariner
to render Unimpaired such Nuverra Group
General Unsecured Claim, on the later of
(a) the Effective Date (or as soon as is reasonably practical thereafter) or (b) the
date that is 10 Business Days after the
date such Nuverra Group General Unsecured Claim becomes an Allowed Nuverra Group General Unsecured Claim.
For avoidance of doubt, if an Allowed Nuverra Group General Unsecured Claim is
not due and payable before the Effective
Date, the Holder of such Allowed Claim
may be paid in the ordinary course of
business consistent with past practices.
Notwithstanding the foregoing, if an Allowed Nuverra Group General Unsecured
Claim is, by the terms of such Claim,
payable in stock, such Allowed Claim
may, with the consent of the Supporting
Noteholders, be paid with Reorganized
Nuverra Common Stock in an amount
sufficient to render Unimpaired such Nuverra Group General Unsecured Claim.
(ii) Impairment and Voting: Nuverra Group
General Unsecured Claims are Unimpaired and Holders of such Claims are
conclusively presumed to have accepted
the Plan pursuant to section 1126(f ) of
the Bankruptcy Code, and, therefore, are
not entitled to vote to accept or reject the
Plan, and the votes of such Holders will
not be solicited with respect to such

App. 252
Allowed Nuverra Group General Unsecured Claims.
(h) Class A8—Nuverra Group Rejection Damage
and Other Debt Claims.
(i)

Treatment: On the Effective Date, all of
the Nuverra Group Rejection Damage
and Other Debt Claims shall be cancelled
and discharged. Each Holder of Allowed
Nuverra Group Rejection Damage and
Other Debt Claims shall receive, in full
and final satisfaction of its Allowed Nuverra Group Rejection Damage and Other
Debt Claims, its Pro-Rata Share of (i) the
Class A8 Reorganized Nuverra Common
Stock and (ii) the Class A8 Unsecured
Claim Warrants.

(ii) Impairment and Voting: Nuverra Group
Rejection Damage and Other Debt Claims
are Impaired. Holders of Nuverra Group
Rejection Damage and Other Debt Claims
conclusively are presumed to have rejected
the Plan pursuant to section 1126(g) of
the Bankruptcy Code, and, therefore, are
not entitled to vote to accept or reject the
Plan, and the votes of such Holders will
not be solicited with respect to such Nuverra Group Rejection Damage and Other
Debt Claims.

App. 253
(i) Class A9—Intercompany Claims against the
Nuverra Group Debtors.
(i)

Treatment: Unless otherwise agreed by
the Debtors and the Supporting Noteholders, in full and final satisfaction, settlement, release, and discharge of, and
exchange for such Allowed Intercompany
Claim against the Nuverra Group Debtors, on the Effective Date the legal, equitable and [32] contractual rights to which
the Allowed Intercompany Claim against
the Nuverra Group Debtors entitles the
Holder of such Claim will remain unaltered and treated in the ordinary course
of business consistent with past practices.

(ii) Impairment and Voting: All Intercompany Claims against the Nuverra Group
Debtors are deemed Unimpaired and
Holders of such Claims are conclusively
presumed to have accepted the Plan pursuant to section 1126(f) of the Bankruptcy
Code, and, therefore, are not entitled to
vote to accept or reject the Plan, and the
votes of such Holders will not be solicited
with respect to such Intercompany Claims
against the Nuverra Group Debtors.
(j) Class A10—Subordinated Claims against the
Nuverra Group Debtors.
(i)

Treatment: Subordinated Claims against
the Nuverra Group Debtors are subordinated pursuant to this Plan and section

App. 254
510 of the Bankruptcy Code. On the Effective Date, all Subordinated Claims
against the Nuverra Group Debtors shall
be cancelled and discharged and the
Holders of such Claims shall not receive
or retain any property under this Plan on
account of such Subordinated Claims
against the Nuverra Group Debtors.
(ii) Impairment and Voting: Subordinated
Claims against the Nuverra Group Debtors are Impaired and Holders of such
Claims are conclusively presumed to
have rejected the Plan pursuant to section 1126(g) of the Bankruptcy Code, and,
therefore, are not entitled to vote to accept or reject the Plan, and the votes of
such Holders will not be solicited with respect to such Subordinated Claims against
the Nuverra Group Debtors.
(k)

Class A11—Nuverra Equity Interests.
(i)

Treatment: On the Effective Date, all of
the Nuverra Equity Interests shall be
cancelled and discharged. Holders thereof
shall not receive a distribution on account
of such Nuverra Equity Interests.

(ii) Impairment and Voting: Nuverra Equity
Interests are Impaired. Holders of Nuverra Equity Interests conclusively are
presumed to have rejected the Plan pursuant to section 1126(g) of the Bankruptcy
Code, and, therefore, are not entitled to
vote to accept or reject the Plan, and the

App. 255
votes of such Holders will not be solicited
with respect to such Nuverra Equity Interests.
(l) Class A12—Surviving Equity Interests of the
Nuverra Group Debtors.
(i)

Treatment: On the Effective Date, Surviving Equity Interests of the Nuverra
Group Debtors shall be Reinstated.

[33] (ii) Impairment and Voting: Surviving
Equity Interests of the Nuverra Group
Debtors are Unimpaired and Holders of
such Equity Interests are conclusively
presumed to have accepted the Plan pursuant to section 1126(f) of the Bankruptcy
Code, and, therefore, are not entitled to
vote to accept or reject the Plan, and the
votes of such Holders will not be solicited
with respect to such Surviving Equity Interests of the Nuverra Group Debtors.
(m) Class B1—Other Priority Claims against the
AWS Debtor.
(i)

Treatment: The legal, equitable, and contractual rights of the Holders of Allowed
Other Priority Claims against the AWS
Debtor are unaltered by the Plan. Except
to the extent that a Holder of an Allowed
Other Priority Claim against the AWS
Debtor agrees to less favorable treatment, each Holder of such an Allowed
Claim shall receive Cash in an amount
sufficient to leave unaltered the legal,

App. 256
equitable and contractual rights to which
such Claim entitles such Holder, on, or as
soon as practicable after, the latest of (a)
the Effective Date, (b) the date that is 10
Business Days after the date on which
such Other Priority Claim against the
AWS Debtor becomes Allowed, (c) the
date on which such Other Priority Claim
against the AWS Debtor otherwise is due
and payable, and (d) such other date as
mutually may be agreed to by and among
such Holder and the AWS Debtor with
the consent of the Supporting Noteholders.
(ii) Impairment and Voting: Allowed Other
Priority Claims against the AWS Debtor
are Unimpaired. Holders of Allowed Other
Priority Claims against the AWS Debtor
conclusively are presumed to have accepted
the Plan pursuant to section 1126(f ) of
the Bankruptcy Code, and, therefore, are
not entitled to vote to accept or reject the
Plan, and the votes of such Holders will
not be solicited with respect to such Allowed Other Priority Claims against the
AWS Debtor.
(n) Class B2—Other Secured Claims against the
AWS Debtor.
(i)

Treatment: The legal, equitable, and contractual rights of the Holders of Allowed
Other Secured Claims against the AWS
Debtor are unaltered by the Plan. Except

App. 257
to the extent that a Holder of an Allowed
Other Secured Claim against the AWS
Debtor agrees to less favorable treatment, on the later of the Effective Date
and the date that is ten (10) Business
Days after the date such Claim becomes
an Allowed Claim, or as soon thereafter
as is reasonably practicable, each Holder
of an Allowed Other Secured Claim against
the AWS Debtor shall, at the option of the
Reorganized AWS Debtor, either (a) receive, on account of such Allowed Claim,
Cash in an amount equal to the Allowed
amount of such Claim, or (b) have such
Claim Reinstated. The failure of the AWS
Debtor or any other party in interest to
File an objection, prior to the Effective
Date, with respect to any Other Secured
Claim against the AWS Debtor that is Reinstated hereunder [34] shall be without
prejudice to the rights of the Reorganized
AWS Debtor or any other party in interest to contest or otherwise defend against
such Claim in an appropriate forum (including the Bankruptcy Court, if applicable, in accordance with Article X of the
Plan) when and if such Claim is sought to
be enforced.
(ii) Impairment and Voting: Allowed Other
Secured Claims against the AWS Debtor
are Unimpaired and Holders of such Allowed Claims are conclusively presumed
to have accepted the Plan pursuant to

App. 258
section 1126(f ) of the Bankruptcy Code,
and, therefore, are not entitled to vote to
accept or reject the Plan, and the votes of
such Holders will not be solicited with
respect to such Allowed Other Secured
Claims.
(o) Class B3—ABL Credit Facility Claims against
the AWS Debtor.
(i)

Treatment: The legal, equitable, and contractual rights of the Holders of Allowed
ABL Credit Facility Claims against the
AWS Debtor are unaltered by the Plan.
Except to the extent that a Holder of an
ABL Credit Agreement Claim against the
AWS Debtor agrees to less favorable
treatment, each Holder of such an Allowed Claim shall receive, in full and final
satisfaction of its Allowed ABL Credit
Agreement Claim against the AWS Debtors (except in respect of the Surviving Obligations), Cash on the Effective Date in
an amount sufficient for the Payment in
Full of such Allowed Claim, including all
interest, fees, costs and other charges
that may have accrued on account of such
Claim.

(ii) Impairment and Voting: ABL Credit Facility Claims against the AWS Debtor are
Unimpaired Holders of ABL Credit Facility Claims against the AWS Debtor are
conclusively presumed to have accepted
the Plan pursuant to section 1126(f ) of

App. 259
the Bankruptcy Code, and, therefore, are
not entitled to vote to accept or reject the
Plan, and the votes of such Holders will
not be solicited with respect to such
Claims.
(iii) Allowance: The ABL Credit Facility Claims
against the AWS Debtor shall be deemed
Allowed on the Effective Date in the aggregate principal amount outstanding on
the Petition Date (A) plus, to the extent
permitted under the ABL Credit Agreement Documents and the DIP Financing
Order, (1) any accrued and unpaid fees,
costs and other charges thereon through
the Effective Date, (2) any accrued and
unpaid interest thereon immediately prior
to the Petition Date, (3) any accrued and
unpaid interest thereon payable at the
non-default rate from and after the Petition Date through the Effective Date, and
(B) minus, to the extent permitted under
the ABL Credit Agreement Documents
and the DIP Financing Order, any and all
amounts paid by the Debtors to the Holders of ABL Credit Facility Claims during
the Chapter 11 Cases and applied to reduce the ABL Credit Facility Claims.
[35] (p) Class B4—Supporting Noteholder Term
Loan Claims against the AWS Debtor.
Treatment: The Supporting Noteholder
Term Loan Claims against the AWS Debtor
will be treated as follows: (a) $78,750,000

App. 260
of the Supporting Noteholder Term Loan
Claims, in the aggregate, shall convert
into shares of Reorganized Nuverra Common Stock on a dollar for dollar basis at
the Plan Value (subject to dilution by the
Management Incentive Plan) and (b) the
remaining Supporting Noteholder Term
Loan Claims, if any, shall first be paid in
Cash from the Excess Rights Offering
Proceeds, and any remaining balance
shall be converted into Reorganized Nuverra Common Stock on a dollar for dollar
basis at the Plan Value (subject to dilution by the Management Incentive Plan).
On the Effective Date, the Supporting
Noteholder Term Loan Claims against
the AWS Debtor shall be cancelled and
discharged.
(i)

Impairment and Voting: The Supporting
Noteholder Term Loan Claims against
the AWS Debtor are Impaired and Holders of Term Loan Facility Claims are entitled to vote to accept or reject the Plan.

(ii) Allowance: The Supporting Noteholder
Term Loan Claims against the AWS
Debtor shall be deemed Allowed on the
Effective Date, in the aggregate principal
amount of (a) the DIP Term Loan Facility
Claims and (b) approximately $80 million
of Term Loan Facility Claims, plus any accrued and unpaid interest thereon payable at the non-default rate through the
Effective Date.

App. 261
(q) Class B5—2021 Note Claims against the AWS
Debtor.
(i)

Treatment: Each Holder of Allowed 2021
Note Claims against the AWS Debtor
shall receive, in full and final satisfaction
of its Allowed 2021 Note Claims against
the AWS Debtor, its Pro-Rata Share of
(i) 98.75% of the Remaining Reorganized
Nuverra Common Stock and (ii) 2021
Noteholder Rights, subject to the terms of
Section 4.14 hereof. On the Effective
Date, all of the 2021 Notes shall be cancelled and discharged.

(ii) Impairment and Voting: 2021 Note Claims
against the AWS Debtor are Impaired
and Holders of such Allowed Claims are
entitled to vote to accept or reject the
Plan.
(iii) Allowance: The 2021 Note Claims against
the AWS Debtor shall be deemed Allowed
on the Effective Date in the aggregate
principal amount of approximately $356
million, plus any accrued and unpaid interest thereon payable at the non-default
rate through the Petition Date.
(r) Class B6—AWS Debtor Unsecured Debt
Claims.
[36] (i) Treatment: On the Effective Date,
all of the AWS Debtor Unsecured Debt
Claims shall be cancelled and discharged.
Each Holder of Allowed AWS Debtor

App. 262
Unsecured Debt Claims, other than AWS
2018 Note Guaranty Claims, shall receive, in full and final satisfaction of its
AWS Debtor Unsecured Debt Claims,
its Pro-Rata Share of (i) the Class B6 Reorganized Nuverra Common Stock and
(ii) the Class B6 Unsecured Claim Warrants.
(ii) Impairment and Voting: AWS Debtor
Unsecured Debt Claims are Impaired.
Holders of AWS Debtor Unsecured Debt
Claims conclusively are presumed to
have rejected the Plan pursuant to section 1126(g) of the Bankruptcy Code, and,
therefore, are not entitled to vote to accept or reject the Plan, and the votes of
such Holders will not be solicited with respect to such AWS Debtor Unsecured
Debt Claims.
(s) Class B7—AWS Debtor General Unsecured
Claims.
(i)

Treatment: Except to the extent that a
Holder of an AWS Debtor General Unsecured Claim agrees to a less favorable
treatment, in full and final satisfaction
of such Allowed AWS Debtor General
Unsecured Claims, (a) the legal, equitable and contractual rights to which the
Allowed AWS Debtor General Unsecured Claim entitles the Holder of such
Claim will remain unaltered, or (b) if
such Allowed AWS Debtor General Unsecured Claim is due and payable in Cash

App. 263
on or before the Effective Date, the
Holder of such Allowed AWS Debtor General Unsecured Claim shall receive, payment in Cash or otherwise treated in a
manner to render Unimpaired such AWS
Debtor General Unsecured Claim, on the
later of (a) the Effective Date (or as soon
as is reasonably practical thereafter)
or (b) the date that is 10 Business Days
after the date such AWS Debtor General
Unsecured Claim becomes an Allowed
AWS Debtor General Unsecured Claim.
For avoidance of doubt, if an Allowed
AWS Debtor General Unsecured Claim
is not due and payable before the Effective Date, the Holder of such Allowed
Claim may be paid in the ordinary
course of business consistent with past
practices.
(ii) Impairment and Voting: AWS Debtor
General Unsecured Claims are Unimpaired and Holders of such Claims are
conclusively presumed to have accepted
the Plan pursuant to section 1126(f ) of
the Bankruptcy Code, and, therefore, are
not entitled to vote to accept or reject the
Plan, and the votes of such Holders will
not be solicited with respect to such Allowed AWS Debtor General Unsecured
Claims.

App. 264
(t) Class B8—Intercompany Claims against the
AWS Debtor.
(i)

Treatment: Unless otherwise agreed by
the Debtors and the Supporting Noteholders, in full and final satisfaction, settlement, release, and discharge of, and
exchange for such Allowed Intercompany
Claim against [37] the AWS Debtor, on
the Effective Date the legal, equitable
and contractual rights to which the Allowed Intercompany Claim against the
AWS Debtor entitles the Holder of such
Claim will remain unaltered and treated
in the ordinary course of business consistent with past practices.

(ii) Impairment and Voting: All Intercompany Claims against the AWS Debtor are
deemed Unimpaired and Holders of such
Claims are conclusively presumed to
have accepted the Plan pursuant to section 1126(f ) of the Bankruptcy Code, and,
therefore, are not entitled to vote to accept or reject the Plan, and the votes of
such Holders will not be solicited with
respect to such Intercompany Claims
against the AWS Debtor.
(u) Class B9—Subordinated Claims against the
AWS Debtor.
(i)

Treatment: Subordinated Claims against
the AWS Debtor are subordinated pursuant to this Plan and section 510 of the
Bankruptcy Code. On the Effective Date,

App. 265
all Subordinated Claims against the AWS
Debtor shall be cancelled and discharged
and the Holders of such Claims shall not
receive or retain any property under this
Plan on account of such Subordinated
Claims against the AWS Debtor.
(ii) Impairment and Voting: Subordinated
Claims against the AWS Debtor are Impaired and Holders of such Claims are
conclusively presumed to have rejected
the Plan pursuant to section 1126(g) of
the Bankruptcy Code, and, therefore, are
not entitled to vote to accept or reject the
Plan, and the votes of such Holders
will not be solicited with respect to such
Subordinated Claims against the AWS
Debtor.
(v) Class B10—Surviving Equity Interests of the
AWS Debtor.
(i)

Treatment: On the Effective Date, Surviving Equity Interests of the AWS Debtor
shall be Reinstated.

(ii) Impairment and Voting: Surviving Equity
Interests of the AWS Debtor are Unimpaired and Holders of such Equity Interests are conclusively presumed to have
accepted the Plan pursuant to section
1126(f ) of the Bankruptcy Code, and,
therefore, are not entitled to vote to accept or reject the Plan, and the votes of
such Holders will not be solicited with respect to such Surviving Equity Interests
of the AWS Debtor.

App. 266
(w) Class C1—Other Priority Claims against the
Badlands (DE) Debtor.
(i)

Treatment: The legal, equitable, and contractual rights of the Holders of Allowed
Other Priority Claims against the Badlands (DE) Debtor are unaltered by the
Plan. Except to the extent that a Holder
of an Allowed Other Priority Claim
against the Badlands (DE) Debtor agrees
to less favorable treatment, each Holder
of such an Allowed Claim shall receive
[38] Cash in an amount sufficient to leave
unaltered the legal, equitable and contractual rights to which such Claim entitles such Holder, on, or as soon as
practicable after, the latest of (a) the Effective Date, (b) the date that is 10 Business Days after the date on which such
Other Priority Claim against the Badlands (DE) Debtor becomes Allowed, (c) the
date on which such Other Priority Claim
against the Badlands (DE) Debtor otherwise is due and payable, and (d) such
other date as mutually may be agreed
to by and among such Holder and the
Badlands (DE) Debtor with the consent of
the Supporting Noteholders.

(ii) Impairment and Voting: Allowed Other
Priority Claims against the Badlands
(DE) Debtor are Unimpaired. Holders of
Allowed Other Priority Claims against the
Badlands (DE) Debtor conclusively are presumed to have accepted the Plan pursuant to section 1126(f ) of the Bankruptcy

App. 267
Code, and, therefore, are not entitled to
vote to accept or reject the Plan, and the
votes of such Holders will not be solicited
with respect to such Allowed Other Priority Claims against the Badlands (DE)
Debtor.
(x) Class C2—Other Secured Claims against the
Badlands (DE) Debtor.
(i)

Treatment: The legal, equitable, and contractual rights of the Holders of Allowed
Other Secured Claims against the Badlands (DE) Debtor are unaltered by the
Plan. Except to the extent that a Holder
of an Allowed Other Secured Claim
against the Badlands (DE) Debtor agrees
to less favorable treatment, on the later
of the Effective Date and the date that is
ten (10) Business Days after the date
such Claim becomes an Allowed Claim, or
as soon thereafter as is reasonably practicable, each Holder of an Allowed Other
Secured Claim against the Badlands
(DE) Debtor shall, at the option of the Reorganized Badlands (DE) Debtor, either
(a) receive, on account of such Allowed
Claim, Cash in an amount equal to the Allowed amount of such Claim, or (b) have
such Claim Reinstated. The failure of the
Debtors or any other party in interest to
File an objection, prior to the Effective
Date, with respect to any Other Secured
Claim against the Badlands (DE) Debtor
that is Reinstated hereunder shall be
without prejudice to the rights of the

App. 268
Reorganized Debtors or any other party
in interest to contest or otherwise defend
against such Claim in an appropriate forum (including the Bankruptcy Court, if
applicable, in accordance with Article X
of the Plan) when and if such Claim is
sought to be enforced.
(ii) Impairment and Voting: Allowed Other
Secured Claims against Badlands (DE)
Debtor are Unimpaired and Holders of
such Allowed Claims are conclusively
presumed to have accepted the Plan
pursuant to section 1126(f ) of the Bankruptcy Code, and, therefore, are not entitled to vote to accept or reject the Plan,
and the votes of such Holders will not
be [39] solicited with respect to such Allowed Other Secured Claims against the
Badlands (DE) Debtor.
(y) Class C3—ABL Credit Facility Claims against
the Badlands (DE) Debtor.
(i)

Treatment: The legal, equitable, and contractual rights of the Holders of Allowed
ABL Credit Facility Claims against the
Badlands (DE) Debtor are unaltered by
the Plan. Except to the extent that a
Holder of an ABL Credit Agreement
Claim against the Badlands (DE) Debtor
agrees to less favorable treatment, each
Holder of such an Allowed Claim shall receive, in full and final satisfaction of its
Allowed ABL Credit Agreement Claim
against the Badlands (DE) Debtor (except

App. 269
in respect of the Surviving Obligations),
Cash on the Effective Date in an amount
sufficient for the Payment in Full of such
Allowed Claim, including all interest,
fees, costs and other charges that may
have accrued on account of such Claim.
(ii) Impairment and Voting: ABL Credit Facility Claims against the Badlands (DE)
Debtor are Unimpaired. Holders of ABL
Credit Facility Claims against the Badlands (DE) Debtor are conclusively presumed to have accepted the Plan pursuant to section 1126(f ) of the Bankruptcy
Code, and, therefore, are not entitled to
vote to accept or reject the Plan, and the
votes of such Holders will not be solicited
with respect to such Claims.
(iii) Allowance: The ABL Credit Facility Claims
against the Badlands (DE) Debtor shall
be deemed Allowed on the Effective Date
in the aggregate principal amount outstanding on the Petition Date (A) plus,
to the extent permitted under the ABL
Credit Agreement Documents and the
DIP Financing Order, (1) any accrued
and unpaid fees, costs and other charges
thereon through the Effective Date, (2) any
accrued and unpaid interest thereon
immediately prior to the Petition Date,
(3) any accrued and unpaid interest
thereon payable at the non-default rate
from and after the Petition Date through
the Effective Date, and (B) minus, to the
extent permitted under the ABL Credit

App. 270
Agreement Documents and the DIP Financing Order, any and all amounts paid
by the Debtors to the Holders of ABL
Credit Facility Claims during the Chapter 11 Cases and applied to reduce the
ABL Credit Facility Claims.
(z) Class C4—Supporting Noteholder Term Loan
Claims against the Badlands (DE) Debtor.
(i)

Treatment: The Supporting Noteholder
Term Loan Claims against the Badlands
(DE) Debtor will be treated as follows:
(a) $78,750,000 of the Supporting Noteholder Term Loan Claims, in the aggregate,
shall convert into shares of Reorganized
Nuverra Common Stock on a dollar for
dollar basis at the Plan Value (subject to
dilution by the Management Incentive
Plan) and (b) the remaining Supporting
Noteholder Term Loan Claims, if any,
shall first be paid in Cash from the Excess
Rights Offering Proceeds, [40] and any remaining balance shall be converted into
Reorganized Nuverra Common Stock on
a dollar for dollar basis at the Plan Value
(subject to dilution by the Management
Incentive Plan). On the Effective Date,
the Supporting Noteholder Term Loan
Claims against the Badlands (DE) Debtor
shall be cancelled and discharged.

(ii) Impairment and Voting: The Supporting
Noteholder Term Loan Claims against
the Badlands (DE) Debtor are Impaired
and Holders of Term Loan Facility Claims

App. 271
are entitled to vote to accept or reject the
Plan.
(iii) Allowance: The Supporting Noteholder
Term Loan Claims against the Badlands
(DE) Debtor shall be deemed Allowed on
the Effective Date, in the aggregate principal amount of (a) the DIP Term Loan
Facility Claims and (b) approximately
$80 million of Term Loan Facility Claims,
plus any accrued and unpaid interest
thereon payable at the non-default rate
through the Effective Date.
(aa) Class C5—2021 Note Claims against the
Badlands (DE) Debtor.
(i)

Treatment: Each Holder of Allowed 2021
Note Claims against the Badlands (DE)
Debtor shall receive, in full and final satisfaction of its Allowed 2021 Note Claims
against the Badlands (DE) Debtor, its
Pro-Rata Share of (i) 98.75% of the Remaining Reorganized Nuverra Common
Stock and (ii) 2021 Noteholder Rights,
subject to the terms of Section 4.14
hereof. On the Effective Date, all of the
2021 Notes shall be cancelled and discharged.

(ii) Impairment and Voting: 2021 Note Claims
against the Badlands (DE) Debtor are
Impaired and Holders of such Allowed
Claims are entitled to vote to accept or reject the Plan.

App. 272
(iii) Allowance: The 2021 Note Claims against
the Badlands (DE) Debtor shall be deemed
Allowed on the Effective Date in the aggregate principal amount of approximately $356 million, plus any accrued
and unpaid interest thereon payable at
the non-default rate through the Petition
Date.
(bb) Class C6—Badlands (DE) Debtor Unsecured
Debt Claims.
(i)

Treatment: On the Effective Date, all of
the Badlands (DE) Debtor Unsecured
Debt Claims shall be cancelled and discharged. Each Holder of Allowed Badlands (DE) Debtor Unsecured Debt Claims,
other than Badlands (DE) 2018 Note
Guaranty Claims, shall receive, in full
and final satisfaction of its Badlands
(DE) Debtor Unsecured Debt Claims, its
Pro-Rata Share of (i) the Class C6 Reorganized Nuverra Common Stock and
(ii) the Class C6 Unsecured Claim Warrants.

[41] (ii) Impairment and Voting: Badlands
(DE) Debtor Unsecured Debt Claims are
Impaired. Holders of Badlands (DE)
Debtor Unsecured Debt Claims conclusively are presumed to have rejected the
Plan pursuant to section 1126(g) of the
Bankruptcy Code, and, therefore, are not
entitled to vote to accept or reject the
Plan, and the votes of such Holders
will not be solicited with respect to such

App. 273
Badlands (DE) Debtor Unsecured Debt
Claims.
(cc) Class C7—Badlands (DE) Debtor General
Unsecured Claims.
(i)

Treatment: Except to the extent that a
Holder of a Badlands (DE) Debtor General Unsecured Claim agrees to a less
favorable treatment, in full and final satisfaction of such Allowed Badlands (DE)
Debtor General Unsecured Claim, (a) the
legal, equitable and contractual rights to
which the Allowed Badlands (DE) Debtor
General Unsecured Claim entitles the
Holder of such Claim will remain unaltered, or (b) if such Allowed Badlands
(DE) Debtor General Unsecured Claim is
due and payable in Cash on or before the
Effective Date, the Holder of such Allowed Badlands (DE) Debtor General Unsecured Claim shall receive, payment in
Cash or otherwise treated in a manner to
render Unimpaired such Badlands (DE)
Debtor General Unsecured Claim, on the
later of (a) the Effective Date (or as soon
as is reasonably practical thereafter)
or (b) the date that is 10 Business Days
after the date such Badlands (DE) Debtor
General Unsecured Claim becomes an Allowed Badlands (DE) Debtor General Unsecured Claim. For avoidance of doubt, if
an Allowed Badlands (DE) Debtor General Unsecured Claim is not due and payable before the Effective Date, the Holder
of such Allowed Claim may be paid in the

App. 274
ordinary course of business consistent
with past practices.
(ii) Impairment and Voting: Badlands (DE)
Debtor General Unsecured Claim are Unimpaired and Holders of such Claims are
conclusively presumed to have accepted
the Plan pursuant to section 1126(f ) of
the Bankruptcy Code, and, therefore, are
not entitled to vote to accept or reject the
Plan, and the votes of such Holders will
not be solicited with respect to such Allowed Badlands (DE) Debtor General Unsecured Claim.
(dd) Class C8—Intercompany Claims against the
Badlands (DE) Debtor.
(i)

Treatment: Unless otherwise agreed by
the Debtors and the Supporting Noteholders, in full and final satisfaction, settlement, release, and discharge of, and
exchange for such Allowed Intercompany
Claim against the Badlands (DE) Debtor,
on the Effective Date the legal, equitable
and contractual rights to which the Allowed Intercompany Claim against the
Badlands (DE) Debtor entitles the Holder
of such Claim will remain unaltered and
treated in the ordinary course of business
consistent with past practices.

[42] (ii) Impairment and Voting: All Intercompany Claims against the Badlands
(DE) Debtor are deemed Unimpaired and
Holders of such Claims are conclusively
presumed to have accepted the Plan

App. 275
pursuant to section 1126(f ) of the Bankruptcy Code, and, therefore, are not entitled to vote to accept or reject the Plan,
and the votes of such Holders will not be
solicited with respect to such Intercompany Claims against the Badlands (DE)
Debtor.
(ee) Class C9—Subordinated Claims against the
Badlands (DE) Debtor.
(i)

Treatment: Subordinated Claims against
the Badlands (DE) Debtor are subordinated pursuant to this Plan and section
510 of the Bankruptcy Code. On the Effective Date, all Subordinated Claims
against the Badlands (DE) Debtor shall
be cancelled and discharged and the
Holders of such Claims shall not receive
or retain any property under this Plan on
account of such Subordinated Claims
against the Badlands (DE) Debtor.

(ii) Impairment and Voting: Subordinated
Claims against the Badlands (DE) Debtor
are Impaired and Holders of such Claims
are conclusively presumed to have rejected the Plan pursuant to section 1126(g)
of the Bankruptcy Code, and, therefore,
are not entitled to vote to accept or reject
the Plan, and the votes of such Holders
will not be solicited with respect to such
Subordinated Claims against the Badlands (DE) Debtor.

App. 276
(ff ) Class C10 Surviving Equity Interests of the
Badlands (DE) Debtor.
(i)

Treatment: On the Effective Date, Surviving Equity Interests of the Badlands (DE)
Debtor shall be Reinstated.

(ii) Impairment and Voting: Surviving Equity
Interests of the Badlands (DE) Debtor are
Unimpaired and Holders of such Equity
Interests are conclusively presumed to
have accepted the Plan pursuant to section 1126(f ) of the Bankruptcy Code, and,
therefore, are not entitled to vote to accept or reject the Plan, and the votes of
such Holders will not be solicited with respect to such Surviving Equity Interests
of the Badlands (DE) Debtor.
Section 3.4

Elimination of Vacant Classes.

Any Class of Claims or Equity Interests that does
not have a Holder of any Allowed Claim or Allowed Equity Interest or Claim or Equity Interest temporarily
Allowed by the Bankruptcy Court as of the date of the
Confirmation hearing shall be deemed eliminated from
the Plan for purposes of voting to accept or reject the
Plan and for purposes of determining acceptance or rejection of the Plan by such Class pursuant to section
1129(a)(8) of the Bankruptcy Code.

App. 277
[43] Section 3.5 Voting; Presumptions; Solicitation.
(a) Acceptance by Certain Impaired Classes. Only
Holders of Allowed Claims in Class A4, Class A5, Class
A6, Class B4, Class B5, Class C4 and Class C5 are entitled to vote to accept or reject the applicable Plan. An
Impaired Class of Claims shall have accepted this Plan
if (a) the Holders of at least two-thirds (2/3) in amount
of the Allowed Claims actually voting in such Class
have voted to accept this Plan and (b) the Holders of
more than one-half (1/2) in number of the Allowed
Claims actually voting in such Class have voted to accept this Plan. Holders of Claims in Class A4, Class A5,
Class A6, Class B4, Class B5, Class C4 and Class C5
will receive ballots containing detailed voting instructions.
(b) Deemed Acceptance by Unimpaired Classes.
Holders of Claims and Equity Interests in Classes A1,
A2, A3, A7, A9, A12, B1, B2, B3, B7, B8, B10, C11, C2,
C3, C7, C8 and C10 are conclusively deemed to have
accepted this Plan pursuant to section 1126(f ) of the
Bankruptcy Code. Accordingly, such Holders are not
entitled to vote to accept or reject this Plan.
(c) Deemed Rejection by Certain Impaired Classes. Holders of Claims and Equity Interests in Classes
A8, A10, A11, B6, B9, C6 and C9 are deemed to have
rejected this Plan pursuant to section 1126(g) of the
Bankruptcy Code. Accordingly, such Holders are not
entitled to vote to accept or reject this Plan.

App. 278
Section 3.6

Cram Down.

If any Class of Claims or Equity Interests entitled
to vote on an applicable Plan shall not vote to accept
the Plan, the Debtors may (a) seek confirmation of the
Plan under section 1129(b) of the Bankruptcy Code or
(b) amend or modify the Plan in accordance with Section 11.3 hereof. With respect to any Class of Claims or
Equity Interests that conclusively is presumed to reject the Plan, the Debtors may request that the Bankruptcy Court confirm the Plan pursuant to section
1129(b) of the Bankruptcy Code. If a controversy arises
as to whether any Claims or Equity Interests, any
Class of Claims or Equity Interests, are Impaired, the
Bankruptcy Court shall, after notice and a hearing, determine such controversy on or before the Confirmation Date.
Section 3.7

No Waiver.

Nothing contained in this Plan shall be construed
to waive a Debtor’s or other Entity’s right to object on
any basis to any Claim, including after the Effective
Date and in any forum.
ARTICLE IV.
MEANS FOR IMPLEMENTATION OF THE PLAN
Section 4.1

Compromise of Controversies.

Pursuant to section 1123 of the Bankruptcy Code
and Bankruptcy Rule 9019, and in consideration for
the distributions and other benefits provided under the

App. 279
Plan, the provisions of the Plan constitute a good faith
compromise and settlement of all Claims and controversies [44] resolved under the Plan, and the entry of
the Confirmation Order shall constitute the Bankruptcy Court’s approval of such compromise and settlement under Bankruptcy Rule 9019.
Section 4.2

Sources of Cash for Plan Distribution.

Except as otherwise provided in the Plan or Confirmation Order, all Cash required for the payments to
be made hereunder shall be obtained from the Debtors’
and the Reorganized Debtors’ operations and Cash balances, the Rights Offering Proceeds and, if necessary,
the Exit Facility Credit Agreement proceeds.
Section 4.3

Continued Corporate Existence.

Except as otherwise provided in this Plan, each of
the Debtors, as Reorganized Debtors, shall continue to
exist on and after the Effective Date as a separate legal
entity with all of the powers available to such legal
entity under applicable law and pursuant to the Reorganized Debtor’s Constituent Documents, without
prejudice to any right to alter or terminate such existence (whether by merger or otherwise) in accordance
with such applicable law. On or after the Effective
Date, without prejudice to the rights of any party to a
contract or other agreement with any Reorganized
Debtor, each Reorganized Debtor may, in its sole discretion, take such action as permitted by applicable

App. 280
law, and such Reorganized Debtor’s organizational documents, as such Reorganized Debtor may determine is
reasonable and appropriate, including, without limitation, causing: (a) a Reorganized Debtor to be merged
into another Reorganized Debtor or an Affiliate of a Reorganized Debtor; (b) a Reorganized Debtor to be dissolved; (c) the legal name of a Reorganized Debtor to
be changed; (d) the closure of a Reorganized Debtor’s
Chapter 11 Case on the Effective Date or any time
thereafter; or (e) the reincorporation of a Reorganized
Debtor under the law of jurisdictions other than the
law under which the Debtor currently is incorporated.
Section 4.4

Corporate Action.

(a) Upon the Effective Date, all actions contemplated by the Plan shall be deemed authorized,
approved, and directed in all respects, including: (1) selection of the directors and officers of the Reorganized
Debtors, (2) the distribution of the Reorganized Nuverra Common Stock as provided herein, (3) the execution and entry into the Exit Facility Credit Agreement
and Exit Facility Credit Agreement Documents, and
(4) all other actions contemplated by the Plan (whether
to occur before, on, or after the Effective Date) and all
such actions taken or caused to be taken shall be
deemed to have been authorized and approved by the
Bankruptcy Court. All matters provided for in the Plan
involving the corporate structure of the Debtors or the
Reorganized Debtors, and any corporate action required by the Debtors or the Reorganized Debtors in
connection with the Plan shall be deemed to have

App. 281
timely occurred and shall be in effect and shall be authorized and approved in all respects, without any requirement of further action by the security Holders,
directors, or officers of the Debtors or the Reorganized
Debtors or otherwise.
(b) On or (as applicable) before the Effective
Date, the appropriate officers of the Debtors or the Reorganized Debtors, as applicable, shall be authorized
and, as applicable, directed to issue, execute, and deliver the agreements, documents, securities, certificates of [45] incorporation, operating agreements, and
instruments contemplated by the Plan (or necessary or
desirable to effect the transactions contemplated by
the Plan) in the name of and on behalf of the Reorganized Debtors, including the Reorganized Nuverra
Common Stock, the Exit Facility Credit Agreement,
and any and all agreements, documents, securities,
and instruments relating to the foregoing. The authorizations and approvals contemplated by this Section
4.4 shall be effective notwithstanding any requirements under nonbankruptcy law.
Section 4.5

Cancellation of Existing Securities
and Agreements.

On the Effective Date, except as otherwise specifically provided for in the Plan: (a) the obligations of the
Debtors under any certificate, share, note, bond, agreement, indenture, purchase right, option, warrant, or
other instrument or document directly or indirectly evidencing or creating any indebtedness or obligation of

App. 282
or ownership interest in the Debtors giving rise to any
Claim or Equity Interest (except such certificates,
notes, or other instruments or documents evidencing
indebtedness or obligations of the Debtors that are
specifically Reinstated pursuant to the Plan, if any)
shall be cancelled, terminated and of no further force
or effect, without further act or action, and the Debtors
and the Reorganized Debtors shall not have any continuing obligations thereunder, and (b) the obligations
of the Debtors pursuant, relating, or pertaining to any
agreements, indentures, certificates of designation, bylaws or certificate or articles of incorporation or similar
documents governing the shares, certificates, notes,
bonds, purchase rights, options, warrants, or other instruments or documents evidencing or creating any indebtedness or obligation of the Debtors (except such
agreements, certificates, notes, or other instruments
evidencing indebtedness or obligations of the Debtors
that are specifically Reinstated or assumed pursuant
to the Plan, if any) shall be released and discharged.
Notwithstanding such cancellation and discharge,
each of the 2021 Note Indenture, the 2018 Note Indenture, the ABL Credit Agreement, the Term Loan Credit
Agreement, the DIP Term Loan Facility and the DIP
Revolving Facility shall continue in effect to the extent
necessary to: (a) allow Holders of Claims under such
agreements to receive applicable Plan distributions;
(b) allow the Reorganized Debtors, the 2021 Note Indenture Trustee, the 2018 Note Indenture Trustee, the
Term Loan Agent and the ABL Agent to make applicable distributions pursuant to this Plan on account of

App. 283
the 2021 Note Claims, the 2018 Note Claims, the Term
Loan Facility Claims, the ABL Credit Facility Claims,
the DIP Term Loan Facility Claims, and the DIP Revolving Facility Claims, as applicable, and deduct
therefrom such reasonable compensation, fees, and expenses (i) due to the 2021 Note Indenture Trustee, the
2018 Note Indenture Trustee, the Term Loan Agent or
the ABL Agent under the 2021 Note Indenture, the
2018 Note Indenture, the Term Loan Credit Agreement or the ABL Credit Agreement, as applicable, or
(ii) incurred by the 2021 Note Indenture Trustee, the
2018 Note Indenture Trustee, the Term Loan Agent or
the ABL Agent in making such distributions pursuant
to this Plan; and (c) allow the 2021 Note Indenture
Trustee, the 2018 Note Indenture Trustee, the Term
Loan Agent and the ABL Agent to (i) be compensated
and reimbursed for fees and expenses, in Cash, in accordance with the 2021 Note Indenture, the 2018 Note
Indenture, the Term Loan Credit Agreement or the
ABL Credit Agreement, (ii) maintain and exercise
their respective charging liens against applicable Plan
distributions, (iii) appear and be heard in the Chapter
11 Cases or in any proceedings in the Bankruptcy
Court or any other court, (iv) enforce [46] any obligation owed to them under the Plan, and (v) enforce their
rights, claims, and interests vis-à-vis any parties other
than the Released Parties.
Except as provided pursuant to this Plan, each of
the 2021 Note Indenture Trustee, the 2018 Note Indenture Trustee, the Term Loan Agent, the ABL Agent and
their respective agents, successors, and assigns shall

App. 284
be fully discharged of all of their duties and obligations
associated with the 2021 Note Indenture, the 2018
Note Indenture, the Term Loan Credit Agreement or
the ABL Credit Agreement, respectively.
On the Effective Date, subject only to the reinstatement provisions set forth in section 2.15 of the
Pari Passu Intercreditor Agreement and section 6.8 of
the Second Lien Intercreditor Agreement (as those
terms are defined in the DIP Financing Order), all subordination provisions in the DIP Facilities, the ABL
Credit Agreement Documents, the Term Loan Documents and the 2021 Note Indenture and related documents are compromised and settled by the Plan and
neither the DIP Agents, the ABL Agent, Term Loan
Agent nor the DIP Lenders, ABL Lenders or Term
Lenders shall have any Claim to any Class A4, Class
A5, Class A6, Class B4, Class B5, Class C4 or Class C5
distribution under the Plan by reason of any such subordination provisions.
Section 4.6

Release of Liens.

Except as otherwise provided herein or in any contract, instrument, release, or other agreement or document created pursuant to the Plan, on the Effective
Date and concurrently with the applicable distributions made pursuant to the Plan and, in the case of a
Secured Claim, satisfaction in full of the portion of the
Secured Claim that is an Allowed Secured Claim as
of the Effective Date, all mortgages, deeds of trust,
Liens, pledges, or other security interests against any

App. 285
property of the Estates shall be fully released and
discharged and all of the right, title, and interest of
any Holder of such mortgages, deeds of trust, Liens,
pledges or other security interests shall revert to the
Reorganized Debtor and its successors and assigns. For
the avoidance of doubt, all mortgages, deeds of trust,
Liens, pledges, or other security interests against any
property of the Estates shall be fully released and discharged on the Effective Date without any further action of any party, including, but not limited to, further
order of the Bankruptcy Court, or filing updated schedules or statements typically filed pursuant to the Uniform Commercial Code.
Section 4.7

Cancellation of Certain Existing
Security Interests.

Upon the full payment or other satisfaction of an
Allowed Other Secured Claim, or promptly thereafter,
the Holder of such Allowed Other Secured Claim shall
deliver to the Debtors or Reorganized Debtors, as applicable, any Collateral or other property of a Debtor
held by such Holder, together with any termination
statements, instruments of satisfaction, or releases of
all security interests with respect to its Allowed Other
Secured Claim that may be reasonably required to terminate any related financing statements, mortgages,
mechanics’ or other statutory Liens, or lis pendens, or
similar interests or documents.

App. 286
[47] Section 4.8 Vesting of Assets.
Except as otherwise provided in the Plan, on and
after the Effective Date, all Assets of the Estates, including all claims, rights, and Causes of Action and any
property acquired by the Debtors under or in connection with the Plan, shall vest in each respective Reorganized Debtor free and clear of all Claims, Liens,
charges, other encumbrances, and interests. Subject to
the terms of the Plan, on and after the Effective Date,
the Reorganized Debtors may operate their businesses
and may use, acquire, and dispose of property and
prosecute, compromise, or settle any Claims (including
any Administrative Claims) and Causes of Action
without supervision of or approval by the Bankruptcy
Court and free and clear of any restrictions of the
Bankruptcy Code or the Bankruptcy Rules other
than restrictions expressly imposed by the Plan or
the Confirmation Order. Without limiting the foregoing, the Reorganized Debtors may pay the charges
that they incur on or after the Effective Date for Professionals’ fees, disbursements, expenses, or related
support services without application to the Bankruptcy Court.
Section 4.9

Issuance of Reorganized Nuverra
Common Stock.

Shares of Reorganized Nuverra Common Stock
shall be authorized under the Reorganized Nuverra
Certificate of Incorporation, and shares of Reorganized
Nuverra Common Stock shall be issued on the Effective Date and distributed as soon as practicable

App. 287
thereafter in accordance with the Plan. All of the Reorganized Nuverra Common Stock issuable in accordance with the Plan, when so issued, shall be duly authorized, validly issued, fully paid, and non-assessable.
The issuance of the Reorganized Nuverra Common
Stock is authorized without the need for any further
corporate action and without any further action by any
Holder of a Claim or Equity Interest.
Section 4.10

Section 1145 Exemption from Registration.

The issuance of and the distribution under this
Plan of the Reorganized Nuverra Common Stock and
the Rights shall be exempt from registration under the
Securities Act and any other applicable securities laws
pursuant to section 1145 of the Bankruptcy Code.
These Securities may be resold without registration
under the Securities Act or other federal securities
laws pursuant to the exemption provided by section
4(a)(1) of the Securities Act, unless the Holder is an
“underwriter” with respect to such Securities, as that
term is defined in section 1145(b) of the Bankruptcy
Code. In addition, such section 1145 exempt Securities
generally may be resold without registration under
state securities laws pursuant to various exemptions
provided by the respective laws of the several states.

App. 288
Section 4.11

SEC Reporting Requirements and
Listing of Reorganized Nuverra Common Stock.

As of the Effective Date, Reorganized Nuverra
shall be a reporting company under the Exchange Act,
15 U.S.C. §§ 78(a)-78(pp). Reorganized Nuverra will
use best efforts to cause the listing of Reorganized Nuverra Common Stock on the New York Stock Exchange,
the NASDAQ Stock Market, or another nationally recognized exchange as soon as practicable subject to
meeting applicable listing requirements following the
Effective Date.
[48] Section 4.12 Reorganized Debtors Constituent Documents.
On, or as soon as practicable after, the Effective
Date, the Reorganized Debtors shall (a) make any and
all filings that may be required in connection with the
Reorganized Debtors Constituent Documents with the
appropriate governmental offices and or agencies and
(b) take any and all other actions that may be required
to render the Reorganized Debtors Constituent Documents effective.
Section 4.13

Directors and Officers of the Reorganized Debtors.

(a) Pursuant to section 1129(a)(5) of the Bankruptcy Code, the identity and affiliations of the Reorganized Nuverra Board shall be disclosed in the Plan
Supplement. On the Effective Date, the Reorganized

App. 289
Nuverra Board shall consist of five (5) members: the
chief executive officer, two (2) individuals designated
by Ascribe Capital LLC and two (2) individuals designated by Gates Capital Management, Inc. The composition of the Reorganized Nuverra Board shall fully
comply with the standards and rules of the SEC and
the New York Stock Exchange or another applicable
nationally recognized exchange that apply to boards of
public companies. Each member of the Reorganized
Nuverra Board shall assume such position upon the
Effective Date. Any subsequent Reorganized Nuverra
Board shall be elected, classified, and composed in a
manner consistent with the Reorganized Debtors Constituent Documents and applicable non-bankruptcy
law.
(b) Pursuant to section 1129(a)(5) of the Bankruptcy Code, the identity and affiliations of each of the
officers of Reorganized Nuverra identifiable as of the
Effective Date shall be disclosed in the Plan Supplement. Such officers shall serve in accordance with applicable non-bankruptcy law and, as applicable, the
New Employment Agreements, which shall replace
any existing employment agreements for such employees in effect prior to the Effective Date; provided, that
Mark D. Johnsrud shall serve as Chief Executive Officer pursuant to the Johnsrud Employment Agreement, which shall be assumed by the Debtors on the
Effective Date.
(c) The existing officers and directors of the
Debtors other than Nuverra shall initially serve in
their respective capacities as officers and directors of

App. 290
the applicable Reorganized Debtors unless otherwise
provided in the Plan Supplement.
Section 4.14

Rights Offering.

(a) Following the Confirmation Date, the Debtors
will commence the Rights Offering in accordance
therewith. The Rights Offering shall be conducted, and
the Rights Offering Shares shall be issued to Holders
of 2021 Note Claims, and Holders of 2018 Note Claims
against the Nuverra Group Debtors, that exercise their
respective Rights pursuant to the Rights Offering Procedures to be filed with the Plan Supplement. Notwithstanding anything to the contrary in the
Plan, the Debtors may determine at any time,
with the consent of the Supporting Noteholders,
to not conduct the Rights Offering.
(b) On or as soon as practical after the Effective
Date, the Reorganized Debtors shall issue the Rights
Offering Shares, in exchange for payments previously
received therefor, to those [49] Holders of 2021 Note
Claims, and 2018 Note Claims against the Nuverra
Group Debtors, that, in accordance with the Rights Offering Procedures and the Plan, validly exercised their
respective Rights to participate in the Rights Offering.
(c) The Rights Offering shall be commenced
and completed in accordance with the dates set forth
in the Rights Offering Procedures; provided, however, that the Debtors may modify the Rights
Offering, or cancel, withdraw or terminate the

App. 291
Rights Offering at any time, with the consent of
the Supporting Noteholders.
(d) On the Effective Date, the proceeds of the
Rights Offering shall be used: (a) to provide the Reorganized Debtors with additional liquidity for working
capital and general corporate purposes; and (b) to fund
distributions on or after the Effective Date and pursuant to the Plan.
Section 4.15

Exit Facility Credit Agreement.

(a) On the Effective Date, the Reorganized Debtors shall be authorized to enter into the Exit Facility
Credit Agreement without the need for any further corporate action. The Confirmation Order shall be deemed
approval of the Exit Facility Credit Agreement (including the transactions contemplated thereby, such as any
supplementation or additional syndication of the Exit
Facility Credit Agreement, and all actions to be taken,
undertakings to be made, and obligations to be incurred by the Reorganized Debtors in connection
therewith, including the payment of all fees, indemnities, and expenses provided for therein) and authorization for the Reorganized Debtors to enter into and
execute the Exit Facility Credit Agreement, and such
other Exit Facility Credit Agreement Documents as
the Exit Facility Lenders may reasonably require, subject to such modifications as the Reorganized Debtors
may deem to be reasonably necessary to consummate
the Exit Facility Credit Agreement. The Reorganized
Debtors may use the Exit Facility Credit Agreement

App. 292
for any purpose permitted thereunder, including the
funding of obligations under the Plan.
(b) Upon the date the Exit Facility Credit Agreement becomes effective: (i) the Debtors and the Reorganized Debtors are authorized to execute and deliver
the Exit Facility Credit Agreement Documents and
perform their obligations thereunder, including, without limitation, the payment or reimbursement of any
fees, expenses, losses, damages, or indemnities, and
(ii) the Exit Facility Credit Agreement Documents
shall constitute the legal, valid, and binding obligations of the Reorganized Debtors that are parties
thereto, enforceable in accordance with their respective terms and (iii) no obligation, payment, transfer, or
grant of security under the Exit Facility Credit Agreement Documents shall be stayed, restrained, voidable,
or recoverable under the Bankruptcy Code or under
any applicable law or subject to any defense, reduction,
recoupment, setoff, or counterclaim. The Debtors and
the Reorganized Debtors, as applicable, and the other
persons granting any Liens and security interests to
secure the obligations under the Exit Facility Credit
Agreement Documents are authorized to make all filings and recordings, and to obtain all governmental
approvals and consents necessary or desirable to establish and further evidence perfection of such Liens
and security interests under the provisions of any
applicable federal, state, provincial, or other law
(whether domestic or foreign) (it being understood that
perfection shall occur automatically by virtue of the occurrence of the Effective Date, and any such filings,

App. 293
recordings, approvals, and consents shall not be required), and will thereafter [50] cooperate to make all
other filings and recordings that otherwise would be
necessary under applicable law to give notice of such
Liens and security interests to third parties.
Section 4.16

Management Incentive Plan.

On and after the Effective Date, the Management
Incentive Plan shall be adopted by the Reorganized
Nuverra Board to provide designated members of management and employees of the Reorganized Debtors
with equity-based incentive grants (including, without
limitation, options and restricted stock units) for
(12.5%) of the fully-diluted shares of Reorganized Nuverra Common Stock. Management Incentive Plan
awards of equity-based incentives not granted on the
Effective Date or shortly thereafter will remain in the
Management Incentive Plan reserve pool for future
grants. The specific identities of recipients, amounts
and timing of Management Incentive Plan grants and
other terms and conditions of the Management Incentive Plan will be determined by the Reorganized Nuverra Board.
Section 4.17

Registration Rights Agreement.

On the Effective Date, the Registration Rights
Parties shall enter into the Registration Rights Agreement satisfactory to the Debtors and the Supporting
Noteholders, acting reasonably and in good faith.
The Registration Rights Agreement shall provide the

App. 294
Registration Rights Parties with certain demand registration rights and with piggyback registration rights.
The Registration Rights Agreement shall provide that
as soon as practicable after the Effective Date, Reorganized Debtor shall file, and shall thereafter use its
best efforts to cause to be declared effective as promptly
as practicable, a registration statement on Form S-1
(or other appropriate form) for the offer and resale of
the Reorganized Nuverra Common Stock held by the
Registration Rights Parties. The Registration Rights
Agreement shall contain customary terms and conditions, including, without limitation, provisions with
respect to blackout periods. The Registration Rights
Agreement shall also provide for the Reorganized
Debtors, promptly following the Effective Date, to use
best efforts to take all necessary actions to enhance
the public float of the Reorganized Nuverra Common
Stock, including the filing of applicable registration
statements and resale shelves as soon as practicable,
and to pursue all transactions (strategic or otherwise)
to enhance the liquidity of holders of the Reorganized
Nuverra Common Stock.
Section 4.18

Separability.

Notwithstanding the combination of separate
plans of reorganization for the Debtors set forth in this
Plan for purposes of economy and efficiency, this Plan
constitutes a separate chapter 11 plan for each Debtor.
Accordingly, if the Bankruptcy Court does not confirm
the Plan with respect to one or more Debtors, it may
still confirm the Plan with respect to any other Debtor

App. 295
that satisfies the confirmation requirements of section
1129 of the Bankruptcy Code with the consent of the
Supporting Noteholders.
Section 4.19

Effectuating Documents; Further
Transactions.

On and after the Effective Date, the Reorganized
Debtors and the officers and members of the boards of
directors thereof, are authorized to and may issue, execute, deliver, file or record [51] such contracts, securities, instruments, releases and other agreements or
documents and take such actions as may be necessary
or appropriate to effectuate, implement and further evidence the terms and conditions of the Plan and the
securities issued pursuant to the Plan in the name of
and on behalf of the Reorganized Debtors, and without
the need for any approvals, authorization, or consents
except for those expressly required pursuant to the
Plan.
[52] ARTICLE V.
TREATMENT OF EXECUTORY
CONTRACTS AND UNEXPIRED LEASES
Section 5.1

Assumption of Executory Contracts
and Unexpired Leases.

(a) All executory contracts and unexpired
leases of the Debtors that are not (a) rejected by the
Debtors prior to the Effective Date, (b) subject to a
motion seeking such rejection as of the Effective

App. 296
Date, (c) specifically deemed rejected by the Debtors
pursuant to the Plan or Plan Supplement, (d) specifically designated as a contract or lease to be rejected on
the Schedule of Rejected Contracts, shall be deemed to
have been assumed by the Debtors pursuant to sections 365 and 1123 of the Bankruptcy Code without
further notice or order of the Bankruptcy Court. Each
executory contract and unexpired lease assumed pursuant to this Article V but not assigned to a third party
shall revest in, and be fully enforceable by, the applicable contracting Reorganized Debtor(s) in accordance
with the terms thereof, except as otherwise modified
by the provisions of the Plan, or by any order of the
Bankruptcy Court.
(b) Entry of the Confirmation Order shall constitute approval of the assumptions, rejections, and, to
the extent applicable, the assumptions and assignments of such executory contracts or unexpired leases
as set forth in the Plan, all pursuant to Bankruptcy
Code sections 365(a) and 1123. The Confirmation Order shall constitute an order of the Bankruptcy Court:
(a) approving the assumption, assumption and assignment or rejection, as the case may be, of executory contracts and unexpired leases, as described
above, pursuant to Bankruptcy Code sections 365(a)
and 1123(b)(2); (b) providing that the Reorganized
Debtors have properly provided for any applicable
Cure Claims; (c) providing that each assumption, assignment, or rejection, as the case may be, is in the
best interest of the Reorganized Debtors, their Estates, and all parties in interest in the Chapter 11

App. 297
Cases; and (d) providing that the requirements for assumption or assumption and assignment of any executory contract or unexpired lease to be assumed have
been satisfied. Unless otherwise indicated, all assumptions or rejections of executory contracts and unexpired leases pursuant to the Plan are effective as of the
Effective Date. Notwithstanding anything to the contrary in the Plan, the Debtors (with the consent of the
Supporting Noteholders) or the Reorganized Debtors,
as applicable, reserve the right to alter, amend, modify,
or supplement the Schedule of Rejected Contracts at
any time before the Effective Date.
Section 5.2

Cure of Defaults for Executory Contracts and Unexpired Leases Assumed.

(a) Any monetary amount by which any executory contract or unexpired lease to be assumed pursuant to the Plan is in default shall be satisfied, in
accordance with section 365(b)(1) of the Bankruptcy
Code by payment of the default amount in Cash on the
Effective Date, subject to the limitations described below, or on such other terms as the parties to such executory contracts or unexpired leases may otherwise
agree.
(b) At least 14 days before the Confirmation
Hearing, the Debtors shall distribute, or cause to be
distributed, notices of proposed assumption and proposed amounts of Cure Claims to the applicable third
parties, which notices shall include procedures for

App. 298
objecting to proposed assumptions of executory contracts and unexpired leases and any amounts of Cure
Claims to be [53] paid in connection therewith and resolution of disputes by the Bankruptcy Court. Any objection by a counterparty to an executory contract or
unexpired lease to a proposed assumption or related
Cure Claim amount must be filed, served, and actually
received by the Debtors at least five (5) days before the
Confirmation Hearing. Any counterparty to an executory contract or unexpired lease that fails to object
timely to the proposed assumption or Cure Claim
amount will be deemed to have assented to such assumption or Cure Claim amount.
(c) In the event of a dispute regarding (a) the
amount of any payments to cure such a default or
(b) any other matter pertaining to assumption, the
payment of Cure Claims required by Bankruptcy Code
section 365(b)(1) shall be made no later than ten (10)
Business Days following the entry of a Final Order
or orders resolving the dispute and approving the
assumption. If the Debtors are unable to resolve an
objection to a proposed assumption or Cure Claim
amount in a manner that is satisfactory to the Debtors
and the Supporting Noteholders, the Debtors (with the
consent of the Supporting Noteholders), or the Reorganized Debtors, as applicable, expressly reserve the
right, to reject the executory contract or unexpired
lease on or before 10 Business Days following the entry
of a Final Order regarding the proposed assumption
and Cure Claim amount.

App. 299
(d) Except as otherwise provided in the Confirmation Order, the only adequate assurance of future
performance with respect to assumed contracts shall
be the promise of the applicable Reorganized Debtor to
perform all obligations under any executory contract
or unexpired lease under this Plan. The Debtors reserve the right (with the consent of the Supporting
Noteholders) to file a motion on or before the Confirmation Date to assume or reject any executory contract
and unexpired lease.
(e) Assumption of any executory contract or unexpired lease pursuant to the Plan or otherwise shall
result in the full cure and release and satisfaction of
any Claims or defaults, whether monetary or nonmonetary, including defaults of provisions restricting the
change in control or ownership interest composition or
other bankruptcy related defaults, arising under any
assumed executory contract or unexpired lease at any
time before the effective date of the assumption and all
Claims arising from any pre-assumption breach or default will forever be barred from assertion against the
Debtors or the Reorganized Debtors, the Estates and
their property, unless otherwise ordered by the Bankruptcy Court. Any Proof of Claim filed with respect to
an executory contract or unexpired lease that has been
assumed shall be deemed Disallowed and expunged,
without further notice to or action, order or approval of
the Bankruptcy Court.

App. 300
Section 5.3

Claims Based on Rejection of Executory Contracts or Unexpired Leases.

Allowed Claims arising from the rejection of executory contracts or unexpired leases (i) against the Nuverra Group Debtors are treated in Class A8 – Nuverra
Group Rejection Damage and Other Debt Claims,
(ii) against the AWS Debtor are treated in Class B6 –
AWS Debtor Unsecured Debt Claims, and (iii) against
the Badlands (DE) Debtor are treated in Class C6 –
Badlands (DE) Debtor Unsecured Debt Claims. Notwithstanding section 502(a) of the Bankruptcy Code,
since the Holders of such Claims shall not receive a
distribution on account of such Claims pursuant to the
Plan, except as otherwise set forth in this Plan, such
Holders of Claims shall not be required to file Proofs of
Claim.
[54] Section 5.4 Indemnification of Directors, Officers and Employees.
Any obligations or rights of the Debtors or Reorganized Debtors to defend, indemnify, reimburse, or
limit the liability of Covered Persons pursuant to any
applicable certificates of incorporation, by-laws, policy
of providing employee indemnification, state law, or
specific agreement in respect of any claims, demands,
suits, causes of action, or proceedings against such
Covered Persons based upon any act or omission related to such Covered Persons’ service with, for, or on
behalf of the Debtors prior to the Effective Date, excluding claims resulting from willful misconduct, or
intentional tort, shall be treated as if they were

App. 301
executory contracts that are assumed under the Plan
and shall survive the Effective Date and remain unaffected hereby, and shall not be discharged, irrespective
of whether such defense, indemnification, reimbursement, or limitation of liability is owed in connection
with an occurrence before or after the Petition Date.
No such assumption shall in any way extend the scope
or term of any such indemnification provision beyond
that contemplated in the underlying contract or document as applicable.
Section 5.5

Employee Benefit Programs.

Except as otherwise provided herein and except
for any employee equity or equity-based compensation
or incentive plan, on and after the Effective Date, the
Reorganized Debtors may (a) honor, in the ordinary
course of business, any contracts, agreements, policies,
programs, and plans for, among other things, compensation (other than equity based compensation related
to Equity Interests), health care benefits, disability
benefits, deferred compensation benefits, travel benefits, savings, severance benefits, retirement benefits,
welfare benefits, workers’ compensation insurance and
accidental death and dismemberment insurance for
the directors, officers, and employees of any of the
Debtors who served in such capacity at any time, and
(b) honor, in the ordinary course of business, Claims of
employees for accrued vacation time arising before the
Petition Date; provided, however, that the Debtors’ or
Reorganized Debtors’ performance under any employment agreement will not entitle any person to any

App. 302
benefit or alleged entitlement under any policy, program, or plan that has expired or been terminated before the Effective Date, or restore, reinstate, or revive
any such benefit or alleged entitlement under any such
policy, program, or plan. Nothing herein shall limit, diminish, or otherwise alter the Reorganized Debtors’
defenses, claims, Causes of Action, or other rights with
respect to any such contracts, agreements, policies,
programs, and plans; provided, further, however, that,
to the extent that the Debtors enter into New Employment Agreements, the terms of such New Employment
Agreements shall govern the Debtors’ responsibilities
with respect to the employees entering such agreements. Notwithstanding anything herein to the contrary, the New Employment Agreements to be entered
into on the Effective Date shall supersede any other
existing employment agreements, severance plans or
agreements, incentive plans or other compensation
agreements with or for the benefit of the applicable officer party to the New Employment Agreement, and all
existing employment agreements, severance plans or
agreements, incentive plans and other compensation
arrangements with any officers or members of senior
management to whom an offer to enter into a New Employment Agreement has been made, shall be deemed
rejected by the Debtors pursuant to this Plan.
Notwithstanding the foregoing, the change of control provisions (including without limitation any right
of such a participant to terminate employment for
“good reason” and any [55] Company funding obligation) shall not be triggered under any employment

App. 303
agreement, severance plan or agreement, benefit plan,
or deferred compensation plan, in each case solely as a
result of (a) the Debtors’ emergence from chapter 11 of
the Bankruptcy Code as contemplated by this Plan,
(b) the execution and delivery of the Restructuring
Support Agreement or (c) the consummation of the
transactions provided in the Restructuring Support
Agreement and or this Plan (or otherwise contemplated by the Restructuring Support Agreement and or
this Plan to occur prior to or on or about the Effective
Date). Any Claims arising from the rejection of any employment agreement, severance plans or agreements,
incentive plans, or other compensation agreement
shall be deemed waived by the holder thereof and discharged pursuant to this Plan.
On and after the Effective Date, pursuant to
Bankruptcy Code section 1129(a)(13), the Reorganized
Debtors shall pay all retiree benefits of the Debtors
(within the meaning of Bankruptcy Code section 1114),
if any, at the level established in accordance with Bankruptcy Code section 1114, at any time prior to the Confirmation Date, for the duration of the period for which
the Debtors are obligated to provide such benefits.
Section 5.6

Insurance Policies.

All insurance policies pursuant to which any
Debtor has any obligations in effect as of the date of
the Confirmation Order shall be deemed and treated
as executory contracts pursuant to the Plan and shall
be assumed by the respective Debtors and Reorganized

App. 304
Debtors and shall continue in full force and effect
thereafter in accordance with their respective terms.
All other insurance policies shall vest in the Reorganized Debtors.
Section 5.7

Reimbursement Agreements Concerning Professional Fee Claims.

On the Effective Date, the Company shall assume
all of the agreements with the Supporting Noteholders
that contain reimbursement obligations with respect
to the Supporting Noteholders’ Professional Fee Claims
including (a) that certain letter agreement dated
March 11, 2016 among Fried, Frank, Harris, Shriver
& Jacobson LLP, the Supporting Noteholders and Nuverra on behalf of itself and its direct and indirect
subsidiaries and (b) that certain letter agreement
among local counsel to the Supporting Noteholders,
the Supporting Noteholders and Nuverra on behalf of
itself and its direct and indirect subsidiaries, and all
amounts owed under such agreements shall be Allowed and paid by the Debtors in full in Cash on the
Effective Date without the necessity to file a Proof of
Claim or file any application or receive any approval
from the Bankruptcy Court.
Section 5.8

Reservation of Rights.

Nothing contained in the Plan shall constitute an
admission by the Debtors that any contract or lease is
in fact an executory contract or unexpired lease or that
any Reorganized Debtor has any liability thereunder.

App. 305
[56] ARTICLE VI.
PROVISIONS GOVERNING DISTRIBUTIONS
Section 6.1

Date of Distributions.

Except as otherwise provided in the Plan, any distribution to be made hereunder shall be made on the
Effective Date, or as soon as practicable thereafter. Any
payment or act required to be made or done hereunder
on a day that is not a Business Day shall be made on
the next succeeding Business Day.
Section 6.2

Distribution Record Date.

(a) As of the close of business on the Distribution
Record Date, the various lists of Holders of Claims in
each Class, as maintained by the Debtors or their
agents, shall be deemed closed, and there shall be no
further changes in the record Holders of any Claims
after the Distribution Record Date. Neither the Debtors nor the Reorganized Debtors shall have any obligation to recognize any transfer of Claims or Equity
Interests occurring on or after the Distribution Record
Date.
(b) Notwithstanding anything in this Plan to the
contrary, in connection with any distribution under
this Plan to be effected through the facilities of DTC
or at a transfer agent to be determined (whether by
means of book-entry exchange, free delivery, or otherwise), the Debtors and the Reorganized Debtors, as applicable, will be entitled to recognize and deal for all
purposes under this Plan with Holders of Reorganized

App. 306
Nuverra Common Stock to the extent consistent with
the customary practices of DTC used in connection
with such distributions. All shares of Reorganized Nuverra Common Stock to be distributed under this Plan
shall be issued in the names of such Holders or their
nominees in accordance with DTC’s procedures; provided, that such shares of Reorganized Nuverra Common Stock are permitted to be held through DTC’s
book-entry system; and provided, further, that to the
extent the Reorganized Nuverra Common Stock is not
eligible for distribution in accordance with DTC’s customary practices, Reorganized Nuverra will take all
such reasonable actions as may be required to cause
distributions of the Reorganized Nuverra Common
Stock under this Plan.
Section 6.3

Disbursing Agent.

(a) Except as otherwise provided in the Plan, all
distributions under the Plan shall be made by the Reorganized Debtors, as Disbursing Agent. The Reorganized Debtors shall be permitted, without further
order of the Bankruptcy Court, to appoint, employ or
contract with any Entities to assist in or make the distributions required hereunder.
(b) The Reorganized Debtors, as Disbursing Agent,
designate the following:
(i)

all distributions on account of ABL Credit
Facility Claims will be made to the ABL
Agent by wire transfer, which will serve
as the Reorganized Debtors’ designee for

App. 307
purposes of making distributions under
this Plan to Holders of ABL Credit Facility Claims;
[57] (ii) all distributions on account of the
DIP Claims will be made to the respective DIP Agents by wire transfer, which
will serve as the Reorganized Debtors’ designee for purposes of making distributions under this Plan to the respective
Holders of DIP Claims;
(iii) all distributions on account of Supporting Noteholder Term Loan Claims will be
made to the Term Loan Agent, which will
serve as the Reorganized Debtors’ designee
for purposes of making distributions under this Plan to Holders of Supporting
Noteholder Term Loan Claims; and
(iv) all distributions on account of the 2018
Notes and 2021 Notes will be made to (or
in coordination with) the 2018 Note Indenture Trustee and 2021 Note Indenture Trustee, respectively, which will
serve as the Reorganized Debtors’ designee for purposes of making distributions under the Plan to Holders of the
2018 Note Claims and 2021 Note Claims.
Section 6.4

Delivery of Distributions and Undeliverable or Unclaimed Distributions.

(a) General. Subject to Section 6.2(b) of this Plan,
any distribution to be made hereunder to a Holder of

App. 308
an Allowed Claim shall be made to the address of such
Holder as of the Distribution Record Date as set forth
in the books and records of the Debtors or their agents,
or in a letter of transmittal, unless the Debtors have
been notified in writing of a change of address, including by the Filing of a Proof of Claim by such Holder
that contains an address for such Holder that is different from the address reflected on such books and records or letter of transmittal. None of the Debtors, the
Reorganized Debtors or the applicable Disbursing
Agent shall incur any liability whatsoever on account
of any distributions under the Plan, except for willful
misconduct, or fraud.
(b) Undeliverable Distributions. In the event
that any distribution or notice provided in connection
with the Chapter 11 Cases to any Holder of an Allowed
Claim is returned to the Disbursing Agent as undeliverable or otherwise is unclaimed, the Disbursing Agent
shall make no further distribution to such Holder unless and until such Disbursing Agent is notified in
writing of such Holder’s then current address. On, or
as soon as practicable after, the date on which a previously undeliverable or unclaimed distribution becomes
deliverable and claimed, the Disbursing Agent shall
make such distribution without interest thereon. Any
Holder of an Allowed Claim that fails to assert a Claim
hereunder for an undeliverable or unclaimed distribution within one year after the Effective Date shall be
deemed to have forfeited its Claim for such undeliverable or unclaimed distribution and shall forever be
barred and enjoined from asserting such Claim against

App. 309
any of the Debtors, the Estates, or the Reorganized
Debtors or their property. Any Cash amounts in respect of undeliverable or unclaimed distributions for
which a Claim is not made within such one-year period
shall be forfeited to the Reorganized Debtors. Any securities issued by the Debtors in respect of undeliverable or unclaimed distributions for which a Claim is
not made within such one-year period shall be cancelled and extinguished and any interests therein shall
revert to the Reorganized Debtors. Nothing contained
herein shall require, or be construed to require, the
Disbursing Agent to attempt to locate any Holder of an
Allowed Claim.
[58] Section 6.5 Surrender of Cancelled Instruments or Securities.
On the Effective Date or as soon as reasonably
practicable thereafter, each Holder of a certificate or
instrument evidencing a Claim or Equity Interest that
is discharged by the Plan shall be deemed to have
surrendered such certificate or instrument to the Reorganized Debtors. Such surrendered certificate or instrument shall be cancelled solely with respect to the
Debtors, and such cancellation shall not alter the obligations or rights of any non-Debtor third parties vis-avis one another with respect to such certificate or instrument, including with respect to any indenture or
agreement that governs the rights of the Holder of a
Claim, which shall continue in effect as set forth in
Section 4.5 hereof. Notwithstanding anything to the
contrary herein, this paragraph shall not apply to

App. 310
certificates or instruments evidencing Claims that are
Unimpaired under the Plan.
Section 6.6

Fractional Distributions.

Notwithstanding anything contained herein to the
contrary, no distributions of fractional shares of Reorganized Nuverra Common Stock or fractions of dollars
shall be made hereunder on account of Claims or Equity Interests, and for purposes of distribution hereunder on account of such Claims or Equity Interests,
fractional shares and fractions of dollars (whether in
the form of Reorganized Nuverra Common Stock or
Cash) shall be rounded to the nearest whole unit (with
any amount equal to or less than one-half share or onehalf dollar, as applicable, to be rounded down).
Section 6.7

Manner of Payment under Plan.

Except as specifically provided herein, at the option of the Debtors or the Reorganized Debtors, as applicable, any Cash payment to be made under this Plan
may be made by a check or wire transfer or as otherwise required or provided in applicable agreements or
customary practices of the Debtors.
Section 6.8

No Distribution in Excess of Amount
of Allowed Claim.

Notwithstanding anything to the contrary in this
Plan, no Holder of an Allowed Claim shall receive, on

App. 311
account of such Allowed Claim, distributions under the
Plan in excess of the Allowed amount of such Claim.
Section 6.9

Claims Paid or Payable by Third
Parties.

(a) Claims Paid by Third Parties. The Debtors or
the Reorganized Debtors, as applicable, shall reduce in
part or in full a Claim to the extent that the Holder of
such Claim receives payment in part or in full on account of such Claim from a party that is not a Debtor
or Reorganized Debtor. To the extent a Holder of a
Claim receives a distribution on account of such Claim
and receives payment from a party that is not a Debtor
or a Reorganized Debtor on account of such Claim,
such Holder shall, within fourteen (14) days of receipt
thereof, repay or return the distribution to the applicable Reorganized Debtor, to the extent the Holder’s total
recovery on account of such Claim from the third party
and under the Plan exceeds the amount of such Claim
as of the date of any such distribution under the Plan.
[59] (b) Claims Payable by Third Parties. No distributions under the Plan shall be made on account of
an Allowed Claim that is payable pursuant to any of
the Debtors’ insurance policies until the Holder of such
Allowed Claim has exhausted all remedies with respect to such insurance policies. To the extent that one
or more of the Debtors’ insurers satisfies or agrees to
satisfy in full or in part a Claim, then immediately
upon such insurers’ agreement, the applicable portion
of such Claim may be expunged without a Claim

App. 312
objection having to be filed and without any further notice to or action, order, or approval of the Bankruptcy
Court.
(c) Applicability of Insurance Policies. Except as
otherwise provided in the Plan, distributions to Holders of Allowed Claims shall be in accordance with the
provisions of any applicable insurance policy. Nothing
contained in the Plan shall constitute or be deemed a
waiver of any Cause of Action that the Debtors or any
Entity may hold against any other Entity, including insurers under any policies of insurance, nor shall anything contained herein constitute or be deemed a
waiver by such insurers of any defenses, including coverage defenses, held by such insurers.
Section 6.10

Post-petition Interest.

Unless expressly provided in the Plan, the Confirmation Order, the DIP Financing Orders, or any
contract, instrument, release, settlement, or other
agreement entered into in connection with the Plan
or required by the Bankruptcy Code (including without limitation Bankruptcy Code sections 506(b) and
1129(b)), post-petition interest shall not accrue on or
after the Petition Date on account of any Claim. Without limiting the generality of the foregoing, interest
shall not be paid upon any Disputed Claim in respect
of the period from the Petition Date to the date a final
distribution is made thereon if, and after, such Disputed Claim becomes an Allowed Claim.

App. 313
Section 6.11

No Proofs of Claim Required.

Except as otherwise provided in Sections 2.1 and
2.3, Holders of Claims against the Debtors shall not be
required to file Proofs of Claim.
Section 6.12

Setoffs and Recoupments.

Each Reorganized Debtor, or such entity’s designee as instructed by such Reorganized Debtor, may,
pursuant to section 553 of the Bankruptcy Code or applicable nonbankruptcy law, offset or recoup against
any Allowed Claim, and the distributions to be made
pursuant to this Plan on account of such Allowed
Claim, any and all claims, rights, and Causes of Action
that a Reorganized Debtor or its successors may hold
against the Holder of such Allowed Claim after the Effective Date to the extent such setoff or recoupment is
either (a) agreed in amount among the relevant Reorganized Debtor(s) and Holder of the Allowed Claim, or
(b) otherwise adjudicated by the Bankruptcy Court or
another court of competent jurisdiction; provided, that
neither the failure to effect a setoff or recoupment nor
the allowance of any Claim hereunder will constitute a
waiver or release by a Reorganized Debtor or its successor of any claims, rights, Causes of Action or rights
of setoff that a Reorganized Debtor or it successor or
assign may possess against such Holder.

App. 314
[60] Section 6.13 Withholding and Reporting Requirements.
In connection with this Plan and all instruments
issued in connection therewith and distributed thereon,
the Reorganized Debtors and any other distributing
party shall comply with all applicable tax withholding
and reporting requirements imposed by any Governmental Unit, and all distributions under this Plan
shall be subject to any such withholding or reporting requirements, including any distributions of Reorganized Nuverra Common Stock to current or former
employees of the Debtor. The Reorganized Debtors
shall be entitled to deduct any U.S. federal, state or local withholding taxes from any Cash payments made
with respect to Allowed Claims, as appropriate. As a
condition of receiving any distribution under the Plan,
the Reorganized Debtors may require that the Holder
of an Allowed Claim entitled to receive a distribution
pursuant to the Plan complete and return a Form W-8
or W-9, as applicable, or such other information and
certification as may be deemed necessary for the Reorganized Debtors to comply with applicable tax reporting and withholding laws. Any amounts withheld
pursuant hereto shall be deemed to have been distributed to and received by the applicable recipient for all
purposes of the Plan. In connection with a distribution
under the Plan, the Reorganized Debtors may take
whatever actions are necessary to comply with applicable U.S. federal, state, local and non-U.S. tax withholding obligations, including either withholding from
distributions a portion of the Reorganized Nuverra

App. 315
Common Stock and selling such securities or requiring
such Holder of an Allowed Claim to contribute the necessary Cash to satisfy the tax withholding obligations.
With respect to any distribution to the Supporting
Noteholders, the Reorganized Debtors may take the actions described in the preceding sentence only after
consultation with such Supporting Noteholders.
Notwithstanding the above, each Holder of an Allowed Claim that is to receive a distribution under this
Plan shall have the sole and exclusive responsibility
for the satisfaction and payment of any tax obligations
imposed on such Holder by any Governmental Unit, including income, withholding, and other tax obligations,
on account of such distribution.
Section 6.14

Hart-Scott-Rodino Compliance.

Any Reorganized Nuverra Common Stock to be
distributed under this Plan to an entity required to
file a premerger notification and report form under
the Hart-Scott-Rodino Antitrust Improvements Act of
1976, as amended, shall not be distributed until the
notification and waiting periods applicable under such
Act to such entity have expired or been terminated.
Section 6.15

Special Provision Regarding Unimpaired Claims.

Except as otherwise provided in this Plan, the
Confirmation Order, any other order of the Bankruptcy
Court, or any document or agreement entered into and

App. 316
enforceable pursuant to the terms of this Plan, nothing
herein shall affect the Debtors’ or Reorganized Debtors’ rights and defenses, both legal and equitable, with
respect to any Unimpaired Claims, including all rights
with respect to legal and equitable defenses to setoffs
or recoupments against Unimpaired Claims or to request disallowance or subordination of any such Claim.
In addition, Unimpaired Claims are subject to all applicable provisions of the Bankruptcy Code, including
Bankruptcy Code section 502(b); provided, however,
that Holders of Unimpaired Claims shall not be required to file a Proof of Claim.
[61] ARTICLE VII.
PROCEDURES FOR
RESOLVING DISPUTED CLAIMS
Section 7.1

Disputed Claims Process.

Except to the extent Allowed (or deemed Allowed)
pursuant to an order of the Bankruptcy Court or the
Plan, on and after the Confirmation Date, the Debtors
or the Reorganized Debtors, as the case may be, shall
have the authority to File, settle, compromise, withdraw or litigate to judgment objections to Claims, and
shall be permitted to compromise any Disputed Claim
without approval of the Bankruptcy Court; provided,
however, that consent of the Supporting Noteholders
shall be required for settlement of any Disputed
Claims with agreed settlement payments in excess of
$100,000. On and after the Effective Date, except as
otherwise provided herein, all Unimpaired Claims will

App. 317
be paid in the ordinary course of business of the Reorganized Debtors and, as provided in Section 6.11 of the
Plan, Holders of Claims shall not be required to file
Proofs of Claim, unless the Debtors later seek to establish a bar date for parties to file Proofs of Claim and
such bar date is approved by the Bankruptcy Court.
If the Debtors dispute any Claim, such dispute
may be determined, resolved or adjudicated, as the
case may be, in a manner as if the Chapter 11 Cases
had not been commenced and shall survive the Effective Date as if the Chapter 11 Cases had not been commenced; provided, that the Reorganized Debtors, in
their discretion, may bring an objection or other motion before the Bankruptcy Court with respect to a Disputed Claim for resolution. Notwithstanding section
502(a) of the Bankruptcy Code or that Holders of
Nuverra Group General Unsecured Claims (Class A7),
AWS Debtor General Unsecured Claims (Class B7)
and Badlands (DE) Debtor General Unsecured Claims
(Class C7) are Unimpaired under the Plan, unless a
Final Order of the Bankruptcy Court provides otherwise, all Proofs of Claim filed in these Chapter 11
Cases shall be considered objected to and disputed
without further action by the Debtors. Upon the Effective Date, unless a Final Order of the Bankruptcy
Court provides otherwise, and except with respect to
Proofs of Claim to which the Debtors have Filed an objection with the Bankruptcy Court, all Proofs of Claim
Filed against the Debtors, regardless of the time of
Filing, and including claims Filed after the Effective
Date, shall automatically be deemed withdrawn and

App. 318
expunged. To the extent not otherwise provided in the
Plan, the deemed withdrawal of a Proof of Claim is
without prejudice to such claimant’s rights, if any, under this Section 7.1 of the Plan to assert their claims
in any forum as though the Debtors’ cases had not been
commenced.
Section 7.2

Estimation of Claims.

The Debtors, with the consent of the Supporting
Noteholders, (or the Reorganized Debtors, as the case
may be), shall be permitted, at any time, to request
that the Bankruptcy Court estimate any contingent or
unliquidated Claim pursuant to section 502(c) of the
Bankruptcy Code, regardless of whether the Debtors
(or the Reorganized Debtors, as the case may be) previously had objected to such Claim or whether the
Bankruptcy Court had ruled on such objection, and the
Bankruptcy Court shall retain jurisdiction to estimate
any Claim at any time during any litigation concerning
any objection to such Claim, including during the pendency of any appeal relating to such objection. In the
event that the Bankruptcy Court [62] estimates any
contingent or unliquidated Claim, the amount so estimated shall constitute either the Allowed amount of
such Claim or a maximum limitation on such Claim,
as determined by the Bankruptcy Court. If such estimated amount constitutes a maximum limitation on
the amount of such Claim, the Debtors (or the Reorganized Debtors, as the case may be) may elect to pursue any supplemental proceedings to object to the
allowance of such Claim. All of the aforementioned

App. 319
objection, estimation and resolution procedures are cumulative and not exclusive of one another. Claims may
be estimated and subsequently compromised, settled,
withdrawn or resolved by any mechanism approved by
the Bankruptcy Court.
Section 7.3

Payments and Distributions on Disputed Claims.

Notwithstanding any other provision to the contrary herein, no payments or distributions shall be
made hereunder with respect to all or any portion of
any Disputed Claim unless and until all objections to
such Disputed Claim have been settled, withdrawn, or
determined by Final Order, and such Disputed Claim
has become an Allowed Claim.
ARTICLE VIII.
CONDITIONS PRECEDENT
TO THE EFFECTIVE DATE
Section 8.1

Conditions Precedent to the Effective Date.

The Effective Date shall not occur unless and until
each of the following conditions have occurred or been
waived in accordance with the terms herein:
(a) the Plan Supplement has been filed in form
and substance satisfactory to the Debtors and the Supporting Noteholders;

App. 320
(b) the Plan Documents, containing terms and
conditions consistent in all material respects with the
Plan and the Restructuring Support Agreement, are in
form and substance satisfactory to the Debtors and the
Supporting Noteholders and have been executed;
(c) any amendments to the Plan and Plan Documents are in form and substance satisfactory to the
Debtors and the Supporting Noteholders;
(d) the Bankruptcy Court has entered the Confirmation Order in form and substance satisfactory to
the Debtors and the Supporting Noteholders and such
Confirmation Order has become a Final Order and has
not been stayed, modified, or vacated on appeal. The
Confirmation Order will provide that, among other
things, (a) the Debtors or the Reorganized Debtors, as
appropriate, are authorized to take all actions necessary or appropriate to consummate the Plan and the
restructuring transactions contemplated by the Plan,
including, without limitation, (i) entering into, implementing and consummating the contracts, instruments,
releases, leases, indentures and other agreements or
documents created in connection with or described in
the Plan, (ii) distributing the Reorganized Nuverra
Common Stock pursuant to the exemptions from registration under section 3(a)(9) and or section 4(a)(2) of
the Securities Act, Rule 701 et [63] seq. under the Securities Act or section 1145 of the Bankruptcy Code or
other exemption from such registration or pursuant to
one or more registration statements, (iii) making all
distributions and issuances as required under the
Plan, including Cash and the Reorganized Nuverra

App. 321
Common Stock; and (iv) entering into any agreements,
transactions, and sales of property as set forth in the
Plan Supplement, including the Exit Facility and the
Management Incentive Plan and the awards contemplated thereunder; (b) the provisions of the Confirmation Order and the Plan are nonseverable and
mutually dependent; (c) the implementation of the
Plan in accordance with its terms is authorized; and
(d) pursuant to section 1146 of the Bankruptcy Code,
the assignment or surrender of any lease or sublease,
and the delivery of any deed or other instrument or
transfer order, in furtherance of, or in connection with
the Plan, including any deeds, bills of sale, or assignments executed in connection with any disposition or
transfer of Assets contemplated under the Plan, shall
not be subject to any Stamp or Similar Tax;
(e) the Restructuring Support Agreement has
not been terminated and remains in full force and effect and binding on all parties thereto;
(f) the conditions to effectiveness of the Exit Facility Credit Agreement have been satisfied or waived
in accordance with the terms thereof, and the Exit Facility Credit Agreement is in full force and effect and
binding on all parties thereto;
(g) all governmental and third-party approvals
and consents, including Bankruptcy Court approval,
necessary in connection with the transactions provided
for in this Plan have been obtained, are not subject
to unfulfilled conditions, and are in full force and effect, and all applicable waiting periods have expired

App. 322
without any action having been taken by any competent authority that would restrain, prevent, or otherwise impose materially adverse conditions on such
transactions;
(h) the Reorganized Nuverra Certificate of Incorporation has been filed with the appropriate governmental authority;
(i) any payment or Claim triggered by any
“change of control,” acceleration payment provision,
termination payment provision or like or similar payment provision or Claim, that may be asserted by any
party, including, without limitation, any employee,
officer, manager, director or any Affiliate thereof, including any family member of any employee, officer,
manager or director, in any such case arising as a result of the restructuring transactions contemplated
under the Plan, arising from, in connection with, or related to any contract, lease or agreement under the
Plan, including without limitation, existing employment agreements to which any such person and any
Debtor is a party, shall have been released and fully
and finally waived and shall not be due and owing by
any of the Debtors;
(j) all of the Supporting Noteholders Professionals’ fees and out-of-pocket expenses incurred in connection with the Restructuring or any other matter in
connection thereto up to the Effective Date, including,
without limitation, those fees and expenses incurred
during the Chapter 11 Cases, shall be paid by the Debtors;

App. 323
[64] (k) all amounts (whether in Cash or Reorganized Nuverra Common Stock) that are required to
be paid to the Standby Exit Facility Lenders shall be
available for payment by the Debtors;
(l) the aggregate amount of all projected prepetition, non-contingent undisputed Claims against the
Debtors, including, without limitation, all trade and
other general unsecured claims, other than Claims
with respect to, without limitation, Claims for amounts
owed under the DIP Facilities, the ABL Credit Agreement, the Term Loan, the 2021 Notes and 2018 Notes,
the Vehicle Financing Obligations, the Ideal Oilfield
APA, and the AWS Promissory Note, projected by the
Debtors to become Allowed Claims (including such
Claims that at such date are already reasonably determined to be Allowed Claims) do not exceed in the aggregate $11 million;
(m) The aggregate amount of all Claims in Classes A6, A8, B6, and C6 shall not exceed $45 million;
(n) The Rights Offering has commenced and
been completed in accordance with the terms of the
Rights Offering Procedures; and
(o) the Debtors shall have delivered to the Supporting Noteholders a copy of the fully executed New
Employment Agreements and shall have assumed the
Johnsrud Employment Agreement.

App. 324
Section 8.2

Waiver of Conditions.

The conditions to the occurrence of the Effective
Date set forth in Section 8.1 may, in each case, be
waived at any time without any other notice to parties
in interest or the Bankruptcy Court and without a
hearing or order by the Debtors with the consent of the
Supporting Noteholders; provided, however, that the
Debtors may not waive entry of the Confirmation Order and provided further, however, that the Debtors
may not waive the conditions set forth in Section
8.1(m) without the consent of the Committee.
The stay of the Confirmation Order pursuant to
Bankruptcy Rule 3020(e) may be waived by and upon
the entry of the Confirmation Order, and the Confirmation Order may take effect immediately upon its entry.
Section 8.3

Effect of Failure of Condition.

If all the conditions to effectiveness and the occurrence of the Effective Date have not been satisfied or
duly waived in accordance with Section 8.2 on or before
the first Business Day that is more than 75 Business
Days after the Petition Date, or by such later date as
is satisfactory to the Debtors and the Supporting Noteholders, then, upon motion by the Debtors (with the
consent of the Supporting Noteholders) made before
the time that all of the conditions have been satisfied
or duly waived, the Confirmation Order will be vacated
by the Bankruptcy Court; provided, however, that notwithstanding the filing of such a motion, the Confirmation Order will not be vacated if each of the conditions

App. 325
precedent to the occurrence of the Effective Date is either satisfied or duly waived before the Bankruptcy
Court enters an order granting the relief [65] requested in such motion. The Debtors may request that
the Bankruptcy Court vacate the Confirmation Order
at any time when the Restructuring Support Agreement has been terminated.
If the Effective Date does not occur or the Confirmation Order is vacated pursuant to this Section 8.3,
this Plan will be null and void in all respects, and nothing contained in this Plan will (a) constitute a waiver
or release of any Claims against or Equity Interests in
the Debtors, (b) prejudice in any manner the rights of
the Debtors or the Holder of any Claim or Equity Interest in the Debtors or (c) constitute an admission, acknowledgment, offer, or undertaking by the Debtors,
any Holders of Claims or Equity Interests or any other
Entity in any respect.
Section 8.4

Reservation of Rights.

The Plan shall have no force or effect unless and
until the Confirmation Order is entered. Prior to the
Effective Date, none of the Filing of the Plan, any statement or provision contained in the Plan, or action
taken by the Debtors with respect to the Plan shall be,
or shall be deemed to be, an admission or waiver of any
rights of any Debtor or any other party with respect to
any Claims or Equity Interests or any other matter.

App. 326
Section 8.5

Substantial Consummation of Plan.

Substantial consummation of the Plan under Bankruptcy Code section 1101(2) shall be deemed to occur
on the Effective Date.
[66] ARTICLE IX.
EFFECT OF PLAN CONFIRMATION
Section 9.1

Binding Effect.

Subject to the occurrence of the Effective Date, on
and after the entry of the Confirmation Order, the provisions of this Plan shall bind and inure to the benefit
of the Debtors, the Reorganized Debtors, and each
Holder of a Claim against or Equity Interest in any
Debtor or Reorganized Debtor and inure to the benefit
of and be binding on such Debtor’s, Reorganized
Debtor’s, and Holder’s respective successors and assigns, regardless of whether the Claim or Equity Interest of such Holder is Impaired under this Plan and
whether such Holder has accepted this Plan or is
deemed to have accepted this Plan.
Section 9.2

Discharge of Claims.

Upon the Effective Date and in consideration of
the distributions to be made under this Plan, except as
otherwise provided in this Plan or in the Confirmation
Order, the confirmation of this Plan shall discharge the
Debtors and the Reorganized Debtors from any Claim
that arose before the Effective Date, whether or not
such Claim is Allowed and whether or not the Holder

App. 327
of such Claim has voted on this Plan, and each such
Holder (as well as any trustee or agent on behalf of
such Holder) of a Claim or Equity Interest and any Affiliate of such Holder shall be deemed to have forever
waived, released, and discharged the Debtors, to the
fullest extent permitted by section 1141 of the Bankruptcy Code, of and from any and all Claims, interests,
rights, and liabilities that arose prior to the Effective
Date. Except as otherwise provided in this Plan, upon
the Effective Date, all such Holders of Claims and Equity Interests and their Affiliates shall be forever precluded and enjoined, pursuant to sections 105, 524, and
1141 of the Bankruptcy Code, from prosecuting or asserting any such discharged Claim against or cancelled
Equity Interest in any Debtor or any Reorganized
Debtor; provided, however, that notwithstanding the
foregoing, nothing in this Plan is intended to release
any insurer from having to provide coverage under any
policy to which the Debtors or the Reorganized Debtors
and or their current or former officers, directors, employees, representatives or agents are parties or beneficiaries.
Section 9.3

Releases.

(a) RELEASES BY THE DEBTORS. UPON
THE EFFECTIVE DATE, EXCEPT FOR THE
RIGHTS THAT REMAIN IN EFFECT FROM AND
AFTER THE EFFECTIVE DATE TO ENFORCE
THIS PLAN AND THE PLAN DOCUMENTS, THE
DEBTORS, THE REORGANIZED DEBTORS AND
THE ESTATES, IN EACH CASE ON BEHALF OF

App. 328
THEMSELVES AND THEIR RESPECTIVE SUCCESSORS, ASSIGNS, AND REPRESENTATIVES
AND ANY AND ALL OTHER ENTITIES WHO
MAY PURPORT TO ASSERT ANY CAUSE OF ACTION DERIVATIVELY, BY OR THROUGH THE
FOREGOING ENTITIES, FOR GOOD AND VALUABLE CONSIDERATION, THE ADEQUACY OF
WHICH IS HEREBY CONFIRMED, INCLUDING,
WITHOUT LIMITATION, THE EFFORTS OF THE
RELEASED PARTIES TO FACILITATE THE REORGANIZATION OF THE DEBTORS AND THE
IMPLEMENTATION OF THE [67] PLAN AND
THE TRANSACTIONS CONTEMPLATED HEREIN
AND HEREBY, SHALL FOREVER RELEASE,
WAIVE AND DISCHARGE, TO THE MAXIMUM
EXTENT PERMITTED BY LAW, ALL CLAIMS,
OBLIGATIONS, SUITS, JUDGMENTS, DAMAGES, DEMANDS, DEBTS, RIGHTS, CAUSES OF
ACTION, LOSSES, REMEDIES, AND LIABILITIES
WHATSOEVER, INCLUDING ANY DERIVATIVE
CLAIMS, ASSERTED OR ASSERTABLE ON BEHALF OF THE DEBTORS, THE REORGANIZED
DEBTORS, OR THE ESTATES, WHETHER LIQUIDATED OR UNLIQUIDATED, FIXED OR CONTINGENT, MATURED OR UNMATURED, KNOWN
OR UNKNOWN, FORESEEN OR UNFORESEEN,
THEN EXISTING OR THEREAFTER ARISING,
IN LAW, EQUITY OR OTHERWISE AGAINST
THE RELEASED PARTIES THAT ARE BASED IN
WHOLE OR IN PART ON ANY ACT, OMISSION,
TRANSACTION, EVENT OR OTHER OCCURRENCE TAKING PLACE ON OR BEFORE THE

App. 329
EFFECTIVE DATE, AND IN ANY WAY RELATING TO (A) THE DEBTORS AND ANY AFFILIATES OR SUBSIDIARIES OF THE DEBTORS,
(B) THE REORGANIZED DEBTORS, (C) THE ESTATES, (D) THE PURCHASE, SALE, OR RESCISSION OF THE PURCHASE OR SALE OF ANY
SECURITY OF THE DEBTORS OR THE REORGANIZED DEBTORS, (E) THE SUBJECT MATTER OF, OR THE TRANSACTIONS OR EVENTS
GIVING RISE TO, ANY CLAIM OR EQUITY INTEREST THAT IS TREATED IN THE PLAN, (F) THE
CHAPTER 11 CASES, (G) THE PLAN, INCLUDING THE SOLICITATION OF VOTES ON THE
PLAN, (H) THE SOLICITATION AND DISCLOSURE STATEMENT, (I) THE RESTRUCTURING
OF ANY CLAIM OR EQUITY INTEREST BEFORE OR DURING THE CHAPTER 11 CASES,
INCLUDING THE OUT-OF-COURT RESTRUCTURING, (J) THE RIGHTS OFFERING, (K) THE
RESTRUCTURING SUPPORT AGREEMENT,
(L) THE EXIT FACILITY CREDIT AGREEMENT,
AND (M) THE NEGOTIATION, FORMULATION
OR PREPARATION OF THE FOREGOING AGREEMENTS AND TRANSACTIONS DESCRIBED IN
THIS PARAGRAPH (THE FOREGOING, THE
“DEBTOR RELEASED CLAIMS”); PROVIDED,
HOWEVER, THAT (I) NO RELEASED PARTY
SHALL BE RELEASED HEREUNDER FROM
ANY DEBTOR RELEASED CLAIM AS A RESULT
OF ANY ACT, OMISSION, TRANSACTION, EVENT
OR OTHER OCCURRENCE BY A RELEASED
PARTY THAT HAS BEEN OR IS HEREAFTER

App. 330
FOUND BY ANY COURT OR TRIBUNAL BY FINAL ORDER TO CONSTITUTE GROSS NEGLIGENCE, FRAUD, OR WILLFUL MISCONDUCT
AND (II) THE FOREGOING RELEASE SHALL
NOT APPLY TO OR RELEASE ANY EXPRESS
CONTRACTUAL OR FINANCIAL OBLIGATIONS
OWED TO THE DEBTORS OR THE REORGANIZED DEBTORS OR ANY RIGHT OR OBLIGATION ARISING UNDER OR THAT IS PART
OF THE PLAN OR ANY AGREEMENT ENTERED
INTO PURSUANT TO, IN CONNECTION WITH
OR CONTEMPLATED BY, THE PLAN.
(b) RELEASES BY HOLDERS OF CLAIMS.
TO THE FULLEST EXTENT PERMITTED BY APPLICABLE LAW, UPON THE EFFECTIVE DATE,
FOR GOOD AND VALUABLE CONSIDERATION,
THE ADEQUACY OF WHICH IS HEREBY CONFIRMED, INCLUDING, WITHOUT LIMITATION,
THE EFFORTS OF THE RELEASED PARTIES
TO FACILITATE THE EXPEDITIOUS REORGANIZATION OF THE DEBTORS AND THE IMPLEMENTATION OF THE PLAN AND THE [68]
TRANSACTIONS, CONTRACTS AND INSTRUMENTS CONTEMPLATED HEREIN AND HEREBY,
EACH OF THE RELEASING PARTIES AGREES
TO THE RELEASE PROVISIONS IN THIS PLAN
AND SHALL FOREVER RELEASE, WAIVE AND
DISCHARGE, TO THE MAXIMUM EXTENT PERMITTED BY LAW, ALL CLAIMS, OBLIGATIONS,
SUITS, JUDGMENTS, DAMAGES, DEMANDS,
DEBTS, RIGHTS, CAUSES OF ACTION AND

App. 331
LIABILITIES WHATSOEVER, INCLUDING ANY
DERIVATIVE CLAIMS, ASSERTED OR ASSERTABLE ON BEHALF OF THE DEBTORS, THE REORGANIZED DEBTORS, OR THE ESTATES,
WHETHER LIQUIDATED OR UNLIQUIDATED,
FIXED OR CONTINGENT, MATURED OR UNMATURED, KNOWN OR UNKNOWN, FORESEEN OR
UNFORESEEN, THEN EXISTING OR THEREAFTER ARISING, IN LAW, EQUITY OR OTHERWISE AGAINST THE RELEASED PARTIES
THAT ARE BASED IN WHOLE OR IN PART ON
ANY ACT, OMISSION, TRANSACTION, EVENT
OR OTHER OCCURRENCE TAKING PLACE ON
OR BEFORE THE EFFECTIVE DATE AND IN
ANY WAY RELATING TO OR ARISING FROM, IN
WHOLE OR IN PART, (A) THE DEBTORS AND
ANY AFFILIATES OR SUBSIDIARIES OF THE
DEBTORS, (B) THE REORGANIZED DEBTORS,
(C) THE ESTATES, (D) THE PURCHASE, SALE,
OR RESCISSION OF THE PURCHASE OR SALE
OF ANY SECURITY OF THE DEBTORS OR THE
REORGANIZED DEBTORS, (E) THE SUBJECT
MATTER OF, OR THE TRANSACTIONS OR
EVENTS GIVING RISE TO, ANY CLAIM OR EQUITY INTEREST THAT IS TREATED IN THE
PLAN, (F) THE CONTRACTUAL ARRANGEMENTS BETWEEN THE DEBTORS AND ANY
RELEASED PARTY, (G) THE CHAPTER 11 CASES,
(H) THE PLAN, INCLUDING THE SOLICITATION
OF VOTES ON THE PLAN, (I) THE SOLICITATION AND DISCLOSURE STATEMENT, (J) THE
RIGHTS OFFERING, (K) THE EXIT FACILITY

App. 332
CREDIT AGREEMENT, (L) THE RESTRUCTURING OF ANY CLAIM OR EQUITY INTEREST BEFORE OR DURING THE CHAPTER 11 CASES,
INCLUDING THE OUT-OF-COURT RESTRUCTURING, AND (M) THE NEGOTIATION, FORMULATION OR PREPARATION OF THE FOREGOING
AGREEMENTS AND TRANSACTIONS DESCRIBED
IN THIS PARAGRAPH (THE FOREGOING, THE
“RELEASING PARTY RELEASED CLAIMS”); PROVIDED, HOWEVER, THAT (I) NO RELEASED
PARTY SHALL BE RELEASED HEREUNDER
FROM ANY RELEASING PARTY RELEASED
CLAIM AS A RESULT OF ANY ACT, OMISSION,
TRANSACTION, EVENT OR OTHER OCCURRENCE BY A RELEASED PARTY THAT HAS
BEEN OR IS HEREAFTER FOUND BY ANY
COURT OR TRIBUNAL BY FINAL ORDER TO
CONSTITUTE GROSS NEGLIGENCE, FRAUD,
OR WILLFUL MISCONDUCT; (II) THE FOREGOING RELEASE SHALL NOT APPLY TO OR
RELEASE ANY EXPRESS CONTRACTUAL OR
FINANCIAL OBLIGATIONS OR ANY RIGHT OR
OBLIGATION ARISING UNDER OR THAT IS
PART OF THE PLAN OR ANY AGREEMENT ENTERED INTO PURSUANT TO, IN CONNECTION
WITH OR CONTEMPLATED BY, THE PLAN;
AND (III) THE FOREGOING RELEASE SHALL
NOT APPLY TO OR RELEASE ANY SURVIVING OBLIGATIONS UNDER THE ABL CREDIT
AGREEMENT OR DIP REVOLVING FACILITY.

App. 333
(c) EACH PERSON PROVIDING RELEASES UNDER THE PLAN, INCLUDING THE
DEBTORS, THE REORGANIZED DEBTORS AND
THE [69] RELEASING PARTIES, SHALL HAVE
GRANTED THE RELEASES SET FORTH HEREIN
NOTWITHSTANDING THAT SUCH PERSON
MAY HEREAFTER DISCOVER FACTS IN ADDITION TO, OR DIFFERENT FROM, THOSE
WHICH IT NOW KNOWS OR BELIEVES TO BE
TRUE, AND WITHOUT REGARD TO THE SUBSEQUENT DISCOVERY OR EXISTENCE OF
SUCH DIFFERENT OR ADDITIONAL FACTS,
AND SUCH PERSON EXPRESSLY WAIVES ANY
AND ALL RIGHTS THAT IT MAY HAVE UNDER
ANY STATUTE OR COMMON LAW PRINCIPLE
WHICH WOULD LIMIT THE EFFECT OF SUCH
RELEASES TO THOSE CLAIMS OR CAUSES OF
ACTION ACTUALLY KNOWN OR SUSPECTED
TO EXIST AT THE TIME OF EXECUTION OF
SUCH RELEASE.
Section 9.4

Exculpation and Limitation of Liability.

TO THE FULLEST EXTENT PERMITTED BY
APPLICABLE LAW, EXCEPT WITH RESPECT
TO ANY ACTS OR OMISSIONS EXPRESSLY SET
FORTH IN AND PRESERVED BY THE PLAN,
THE PLAN SUPPLEMENT, OR DEFINITIVE DOCUMENTS, NO EXCULPATED PARTY SHALL HAVE
OR INCUR, AND EACH EXCULPATED PARTY IS
HEREBY RELEASED AND EXCULPATED FROM,

App. 334
ANY CLAIM, EQUITY INTEREST, OBLIGATION,
SUIT, JUDGMENT, DAMAGE, DEMAND, DEBT,
RIGHT, CAUSE OF ACTION, LOSS, REMEDY, OR
LIABILITY FOR ANY CLAIM IN CONNECTION
WITH OR ARISING OUT OF THE ADMINISTRATION OF THE CHAPTER 11 CASES; THE FORMULATION, NEGOTIATION, PREPARATION,
DISSEMINATION, OR TERMINATION OF THE
DIP FACILITIES, THE REORGANIZED DEBTORS
CONSTITUENT DOCUMENTS, THE MANAGEMENT INCENTIVE PLAN, THE NEW EMPLOYMENT AGREEMENTS, THE EXIT FACILITY
CREDIT AGREEMENT, THE REGISTRATION
RIGHTS AGREEMENT, THE SOLICITATION AND
DISCLOSURE STATEMENT, THE RESTRUCTURING SUPPORT AGREEMENT, THE PLAN SUPPLEMENT, AND THIS PLAN (INCLUDING THE
PLAN DOCUMENTS), OR THE SOLICITATION
OF VOTES FOR, OR CONFIRMATION OF, THIS
PLAN; ANY CONTRACT, INSTRUMENT, RELEASE
OR OTHER AGREEMENT OR DOCUMENTS (INCLUDING PROVIDING ANY LEGAL OPINION
REQUESTED BY ANY ENTITY REGARDING
ANY TRANSACTION, CONTRACT, INSTRUMENT,
DOCUMENT OR OTHER AGREEMENT CONTEMPLATED BY THE PLAN OR THE RELIANCE BY ANY EXCULPATED PARTY ON THE
PLAN OR THE CONFIRMATION ORDER IN
LIEU OF SUCH LEGAL OPINION) CREATED OR
ENTERED INTO IN CONNECTION WITH THE
DISCLOSURE STATEMENT OR THE PLAN; THE
FILING OF THE CHAPTER 11 CASES; THE

App. 335
FUNDING OF THIS PLAN; THE OCCURRENCE
OF THE EFFECTIVE DATE; THE ADMINISTRATION OF THIS PLAN OR THE PROPERTY TO
BE DISTRIBUTED UNDER THIS PLAN; THE
ISSUANCE OF SECURITIES UNDER OR IN
CONNECTION WITH THIS PLAN; OR THE
TRANSACTIONS IN FURTHERANCE OF ANY
OF THE FOREGOING; EXCEPT FOR GROSS
NEGLIGENCE, FRAUD, OR WILLFUL MISCONDUCT AS DETERMINED BY A FINAL ORDER,
BUT IN ALL RESPECTS SUCH ENTITIES
SHALL BE ENTITLED TO REASONABLY RELY
UPON THE ADVICE OF COUNSEL WITH RESPECT TO THEIR DUTIES AND RESPONSIBILITIES PURSUANT TO THIS [70] PLAN. THE
EXCULPATED PARTIES AND EACH OF THEIR
RESPECTIVE AFFILIATES, AGENTS, DIRECTORS, OFFICERS, EMPLOYEES, ADVISORS,
AND ATTORNEYS HAVE ACTED IN COMPLIANCE WITH THE APPLICABLE PROVISIONS
OF THE BANKRUPTCY CODE WITH REGARD
TO THE SOLICITATION AND DISTRIBUTION
OF SECURITIES PURSUANT TO THIS PLAN
AND, THEREFORE, ARE NOT, AND ON ACCOUNT OF SUCH DISTRIBUTIONS SHALL NOT
BE, LIABLE AT ANY TIME FOR THE VIOLATION OF ANY APPLICABLE LAW, RULE, OR
REGULATION GOVERNING THE SOLICITATION OF ACCEPTANCES OR REJECTIONS OF
THIS PLAN OR SUCH DISTRIBUTIONS MADE
PURSUANT TO THIS PLAN, INCLUDING THE
ISSUANCE OF SECURITIES THEREUNDER.

App. 336
THIS EXCULPATION SHALL BE IN ADDITION
TO, AND NOT IN LIMITATION OF, ALL OTHER
RELEASES, INDEMNITIES, EXCULPATIONS, AND
ANY OTHER APPLICABLE LAW OR RULES
PROTECTING SUCH EXCULPATED PARTIES
FROM LIABILITY.
Section 9.5

Injunction.

(a) GENERAL. ALL ENTITIES WHO HAVE
HELD, HOLD OR MAY HOLD CLAIMS OR EQUITY INTERESTS (OTHER THAN THE CLAIMS
REINSTATED UNDER THIS PLAN) AND ALL
OTHER PARTIES IN INTEREST IN THE CHAPTER 11 CASES, ALONG WITH THEIR RESPECTIVE CURRENT AND FORMER EMPLOYEES,
AGENTS, OFFICERS, DIRECTORS, PRINCIPALS
AND AFFILIATES, PERMANENTLY ARE ENJOINED, FROM AND AFTER THE EFFECTIVE
DATE, FROM (A) COMMENCING OR CONTINUING IN ANY MANNER ANY ACTION OR OTHER
PROCEEDING OF ANY KIND AGAINST THE
DEBTORS OR THE REORGANIZED DEBTORS,
(B) ENFORCING, ATTACHING, COLLECTING
OR RECOVERING BY ANY MANNER OR MEANS
OF ANY JUDGMENT, AWARD, DECREE OR
ORDER AGAINST THE DEBTORS OR REORGANIZED DEBTORS, (C) CREATING, PERFECTING, OR ENFORCING ANY ENCUMBRANCE
OF ANY KIND AGAINST THE DEBTORS OR REORGANIZED DEBTORS, OR (D) ASSERTING
ANY RIGHT OF SETOFF, SUBROGATION OR

App. 337
RECOUPMENT OF ANY KIND AGAINST ANY
OBLIGATION DUE THE DEBTORS OR REORGANIZED DEBTORS OR AGAINST THE PROPERTY OR INTERESTS IN PROPERTY OF THE
DEBTORS OR REORGANIZED DEBTORS, ON
ACCOUNT OF SUCH CLAIMS OR EQUITY INTERESTS; PROVIDED, HOWEVER, THAT NOTHING CONTAINED HEREIN SHALL PRECLUDE
SUCH ENTITIES FROM EXERCISING THEIR
RIGHTS PURSUANT TO AND CONSISTENT WITH
THE TERMS HEREOF AND THE CONTRACTS,
INSTRUMENTS, RELEASES, INDENTURES AND
OTHER AGREEMENTS AND DOCUMENTS DELIVERED OR ASSUMED UNDER OR IN CONNECTION WITH THE PLAN.
(b) INJUNCTION AGAINST INTERFERENCE WITH PLAN. UPON ENTRY OF THE CONFIRMATION ORDER, ALL HOLDERS OF CLAIMS
AND EQUITY INTERESTS AND THEIR RESPECTIVE CURRENT AND FORMER EMPLOYEES,
AGENTS, OFFICERS, DIRECTORS, PRINCIPALS
AND AFFILIATES SHALL BE ENJOINED FROM
TAKING ANY ACTIONS TO INTERFERE WITH
THE [71] IMPLEMENTATION OR CONSUMMATION OF THE PLAN; PROVIDED, THAT THE
FOREGOING SHALL NOT ENJOIN ANY PARTY
TO THE RESTRUCTURING SUPPORT AGREEMENT FROM EXERCISING ANY OF ITS RIGHTS
OR REMEDIES UNDER THE RESTRUCTURING
SUPPORT AGREEMENT IN ACCORDANCE WITH
THE TERMS THEREOF.

App. 338
Section 9.6

Term of Bankruptcy Injunction or
Stays.

All injunctions or stays provided for in the Chapter 11 Cases under section 105 or 362 of the Bankruptcy Code, or otherwise, and in existence as of the
Confirmation Date, shall remain in full force and effect
until the Effective Date.
Section 9.7

Ipso Facto and Similar Provisions
Ineffective.

Any term of any prepetition policy, prepetition contract, or other prepetition obligation applicable to a
Debtor shall be void and of no further force or effect
with respect to any Debtor to the extent that such
policy, contract, or other obligation is conditioned on,
creates an obligation of the Debtor as a result of, or
gives rise to a right of any entity based on any of the
following: (a) the insolvency or financial condition of
a Debtor; (b) the commencement of the Chapter 11
Cases; or (iii) the confirmation or consummation of this
Plan, including any change of control occurring as a result of such consummation.
Section 9.8

Preservation of Rights of Action.

In accordance with section 1123(b) of the Bankruptcy Code, and except where such Causes of Action
have been expressly released, the Reorganized Debtors
shall retain and have the exclusive right to enforce, after the Effective Date, any claims, rights and Causes
of Action that the Debtors or the Estates may hold

App. 339
against any Entity, whether arising before or after the
Petition Date, including, without limitation: all claims
relating to transactions under section 549 of the Bankruptcy Code, all transfers recoverable under section
550 of the Bankruptcy Code and all Causes of Action
against any Entity on account of indebtedness and any
other Causes of Action in favor of the Reorganized
Debtors or their Estates.
The Reorganized Debtors shall be permitted to
pursue such retained claims, rights or Causes of Action, as appropriate, in accordance with the best interests of the Reorganized Debtors. No Entity may rely on
the absence of a specific reference in the Plan, the Plan
Supplement or the Solicitation and Disclosure Statement to any Cause of Action against them as any
indication that the Debtors or Reorganized Debtors,
as applicable, will not pursue any and all available
Causes of Action. Except with respect to Causes of Action as to which the Debtors, with the consent of the
Supporting Noteholders, or Reorganized Debtors have
expressly released any Person or Entity on or prior to
the Effective Date, the Debtors or Reorganized Debtors, as applicable, expressly reserve all rights to prosecute any and all Causes of Action against any Entity,
except as otherwise expressly provided in the Plan.
Unless any Causes of Action against an Entity are
expressly waived, relinquished, exculpated, released,
compromised or settled in the Plan or a Bankruptcy
Court order, the Reorganized Debtors expressly reserve
all Causes of Action, for later adjudication, and, therefore, no preclusion doctrine, including the doctrines of

App. 340
res judicata, collateral estoppel, issue preclusion, claim
preclusion, estoppel (judicial, equitable [72] or otherwise), laches, or any doctrine or rule that would require
the filing of any claim or counterclaim, shall apply to
such Causes of Action upon, after, or as a consequence
of the confirmation or consummation of the Plan.
ARTICLE X.
RETENTION OF JURISDICTION
Pursuant to sections 105(c) and 1142 of the Bankruptcy Code and notwithstanding the entry of the Confirmation Order or the occurrence of the Effective Date,
the Bankruptcy Court shall retain jurisdiction over all
matters arising out of, and related to, the Plan, the
Confirmation Order and the Chapter 11 Cases to the
fullest extent permitted by law, including jurisdiction
to:
(a) Allow, disallow, determine, liquidate, classify,
estimate or establish the priority, nature, validity,
amount or secured or unsecured status of any Claim or
Equity Interest, including the resolution of any request for payment of any Administrative Claim and
the resolution of any and all objections to the allowance or priority of Claims or Equity Interests;
(b) Grant or deny any applications for allowance
of compensation or reimbursement of expenses authorized pursuant to the Bankruptcy Code or the Plan for
periods ending on or before the Effective Date;

App. 341
(c) Hear, determine and resolve any matters related to the assumption, assumption and assignment,
or rejection of any executory contract or unexpired
lease to which the Debtors are party or with respect to
which any Debtor or Reorganized Debtor may be liable,
and hear, determine and, if necessary, liquidate, any
Claims arising therefrom, including, if necessary, determine the nature and amount of required Cure
Claims;
(d) Hear and determine any and all motions to
subordinate Claims or Equity Interests at any time
and on any basis permitted by applicable bankruptcy
and nonbankruptcy law;
(e) Effectuate performance of and ensure that
distributions to Holders of Allowed Claims are accomplished pursuant to the provisions of the Plan;
(f ) Decide or resolve any motions, adversary proceedings, contested or litigated matters and any other
matters, and grant or deny any applications involving
the Debtors that may be pending on the Effective Date;
(g) Enter such orders as may be necessary or appropriate to implement or consummate the provisions
of the Plan and all contracts, instruments, releases and
other agreements or documents created in connection
with the Plan or the Confirmation Order;
(h) Resolve any cases, controversies, suits or disputes that may arise in connection with the consummation, interpretation or enforcement of the Plan or
any contract, instrument, release, or other agreement

App. 342
or document that is executed or created pursuant to
the Plan, or any Entity’s rights arising from or obligations incurred in connection with the Plan or such
other documents;
[73] (i) Modify the Plan before or after the Effective Date under section 1127 of the Bankruptcy Code
or modify the Confirmation Order or any contract, instrument, release or other agreement or document created in connection with the Plan or the Confirmation
Order, or remedy any defect or omission or reconcile
any inconsistency in any Bankruptcy Court order, the
Plan, the Solicitation and Disclosure Statement, the
Confirmation Order or any contract, instrument, release or other agreement or document created in connection with the Plan or the Confirmation Order, in
such manner as may be necessary or appropriate to
consummate the Plan;
(j) Hear and determine all applications for compensation and reimbursement of expenses of Professionals under the Plan or under sections 330, 331,
503(b), 1103 and 1129(a) of the Bankruptcy Code; provided, however, that from and after the Effective Date,
the payment of fees and expenses of the Reorganized
Debtors, including fees and expenses of counsel, shall
be made in the ordinary course of business and shall
not be subject to the approval of the Bankruptcy Court;
(k) Issue injunctions, enter and implement other
orders or take such other actions as may be necessary
or appropriate to restrain interference by any Entity

App. 343
with the consummation, implementation, or enforcement of the Plan or the Confirmation Order;
(l) Hear and determine any rights, claims or
Causes of Action held or reserved by, or accruing to, the
Debtors or the Reorganized Debtors pursuant to the
Bankruptcy Code, the Confirmation Order or, in the
case of the Debtors, any other applicable law;
(m) Enforce all orders, judgments, injunctions,
releases, exculpations, indemnifications and rulings
entered in connection with the Chapter 11 Cases;
(n) Enter and implement such orders as are necessary or appropriate if the Confirmation Order is for
any reason modified, stayed, reversed, revoked or vacated, or distributions pursuant to the Plan are enjoined or stayed;
(o) Determine any other matters that may arise
in connection with or relate to the Plan, the Solicitation and Disclosure Statement, the Confirmation Order, or any contract, instrument, release, indenture or
other agreement or document created in connection
with the Plan or the Confirmation Order;
(p) Enter one or more orders of final decree closing the Chapter 11 Cases;
(q) Hear and resolve all matters concerning U.S.
state, local, and federal taxes in accordance with sections 346, 505 and 1146 of the Bankruptcy Code;
(r) Hear and resolve all matters involving the nature, existence or scope of the Debtors’ discharge;

App. 344
(s) Hear and resolve all matters related to the
property of the Estates from and after the Confirmation Date;
(t) Recover all Assets of the Debtors and property
of the Estates wherever located; and
[74] (u) Hear and resolve such other matters as
may be provided in the Confirmation Order or as may
be authorized by or not inconsistent with the Bankruptcy Code.
ARTICLE XI.
MISCELLANEOUS PROVISIONS
Section 11.1

Immediate Binding Effect.

Subject to the occurrence of the Effective Date, the
terms of the Plan and the Plan Documents and the instruments contained in the Plan Supplement shall be
immediately effective and enforceable and deemed
binding upon and inure to the benefit of the Debtors,
the Reorganized Debtors and any and all Holders of
Claims or Equity Interests (irrespective of whether
such Claims or Equity Interests have accepted or are
deemed to have accepted the Plan), all Entities that
are parties to or are subject to the settlements, compromises, releases, discharges, or injunctions described
in the Plan, each Entity acquiring property under the
Plan and any and all non-Debtor parties to executory
contracts and unexpired leases with the Debtors.

App. 345
Section 11.2

Payment of Statutory Fees.

All fees payable under section 1930 of title 28 of
the United States Code, as determined by the Bankruptcy Court at the hearing pursuant to section 1128
of the Bankruptcy Code, shall be paid on or before the
Effective Date.
Section 11.3

Amendments.

(a) Plan Modifications. Subject to the terms of
the Restructuring Support Agreement, this Plan may
be amended, modified, or supplemented by the Debtors, with the consent of the Supporting Noteholders, in
the manner provided for by section 1127 of the Bankruptcy Code or as otherwise permitted by law, without
additional disclosure pursuant to section 1125 of the
Bankruptcy Code, except as otherwise ordered by the
Bankruptcy Court. In addition, after the Confirmation
Date, so long as such action does not materially and
adversely affect the treatment of Holders of Allowed
Claims pursuant to this Plan, the Debtors, with the
consent of the Supporting Noteholders, may remedy
any defect or omission or reconcile any inconsistencies
in this Plan or the Confirmation Order with respect to
such matters as may be necessary to carry out the purposes or effects of this Plan, and any Holder of a Claim
or Interest that has accepted this Plan shall be deemed
to have accepted this Plan as amended, modified, or
supplemented. Notwithstanding the foregoing and in
addition to any other consent rights in this section, the
Debtors, without the consent of the Committee, may

App. 346
not make any amendments to the Plan that (i) negatively impact the economic recovery to Classes A6,
A8, B6, and C6, (ii) increases the 2021 Noteholder
Rights above $75 million, (iii) reduces the 2018 Noteholder Rights below $30 million or (iv) sets the exercise price for 2021 Noteholder Rights at less than the
Plan Value; provided, however, that the Debtors, with
the consent of the Supporting Noteholders, may cancel the Rights Offering at any time without the consent of the Committee in accordance with Section 4.14
hereof.
[75] (b) Certain Technical Amendments. Consistent with the Restructuring Support Agreement,
prior to the Effective Date, the Debtors may make appropriate technical adjustments and modifications to
this Plan without further order or approval of the
Bankruptcy Court; provided, that such technical adjustments and modifications do not adversely affect in
a material way the treatment of Holders of Claims or
Equity Interests under this Plan.
Section 11.4

Revocation or Withdrawal of Plan.

The Debtors reserve the right to revoke or withdraw this Plan prior to the Effective Date as to any or
all of the Debtors (with the consent of the Supporting
Noteholders). If, with respect to a Debtor, the Plan has
been revoked or withdrawn prior to the Effective Date,
or if confirmation or the occurrence of the Effective
Date as to such Debtor does not occur, then, with respect to such Debtor: (a) the Plan shall be null and void

App. 347
in all respects; (b) any settlement or compromise embodied in the Plan (including the fixing or limiting to
an amount any Claim or Equity Interest or Class of
Claims or Equity Interests), assumption or rejection of
executory contracts or unexpired leases affected by the
Plan, and any document or agreement executed pursuant to this Plan shall be deemed null and void; and
(c) nothing contained in the Plan shall (i) constitute a
waiver or release of any Claim by or against, or any
Equity Interest in, such Debtor or any other Person;
(ii) prejudice in any manner the rights of such Debtor
or any other Person; or (iii) constitute an admission of
any sort by any Debtor or any other Person.
Section 11.5

Governing Law.

Except to the extent that the Bankruptcy Code,
the Bankruptcy Rules or other federal law, rule or regulation is applicable, or to the extent that an exhibit or
supplement to the Plan provides otherwise, the Plan
shall be governed by and construed in accordance with
the laws of the State of Delaware, without giving effect
to the principles of conflict of laws thereof that would
require application of the law of another jurisdiction.
Section 11.6

Successors and Assigns.

The rights, benefits, and obligations of any Entity
named or referred to in this Plan shall be binding on
and shall inure to the benefit of any heir, executor, administrator, successor, Affiliate, assign, officer, director,

App. 348
agent, representative, attorney, beneficiaries, or guardian, if any, of each such Entity.
Section 11.7

Severability.

If, prior to the entry of the Confirmation Order,
any term or provision of the Plan is determined by the
Bankruptcy Court to be invalid, void or unenforceable,
the Bankruptcy Court, at the request of the Debtors,
with the consent of the Supporting Noteholders, shall
have the power to alter and interpret such term or provision to render it valid or enforceable to the maximum
extent practicable, consistent with the original purpose of the term or provision held to be invalid, void or
unenforceable, and such term or provision shall then
be applicable as so altered or interpreted. Notwithstanding any such holding, alteration or interpretation, the remaining terms and provisions of the Plan
shall remain in full force and effect and shall in no way
be affected, impaired, or invalidated by such holding,
alteration or interpretation. The [76] Confirmation Order shall constitute a judicial determination and shall
provide that each term and provision of the Plan, as it
may have been altered or interpreted in accordance
with the foregoing, is valid and enforceable pursuant
to its terms.
Section 11.8

Controlling Document.

In the event of an inconsistency between the Plan
and Solicitation and Disclosure Statement, the terms
of the Plan shall control in all respects. In the event of

App. 349
an inconsistency between the Plan and the Plan Supplement, the terms of the relevant document in the
Plan Supplement shall control (unless stated otherwise in such Plan Supplement document). The provisions of the Plan and of the Confirmation Order shall
be construed in a manner consistent with each other
so as to effect the purposes of each; provided, that if
there is determined to be any inconsistency between
any Plan provision and any provision of the Confirmation Order that cannot be so reconciled, then, solely
to the extent of such inconsistency, the provisions of
the Confirmation Order shall govern and any such provision of the Confirmation Order shall be deemed a
modification of the Plan and shall control and take
precedence.
Section 11.9

Filing of Additional Documents.

The Debtors (or the Reorganized Debtors, as the
case may be) shall File such agreements and other documents as may be necessary or appropriate to effectuate and further evidence the terms and conditions of
the Plan.
Section 11.10 Service of Documents.
All notices, requests and demands to or upon the
Debtors or the Reorganized Debtors, to be effective,
shall be in writing and, unless otherwise expressly provided herein, shall be deemed to have been duly given
or made when actually delivered (or, in the case of

App. 350
notice by facsimile transmission, when received and
telephonically confirmed) addressed as follows:
NUVERRA ENVIRONMENTAL SOLUTIONS, INC.
14624 N. Scottsdale Rd., Suite 300
Scottsdale, AZ 85254
Attn: Joseph Crabb, Esq.
with copies to:
Shearman & Sterling LLP
599 Lexington Avenue
New York, New York 10022
Attn: Douglas P. Bartner, Esq.,
Fredric Sosnick, Esq.,
Sara Coelho, Esq.,
Stephen M. Blank, Esq.
Attorneys for the Debtors
[77] and
Young Conaway Stargatt & Taylor, LLP
Rodney Square
1000 North King Street
Wilmington, Delaware 19801
Attn: Pauline K. Morgan, Esq.,
Kenneth J. Enos, Esq.,
Jaime Luton Chapman, Esq.
Attorneys for the Debtors
Section 11.11 Section 1125(e) of the Bankruptcy
Code.
As of the Confirmation Date, (a) the Debtors shall
be deemed to have solicited acceptances of the Plan in

App. 351
good faith and in compliance with the applicable provisions of the Bankruptcy Code, including section
1125(e) of the Bankruptcy Code, and any applicable
nonbankruptcy law, rule, or regulation governing the
adequacy of disclosure in connection with such solicitation and (b) the Debtors, Holders of 2021 Note
Claims, Holders of 2018 Note Claims, and Holders of
Supporting Noteholder Term Loan Claims, and each of
their respective Affiliates, agents, directors, officers,
employees, advisors and attorneys shall be deemed to
have participated in good faith, and in compliance with
the applicable provisions of the Bankruptcy Code, in
the offer and issuance of any securities under the Plan,
and, therefore, are not, and on account of such offer,
issuance and solicitation shall not be, liable at any
time for any violation of any applicable law, rule or regulation governing the solicitation of acceptances or rejections of the Plan or the offer and issuance of any
securities under the Plan.
Section 11.12 Exemption from Certain Transfer
Taxes.
To the extent permitted by applicable law, pursuant to section 1146(a) of the Bankruptcy Code, no
Stamp or Similar Tax shall result from, or be levied on
account of, (a) the issuance, transfer or exchange of
notes, bonds or equity securities, (b) the creation of any
mortgage, deed of trust, lien, pledge or other security
interest, (c) the making or assignment of any lease or
sublease, or (d) the making or delivery of any deed or
other instrument of transfer, under, in furtherance of

App. 352
or in connection with, the Plan, including any merger
agreements, agreements of consolidation, restructuring, disposition, liquidation or dissolution, deeds, bills
of sale, and transfers of tangible property. Unless the
Bankruptcy Court orders otherwise, all sales, transfers
and assignments of owned and leased property approved by the Bankruptcy Court on or before the Effective Date shall be deemed to have been in furtherance
of, or in connection with, the Plan.
Section 11.13 Tax Reporting and Compliance.
The Reorganized Debtors shall be authorized to
request an expedited determination under section
505(b) of the Bankruptcy Code for all tax returns filed
for, or on behalf of, the Debtors for any and all taxable
periods ending after the Petition Date through, and including, the Effective Date.
[78] Section 11.14 Schedules and Exhibits.
All exhibits and schedules to the Plan, including
the Plan Supplement, are incorporated into and are a
part of the Plan as if fully set forth herein.
Section 11.15 Entire Agreement.
Except as otherwise indicated in an order of the
Bankruptcy Court, the Plan and the Plan Supplement
supersede all previous and contemporaneous negotiations, promises, covenants, agreements, understandings,

App. 353
and representations on such subjects, subject to Section 11.8 hereof.
Section 11.16 Allocation of Payments.
To the extent that any Allowed Claim entitled to
distribution hereunder is comprised of indebtedness
and accrued but unpaid interest thereon, such distribution shall, for all U.S. federal income tax purposes,
be allocated to the principal amount of such Claim
first, and then, to the extent that the consideration exceeds such principal amount, to the portion of such
Claim representing accrued but unpaid interest (but
solely to the extent that interest is an allowable portion of such Allowed Claim).
[REMAINDER OF PAGE
INTENTIONALLY LEFT BLANK]
[79] Dated: June ___, 2017
Respectfully Submitted,
NUVERRA ENVIRONMENTAL
SOLUTIONS, INC.
By: /s/

Joseph M. Crabb

Name: Joseph M. Crabb
Title Executive Vice President,
Chief Legal Officer and
Corporate Secretary
Nuverra Environmental Solutions, Inc.
Apopalachian Water Services, LLC
Badlands Leasing, LLC
Badlands Power Fuels, LLC (DE)

App. 354
Badlands Power Fuels, LLC (ND)
Heckmann Water Resources Corporation
Heckmann Water Resources (CVR)
Heckmann Woods Cross, LLC
HEK Water Solutions, LLC
Ideal Oilfield Disposal, LLC
Landtech Enterprises, L.L.C.
NES Water Solutions, LLC
Nuverra Total Solutions, LLC
1960 Well Services, LLC
NUVERRA ENVIRONMENTAL
SOLUTIONS, INC., as agent and
attorney-in-fact for each of the
foregoing entities
By: /s/

Joseph M. Crabb

Name: Joseph M. Crabb
Title Executive Vice President,
Chief Legal Officer and
Corporate Secretary

